<html>
<title> - CONDUIT PAYMENTS TO THE DEMOCRATIC NATIONAL COMMITTEE</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
         CONDUIT PAYMENTS TO THE DEMOCRATIC NATIONAL COMMITTEE
=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM
                             AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 9, 1997

                               __________

                           Serial No. 105-51

                               __________

Printed for the use of the Committee on Government Reform and Oversight




                       U. S. GOVERNMENT PRINTING OFFICE
44-833                          WASHINGTON : 1997
___________________________________________________________________________

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN SCHIFF, New Mexico            EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
JOE SCARBOROUGH, Florida             DENNIS J. KUCINICH, Ohio
JOHN B. SHADEGG, Arizona             ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           DANNY K. DAVIS, Illinois
MARSHALL ``MARK'' SANFORD, South     JOHN F. TIERNEY, Massachusetts
    Carolina                         JIM TURNER, Texas
JOHN E. SUNUNU, New Hampshire        THOMAS H. ALLEN, Maine
PETE SESSIONS, Texas                 HAROLD E. FORD, Tennessee
MICHAEL PAPPAS, New Jersey                       ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
ROB PORTMAN, Ohio
                      Kevin Binger, Staff Director
                   Richard D. Bennett, Chief Counsel
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director






                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 9, 1997..................................     1

Letters, statements, etc., submitted for the record by:
    Barr, Hon. Bob, a Representative in Congress from the State 
      of Georgia:
        Exhibits 70, 71, 72, 75, 76, and 78......................   151
        Exhibits 115, 119, 60, 61, 53, and 67....................   158
    Bennett, Richard, chief counsel, Committee on Government 
      Reform and Oversight:
        Exhibit 68...............................................    96
        Exhibit 69...............................................    98
        Exhibits 70, 71, and 72..................................   100
        Exhibit 73...............................................   104
        Exhibits 75 and 76.......................................   106
        Exhibit 77...............................................   109
        Exhibit 78...............................................   111
        Exhibit 93...............................................   115
        Exhibit 94...............................................   117
        Exhibit 96...............................................   119
        Exhibit 97...............................................   121
        Exhibit C-28.............................................   123
        Exhibit 99...............................................   254
        Exhibit 100..............................................   260
        Exhibit 101..............................................   262
        Exhibits 102 and 103.....................................   264
        Exhibit 106..............................................   267
        Exhibits 104 and 105.....................................   269
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana:
        Letters referring to House Rule XI 3.(f)(2)..............     4
        Pertinent supplementary material.........................   306
        Prepared statement of....................................     9
    Foung, Manlin:
        Deposition of............................................    16
        Exhibits from deposition.................................    59
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California:
        Exhibit 113..............................................   288
        Information concerning John Huang's whereabouts..........   359
    Kanjorski, Hon. Paul E., a Representative in Congress from 
      the State of Pennsylvania, photograph of John Huang........   290
    Landon, Joseph Raymond, Jr.:
        Depostion of.............................................    76
        Exhibits from deposition.................................    89
    Lantos, Hon. Tom, a Representative in Congress from the State 
      of California, letter dated October 8, 1997................   134
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, exhibit 110..............................   181
    Wang, David:
        Deposition of............................................   186
        Exhibits from deposition.................................   217
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California:
        Bank of China annual report..............................   367
        Chart referring to John Huang as Charlie Trie's DNC 
          contact................................................    13
        Minority staff report....................................   306


         CONDUIT PAYMENTS TO THE DEMOCRATIC NATIONAL COMMITTEE

                              ----------                              


                       THURSDAY, OCTOBER 9, 1997

                          House of Representatives,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Hastert, Morella, Shays, 
Cox, McHugh, Horn, Mica, McIntosh, Souder, Shadegg, Sununu, 
Sessions, Pappas, Snowbarger, Barr, Portman, Waxman, Lantos, 
Owens, Kanjorski, Condit, Maloney, Barrett, Norton, Fattah, 
Cummings, Kucinich, Blagojevich, Davis of Illinois, Tierney, 
Turner, Allen, and Ford.
    Staff present: Kevin Binger, staff director; Richard 
Bennett, chief counsel; William Moschella, deputy counsel and 
parliamentarian; Butch Hodgson, chief investigator; Daniel R. 
Moll, deputy staff director; Judith McCoy, chief clerk; Teresa 
Austin, assistant clerk/calendar clerk; Robin Butler, office 
manager; Will Dwyer, director of communications; Ashley 
Williams, deputy director of communications; Barbara Comstock, 
chief investigative counsel; Robert Rohrbaugh, James C. Wilson, 
Tim Griffin, and Uttam Dhillon, senior investigative counsels; 
Dave Bossie, oversight coordinator; Kristi Remington, Alicemary 
Leach, Bill Hanka, and David Kass, investigative counsels; Jim 
Schumann, John Irving, and Jason Foster, investigators; Phil 
Larsen, investigative consultant; Carolyn Pritts, 
administrative investigative assistant; David Jones and John 
Mastranadi, investigative staff assistants; Phil Schiliro, 
minority staff director; Phil Barnett, minority chief counsel; 
Kenneth Ballen, minority chief investigative counsel; Agnieszka 
Fryszman, Christopher Lu, Matthew Joseph, Andrew McLaughlin, 
David Sadkin, Michael Yang, Michael Yeager, minority counsels; 
Harry Gossett and Mark Stephenson, minority professional staff 
members; Ellen Rayner, minority chief clerk; Becky Claster, 
Jean Gosa, Andrew Su, and Amy Wendt, minority staff assistants; 
and Sheridan Pauker, minority research assistant.
    Mr. Burton. The committee will come to order.
    Would the television cameras recede a little bit? And when 
we get through with our opening statements, at the request of 
the counsel for the witnesses, we will ask the television 
cameras to leave the room.
    Good morning. A quorum being present, the Committee on 
Government Reform and Oversight will come to order. Before the 
distinguished ranking member and I deliver our opening 
statements, the committee must first dispose of some procedural 
issues.
    I ask unanimous consent that Members be able to use the 
depositions of Manlin Foung, Joseph Landon and David Wang at 
today's hearing and ask further unanimous consent that they be 
made a part of the record.
    Mr. Waxman. Reserving the right to object, those 
depositions, Mr. Chairman, will be, in their entirety, part of 
the record?
    Mr. Burton. Yes, sir.
    Mr. Waxman. We have no objection.
    Mr. Burton. Without objection, so ordered.
    I also ask unanimous consent that questioning in the matter 
under consideration proceed under clause 2(j)(2) of House rule 
XI and committee rule 14 in which the chairman and ranking 
minority member allocate time to committee counsel as they deem 
appropriate for extended questioning, not to exceed 60 minutes, 
equally divided by the majority and the minority.
    And without objection, so ordered.
    Mr. Lantos. Reserving the right to object.
    Mr. Burton. The gentleman reserves the right to object.
    Mr. Lantos. Does this mean, Mr. Chairman, that committee 
counsel, with his questioning, will precede members of the 
committee?
    Mr. Burton. Yes, sir. For the first hour, we will have 
committee counsel on each side question for 30 minutes.
    Mr. Waxman. Will the gentleman yield?
    Mr. Lantos. I'll be glad to yield.
    Mr. Waxman. The rules have recently been changed in the 
House of Representatives to provide for an interrogation of a 
half-hour, first by the majority and then a half-hour by the 
minority. That time can be allocated to staff or to Members as 
the chairman sees fit on his side or we see fit on our side.
    Mr. Burton. That is correct.
    Mr. Waxman. Under the rules, this must be agreed to either 
by consent of the ranking member with the chairman or vote of 
the committee.
    I don't see an objection to what the chairman is 
requesting. I think this is going to be the first time that the 
House of Representatives has used this new format for a more 
extended period of time for interrogation. We'll try it out.
    Mr. Lantos. Continuing my right to reserve, I will not 
object. However, I think it is a very bad procedure. It is 
analogous in political campaigns to having a battle of 
advertising agencies rather than candidates themselves.
    I think members of this committee should conduct their own 
questioning. That is why we have been sent here by our 
respective constituencies. And to turn this very important 
function over to our staff, I think is less than ideal 
procedure. But I withdraw my objection.
    Mr. Burton. Without objection, so ordered.
    I further ask unanimous consent that the questioning in the 
matter under consideration proceed under clause 2(j)(2) of 
House rule XI and committee rule 14 in which the chairman and 
ranking minority member allocate time to members of the 
committee as they deem appropriate for extended questioning, 
not to exceed 60 minutes for the first panel, equally divided 
between the majority and the minority.
    And there has been agreement reached between myself and the 
ranking member, Mr. Waxman, that we will proceed under an 
equation or situation where there will be 10 minutes given to 
the majority side and 10 minutes to the minority and so on 
until the 60 minutes is exhausted.
    Is there objection?
    Hearing none, so ordered.
    On October 1, 1997, the committee received a letter 
addressed from Charles J. Stephens requesting, on behalf of his 
clients, Manlin Foung and Joseph Landon, that the cameras be 
turned off pursuant to clause 3(f)(2) of House rule XI. 
Similarly, David Wang's attorney, Michael A. Carvin, sent a 
similar letter on October 8, 1997.
    Without objection, those letters will be entered into the 
record.
    [The letters referred to follow:]
    [GRAPHIC] [TIFF OMITTED] 44833.001
    
    [GRAPHIC] [TIFF OMITTED] 44833.002
    
    Mr. Burton. Clause 3(f)(2) of House rule XI allows a 
subpoenaed witness to have the cameras turned off and the 
microphones used for broadcast turned off. The rules provide 
that,

    No witness served with a subpoena by the committee shall be 
required against his or her will to be photographed at any 
hearing or to give evidence or testimony while the broadcasting 
of that hearing by radio or television is being conducted.
    At the request of any such witness who does not wish to be 
subjected to radio, television, or still photography coverage, 
all lenses shall be covered, and all microphones used for 
coverage turned off.

    While I'm disappointed that this hearing will not be 
televised because we believe the American people have the right 
to know what these witnesses have to say. However, Manlin 
Foung, Joseph Landon, and David Wang have asserted their rights 
under the rule, and the committee is obliged to honor their 
request. Therefore, at the appropriate time, I will instruct 
our friends in the media to observe the rule and cover all 
lenses and shut off all microphones used for coverage.
    I now yield myself such time as I may consume.
    Today, marks the first day of hearings into illegal foreign 
fund-raising and other violations of law during recent 
campaigns. We have three witnesses today. These individuals 
have admitted to making conduit contributions to the Democratic 
National Committee.
    Testifying on our first panel will be Manlin Foung, the 
sister of Charlie Trie. Joining her will be her companion, 
Joseph Landon. Testifying on our second panel will be David 
Wang, a businessman from Los Angeles. Our witnesses today are 
not villains; they are victims. They are ordinary people who 
are put on the spot by someone they trusted, and they got 
burned.
    Ms. Foung, Mr. Landon, and Mr. Wang have given their full 
cooperation to this committee, and we really appreciate that. 
They have talked to us voluntarily. Their testimony will help 
us as we slowly but surely try to put the pieces of this puzzle 
together. We owe them our thanks for their cooperation.
    It stands in marked contrast to the cooperation we have 
received from the White House and the Democratic National 
Committee. The difficulty this committee has faced with the 
White House has been deplorable. It is an outrage that the 
White House has withheld knowledge of the White House coffee 
videotapes until now.
    This committee's March 4th subpoena specifically required 
the production of videotapes 7 months ago. At least a half a 
dozen senior White House aides and the President himself were 
taped. It is obvious that the President and most of his senior 
staff knew that these tapes existed for a long time. After all, 
the President was in the tapes.
    The fact that they have been withheld this entire year 
borders on obstruction. There are reportedly another 150 tapes 
of Democratic National Committee events that we still have not 
received. The record shows more and more that this White House 
and this President are not eager for the American people to 
know the whole truth, and the American people have a right to 
know the facts.
    Fortunately, today, we have witnesses who have been 
cooperative and are willing to tell the truth. Ms. Foung and 
Mr. Landon contributed $35,000 to the DNC in 1996 at Charlie 
Trie's request. They were promptly reimbursed for each 
contribution. Our investigators have traced $10,000 of this 
amount directly back to the Bank of China in Macao. This money 
was wired to the United States in August 1996. Within 10 days, 
it was in the hands of the Democratic National Committee. The 
other $25,000 was repaid in sequentially numbered money orders 
from a bank in New York City.
    Mr. Wang contributed $5,000 to the Democratic National 
Committee in August of last year. His friend, Daniel Wu, also 
contributed $5,000. Daniel Wu lives in Taiwan. Both 
contributions were made at the request of John Huang. Both men 
were paid back with envelopes full of cash given to them by 
Antonio Pan.
    We have granted these witnesses immunity from prosecution. 
This is an extra layer of protection to make sure that these 
three people can come forward and tell the American people what 
happened without any fear. It is well known that the Justice 
Department, as a matter of policy, does not seek to prosecute 
straw donors. I will quote from a 1994 memo from the director 
of the Justice Department's Election Crimes branch, quote, The 
Justice Department has a long-standing, nonprosecution policy 
for persons who are used as conduits or straws to disguise 
another person's illegal contributions, provided that allowing 
their names to be used by another is the extent of their 
participation in the scheme, end quote.
    The testimony we are about to receive cannot be dismissed 
lightly. John Huang and Charlie Trie are both close friends and 
appointees of the President. John Huang was in the White House 
over 90 times during the President Clinton's first term. He had 
numerous meetings with the President. The President personally 
intervened to help move him from the Commerce Department to the 
Democratic National Committee.
    This is the first time in my memory that we have seen 
evidence of such blatantly illegal activity by a senior 
national party official. John Huang's title at the Democratic 
National Committee was vice chairman for finance.
    Likewise, Charlie Trie was a close personal friend of the 
President. Charlie Trie visited the White House nearly 40 times 
that we know of. In early 1996, the President signed an 
Executive order enlarging a Presidential commission on trade, 
so he could appoint Mr. Trie to that commission. It should be 
disturbing to all of us to receive testimony about illegal and 
unethical conduct by such close associates to the President of 
the United States.
    An important figure that is going to emerge during this 
hearing is a man named Antonio Pan. Mr. Pan is a rather 
mysterious figure who had ties to Charlie Trie, the Lippo 
Group, and John Huang. He was in the White House eight times in 
1995 and 1996. He was apparently the bag man in both the 
transactions involving Manlin Foung and David Wang. It will 
become clear through documents and testimony that he was 
handling large amounts of cash.
    Antonio Pan's involvement here raises a number of 
questions. Whose bidding was he doing? Charlie Trie's? John 
Huang's? The Lippo Group's? Were they all collaborating? Where 
did the cash come from? A number of the transactions we are 
going to talk about today involve large amounts of cash. If we 
are going to trace the origins of this money, we are going to 
have to talk to the people who handled that cash.
    Charlie Trie has left the country. I don't think he's 
planning on coming back. The last we heard, he was in Shanghai. 
John Huang has taken the fifth. Antonio Pan has left the 
country. According to our most recent information, we believe 
that he's either in Hong Kong or New Zealand. This is a perfect 
case study in the obstacles that this committee has faced in 
trying to root out the truth about the illegal foreign money 
that was flowing to the DNC.
    The obstacles have been many. More than 60 people have 
either taken the fifth amendment or fled the country to avoid 
revealing their role in this scandal. Next week, the President 
will be meeting with President Jiang Zemin of the People's 
Republic of China. If he wants to get all of the facts laid out 
on the table, he should insist that the Chinese Government send 
Charlie Trie back to the United States so we can question him. 
The American people have an absolute right to know what Charlie 
Trie did and what senior Government officials asked him to do.
    Finally, today's hearing is going to focus much-needed 
attention on the DNC's program of identifying and returning 
illegal contributions. It appears that the DNC's highly touted 
audit by Ernst & Young was error prone and is completely 
unreliable. This is a subject that we are likely to return to 
in future hearings.
    I once again want to thank our witnesses for their 
cooperation. This has been a tense and nervous couple of weeks 
for them, and we understand that. This hearing room is probably 
the last place that they want to be today, but we are going to 
try to make this as easy as possible for all of them.
    I now recognize our ranking member, Mr. Waxman, for his 
comments.
    [The prepared statement of Hon. Dan Burton follows:]
    [GRAPHIC] [TIFF OMITTED] 44833.003
    
    [GRAPHIC] [TIFF OMITTED] 44833.004
    
    [GRAPHIC] [TIFF OMITTED] 44833.005
    
    Mr. Waxman. Mr. Chairman, thank you for holding this 
hearing today. After nearly a year of investigating and $3 
million spent, we're hearing from our first witnesses about the 
1996 elections. The focus of this hearing is on conduit 
payments. Conduit payments are, of course, illegal; 
unfortunately, they've also become much too common. In Senator 
Dole's campaign, for instance, both Simon Fireman and Empire 
Landfill have admitted to pervasive conduit schemes and 
directed $149,000 in illegal donations to the Dole campaign. In 
fact, today's Washington Post has the headline ``Firm to Pay $8 
million Fine for Illegal Campaign Gifts.''
    Moreover, as the chart on the screen indicates, the Federal 
Elections Commission is currently investigating 27 conduit 
payments involving 214 individuals. The FEC has closed 21 cases 
involving 108 individuals and levied $335,000 in fines. The FEC 
also closed, without action, 20 cases involving 246 respondents 
under their enforcement priority system. All these cases are 
for the 1992, 1994 and 1996 election cycles.
    Our hearings have value if they at least add to the 
knowledge gained already in Senator Thompson's hearings. So it 
is useful to review briefly the July 29 Senate hearing that 
focused on Charlie Trie.
    [Video shown.]

    Senator Thompson. ``There was a Presidential appointment in 
April 1996. So the committee will hear today from Mr. Jerry 
Campane, an agent of the Federal Bureau of Investigation. And 
it will later hear from two witnesses to whom it has granted 
immunity for the--from the use of their testimony and any 
criminal prosecutions against them.
    ``Senator Glenn, do you have an opening statement?''
    Senator Glenn. ``I don't have an opening statement.''
    Senator Thompson. ``All right.
    ``Mr. Campane, will you please stand and raise your right 
hand.''

    Mr. Waxman. That was an excerpt from Senator Thompson's 
hearing and part of his opening statement. At that hearing, he 
had three witnesses testifying. The first, Jerry Campane, was 
an FBI agent detailed to the Senate. He led the Senate conduit 
investigation and used the chart now on the screen--if we could 
have that chart put on the screen--to show how Charlie Trie and 
Ng Lap Seng, also known as Mr. Wu, arranged conduit payments. 
And I want to point out that these conduit payments were for a 
February 1996 fund-raiser at the Hay-Adams Hotel, which is the 
same fund-raiser that Manlin Foung and Joseph Landon 
contributed to.
    [The chart referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 44833.006
    
    Mr. Waxman. Also testifying at the Senate hearing were Yue 
Chu and Xi Ping Wang, whose names are on the charts. They 
received immunity from the Senate and testified that they made 
contributions and were subsequently reimbursed by Charlie Trie 
and Ng Lap Seng.
    In my view, the Senate hearing conclusively demonstrated 
that Mr. Trie and Ng Lap Seng asked Yue Chu and Xi Ping Wang to 
make conduit contributions. The depositions of Manlin Foung and 
Joseph Landon seem to indicate that they had an identical 
experience. But there is nothing in their deposition that adds 
to the knowledge to what Senator Thompson uncovered in his July 
29 hearing. Instead of bringing them here from California, we 
could have achieved the same result simply by replaying not 
just that opening from Senator Thompson's hearing, but the 
whole hearing itself.
    Now we have a third witness today, but before addressing 
his testimony, I want to make a brief comment to my Democratic 
colleagues. As the senior Democrat on this committee, I have a 
special responsibility to make sure our side has all the 
necessary information in making decisions. In retrospect, I 
believe I made a serious mistake in not adequately questioning 
the information Chairman Burton gave to us regarding David Wang 
and in agreeing to his recommendation to approve immunity.
    When the matter was before us, I was influenced most by the 
fact that Mr. Wang seemed to be an innocent victim in a conduit 
scheme and that he made statements to committee investigators 
without an attorney present, and with no understanding of the 
legal consequences that he faced. But I was also perhaps too 
sensitive to the fact that if the Democrats opposed immunity, 
we would be accused of being partisan. I will not make that 
mistake again.
    It is now clear that David Wang never should have received 
immunity. He has repeatedly misled this committee and Chairman 
Burton and his staff and our staff, and we have failed to 
ensure that his representations were truthful. The essence of 
his testimony--the part the chairman, the Republican chief 
counsel and other committee members have been citing, and the 
press has been reporting--appears to be a fiction.
    I personally questioned Mr. Wang during his deposition on 
Monday, and he testified that John Huang called him on the 
morning of August 16th. According to Mr. Wang's testimony, 1 
hour later, John Huang then arrived in Mr. Wang's Los Angeles 
office. Mr. Wang also testified that at that time, John Huang 
asked for and immediately received Mr. Wang's contribution to 
the Clinton campaign. The truth, however, is that this never 
happened.
    John Huang did not meet with David Wang on August 16. In 
the last 3 days, the Democratic staff has thoroughly 
investigated this matter. Later this morning, I will enter into 
the record hotel bills, receipts, photographs, news stories and 
sworn affidavits that prove that John Huang was in New York on 
August 16th. It was impossible for him to have met with Mr. 
Wang.
    Now, it's bad enough that we have approved immunity for 
false testimony. But even worse is that in the course of his 
deposition, Mr. Wang disclosed other criminal acts or potential 
criminal acts that are far more serious than his conduit 
contribution. But because he provided that information in 
response to a question Republican Counsel Dick Bennett asked, 
he now has immunity for those crimes as well. We have blundered 
into giving Mr. Wang immunity for immigration and tax fraud and 
received only false statements in return.
    At the outset, I said our hearings will only have value if 
we add to what Senator Thompson has learned. But that 
presupposes that we do no harm. Today we do harm. We have made 
a careless and irresponsible decision on immunity. We cannot 
take the representations Chairman Burton gives us at face 
value. And I regret that we didn't initiate our own Democratic 
investigation of Mr. Wang earlier. That is another mistake we 
won't make again.
    In a year of embarrassments, this is the most damaging one 
to our committee.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Burton. The gentleman yields back the balance of his 
time. I would just like to say to the ranking member that while 
immunity was granted, there is no immunity for perjury before 
this committee, and all witnesses will be sworn, as the ranking 
member knows.
    With that, in accordance with what I previously stated in 
the rule, we will ask the cameras to be shut off, to be 
covered, and the microphones to be covered so that we can 
proceed with the----
    Mr. Waxman. Mr. Chairman.
    Mr. Burton. Yes.
    Mr. Waxman. In light of the fact that the most serious 
witness before us is Mr. Wang, I would ask that we put him on 
first.
    Mr. Burton. We already have the schedule. And the Chair 
has----
    Mr. Waxman. There's no reason why that schedule couldn't be 
changed. He is the witness from whom we are going to learn 
something today. And we may have learned that, to our regret, 
we're out giving immunity inappropriately. Let's put him on 
first.
    Mr. Burton. Mr. Waxman, the gentleman is not even here yet. 
He was scheduled to come this afternoon. He won't be around 
until at least noon. And we will proceed as we have scheduled.
    The cameras will be shut off at this time. They will be 
covered. The microphones will be covered in accordance with the 
request of the witnesses.
    [Pause.]
    Mr. Burton. If you're going to leave that camera there, 
could you cover that lens, please, just to make sure that the 
witnesses feel comfortable. I know you have it shut off, but I 
want to make sure it's covered, so we don't have to worry about 
it.
    Thank you, sir. I appreciate that very much. That is an 
unusual cover you have there. Could you find some kind of cover 
or turn that camera around on the right, please, or whatever 
you want to do to cover it up?
    Are we about set? Would the officer out there shut that 
door as soon as the door is cleared, please?
    Manlin Foung and Joseph Landon, with your counsel, would 
you approach the witness table, please? Would you stand and 
raise your right hands, please?
    [Witnesses sworn.]
    Mr. Burton. Be seated.
    Once again, we want to thank you for your cooperation in 
being here today. And like I said to both of you before we 
started, we're going to try to make this as easy and as 
painless as possible. So just relax. And if you need some water 
or anything, take your time.
    I now recognize the committee's chief counsel, Mr. Bennett, 
to start the questioning. He will be recognized for 30 minutes, 
and then we'll yield to the ranking minority member for 
whomever he chooses for the remaining 30 minutes of the first 
hour.
    [The depositions of Manlin Foung and Joseph Landon follow:]

                           Executive Session

      Committee on Government Reform and Oversight,
                             U.S. House of Representatives,
                                                    Washington, DC.
                      DEPOSITION OF: MANLIN FOUNG
                                 Monday, September 29, 1997

    The deposition in the above matter was held in the Office of 
Charles J. Stevens, Esq., 400 Capitol Mall, Suite 1450, Sacramento, 
California, commencing at 9:00 a.m.
Appearances:
    Staff Present for the Government Reform and Oversight Committee: 
Richard D. Bennett, special counsel; James C. Wilson, senior 
investigative counsel; Charles F. Little, investigator; Kenneth Ballen, 
minority chief investigator; Phil Barnett, minority chief counsel; and 
Christopher Lu, minority counsel.
For MANLIN FOUNG:
    CHARLES J. STEVENS, ESQ.
    Stevens & O'Connell
    400 Capitol Mall, Suite 1450
    Sacramento, California 95814

    Mr. Bennett. Good morning, Ms. Foung. I am Dick Bennett, Special 
Counsel to the United States House of Representatives, Committee on 
Government Reform and Oversight. I want to thank you for coming.
    In an abundance of caution, I want to read a preamble and some 
ground rules prior to having the oath be administered. If for any 
reason you don't understand any questions that we have here today, 
don't hesitate to indicate that you don't understand.
    On behalf of the members of the Committee on Government Reform and 
Oversight, I want to thank you for appearing. The record should reflect 
that we are here in Sacramento, California, taking your deposition. 
This proceeding is known as a deposition. The person transcribing the 
proceeding is a House reporter and notary public, and I would now 
request that he place you under oath.

   THEREUPON, MANLIN FOUNG, a witness, was called for examination by 
   counsel, and after having been first duly sworn, was examined and 
                         testified as follows:

    Mr. Bennett. Ms. Foung, I would like to note for the record those 
who are present at the beginning of this deposition. Your attorney, 
Chuck Stevens, is here with you. And again the record should reflect we 
are here in Mr. Stevens' office.
    I am Dick Bennett, special counsel to the committee. With me and 
accompanying me is Mr. Jim Wilson, who is also Majority counsel for the 
House committee. Also, Mr. Charles Little, an investigator for the 
committee.
    Here for the Minority today are Messrs. Ken Ballen, Phil Barnett, 
and Charles Lu.
    Mr. Lu. Chris Lu.
    Mr. Bennett. Chris Lu. I'm sorry.
    Although this proceeding is being held in a somewhat informal 
atmosphere, because you have been placed under oath, your testimony 
here today has the same force and effect as if you were testifying 
before the committee, before the Congress, or in a courtroom. Do you 
understand that?
    The Witness. Yes, I do.
    Mr. Bennett. If I ask you about conversations you have had in the 
past and if you are unable to recall the exact words used in a 
conversation, you may state that you are unable to recall those exact 
words and you may then give the gist or substance of any conversation 
to the best of your recollection. Do you understand that?
    The Witness. Oh, yes, I do.
    Mr. Bennett. The court reporter cannot pick up a nod of your head.
    If you recall only part of a conversation or only part of an event, 
please give us your best recollection of these events or parts of 
conversations that you recall. If I ask you whether you have any 
information about a particular subject and you have overheard other 
persons conversing with each other regarding that subject, or have seen 
correspondence or documentation about that subject, please tell me that 
you do have such information and indicate the source from which you 
derived such knowledge. Do you understand that?
    The Witness. Including newspaper?
    Mr. Bennett. Yes, general information that you have, yes.
    The Witness. Okay.
    Mr. Bennett. Before we begin the questioning, I want to, pursuant 
to the procedures normally followed, give you some background about the 
investigation and your appearance here.
    Pursuant to its authority under House rules 10 and 11 of the House 
of Representatives, the Committee on Government Reform and Oversight is 
engaged in a wide-ranging review of political fund-raising 
improprieties and possible violations of law.
    Pages 2 through 4 of House Report 105-139 summarizes the 
investigation as of June 19, 1997, and describes new matters which have 
arisen in the course of the investigation. Also, pages 4 through 11 of 
the report explain the background of the investigation.
    All questions related either directly or indirectly to these 
issues, or questions which have the tendency to make the existence of 
any pertinent fact more or less probable than it would be without the 
evidence, are proper.
    The committee has been granted specific authorization to conduct 
this deposition pursuant to House Resolution 167, which passed the full 
House of Representatives of the United States Congress on June 20th of 
this year. Committee Rule 20 outlines the ground rules for the 
deposition.
    The Majority and Minority committee counsels will ask you questions 
regarding the subject matter of the investigation. Minority counsel 
will ask questions after Majority counsel has finished.
    After the Minority counsel has completed questioning you, a new 
round of questioning may begin. If there were any Members of Congress 
who were here today and wanted to ask you questions, they would be 
afforded an immediate opportunity to ask you any questions.
    Pursuant to the committee's rules, you are allowed to have an 
attorney present to advise you of your rights here at this deposition, 
and Mr. Stevens is here. Any objection raised during the course of the 
deposition shall be stated for the record. You are represented by Mr. 
Stevens, not by Minority counsel, and you follow the instructions of 
Mr. Stevens with respect to responding to questions.
    If you are instructed by Mr. Stevens to not answer a question or 
otherwise refuse to answer a question, we will then, either Majority 
and Minority counsel, will confer to determine whether the objection is 
proper. If the counsels agree that the question is proper, you will be 
asked to answer the question. If the objection is not withdrawn, the 
Chairman or member designated by the Chairman may decide whether the 
objection was proper.
    This deposition is considered as taken in executive session of the 
committee, which means it may not be made public without the consent of 
the committee, pursuant to clause 2(k)(7) of House Rule 11. You are 
asked to abide by the rules of the House and not discuss with anyone 
other than your attorney this deposition and the issues and questions 
raised during this proceeding.
    No one is going to take this deposition, Ms. Foung, and give it to 
a newspaper reporter in terms of your responses. You ultimately will be 
called as a witness before the committee to publicly testify and at 
that time people can ask you questions after you publicly testify. But 
no one is going to have a copy of this deposition prior to that. Do you 
understand that?
    Again, you have to answer.
    The Witness. I do.
    Mr. Bennett. Finally, no later than 5 days after your testimony is 
transcribed and you have been notified that your transcript is 
available, you may submit suggested changes to the Chairman. That would 
give you the opportunity if you think that Mr. Strickland, the court 
reporter, had made an error with respect to transcribing something, you 
would be given an opportunity to correct any error that you felt was in 
the transcript, and we will see that that is sent immediately to Mr. 
Stevens so you can have an opportunity to review it.
    The transcript will be available for review by committee staff in 
terms of any errors anyone thinks has been made. That would be 
available to both Majority and Minority.
    Substantive changes, modifications, clarifications or amendments to 
the deposition transcript submitted by you must be accompanied by a 
letter requesting the changes and a statement of your reasons for the 
requested changes. A letter requesting any substantive changes, 
modifications, clarifications or amendments must be signed by you. Any 
substantive changes, modifications, clarifications or amendments shall 
be included as an appendix to the transcript conditioned upon your 
signing the transcript.
    Do you understand everything we have gone over so far?
    The Witness. Yes.
    Mr. Stevens. If you don't, tell them and ask questions.
    Mr. Bennett. Do you understand generally what I have advised you 
thus far?
    The Witness. I'm sorry?
    Mr. Bennett. Do you understand the matters about which I have 
advised you thus far?
    The Witness. Yes.
    Mr. Bennett. Okay. I am starting to understand why these 
depositions are taking forever, if this preamble was read to every 
witness.
    If you have any reasons to break, to talk to Mr. Stevens, you may.
    In terms of ground rules, I will be asking you questions concerning 
the subject matter of the investigation. Do you understand that?
    The Witness. Would you repeat that, please?
    Mr. Bennett. I will be asking you questions concerning the subject 
matter of this investigation. Do you understand that?
    The Witness. Yes, I do.
    Mr. Bennett. Okay. If you don't understand a question, please say 
so and I will repeat it or rephrase it so that you understand the 
question.
    The Witness. Okay.
    Mr. Bennett. Do you understand that you should tell me if you do 
not understand my question?
    The Witness. Yes, I do.
    Mr. Bennett. Okay. The reporter will be taking down everything we 
say and will make a written record of the deposition. You must give 
verbal, audible answers because the court reporter cannot record a nod 
of the head or other gesture.
    The Witness. Okay.
    Mr. Bennett. If you cannot hear me, say so--I doubt that will be a 
problem--and I will repeat the question or have the court reporter read 
the question to you. Do you understand that?
    The Witness. Yes, I do.
    Mr. Bennett. Please wait until I finish each question before 
answering, and I will wait until you finish your answer before I ask 
the next question. Do you understand that this will help the reporter 
make a clear record, because he cannot take down what we are both 
saying at the same time? Do you understand that?
    The Witness. Yes.
    Mr. Bennett. Your testimony is being taken under oath as if we were 
in court, and if you answer a question it will be assumed that you 
understood the question and the answer was intended to be responsive to 
it. Do you understand that?
    The Witness. Yes.
    Mr. Bennett. Are you here voluntarily or here as a result of the 
subpoena? I believe the record should reflect that you have not been 
subpoenaed. I believe we filed a Notice of Deposition. So you are here 
pursuant to your understanding with your attorney, Mr. Stevens, 
correct?
    The Witness. Say that again.
    Mr. Bennett. Mr. Stevens, we actually didn't subpoena your client. 
You have agreed to make your client available to us to answer 
questions; is that correct?
    Mr. Stevens. I think that is accurate. We certainly anticipated 
that if we said no, that there would be a subpoena. But you're right, 
we agreed to do this voluntarily, and we appreciate everyone coming 
here to this office to accommodate the witness.
    Mr. Bennett. And I am sure that we were all glad to come here to 
Sacramento on such a beautiful day to be here. I speak for the Majority 
and I suspect I might speak for the Minority on that.
    If you have any questions before we get started, please ask, Ms. 
Foung. Or you can talk to Mr. Stevens. Do you have any questions.
    The Witness. Not at this time.
    Mr. Ballen. Excuse me, Mr. Bennett. I do have some opening comments 
I would like to make.
    Mr. Bennett. That might be a good time, if you would like. Go 
ahead.
    Mr. Ballen. Ms. Foung, good morning.
    The Witness. Good morning.
    Mr. Ballen. I represent the Democratic members of the Committee on 
Government Reform and Oversight. As you may know, there are two parties 
in the U.S. House of Representatives, the Republican Party that 
controls the House and the Democratic Party which does not.
    On our committee, every committee has representatives of both 
parties. The Majority is represented by the Republicans. Their Chairman 
is Dan Burton who is Mr. Bennett's boss. I represent the Minority on 
the committee, the Democrats. My boss is Representative Henry Waxman 
from Los Angeles, and the other committee Democrats. If you are 
familiar, some are from this area. Gary Condit is one of our Members. 
Tom Lantos from California. You may know some of them.
    I want to emphasize to you that we represent the Democratic Members 
of Congress who sit on the Government Reform and Oversight Committee. 
Do you understand that?
    The Witness. I do now.
    Mr. Ballen. Okay. We don't represent the Democratic National 
Committee. We don't represent the White House. We simply represent the 
Members of the House of Representatives who are the Democratic members 
on the House committee.
    The Witness. Okay.
    Mr. Ballen. You look somewhat perplexed, so I wanted to ask you.
    The Witness. It is something more complicated than I can 
understand, but I basically understand what you are trying to say, yes.
    Mr. Ballen. I want to let you know our view of this proceeding so 
that you do understand it, and start by apologizing because we feel you 
have given the statement and that should be sufficient for this 
committee. We do not feel this deposition today is necessary. And so we 
apologize for the inconvenience it has caused you, in advance.
    And we also want to tell you, and Mr. Bennett is going to perhaps 
have to tell you that better, why we think you are being called today, 
because we are not sure. Mr. Dan Burton, who is the Chairman of the 
committee and who is Mr. Bennett's boss, has stated on the floor of the 
House of Representatives that he believes there to be a conspiracy 
possibly involving the Chinese Government to corrupt the American 
political system. And he also believes and he has stated that your 
brother, Charlie Trie, may be a part of this conspiracy.
    In April of this year, Mr. Burton took to the floor of the House of 
Representatives and talked about your brother. He said your brother was 
part of a cast of characters who may have corrupted the American 
political system.
    The Witness. What does that mean, ``cast of characters''?
    Mr. Ballen. Well, can I read it to you?
    Mr. Stevens. Ken, I don't think she understands the idiom ``cast of 
characters.'' It means one of a group of people, a group of individuals 
involved in something.
    The Witness. Oh, okay. That was my only question.
    Mr. Ballen. Let me just read you the exact quotes, not to take 
anything out of context.
    Mr. Burton, Mr. Bennett's boss, said on the floor of the House of 
Representatives in Washington, ``Did foreign governments funnel foreign 
funds in the 1996 campaign? The American people have a right to know. 
How did a cast of characters''--individuals--``such as John Huang, 
Charlie Trie, Chinese arms dealer Wang Jun, purported Russian mob 
figure Gregori Loutchansky and convicted drug dealer Jorge Cabrera gain 
access to the highest levels of our government?''
    The Witness. So in another word, they do not necessarily mean--I am 
just still trying to understand the ``cast of characters.''
    Mr. Ballen. Uh-huh.
    The Witness. Does that mean they are just comparing my brother with 
the other characters, or is my brother part of all the characters that 
conspired something? Is that what that means?
    Mr. Ballen. Well, it's hard for me to answer that. I think the 
answer is both. Comparing your brother to the other characters----
    The Witness. As well as he's a part of it?
    Mr. Ballen. Yes, correct. I mean, I think that's the theory. I 
think the statement reflects that theory and those are serious 
allegations.
    The Witness. This is news to me, yes.
    Mr. Ballen. That's why I wanted to tell you, so that you know the 
context of why you are being called here and what this is about.
    The Witness. Okay.
    Mr. Stevens. Let me be clear that he is not saying that there is 
necessarily evidence of that. He is saying that that is one potential 
theory that will be reviewed. It may be that there is no evidence of 
it. He is outlining one thing that might be the subject of the 
investigation.
    The Witness. Right.
    Mr. Ballen. Right. And I think what your lawyer told you is 
correct. It is just a theory, but it is a theory that Mr. Bennett's 
boss has said repeatedly over the past 9 months. So it is a theory that 
some people may want to try to prove.
    The Witness. Okay.
    Mr. Ballen. I think it is also fair to inform you just what is 
meant--why you have to be coming back to Washington, what will happen 
to you in Washington. That there will be a hearing. There may be--there 
will be a large room with many Congressmen, over 44 Congressmen sitting 
there. You will be at a table in front of them. There may be television 
cameras. There may be news reporters. It is a public open hearing.
    And we just want you to know where this thing is going and our 
point of view on it, which is different from their point of view. And 
we will do our best to make this as simple for you and as painless as 
we possibly can.
    The Witness. I hope so. Thank you.
    Mr. Bennett. Are there any further comments, Mr. Ballen?
    Mr. Ballen. No.
    Mr. Bennett. Ms. Foung, are you now terrified to testify, or are 
you still willing to testify here today?
    The Witness. I will tell you what I know. That is all I can do.
    Mr. Bennett. I am certainly not here to try to frighten you here, 
Ms. Foung. The effort here is not to scare a witness or frighten a 
witness. It is merely to get facts.
    We as lawyers are here--I am here representing the Majority. I 
don't just work for one individual. I'm with the Republican Majority 
and report to the Republican Majority. And we are here just to ask you 
questions of facts. No one has made an allegation against you, and the 
lawyers here at the table as lawyers are bound by canons of ethics in 
which we are to seek the truth as best we can.
    The Witness. Okay.
    Mr. Bennett. And that ultimately is or should be the calling of 
lawyers. So no one is here to frighten you. I don't know what is going 
to happen when you come to Washington. There will be a hearing and 
there will be, hopefully, 44 Congressmen sitting in a room, although I 
suspect many of them will be going in and out of the room, from what I 
have observed, and you will be asked questions. We thought it was fair 
to see you first to understand the types of questions that will be 
asked of you. If you have any questions, don't hesitate to ask.
    Also, in the room here, along with the two lawyers for the Majority 
and the three lawyers for the Minority and your lawyer, is Mr. Charles 
Little, I mentioned earlier. I believe you met Mr. Little before; is 
that correct.
    The Witness. That's correct.
    Mr. Bennett. And Mr. Little as well as two other individuals at one 
point in time asked you basic questions and tried to get information as 
best they could from you; isn't that correct?
    The Witness. That's correct.
    Mr. Bennett. And you were very cooperative and answered their 
questions; is that correct?
    The Witness. I believe so.
    Mr. Bennett. Yes. And I want to compliment you on your level of 
cooperation and your candor in answering those questions.
    Do you believe that Mr. Little or any of the other visitors were 
unfair to you in any way?
    The Witness. I believe they were doing--probably doing their best 
job they can.
    Mr. Bennett. And do you think that they in any way abused you or 
treated you unfairly or unkindly in any way?
    The Witness. They were very polite and very friendly.
    Mr. Bennett. Mr. Stevens, I believe you indicated to me previously 
that you don't believe your client's constitutional rights were 
violated in any way.
    Mr. Stevens. Well, I'm not having my deposition taken. But do you 
want me to state my full position on the record?
    Mr. Bennett. Just generally, if you will, on behalf of your 
clients.
    Mr. Stevens. Based on my review of the situation, including 
numerous discussions with my client, I think it is fair to say at this 
point that she is not alleging that any of her constitutional rights 
were violated nor is she alleging that she was in any way abused or 
mistreated in the normal sense of those words by the attorneys or 
investigators who contacted her.
    I will say, however, though, that she is concerned there were some 
statements made that in her mind were designed to cause her to believe 
that it was not necessary for her to consult counsel in order to 
protect her interests. She's not claiming that she was told 
unequivocally not to obtain counsel. And I know, based on my own 
experience, that statements of an ambiguous nature like this are 
frequently made and they are not necessarily improper. However, given 
her background, her cultural background, to a certain extent inability 
to comprehend all of the idioms of the English language, in an ideal 
world there would have been no statements about counsel at all.
    For example, when she asked whether she should consult with 
counsel, one thing that she recalls being stated in response was, ``Why 
would you need counsel?'' Now, we all as lawyers might know that that 
is not technically an improper question, but when that question is 
posed to a person in Ms. Foung's position, it could have the effect of 
causing her to misunderstand the situation. Again in an ideal world, 
certain statements perhaps shouldn't have been made. But that 
expression of concern on her part about her treatment is a far cry from 
some of the things, frankly, I've heard and read about violating 
constitutional rights or abusing her or mistreating her or lying to 
her.
    But I did think it appropriate to put on the record that one area 
of concern, because it is one Ms. Foung has consistently expressed to 
me, although she understands the system and she does agree that all the 
lawyers and investigators on both sides in this situation are honorable 
people doing their best and no one at any time has tried to induce her 
to make things up or to implicate people unfairly or inappropriately.
    Let me just make sure that what I said is an accurate summary of 
Ms. Foung's position.
    The Witness. Yes.
    Mr. Bennett. Thank you, Ms. Foung, and Mr. Stevens.
                      examination by mr. bennett:
    Question. With respect to your personal background, Ms. Foung, when 
were you born?
    Answer. February 9th, 1952.
    Question. And what is your social security number?
    Mr. Ballen. Excuse me; is this necessary to put her social security 
number on the record? Something maybe she--because we----
    Mr. Bennett. I don't really care. You don't have to put your social 
security number on the record. That's fine.
    Mr. Ballen. This might be publicly released, this deposition.
    The Witness. Could I have a piece of paper and pen?
    Mr. Bennett. Sure.
    Mr. Ballen. It is my understanding that your deposition could be 
publicly released and so, therefore, I don't see why we need to put the 
social security number on the record.
    Mr. Stevens. Can we go off the record for a second?
    [Discussion off the record.]
                      examination by mr. bennett:
    Question. Let me just ask you this, you are a naturalized American 
citizen?
    Answer. That's correct.
    Question. What is the date of your citizenship?
    Answer. I couldn't remember. I believe sometime around 1980.
    Question. When did you first come to this country?
    Answer. 1973.
    Question. And what is your educational background?
    Answer. I graduated from high school in Taiwan. I had 52 units 
completed in the United States, major in business.
    Question. At what university?
    Answer. Solano College.
    Question. Here in California?
    Answer. Yes.
    Question. And in terms of your background, I'll get into your 
family background, I'll ask more detailed questions on some matters 
perhaps later, but you have a brother and a sister; is that correct?
    Answer. That's correct.
    Question. And are your mother and father both still living?
    Answer. No. My father was dead.
    Question. And your mother, her name is?
    Answer. Do E-Fong.
    Question. And where does she reside?
    Answer. Little Rock.
    Question. Arkansas?
    Answer. Arkansas.
    Question. And your two siblings, a brother and a sister, your 
sister's name is?
    Answer. Why do we--Dai Lin.
    Question. And does she have a last name in addition--I know that 
Lin is a family name. Is there a last name?
    Answer. Outlaw.
    Question. And she lives in Virginia; is that correct?
    Answer. That's correct.
    Question. And then you have a brother who has previously been 
indicated as Mr. Charlie Trie?
    Answer. Yah Lin Trie.
    Question. And he goes by the name Charlie Trie; is that correct?
    Answer. I call him Charlie--we call him Charlie.
    Question. Okay. And are your brother and sister both naturalized 
American citizens?
    Answer. That's correct.
    Question. And your mother is a naturalized American citizen?
    Answer. That's correct.
    Question. Now, have you been politically active yourself, Ms. 
Foung?
    Answer. No.
    Question. And I would imagine after this experience you don't 
intend to be; is that correct? You have to answer. You are not 
politically active, are you, ma'am?
    Answer. No.
    Question. And prior to the matters about which we are going to have 
you testify in 1996, had you ever worked on any political campaigns?
    Answer. No, sir.
    Question. Had you--and I want to go over the matter--the States in 
which you have resided, but have you been particularly active in 
contributing money to any political campaigns over the years?
    Answer. No, sir.
    Question. In terms of your residence, you have lived here in 
California for how long?
    Answer. Since 1990.
    Question. Prior to 1990, where did you live? You don't need to name 
the specific address, but the State.
    Answer. Texas.
    Question. How long did you live in Texas?
    Answer. Approximately 6 years.
    Question. From approximately 1983 or 1984 until 1990?
    Answer. I'm sorry?
    Question. Just take your time. From----
    Answer. From 1992 to--I mean '82 or '83--I couldn't remember.
    Question. Let me go back. Maybe it would be easier as opposed to 
moving back, I will take you back to a date and let you move forward. 
Where did you first reside when you came here to the United States?
    Answer. San Francisco.
    Question. For how many years?
    Mr. Stevens. Just give approximate, two or three? Four to five?
                      examination by mr. bennett:
    Question. You don't need to be with any great specificity.
    Answer. '73 to '7--'73 to '77. Approximately 4 years.
    Question. You lived in the San Francisco area of California?
    Answer. That's correct.
    Question. And then in 1977, where did you move?
    Answer. Little Rock, Arkansas.
    Question. And you went to Little Rock, Arkansas, approximately in 
1977?
    Answer. That's correct.
    Question. How old were you at that time, approximately?
    Answer. If I was born----
    Question. 25?
    Answer [continuing]. In '52? Twenty-five.
    Question. And what caused you to move to Little Rock, Arkansas?
    Answer. A job transfer.
    Question. And for whom were you working at the time?
    Answer. USF&G, an insurance company. United States Fidelity and 
Guaranty.
    Question. And you went to work there in 1977 in Little Rock, and 
how long did you stay in Arkansas?
    Answer. Approximately 5, 6 years.
    Question. From let us say 1977 until perhaps '83?
    Answer. '82, '83.
    Question. Were any other members of the family with you when you 
moved to Little Rock, Arkansas?
    Answer. What do you mean by that?
    Question. I mean, did you move to Little Rock, Arkansas--my 
question is, did any other members of your family live in Little Rock, 
Arkansas, in addition to you?
    Answer. Yes, my brother and my sister, both.
    Question. Were they already living there or did they go with you to 
Little Rock, Arkansas?
    Answer. They were already there.
    Question. And how long had Dai Lin been living in Little Rock, 
Arkansas?
    Answer. I don't remember. I don't know.
    Question. Several years?
    Answer. Yes.
    Question. She had an existing business there; is that correct?
    Answer. Yes.
    Question. And her business, she owned a restaurant?
    Answer. Yes.
    Question. And your brother, Yah Lin Trie, Charlie Trie, how long 
had he been in Arkansas when you arrived there in 1977?
    Answer. I don't really remember.
    Question. He was working for your sister at the time; wasn't he?
    Answer. At first, yes.
    Question. And in what capacity did he work for your sister?
    Mr. Stevens. What did he do?
                      examination by mr. bennett:
    Question. What did he do? I'm sorry; what did he do for your 
sister? She owned a restaurant. Dai Lin owned a restaurant in Little 
Rock, Arkansas; is that correct?
    Answer. Yes.
    Question. And your brother worked for Dai Lin in her restaurant; is 
that correct?
    Answer. That's correct.
    Question. And what did he do for her?
    Answer. I don't really know. I believe everything related to 
whatever the restaurant needs.
    Question. She owned the restaurant, though, and he worked for her; 
is that correct?
    Mr. Ballen. If you know.
    The Witness. I believe so. I don't really know. I was in the 
insurance business, different than the restaurant business, so I didn't 
really know what they were doing.
                      examination by mr. bennett:
    Question. I understand.
    At some point in time during this 6 years that you were there in 
Little Rock, Arkansas, from '77 to '83, did there come a point in time 
when your brother established his own business?
    Answer. I believe so.
    Question. And what was the nature of that business? What was the 
business?
    Answer. Restaurant.
    Question. He opened up a restaurant separate from your sister's 
restaurant?
    Answer. I don't really know. Seems like they were working together 
for a long time, and then I moved to Texas.
    Question. I understand.
    Answer. And then I didn't keep up with it.
    Question. You moved to Texas around 1983?
    Answer. '83, yes.
    Question. I guess my question is----
    Answer. End of '83, uh-huh.
    Question [continuing]. During this time from '77 to '83, do you 
know whether your brother took over your sister's restaurant or do you 
know whether he established a separate restaurant?
    Answer. I really can't remember.
    Question. At some point in time, though, he went into the 
restaurant business?
    Answer. That's correct. That's correct.
    Question. And up until the time you left Arkansas to move to Texas 
in 1983, he was operating a restaurant; is that correct?
    Answer. He was working in a restaurant business. How was--what 
capacity, I don't know.
    Question. Okay. But basically, then, that was his--you don't know 
what the nature of the ownership of the restaurant was or the details 
but----
    Answer. No----
    Question [continuing]. But he was in the restaurant, running a 
restaurant?
    Answer. That's right.
    Question. That was what he did for a living was run a restaurant?
    Answer. Yes.
    Question. During that period of time, did you have occasion to meet 
Governor Clinton of Arkansas?
    Answer. No.
    Question. I'll ask you this later, but at some point in time your 
brother during that time period met Governor Clinton; is that correct, 
in Arkansas?
    Answer. I personally don't know. I did find out later, yes, they 
were friends.
    Question. And how did you find that out later?
    Answer. The newspaper. It was on the newspaper all over.
    Question. I will get into more detail later but you at one time in 
March of last year actually had occasion to meet President Clinton; 
didn't you?
    Answer. That's correct.
    Question. And you met him here at a fund-raising function here in 
California; is that correct?
    Answer. Yes.
    Question. And at that point in time President Clinton made 
reference to your brother; isn't that correct?
    Answer. That's correct.
    Question. And exactly what did President Clinton say to you about 
his relationship with your brother back in the Little Rock, Arkansas, 
days?
    Answer. He say my brother, Charlie Trie, is a close friend of his 
in two decades.
    Question. A close friend for two decades?
    Answer. Yes.
    Question. But during the time that you lived in Arkansas, you 
yourself did not meet Governor Clinton?
    Answer. Never. Was he the Governor at that time?
    Question. At some point in time. I believe he was the Attorney 
General and then was the Governor.
    Answer. I wasn't familiar with him at all.
    Question. And I gather that you yourself did not meet any members 
of the Clinton family during your 6 years in Arkansas?
    Answer. No, sir.
    Question. Then chronologically moving forward, around 1983 you 
moved to Texas; is that correct?
    Answer. That's correct.
    Question. And you maintained contact with your mother who remained 
in Arkansas?
    Answer. Yes.
    Question. And maintained contact with your brother who remained in 
Arkansas?
    Answer. Yes.
    Question. And with respect to your sister, she, Dai Lin, had had a 
restaurant in Arkansas, you said, when you arrived in 1977; is that 
right?
    Answer. I think so.
    Question. When did your sister move from Arkansas to Virginia?
    Answer. I couldn't remember. It seems like '84 or '85. Something 
like that.
    Question. At some point in time while you were still in Texas, your 
sister then moved from Arkansas to Virginia?
    Answer. That's correct.
    Question. And your brother and mother remained in Arkansas?
    Answer. Yes.
    Question. And your mother remains in Arkansas to this day?
    Answer. Yes.
    Question. And she lives in a home which is owned by your brother; 
is that correct?
    Answer. Yes.
    Question. Do you have any ownership of that house in which she 
lives, you personally?
    Answer. I don't believe so. We originally applied a loan together.
    Question. ``We'' meaning your mother and you?
    Answer. Me and my brother. But somewhere along the line, I think 
that the house was sold and then the person that bought it--I don't 
know exactly what happened, either default or something, and he has to 
buy back without my name, I believe.
    Question. Who is ``he'' who bought it back?
    Answer. My brother, Charlie--Yah Lin.
    Question. So Yah Lin Trie at some time became the total owner of 
the house in which your mother now resides?
    Answer. I think so. I never did go into it to find out.
    Question. When do you believe this approximately would have 
occurred when your name was taken off the title?
    Answer. I couldn't remember.
    Question. Okay. It was while you were in Texas or when you had 
moved back to California?
    Answer. It was when I was in Texas.
    Question. Sometime during the 1983-1990 time period?
    Answer. Yes, but I don't remember--I don't know the details. I 
don't know what happened.
    Question. I understand. Did you have any conversations with your 
brother where he explained to you what happened?
    Answer. I don't think so--I don't remember.
    Question. Directing your attention up until the time period of 
February of 1996, do you have any recollection of making any political 
contributions to any Federal political candidates, meaning candidates 
for Congress or the United States Senate or candidates for President, 
for President Clinton? Up until February of 1996, do you recall making 
any political contributions?
    Answer. Yes.
    Question. Okay. And what contributions would they have been, ma'am?
    Answer. I believe there was a check written to DNC.
    Question. The Democratic National Committee?
    Answer. Yes.
    Question. Okay. And when would that check have been written? 
Approximately?
    Answer. February.
    Question. February of 1996?
    Answer. February 1996.
    Question. I'm going to get to that ma'am, we are going to do that 
in a second. I'm sorry if you didn't understand my question. That is 
the $12,500 check.
    Mr. Ballen. Before.
                      examination by mr. bennett:
    Question. I am trying to get before that, prior to the $12,500 
check to the Democratic National Committee in February of 1996, before 
that, before that date, do you recall making any political 
contributions to President Clinton or the Democratic National 
Committee?
    Answer. I cannot remember.
    Question. Do you recall making any contributions to any Federal 
political candidates for the U.S. Senate or for Congress in Texas or in 
Arkansas or in any other State?
    Answer. I can't--I can't recall.
    Question. Now, then, directing your attention to February of 1996, 
I will show you what has been previously marked as MF-1, your initials, 
dash, 1.
    [Foung Deposition Exhibit No. MF-1 was marked for identification.]

    [Note.--All exhibits referred to may be found at end of 
deposition on p. 59.]
                      examination by mr. bennett:
    Question. Looking at that exhibit drawn on your bank account, which 
is the Travis Federal Credit Union; is that correct?
    Answer. That's correct.
    Question. And do you recognize--I know that that is a faded copy--
your signature on that check and do you recognize the copy of that 
check?
    Answer. Yes, that's my signature.
    Question. And in fact--and that is, in fact, a copy of a check 
which you prepared on February 18, 1996, to the Democratic National 
Committee, or as you have noted on the check, paid to the order of the 
DNC; is that correct?
    Answer. That's correct.
    Question. Now, with respect to that check, what were the 
circumstances leading up to your preparation of that check? As a matter 
of fact, why don't we--in order to have everything in front of you, let 
me have, if I can, two more exhibits, please.
    I'm going to show you--place in front of you and Mr. Stevens, your 
attorney, MF-2.
    [Foung Deposition Exhibit No. MF-2 was marked for identification.]
    Mr. Stevens. Is it all right if I mark exhibit numbers on these 
copies?
    Mr. Bennett. Go right ahead. And MF-3.
    [Foung Deposition Exhibit No. MF-3 was marked for identification.]
    Mr. Ballen. Dick, ours are not marked, so if you could indicate 
which is going to be which.
    Mr. Bennett. For the record, Ken, the check, the $12,500 check is 
MF-1. The packet of material from the Amerasia Bank and the $5,000 
cashier's check payable back to Ms. Foung is MF-2. And then the 
deposited cashier's checks, the second packet you just got, is MF-3.
    Mr. Ballen. Thank you.
                      examination by mr. bennett:
    Question. If you want to look at those, take your time, I want to 
go through the scenario with those exhibits in front of you in terms of 
the circumstances of your first contribution to the Democratic National 
Committee.
    You have indicated that to your knowledge--and if I'm not stating 
this correctly, please correct me--from what I gather this is the very 
first time you had ever prepared a check to the Democratic National 
Committee; is that correct? To your knowledge?
    Answer. To my knowledge, yes.
    Question. And what were the circumstances giving rise and causing 
you to prepare this check? Why did you write this check?
    Answer. Because my brother called me.
    Question. Your brother, Charlie Trie?
    Answer. Yes.
    Question. Approximately when did he call you and where was he when 
he called you?
    Answer. I couldn't remember--I don't know exactly the time. I will 
have to guess somewhere around the check written time.
    Question. Somewhere around the date of the check, February 18, 
1996?
    Answer. Yes.
    Question. Was he overseas at that time?
    Answer. I believe so. I was under the impression he was.
    Question. And what caused you to believe that he was overseas?
    Answer. Because he said he couldn't make it to meet a deadline of a 
contribution.
    Question. He--I'm sorry, if I misunderstood what you said, correct 
me. But your brother, Charlie Trie, said to you that he could not make 
a deadline for a contribution?
    Answer. Something like that.
    Question. And where was the contribution to be sent, this $25,500 
to the DNC?
    Answer. That I don't remember. I must jot down the address.
    Question. Do you know what the deadline was he was referring to?
    Answer. No, I didn't ask.
    Question. Did you have any knowledge of a dinner right around that 
time period that was to be held at the Hay-Adams Hotel in Washington, 
D.C.?
    Answer. No, I don't.
    Question. Did he talk to you about that?
    Answer. No, he didn't.
    Question. And basically you prepared this check at his request?
    Answer. Yes.
    Question. Did he indicate to you how--did he indicate to you that 
you were to be reimbursed for writing this check?
    Answer. Yes.
    Question. And did he indicate to you how he was going to reimburse 
you?
    Answer. I don't remember. I don't remember.
    Question. But again we'll go through the exhibits, looking at the 
exhibits before you, you were reimbursed almost immediately for your 
check; isn't that correct?
    Answer. According to the date, yes.
    Question. Within a matter of a few days, you got the money back 
from your brother?
    Answer. Four or five days, yes.
    Question. Now, do you recall whether you mailed this check or what 
happened to this $12,500 check made payable to the DNC once you 
prepared it? Where did it go? My question is, did someone come by and 
pick the check up at your home?
    Answer. No.
    Question. Did you put it in the mail?
    Answer. No.
    Question. Where did you send it?
    Answer. I sent it to Washington, D.C., somewhere by--I couldn't 
remember if it was by Federal Express or regular mail or Federal 
express mail, I couldn't remember.
    Question. But you sent it to whatever address your brother gave 
you; I gather?
    Answer. That's correct.
    Question. And do you recall what the address was?
    Answer. No, I don't.
    Question. Do you recall whether or not it was the address of the 
Democratic National Committee?
    Answer. I don't even know what their address.
    Question. So you don't know the mechanics of how this came into the 
possession and was cashed by the Democratic National Committee?
    Answer. No.
    Question. You just know that you sent it to an address designated 
by your brother?
    Answer. That's correct.
    Question. Now, did you know an individual named Antonio Pan?
    Answer. No, I don't.
    Question. Have you ever met an individual named Antonio Pan?
    Answer. I don't believe so.
    Question. Do you have any personal knowledge of the involvement of 
Mr. Antonio Pan in forwarding money to you in covering this check?
    Answer. No, I don't.
    Question. And we'll go into the matter of Mr. Landon--you have a 
close personal friend, Mr. Joseph Landon; is that correct?
    Answer. That's correct.
    Question. And you and Mr. Landon reside together; is that correct? 
I don't need to get into your personal life. Strike that question.
    He is a close personal friend of yours; is that correct?
    Answer. That's correct.
    Question. And, again, I don't want to get into your personal life, 
and I apologize for that. Mr. Landon at some point in time this same 
day also wrote out a $12,500 check; is that right?
    Answer. I believe so.
    Question. Did you have discussions with Mr. Landon concerning the 
preparation of a $12,500 check?
    Answer. I might have. Must be very brief because I couldn't 
remember what was said.
    Question. Do you know if your brother spoke to Joe Landon about a 
$12,500 check?
    Answer. No.
    Question. You don't remember or you don't know that he spoke with 
him?
    Answer. I know he didn't spoke to him.
    Question. So it could be correct, would it not, that if Mr. Landon 
prepared a similar $12,500 check, as did you, to the Democratic 
National Committee, it would have been at your request pursuant to the 
discussion you had with your brother?
    Answer. Must be.
    Question. Okay. Let me show you that check.
    [Foung Deposition Exhibit No. MF-4 was marked for identification.]
    [Foung Deposition Exhibit No. MF-5 was marked for identification.]
                      examination by mr. bennett:
    Question. Looking at now Exhibits MF-4 and MF-5, you see there is 
Mr. Landon's check I think a day later than your check.
    Mr. Ballen. I'm sorry, Dick, I just missed what you said.
    Mr. Bennett. I am sorry, excuse me.
    Mr. Ballen. I'm sorry.
                      examination by mr. bennett:
    Question. Showing you Exhibits MF-4 and MF-5, you will see that Mr. 
Landon's check is also made out to the Democratic National Committee 
for $12,500. Do you see that?
    Answer. Yes, do I.
    Question. And, in fact, that was a result of a conversation that 
you had with him, based on your conversation with your brother; isn't 
that correct?
    Answer. Yes.
    Question. And, in fact, Mr. Landon--you advised Mr. Landon that 
both you and he were going to be reimbursed for these checks and you 
were doing this as a favor for your brother; isn't that correct?
    Answer. Yes.
    Question. And in fact, then looking at MF-2 and MF-5, they are 
copies of cashier's checks which came back to you and Mr. Landon 3 days 
later, isn't that correct? From the Amerasia Bank in New York?
    Answer. That's correct.
    Question. And if I'm wrong correct me, but three of the five--there 
are five $5,000 cashier's checks; isn't that correct? If you want to 
take a minute, look at Exhibits MF-2 and MF-5. Just take your time.
    Answer. Okay. MF-2, we have three and MF-5 we have two.
    Question. Meaning that MF-2, there are three cashier's checks to 
you each for $5,000, totaling $15,000; is that correct?
    Answer. Yes.
    Question. And MF-5, there are two $5,000 cashier's checks made 
payable to Mr. Landon; is that correct?
    Answer. Yes.
    Question. And, in fact, that represents a total of $25,000 totally 
reimbursing both of you for the checks you had written out to the 
Democratic National Committee a few days earlier; is that correct?
    Answer. Yes.
    Question. Now, how did it turn out? Did Mr. Landon get his entire 
$12,500 back?
    Answer. I believe so.
    Question. And how do you believe that he got his money back?
    Answer. I must gave him $2,500.
    Question. Actually, to help you here, Ms. Foung, let me show what 
you has been marked as MF-1A, which is a supplement to Exhibit 1 which 
I think will be of some assistance to you.
    [Foung Deposition Exhibit No. MF-1A was marked for identification.]
                      examination by mr. bennett:
    Question. If you look at MF-1A, you will note there in terms of a 
$2,500 withdrawal--again, correct me if I am wrong, Ms. Foung, but it 
appears that of the $15,000 you received back after depositing those 
checks, you took $2,500 out to give to Mr. Landon, in addition to his 
$10,000 in cashier's checks; is that correct?
    Answer. It appears to be.
    Question. As you testify now, that is your recollection, looking at 
these documents in terms of what happened; is that right?
    Answer. Exactly, because I couldn't remember what happened.
    Question. I understand. I understand. I understand.
    Did you have any contacts with any officials of the Democratic 
National Committee at the time that you wrote these checks----
    Answer. No.
    Question [continuing]. You wrote the check?
    Answer. No, sir.
    Question. To your knowledge, did Mr. Landon have any contact with 
any representatives of the Democratic National Committee at the time he 
wrote the check?
    Answer. I really cannot speak for him, but to the best of my 
knowledge, no.
    Question. I understand. Okay. And do you know the particular fund-
raising event for which these checks were prepared?
    Answer. No.
    Question. And you did not attend any events in connection with 
these checks; is that correct?
    Answer. No.
    Question. It was purely at the request of your brother that these 
checks were prepared?
    Answer. Yes.
    Question. To your knowledge, had Mr. Landon ever made any 
contributions himself to the Democratic National Committee prior to 
this check, reflected by exhibit MF-4?
    Answer. I don't know.
    Question. Does Mr. Landon know your brother, Charlie Trie?
    Answer. He met my brother a couple of times briefly.
    Question. How long have you and Mr. Landon known each other?
    Answer. Possibly 4 years.
    Question. And during those 4 years, how many times do you believe 
Mr. Landon has met your brother?
    Answer. Two times for sure. Maybe three.
    Question. To your knowledge, does Mr. Landon know the individual, 
Antonio Pan?
    Answer. Not as I know of.
    Question. Let me ask you this, Ms. Foung, have you ever heard of a 
group in Arkansas called the Lippo Group?
    Answer. Never heard of it.
    Question. Prior----
    Answer. I do now.
    Question. I think a lot of people have heard of the Lippo Group 
now, but prior to the matters in the newspaper did you have any 
knowledge of the individuals at the Lippo Group in Arkansas?
    Answer. No.
    Question. And as we speak, you have never met Antonio Pan?
    Answer. Not as I know of.
    Mr. Ballen. Just to clarify your question was, ``Do you have any 
knowledge of the Lippo Group in Arkansas?'' Do you have any knowledge 
of the Lippo Group at all anywhere?
    The Witness. No, sir.
    Mr. Ballen. Thank you.
    Mr. Bennett. We don't have a process of rotating questions here, 
but I thank counsel for the clarification on that. I should have 
followed up.
                      examination by mr. bennett:
    Question. You don't have any knowledge of Antonio Pan anywhere up 
until today other than perhaps having seen his name in the newspaper; 
is that correct?
    Answer. Until his name was brought up to me.
    Question. Did your brother explain to you where the $25,000 came 
from that reimbursed you and Mr. Landon?
    Answer. I believe--he never explained, but I believe it was his 
money.
    Question. In fact, there are documents--just so you understand, 
because I want to make sure that you have the benefit of as many facts 
as we can give you so you understand, the committee has documents 
before it showing that the $25,000, in fact, came from an individual 
named Antonio Pan, and an account in New York.
    Would you have any explanation for why Mr. Pan would have been 
giving you and Mr. Landon the $25,000 back?
    Answer. I really never thought about that.
    Question. Did your brother, Charlie Trie, ever represent to you 
that he, Charlie Trie, had repaid the $25,000 to you and Mr. Landon?
    Answer. Would you please repeat that question?
    Question. Did your brother, Charlie Trie, ever indicate to you that 
the repayment of the $25,000 came from him, Charlie Trie?
    Answer. I couldn't remember exact conversations, but I was under 
the impression, yes.
    Question. That he, Charlie Trie, your brother, had in fact paid you 
the $25,000?
    Mr. Stevens. When you say ``paid,'' are you talking about 
physically being the conduit of the money or being the source of the 
money?
    Mr. Bennett. Being the source of the money.
                      examination by mr. bennett:
    Question. To your knowledge, your impression was that your brother 
had repaid the $25,000?
    Answer. Yes, yes.
    Mr. Bennett. Just one second.
                      examination by mr. bennett:
    Question. Directing your attention to approximately a month later, 
I think it is in March of 1996, do you recall attending--we talked 
about this a little bit earlier in the morning--a political fund-
raising event here in California attended by President Clinton?
    Answer. Would you be more specific?
    Question. Sure.
    Answer. Are we talking about the one that I mentioned earlier?
    Question. Yes, yes, in fact, specifically you attended a political 
fund-raising event in Hillsborough, California. Do you recall that?
    Answer. I recall, but at the time I didn't know it was fund-
raising.
    Question. I want to direct your attention to that event, if I can. 
With respect to the--an event in March of 1996, directing your 
attention to that event, first, you attended an event in Hillsborough, 
California, in March of 1996 at which Mayor Willie Brown of San 
Francisco and President Clinton were in attendance; is that correct?
    Answer. That's correct.
    Question. And, in fact, you met President Clinton at that time; is 
that correct?
    Answer. Yes.
    Question. And that's the very first time you'd ever met President 
Clinton?
    Answer. That's correct.
    Question. When you went to that event, did you know that it was a 
political fund-raiser?
    Answer. I didn't.
    Question. What were the circumstances surrounding your attendance 
at that event?
    Answer. Because my brother called me, said----
    Question. Again, do you know where your brother was when he called 
you?
    Answer. I don't.
    Question. Do you believe it was overseas?
    Answer. Yes.
    Question. Okay. If I can just step back for a second, Ms. Foung, I 
gather that your brother travels overseas a great deal?
    Answer. He spends the majority of his time overseas. That's the way 
I understood.
    Question. And would he be in Taiwan or China; do you know? I'm 
going to get into the details later of where he is now, but it is your 
belief that he called either from Taiwan or China or wherever overseas?
    Answer. Yes.
    Question. I will rephrase the question. You don't know specifically 
where he was when he called you in March of 1996; do you?
    Answer. I couldn't remember.
    Question. It's your impression that he was overseas but you don't 
know in which country he might have been?
    Answer. No.
    Question. But it was your impression that he was overseas?
    Answer. I believe so.
    Question. And what did he say with respect to attendance at this 
event?
    Answer. Say that again.
    Question. What did your brother say to you about this event that he 
wanted you to attend?
    Answer. He was just asking me if I would go to a dinner function, 
that Mr. Clinton will be there, that was in San Francisco.
    Question. And as to that event, you weren't asked to spend any 
money?
    Answer. No.
    Question. And how did you get to the event? How did you go to 
Hillsborough?
    Answer. We drove.
    Question. And it is a drive--from here in the Sacramento area, I 
guess it is a drive of approximately an hour and a half or 2 hours?
    Answer. From where I live to Hillsborough, how far is that? About 
50 miles or something like that; 50, 60 miles.
    Question. And who drove you?
    Answer. Joe Landon.
    Question. Joe Landon. Anybody else besides you and Mr. Landon 
travel in the car?
    Answer. No.
    Question. And did Mr. Landon actually attend the event?
    Answer. No.
    Question. Where did Mr. Landon stay? He, in fact, remained in the 
car while you went to the event; is that right?
    Answer. That's correct.
    Question. How did you actually get to the event? Did Mr. Landon 
drive you right to the event or did you meet another group of people 
and attend the event with a group of people?
    Answer. We were supposed to--the instruction was to park at the 
high school parking lot. There is a bus to transport all the guests to 
the house.
    Question. And that was in Hillsborough?
    Answer. Yes.
    Question. Okay. And you went to the local high school in 
Hillsborough, Burlingame High School?
    Answer. Yes, few blocks away from the house.
    Mr. Bennett. For the record, my nephew attended that high school, 
so I'm somewhat familiar with the area.
    Mr. Ballen. I was wondering how you knew the geography.
    Mr. Bennett. I don't want counsel to think I knew all the details. 
It doesn't matter much, but my sister-in-law lives in Hillsborough and 
I think I know the high school where he went. But in any event, the 
record should reflect that one of the few times in the deposition the 
counsel are all laughing together in a matter, which is a healthy sign 
I think.
                      examination by mr. bennett:
    Question. You went to the local high school and a bus took a group 
of people to this private party; is that right?
    Answer. Yes.
    Question. And at some point in time did you meet an individual 
there named John Huang?
    Answer. Yes.
    Question. Had you met Mr. Huang before?
    Answer. No.
    Question. And what were the circumstances under which you met him? 
Did he come up and introduce himself to you? Or what were the 
circumstances?
    Answer. He called me prior to the function to ask me to give him 
some personal information such as name, address, social security, so it 
was strictly for security clearance.
    Question. And did he indicate to you at that time--how did he know 
you were going to attend the event?
    Mr. Stevens. If he said.
                      examination by mr. bennett:
    Question. If he said. My question--I will rephrase it. My question 
is, Mr. Huang, an individual named John Huang called you prior to the 
event?
    Answer. Right.
    Question. And this would have been after your brother, Charlie 
Trie, asked you to attend the event?
    Answer. That's right.
    Question. Did Mr. Huang call indicating that he had spoken to your 
brother, Charlie Trie, and therefore knew you were going to attend the 
event?
    Answer. He must.
    Mr. Ballen. Excuse me; do you recall?
    Mr. Bennett. Counsel, I don't mind occasionally clarifying, but why 
don't I finish the train and you will be free to follow up on it.
                      examination by mr. bennett:
    Question. I gather Mr. Huang must have known from some source, 
either your brother or some source, that you were going to attend the 
event.
    Answer. I assume so.
    Question. You didn't know this man, John Huang, and he calls you 
for information because you are going to attend the event?
    Answer. Yes, somebody must know I was attending to get my security 
clearance.
    Question. And then on that evening in March of 1996--it was an 
evening event; wasn't it?
    Answer. It was evening, about 6 o'clock.
    Question. Did you meet Mr. Huang at that time?
    Answer. We met outside the bus.
    Question. At the high school parking lot?
    Answer. The parking lot, yes.
    Question. And then you went to the event on a bus, and both you and 
Mr. Huang were on the bus together?
    Answer. Yes.
    Question. Okay. And we'll get back to the details of the event.
    Have you seen John Huang since that particular night?
    Answer. No.
    Question. Have you spoken with John Huang since that night?
    Answer. I vaguely remember he called me one more time to ask me if 
I would attend a function in San Francisco. I said no.
    Question. And when would that have been?
    Answer. I don't remember.
    Question. It would have been prior to the re-election of President 
Clinton last November?
    Answer. I couldn't remember, but I believe--I believe so.
    Question. Apart from that one other telephone call from John Huang, 
is it fair to say that the only time you have met or spoken with John 
Huang, except for that one additional telephone call, would have been 
on this particular night in March--strike that.
    Apart from John Huang calling you on the telephone and then being 
with you on that evening in March of 1996, the only other contact you 
have had with Mr. Huang is one other time when he called you on the 
telephone?
    Answer. Yes.
    Question. You have not spoken with him since?
    Answer. That's correct.
    Question. The only time you have ever seen him face-to-face would 
have been on this particular evening in March of 1996?
    Answer. That's correct.
    Question. Now, directing your attention to that particular evening 
in March of 1996, what were the circumstances giving rise to your 
actually meeting and speaking with President Clinton? Did someone 
introduce you to him?
    Answer. No, everybody get in line to take a picture with him.
    Question. In the trade it is called a photo op.
    Answer. Okay.
    Question. A photo op. Okay?
    And when you met him, what gave rise to his saying to you, as I 
think you indicated earlier, that Charlie Trie--your brother Charlie 
Trie has been my best friend for two decades? How did that comment come 
up?
    Mr. Ballen. Excuse me, that's not what she testified. She said 
``close friend.'' Not best friend.
    Mr. Bennett. Whatever she said, close friend. Charlie Trie has been 
my close friend for two decades.
    Mr. Stevens. My notes have her saying that he was, quote, ``A close 
friend for two decades,'' closed quote.
                      examination by mr. bennett:
    Question. Going by your counsel's--and if I misrepresented I 
apologize--Charlie Trie has been a close friend for two decades, what 
caused him to make that comment? Did someone say, this is Charlie 
Trie's sister?
    Answer. Yes, something like that. Somebody must----
    Question. I understand. As best you remember, someone let the 
President know that you were Charlie Trie's sister?
    Answer. That's correct.
    Question. And as a result of that, he made that comment?
    Answer. Yes.
    Question. Okay. Did he talk to you at any length at all? How long 
did you talk with President Clinton?
    Answer. I think that was it.
    Question. And you had your picture taken with him?
    Answer. Yes.
    Question. Were there any follow-up notes from President Clinton 
when you--strike that.
    I assume you ultimately got a copy of that photograph, correct?
    Answer. No, I didn't.
    Question. You did not?
    Answer. Huh-uh.
    Question. Off the record.
    [Discussion off the record.]
                      examination by mr. bennett:
    Question. You indicated that you never actually got the photograph 
of you with the President?
    Answer. No, I never did.
    Question. And I gather, then, that you have not spoken with 
President Clinton since that time?
    Answer. No.
    Question. Have you spoken with any member of the President's family 
since that time?
    Answer. No.
    Question. And you have no personal relationship with any member of 
the Clinton family, correct?
    Answer. No, sir.
    Mr. Ballen. Excuse me, can I just follow up one question there? 
Clarification?
    Mr. Bennett. Yes, I think in the spirit of comity, I think 
generally we have the questions of the Majority and Minority, but I 
don't have any objection to asking a quick question just to move it 
along.
    Mr. Ballen. Thank you very much.
    You asked her if she had any contact with any member of the 
President's family since that time. And I wanted to ask, have you ever 
had any, other than meeting President Clinton on this one occasion, 
have you had any contact with him or his family?
    The Witness. No.
                      examination by mr. bennett:
    Question. Fair question. Thank you, Mr. Ballen. Thank you, Ken.
    Moving on, then--one second, I'm sorry.
                      examination by mr. bennett:
    Question. Mr. Little was reminding me of one matter. At some point 
in time did someone explain to you why you were there at the March 1996 
event? At some point in time was it explained to you that it was a 
fund-raising event for the President and his reelection?
    Answer. I couldn't remember. Fund-raising--I cannot understand that 
at all. So it wasn't important to me to know. I only remember I was 
meeting the President. That's all I can remember. It was exciting.
    Question. Do you recall--I will follow up with another question. Do 
you recall Mayor Brown of San Francisco being there?
    Answer. Yes.
    Question. Did you get your picture taken with Mayor Brown?
    Answer. No, sir.
    Question. Was there any discussion about needing to attend the 
fund-raiser to show support for Mayor Brown or for President Clinton?
    Answer. I would assume if I was asked to attend a function, it will 
be showing support. I would assume that.
    Mr. Stevens. Well, he doesn't want you to assume. First, he wants 
you to tell him what you remember people saying to you.
                      examination by mr. bennett:
    Question. Did anyone talk to you about needing to have people in 
attendance for this event for Mayor Brown and for President Clinton?
    Answer. My brother might have said he would like to be there 
personally; since he couldn't, would I be there on his behalf.
    Question. But was there a discussion about trying to make sure 
there were people in attendance, that the more people, the better, was 
there that kind of conversation?
    Answer. I couldn't remember exactly.
    Question. All right.
    Now, directing your attention to August of 1996.
    [Foung Deposition Exhibit No. MF-6 was marked for identification.]
    [Foung Deposition Exhibit No. MF-7 was marked for identification.]
    [Foung Deposition Exhibit No. MF-8 was marked for identification.]
    Mr. Bennett. We can go off the record for a minute to help counsel 
with numbers.
    [Discussion off the record.]
                      examination by mr. bennett:
    Question. Directing your attention to August of 1996, I placed 
before you what has been marked as deposition Exhibit MF-6, which is, 
in fact, a copy of a $10,000 check made payable to the Birthday Victory 
Trust.
    Do you see that, Ms. Foung?
    Answer. Yes.
    Question. And, in fact, with respect to that check, did you attend 
any particular function in connection with that check?
    Answer. No.
    Question. And that check was prepared, again, at the request of 
your brother, Charlie Trie; is that right?
    Answer. Yes.
    Question. And, once again, you were immediately reimbursed for that 
$10,000; is that correct?
    Answer. Yes.
    Question. Now, going back to the specifics, approximately how soon 
prior to your preparing that check did you speak with your brother?
    Answer. I couldn't remember. Maybe the--the same day or the day 
before, maybe a couple days before.
    Question. And, again, he called you on the telephone?
    Answer. Yes.
    Question. Do you know where he was calling from?
    Answer. No, I don't.
    Question. Do you believe he was calling from overseas?
    Answer. I--I believe so, yes.
    Question. But you don't know what country he was calling from?
    Answer. No.
    Question. And exactly what was the nature of the conversation you 
had with your brother at that time?
    Answer. It was the same thing. That he needed a check to be in by a 
certain day; that he couldn't do it himself.
    Question. He could not write the check himself and needed someone 
else to write the check?
    Answer. Yeah, because he wasn't able to.
    Question. And did he indicate how soon this event was going to take 
place in connection with this check?
    Answer. No.
    Question. Did he make any reference to any deadline that he had to 
meet?
    Answer. Not in the exact words, but I was under the impression it 
has to be in by a certain date.
    Question. And did he ask you to do this immediately?
    Answer. Must be. Something like that.
    Question. And what was the understanding you had in terms of how 
quickly you were going to be reimbursed?
    Answer. I'm sorry?
    Question. What was your understanding as to how quickly you were 
going to be reimbursed for this $10,000 check?
    Answer. Was I or----
    Question. Yes, you indicated earlier that your brother indicated 
that he was going to, as he had in February, see that you got repaid 
for this; correct?
    Answer. Yes.
    Question. And what was your understanding as to how you were going 
to get repaid?
    Answer. No.
    Question. Do you know how quickly he was going to do it?
    Answer. Has to be--has to be fast enough to cover the check.
    Question. Because you didn't have the money in your account to 
cover that check?
    Answer. I guess not.
    Question. Now, I put these exhibits in front of you so you could 
look at them. MF-6 is the check itself for $10,000.
    Do you know how that check was delivered? Actually, strike that.
    First of all, you note on the bottom left-hand corner there is the 
word ``Federal'' written on that check?
    Answer. Yes.
    Question. Do you recall why the word ``Federal'' is written on the 
check?
    Answer. My brother told me to put it there.
    Question. In other words, in addition to writing the $10,000 check 
out, you were told to put ``Federal'' on the check? On the bottom left-
hand corner?
    Answer. Yes.
    Question. And that was at the request of your brother?
    Answer. Yes.
    Question. And do you know how this check was delivered or to whom 
it was delivered?
    Answer. I couldn't remember. Again, could be Federal Express or 
something. I don't know.
    Question. And I gather you don't recall exactly where you sent it; 
is that correct?
    Answer. No.
    Question. Okay. Would you have sent it wherever your brother told 
you to send it?
    Answer. Yes.
    Question. And apart from speaking with your brother, did you have 
any involvement or discussion with anyone else in connection with the 
Birthday Victory Trust? Did you talk to the people who were organizing 
the event, for example?
    Answer. No.
    Question. So wherever you sent it, it would have been at the 
instructions of your brother?
    Answer. Yes.
    Mr. Ballen. Excuse me; could I ask one follow-up question, please.
    Mr. Bennett. Sure. By the way, just for the record on this, until 
certain protocols are established, I don't want my willingness to allow 
Mr. Ballen to ask questions to in any way waive procedures that we may 
have established in previous depositions. But in the spirit of comity--
C-O-M-I-T-Y, not C-O-M-E-D-Y, as Congress Waxman would sometimes 
suggest--I have no objection to move this along to allow Mr. Ballen to 
quickly interject a question. Go ahead.
    Mr. Ballen. Thank you, Mr. Bennett.
    You indicated when your brother talked to you that he said he 
wasn't able to write the check himself? Did he tell you why?
    The Witness. Because he was traveling.
    Mr. Ballen. Okay. And that's why you believed he was overseas?
    The Witness. Yes.
    Mr. Ballen. Okay. Thank you.
    Mr. Bennett. Thank you.
                      examination by mr. bennett:
    Question. Continuing on.
    With respect to the repayment of this money, looking at MF-7, in 
fact there was a wire transfer, was there not, of money into your 
account at the Travis Federal Credit Union where a $10,000 deposit was 
made into your account almost the next day; is that correct?
    Answer. It appears to be.
    Question. And do you know the source of that $10,000 wire?
    Answer. No.
    Question. Do you know an individual named Ng Lap Seng, also known 
as Mr. Wu?
    Answer. No.
    Question. I'll get back to that in a minute.
    Do you recall any discussion about the money going back into your 
account, being wired back into your account the next day?
    Answer. What do you mean by ``discussion''?
    Question. Did anyone say to you: By the way, the wire was made 
today?
    Answer. No.
    Question. How did you find out that--unlike the February event 
where you received cashier's checks----
    Answer. Oh, I see what you are saying.
    Question [continuing]. Here you were reimbursed not by cashier's 
checks; you were reimbursed by a wire.
    Answer. That's correct.
    Question. And did anyone talk to you about the wire transfer going 
into your account?
    Answer. I think my brother asked my account number to prepare the 
money to wire to my account. Now, what I usually do is call the bank to 
verify, to make sure the check is covered. That was my only concern.
    Question. And, in fact, you called your bank to make sure that it 
had, in fact, been deposited; is that right?
    Answer. That's what I normally do if I am expecting something, I 
normally call.
    Question. And then looking at deposition Exhibit MF-8, in fact, 
that reflects both the wire transfer on August 15, 1996, into your 
account, and the debiting of your account on August 16 of $10,000; is 
that correct?
    Answer. It appears to be, according to this.
    Question. So this document reflects the transmission of funds in 
and out of your account with respect to that $10,000 check to the 
President's birthday party; is that correct--the Birthday Victory 
Trust; is that correct?
    Answer. Uh-huh.
    Question. I'm sorry; you didn't understand my question?
    Answer. What are you asking?
    Question. These two documents, MF-7 and MF-8, reflect the money 
going into your account and immediately out of your account at the 
request of your brother to cover this check, Birthday Victory Trust of 
$10,000; is that correct? To cover this check for the Birthday Victory 
Trust?
    Answer. Cover the check I wrote?
    Question. Yes.
    Answer. Yes.
    Question. Did you have any contacts with any other individual, 
apart from your brother, with respect to this $10,000 check and the 
transmission into your account the day before, or contemporaneous, the 
wire transfer, did you have any discussions with anybody else other 
than your brother, Charlie Trie, with respect to that matter?
    Answer. No.
    Question. And I don't want to get into the discussions you have had 
with your attorney subsequent to it, but with respect to that 
transaction, did you have any discussions with anyone else after you 
engaged in that transaction?
    Answer. No.
    Question. I'll get to the matter of Judd Best and the Democratic 
National Committee later, but around the time of the event----
    Answer. No.
    Question [continuing]. You didn't talk to anyone from the 
Democratic National Committee?
    Answer. No.
    Question. Did you talk about this matter with anyone in connection 
with the reelection campaign of President Clinton?
    Answer. I don't believe I talked to anyone at all.
    Question. And were you aware of the particular fund-raising event 
to which this related?
    Answer. No, I assume it was the birthday party; wasn't it?
    Question. That's right. And you don't know if anyone went in your 
place or anything else, correct?
    Answer. Not as I know of.
    Question. And, certainly, this event actually was in New York. You 
did not travel to New York to attend this yourself?
    Answer. No.
    Question. Now, Ms. Foung, let me ask you something. Have you ever 
met Senator Tom Daschle, a United States Senator?
    Answer. No.
    Mr. Bennett. Senator Daschle, for the record, is from what State?
    Mr. Ballen. South Dakota.
                      examination by mr. bennett:
    Question. Have you ever been to South Dakota?
    Answer. No.
    Question. Has anyone ever spoken to you about Senator Tom Daschle?
    Answer. Not as I can remember.
    Question. Do you know--your mother's name is E-Fong Do Trie; is 
that correct?
    Answer. Yes.
    Question. Am I pronouncing that correctly?
    Answer. Uh-huh.
    Question. To your knowledge, do you know whether or not your mother 
knows Senator Tom Daschle?
    Answer. I don't know.
    Question. Have you ever heard your mother mention Senator Tom 
Daschle?
    Answer. No.
    Question. The records of the Federal Elections Commission reflect 
that you contributed $1,000--reflect that there were two $1,000 checks 
written by you to Senator Tom Daschle on June 26th, 1995. Do you have 
any knowledge or recollection of writing one or two $1,000 checks to 
Senator Tom Daschle in June of 1995?
    Answer. I personally couldn't remember I did or I didn't.
    Question. Is it your belief that you would have written--according 
to the records of the Federal Elections Commission, reviewed by the 
committee--again, I'm not trying to accuse you of some impropriety, I 
am just trying to get to the facts. I don't know if somebody has used 
your name or whatever, that is why I am asking--that the records of the 
Federal Elections Commission reflect that there were two checks, each 
for $1,000, made payable to Senator Tom Daschle, both of them dated 
June 26th, 1995. Do you have any recollection of that?
    Answer. I cannot remember, same thing like I couldn't remember all 
those. How come they didn't get the bank records?
    Question. I'm going to get into that in a minute. Maybe your 
counsel can follow up. I don't have reason to believe that you knew 
about this. Frankly, I believe someone used your name, but I am just 
trying to get to the facts.
    Mr. Bennett. And the records also reflect one check from the 
mother, correct? Off the record.
    [Discussion off the record.]
                      examination by mr. bennett:
    Question. The records reviewed by the committee also reflect that 
your mother wrote a $1,000 check. E-Fong Do Trie is listed as having 
contributed $1,000 to Senator Tom Daschle also on June 26th, 1995.
    Do you have any recollection of talking with your mother about 
making contributions to Senator Tom Daschle?
    Answer. No.
    Question. Perhaps I can, in the interest of time--well, let me ask 
you this: Do you recall ever being solicited by anybody to make a 
contribution to Senator Daschle?
    Answer. I couldn't remember.
    Question. Okay. Maybe in the interest of time, Ms. Foung, I'll just 
ask that your attorney, at your convenience, check to see if you have 
any canceled checks or recollection of having made a contribution to 
Senator Daschle. And in the event that the answer is in the 
affirmative, your counsel can advise me. Does that sound appropriate?
    Mr. Stevens. Can we go off the record for a second?
    Mr. Bennett. Sure, off the record.
    [Discussion off the record.]
                      examination by mr. bennett:
    Question. Ms. Foung, I understand that you don't recall ever making 
those contributions, and for the record, I suggest that--I understand 
that. It is my belief, as I ask you these questions, that someone else 
used your name and that you did not in fact make these. I represent 
that to be my impression based on the review of FEC records.
    But the purpose of this deposition is not for me to state my 
opinion, but to try to find out what knowledge you have. And your 
attorney, Mr. Stevens, has indicated that he will see if you have any 
records or canceled checks that will in any way support the records of 
the Federal Elections Commission with respect to such donations.
    Do you understand that?
    Answer. Yes.
    Question. And I appreciate again, as always, your high level of 
cooperation with the committee on this matter.
    And again, just for purposes of the record, you don't recall having 
discussions with anyone from the Democratic National Committee 
concerning any contributions to Senator Tom Daschle of South Dakota; do 
you?
    Answer. No.
    Question. Who is Jim Outlaw?
    Answer. My brother-in-law.
    Question. And Dai Lin Outlaw is your sister; is that correct?
    Answer. That's correct.
    Question. She is the sister who resides in Virginia?
    Answer. Yes.
    Question. She is your only sister?
    Answer. Uh-huh.
    Question. Do you have any knowledge of your brother-in-law, Jim 
Outlaw, or your sister, Dai Lin Outlaw, giving $2,000, each of them, to 
Senator Daschle that same day, June 26th, 1995?
    Answer. I don't know.
    Question. So you have no knowledge at all whether or not they know 
Senator Daschle?
    Answer. No.
    Question. You have never had any discussions with your mother or--
strike that.
    Have you ever had any discussions with your mother or your sister 
or your brother-in-law concerning Senator Tom Daschle?
    Answer. No.
    Question. Who is Denise Outlaw?
    Answer. I don't know.
    Question. She is not a relation of Jim Outlaw or Dai Lin Outlaw?
    Answer. I don't know.
    Question. Do Jim and Dai Lin have any children?
    Answer. Yes.
    Question. And what are the names of the children?
    Answer. Michael and Elaine.
    Question. Do you know an individual named George Chu?
    Answer. No.
    Question. According to our review, he is an individual who 
purportedly went to school with your brother in Taiwan. But you don't 
have any knowledge of him?
    Answer. No.
    Question. Do you have any familiarity with a company known as Da 
Tung?
    Answer. How do you spell that?
    Question. D-A and then T-U-N-G.
    Answer. Yes.
    Question. And what knowledge do you have of that company?
    Answer. That's a very big company that makes rice maker. I use 
their rice maker, cooker.
    Question. That is located where?
    Answer. I don't know.
    Question. Is it here in California, though?
    Answer. I know they have a big factory in Taiwan. I don't know 
about here. They must have some distributor or something.
    Question. Do you know what contacts your brother has with that 
company?
    Answer. No.
    Question. Do you know whether your brother has any business with 
that company?
    Answer. I don't know.
    Question. Do you know an individual named Ernie Greene?
    Answer. No.
    Question. I'm going to go down a list of companies in terms of 
information you may or may not have, and I want you to take your time 
on this. I can assure you, Ms. Foung, the effort is to not trick you 
here. I am just trying to get facts in terms of if you have any 
knowledge of these companies or individuals?
    Answer. Okay.
    Question. And if, for example, on reflection during this time 
period before you get to review your transcript, if you may recall a 
connection, please let Mr. Stevens know if you can't recall now and 
subsequently you do.
    Answer. Okay.
    Question. Chy Corporation. Do you have knowledge of the Chy 
Corporation?
    Answer. No.
    Question. Do you know an individual named Tony Hsu, H-S-U?
    Answer. No.
    Question. Have you ever heard your brother mention Tony Hsu?
    Answer. No.
    Question. Do you know an individual named David Mercer?
    Answer. No.
    Question. Or Ari Swiller?
    Answer. No.
    Question. Do you know an individual named Martha Shoffner?
    Answer. No. Wait, wait, wait.
    Question. Let me give you some background on this. It may help.
    According to the information we have at the committee, your brother 
had an assistant at the Daihatsu Corporation and her name was Martha 
Shoffner. Does that ring a bell with you?
    Answer. It could be. Where does she work?
    Question. She did at one time work at the Daihatsu Corporation, 
until your brother went to Washington in August of 1994.
    Answer. I cannot be certain.
    Question. What about a woman named Keshi Zhan?
    Answer. No.
    Question. Martha Shoffner still now lives in Arkansas. Again, you 
don't have any recollection of Martha Shoffner?
    Answer. Did she ever work in Washington?
    Question. No, according to our information she's still in Arkansas.
    Answer. Then I don't.
    [Counsels confer.]
                      examination by mr. bennett:
    Question. Mr. Wilson advises me she might have. I don't know. 
Suffice it to say, you don't have any knowledge of Ms. Shoffner and 
don't recall meeting her?
    Answer. No.
    Question. What about an individual named Lorin Fleming who was the 
head of an electronics company in Arkansas and an acquaintance of your 
brother, according to our information.
    Answer. Yes.
    Question. How well do you know Ms. Fleming?
    Answer. Not very much. I think I met him once.
    Question. That is an individual--I'm sorry, a man named Fleming, 
Lorin Fleming?
    Answer. Yes.
    Question. Have you ever had any discussions with Mr. Fleming 
concerning your brother's business activities?
    Answer. No.
    Question. There is an individual who had Power of Attorney for 
several of your brother's bank accounts, and according to our 
information was your brother's bookkeeper at one time, an individual 
named Maria Mapili. Do you know Maria Mapili?
    Answer. Not by that name.
    Question. Do you know anyone named Maria who worked with your 
brother?
    Answer. No.
    Question. There was an assistant at the Daihatsu Corporation, your 
brother's corporation, Jody Webb; do you know Jody Webb?
    Answer. No.
    Question. There is a gentleman named Yue, Y-U-E, Fang, F-A-N-G, 
Chu, C-H-U. Do I know that individual?
    Answer. No, huh-uh.
    Question. There is an individual with whom your brother has done 
business according to the records of the subcommittee, named Ng Lap 
Seng, also know as Mr. Wu, and I think I asked you earlier about Mr. 
Wu. Do you recall, first of all, ever hearing his name?
    Answer. Not as I can remember. I was in Little Rock in 1994, late 
1994, I met a lot--I went to his office and met some staff.
    Question. You went to whose office?
    Answer. My brother's office. I met a bunch of people but I have no 
idea who they are and I don't remember any names.
    Question. I think I asked you about a woman named Keshi Zhan and 
you have no knowledge of her at all?
    Answer. Not that name, no.
    Question. Do you know an individual named Ming Chen?
    Answer. No.
    Question. How about Xiping Wang, X-I-P-I-N-G?
    Answer. No.
    Question. And I apologize to you if I mispronounce these names in 
any way.
    Answer. No, it's fine. All the people I know seems like they will 
be Mike, Dave, Bob. When you start spelling those, I don't know anybody 
that by that names, yes.
    Question. You're indicating to me--and if I'm misstating this 
correct me if I am wrong--you have met associates of your brothers who 
have been given first names such as Mike, Dave and Bob and you don't 
necessarily know their last names?
    Answer. No, just introduction, say, ``Hi,'' that was the end of it; 
never speak to them again, never seen them again.
    Question. Okay. Do you know an individual named Zhengwei Chang?
    Answer. No.
    Question. Charles Chiang?
    Answer. No.
    Question. There is an individual who according to our information 
signed for your brother's--strike that.
    Your brother signed for her apartment in Washington, a woman named 
Bei-Bei Liu?
    Answer. Never heard of her.
    Question. Okay. And how about Zhengkang Shao? Have you ever heard 
that name before?
    Answer. No.
    Question. Do you know any individuals at the Asia-America Trade 
Center in Hong Kong?
    Answer. No.
    Question. You don't know an individual named Peter Chen?
    Answer. I heard of his name, yes.
    Question. You heard of his name? From whom have you heard about Mr. 
Chen?
    Answer. He's a family friend.
    Question. He's a friend of the family's? Of your family's?
    Answer. Not mine, but my brother, sister. I think they know him.
    Question. Would he be from Arkansas?
    Answer. I don't know where he's from.
    Question. But do you recall ever meeting him?
    Answer. I think I met him once.
    Question. Do you know an individual here in the San Francisco area 
named Sy Zuan Pan?
    Answer. No.
    Question. How about Yogesh Gandhi?
    Answer. No. I would have remembered if I heard that name.
    Question. It is a name you would remember, I guess; is that right?
    Lottie Shackleford, a friend of your brother's from Arkansas?
    Answer. No.
    Question. Have you ever met a man--strike that.
    Have you ever heard your brother mention a name, Mark Middleton?
    Answer. No.
    Question. Have you ever met Mr. Middleton?
    Answer. No.
    Question. Have you ever been to Washington?
    Answer. No.
    Question. Then you have never attended any political or government 
events with your brother in the city of Washington?
    Answer. No.
    Question. Do you recall your brother being appointed to a 
commission with respect to international trade? I think it had the name 
Bingaman Commission. Do you recall anything in connection with your 
brother being appointed to a commission by President Clinton?
    Answer. I remember he was--there was a possibility to be appointed, 
but I don't know--I didn't follow up because it wasn't important to me.
    Question. Let me, if I can, get into another area now. At some 
point in time in connection with the $12,500 represented by Exhibit MF-
1 and the $10,000 represented by MF-6, at some point in time you had a 
series of discussions with representatives of the Democratic National 
Committee; didn't you?
    Answer. Yes.
    Question. And, in fact, Mr. Landon ultimately, as represented by 
his check, represented by MF-4, his $12,500 check, Mr. Landon received 
$12,500 back from the Democratic National Committee; isn't that 
correct?
    Answer. That's correct.
    Question. Have you ever received any money back from the Democratic 
National Committee?
    Answer. Not yet.
    Question. And you had discussions with people at the Democratic 
National Committee concerning getting the $22,500 returned to you; did 
you not?
    Answer. Yes.
    [Foung Deposition Exhibit No. MF-9 was marked for identification.]
                      examination by mr. bennett:
    Question. I show you what is marked as MF-9, which in fact are some 
telephone records reflecting some of the calls you have had to make to 
Washington, and according to our review of the numbers, you have, in 
fact, made calls to Washington seeking to have this money be returned 
to you; is that correct?
    Answer. Yes.
    Question. With whom have you spoken concerning--you have called the 
Democratic National Committee; is that correct?
    Answer. Yes.
    Question. And with whom have you spoken at the Democratic National 
Committee concerning the return of $22,500 to you for the two 
contributions that you made for which you were reimbursed by your 
brother? With whom have you spoken concerning those contributions?
    Answer. I recall at first it was Mr. Joe Sandler.
    Question. Joseph Sandler?
    Answer. Joseph Sandler, yes.
    Question. And how many times have you spoken with Mr. Sandler?
    Answer. Once or twice.
    Question. And did Mr. Sandler make any representations to you about 
money being returned to you?
    Answer. No. I couldn't remember. I don't think so.
    Question. Who else have you spoken with?
    Answer. He referred me to talk to the counsel, John Best.
    Question. Mr. Judah Best, Judd Best?
    Answer. Yes.
    Question. And how many conversations have you had with Mr. Best?
    Answer. I couldn't remember.
    Question. When was the last conversation you had with Mr. Best?
    Answer. The last conversation was right after the investigator 
left. I called him to let him know according to this record, the money 
was reimbursed me by the cashier's check, but I didn't remember 
previously.
    Question. And did Mr. Best accuse you of changing your story?
    Answer. Not so much accuse. I guess I didn't remember any detail, 
so my detail might be different.
    Question. I guess what I'm trying to--the point I'm trying to get 
to is that the Democratic National Committee determined to return 
$12,500 to Mr. Landon, correct?
    Answer. Say that again.
    Question. The Democratic National Committee returned $12,500 to Mr. 
Landon, correct?
    Answer. That's correct.
    Question. And they haven't returned any of the money to you?
    Answer. Yes--no, I mean.
    Question. That is correct, they have not returned any money to you; 
have they?
    Answer. That's correct.
    Question. And you have discussed that with Mr. Best or Mr. Sandler 
about their paying Mr. Landon $12 500, but not paying you $22,500 for 
your contributions.
    Have you had any discussions with Mr. Sandler or Mr. Best about 
that matter?
    Answer. No.
    Question. Have you discussed that you be reimbursed?
    Answer. Yes.
    Question. My point is when you asked to be reimbursed, what was the 
response?
    Answer. At first, he was asking me a question to see----
    Question. ``He'' being Mr.----
    Answer. Mr. Best.
    Question [continuing]. Best? Okay.
    Answer. To determine whether it should be refunded or not. And at 
first, I don't think I gave him the correct information, because I 
couldn't remember this $15,000 and my bank record does not reflect the 
twelve-five deposit, so I thought--I couldn't give him the exact on 
that part. And on the $10,000 wire, he say, yes, that should be refund. 
He will have to get back with me. He will talk to the DNC.
    Question. And that conversation was in August?
    Answer. I couldn't remember when.
    Mr. Stevens. Just tell him if you remember.
    The Witness. I couldn't remember.
                      examination by mr. bennett:
    Question. As you speak today, have you received any money back from 
the Democratic National Committee?
    Answer. Not yet.
    Question. Has anyone--did you at any time indicate to the 
Democratic National Committee that this money was not yours; in fact, 
it had been reimbursed to you by your brother or by some friends of 
your brothers?
    Answer. I did mention initially, according to my bank record, the 
money was wired to me. I did mention that to him. I couldn't remember 
this one, so I cannot tell him exactly what happened. And later on I 
did call back to confirm that according to the investigator, the 
record, that is what happened.
    Question. Do you know if Mr. Landon indicated to officials of the 
Democratic National Committee that the $12,500 was not his money?
    Answer. I--I don't know--I don't know.
    Question. I understand. Mr. Landon will be here. We will ask him.
    Answer. Yes, you will have to ask him.
    Question. I wondered if you had any knowledge of what he has said 
to the Democratic National Committee?
    Answer. I think he mentioned that he never spoke to anybody about 
it.
    Question. Has anyone from Ernst & Young, the accounting firm of 
Ernst & Young ever contacted you?
    Answer. Not as I can remember.
    Question. In connection with the Democratic National Committee?
    Answer. No.
    Question. Do you recall how Mr. Landon's contribution for which he 
was reimbursed by your brother, or friends of your brother, of $12,500, 
do you recall how that money was returned to him? Was it in the form of 
a check?
    Answer. I'm sorry?
    Question. Do you recall how the $12,500 returned to Mr. Landon, do 
you recall how it was returned to him?
    Answer. You mean from DNC?
    Question. Yes.
    Answer. I think it was a check.
    Question. Apart from contacts with the Democratic National 
Committee, and contacts with Mr. Little and investigators working with 
the Majority members of the committee, the Republican side of the 
committee, have you had contacts with those working with the Democrats 
on the committee, with the Minority on the committee prior to this 
morning?
    Answer. Mr. Ballen called me one time, asked to speak to my 
counsel, my attorney, and I didn't have one.
    Question. Apart from that one call from Mr. Ballen, any calls from 
any other representatives of the Democrats on the committee?
    Answer. No.
    Question. I meant to ask you about an individual at the DNC in 
addition to Mr. Sandler and Mr. Best named Steve Grossman. Have you 
ever spoken with Mr. Grossman?
    Answer. No. I spoke to somebody who answered the phone, but it 
wasn't him, I know. I know that.
    Question. Mr. Grossman is not answering the phone at the Democratic 
National Committee?
    Answer. No, he didn't answer the question.
    Question. No, I'm just kidding.
    Mr. Ballen. Excuse me, Dick, could I have a brief break?
    Mr. Bennett. I was going to say we are literally about to stop. We 
have been going for 2 hours or an hour and 45 minutes. Why don't we 
take a brief break for 10 minutes.
    [Brief Recess.]
                      examination by mr. bennett:
    Question. Ms. Foung, with respect to your contacts with individuals 
at the Democratic National Committee, do you recall speaking with 
anyone other than Mr. Best, Mr. Sandler, or Mr. Grossman, apart from 
someone who answered the telephone, but in terms of having any 
substantive discussions with anybody other than Best, Sandler, or 
Grossman?
    Mr. Stevens. I'm sorry; did she say she actually spoke to Grossman?
    The Witness. No, I never did spoke with him.
                      examination by mr. bennett:
    Question. I'm sorry. Besides Best and Sandler, you said you did not 
speak with Grossman but you spoke with someone who answered the phone?
    Answer. Yes.
    Question. But it was probably not Mr. Grossman?
    Answer. No, it wasn't.
    Question. Do you recall speaking with anyone else other than Best 
or Sandler?
    Answer. No.
    Question. You obviously had to make some phone calls. I mean, just 
in July alone there are a series of six phone calls, and I gather from 
your testimony you've had to make others.
    Have you been having sort of an engaging dialogue with the 
Democratic National Committee? I mean, looking at Exhibit MF-9, just in 
July there are a series of six phone calls in a period of 13 days. You 
also called the Democratic National Committee sometime in August after 
being interviewed by investigators; is that correct?
    Answer. That's correct.
    Question. How many times in August do you think you called to the 
Democratic National Committee?
    Answer. I couldn't remember. No, I never did call Democratic 
National Committee. I always talked to Mr. Best. But prior to talking 
to Mr. Best, I did call a couple of times.
    Question. Mr. Best is the lawyer for the Democratic National 
Committee?
    Answer. Right.
    Question. Let me ask you two questions. You called Mr. Best after 
meeting with investigators in August; is that correct?
    Answer. Yes.
    Question. And how many phone conversations have you had with Mr. 
Best since August?
    Answer. After talking to the investigator?
    Question. Yes.
    Answer. Only one time.
    Question. Have you talked to him within the last month?
    Answer. No.
    Question. To your knowledge since speaking with investigators, have 
you only spoken with Mr. Best one time?
    Answer. That's correct.
    Question. With respect to other representatives of the Democratic 
National Committee--and for the record, Mr. Best is the lawyer for the 
Democratic National Committee representing that group--how many 
conversations have you had with anybody else at the Democratic National 
Committee after speaking with investigators?
    Answer. None.
    Question. None? Okay. Since basically speaking with investigators, 
have you only had one conversation with Mr. Best and you have had no 
conversations with anyone else as a representative of the Democratic 
National Committee?
    Answer. That's correct.
    Question. How many phone calls do you think all told, in total, the 
total number of phone calls you have had with either Mr. Best or with 
any other representatives of the Democratic National Committee, total?
    Answer. I don't know. I couldn't remember.
    Question. Certainly we have the six reflected on Exhibit 9, plus 
the other one with Mr. Best, so there have been--there have been at 
least seven phone calls that you have had; is that correct?
    Mr. Stevens. I think that would assume that in each of these six 
phone calls on Exhibit MF-9 that she actually spoke with someone. I 
would note that a few of them are 30, 40, 60 cent telephone 
conversations. And in light of my knowledge of long distance rates, 
that would suggest to me that these were very brief----
    The Witness. Leave a message.
    Mr. Stevens. --leave-a-message type calls.
                      examination by mr. bennett:
    Question. Take a look at MF-9, if you would, Ms. Foung. The phone 
call on July 3rd lasted for a minute. Another phone call a minute later 
on July 3rd lasted for 2 minutes, but you don't have any recollection 
of the specifics of that phone call?
    Answer. Probably just left a message.
    Question. All right. And then the phone call, again looking at MF-
9, on July the 11th lasted for 6 minutes. Again, you don't recall the 
substance of that call?
    Answer. No, not at all.
    Question. And then there was a phone call on July 14th lasted 1 
minute, then another phone call a few minutes later on July 14th 
lasting for 5 minutes, but you don't recall the specifics of that call?
    Answer. The 5 minutes is probably the person who answered the 
phone. I have maybe had a brief----
    Question. How about July 16th, there was a 22-minute telephone 
call?
    Answer. That's Mr. Best's number.
    Question. Okay. And you believe that's the conversation----
    Answer. The initial----
    Question [continuing]. The lengthy conversation with Mr. Best at 
that time?
    Answer. Yes.
    Question. Okay. And you believe you have had--we don't have your 
records for August before us, but you recall that you did make one 
other phone call in August; is that right?
    Answer. That's correct.
    Question. What about the calls that you have received from the 
Democratic National Committee or from Mr. Best? You have in fact 
received calls from Mr. Best, haven't you? He's called you back on 
occasion; hasn't he?
    Answer. Yes, Mr. Sandler called me once and gave me Mr. Best's 
number. And so I was keeping in touch with Mr. Best.
    Question. How many times do you believe Mr. Best has called you?
    Answer. He called me once.
    Question. Has he called you more than once?
    Answer. No, just once.
    Question. Has any representative of the Democratic National 
Committee, apart from Mr. Sandler, ever called you?
    Answer. No.
    Question. And that was one time that he called you?
    Answer. Mr. Sandler? He called me once.
    Question. So again to be clear, Mr. Sandler has called you one 
time?
    Answer. Yes.
    Question. And Mr. Best has called you one time?
    Answer. Yes.
    Question. Okay. Now, let me get into the matter which obviously 
relates to why you're here, and that is your brother, Charlie Trie?
    Answer. Uh-huh.
    Question. When did your brother first immigrate to this country?
    Answer. I can't remember.
    Question. Your brother's 3 years older than you?
    Answer. Yes.
    Question. He was born in 1949; you were born in 1952.
    Answer. I was born 1952; I think he was born in '49. I don't know 
his birthday.
    Question. Okay. Do you recall how old you were--did you all come as 
a family? You all came as a family when you came to this country, 
correct?
    Answer. No.
    Question. You did not? I'm sorry.
    Answer. My sister came--I don't remember when, long, long, long 
time ago.
    Question. Is your sister, Dai Lin, older than you?
    Answer. Yes.
    Question. How much older, if you know, approximately?
    Answer. I don't.
    Question. I'm just trying to make sure I understand the arrival of 
your family. I know you said your father is deceased. When did your 
father die?
    Answer. When I was 13, so about 32 years ago.
    Question. Okay. He died here in this country, in the United States?
    Answer. No.
    Question. Did your father--I need to step back if we can in terms 
of your family history with respect to your brother and arrival.
    Answer. Okay.
    Question. Did your mother and father both immigrate to this 
country, or just your mother after your father's death?
    Answer. Just my mother.
    Question. Your father died in China?
    Answer. In Taiwan.
    Question. In Taiwan, I'm sorry.
    And then your mother immigrated to this country with how many 
children at the time?
    Answer. Three--we have three of us.
    Question. Three. So all three of you came with your mother when she 
came to this country?
    Answer. No.
    Question. If you will explain. I am trying to get the answer from 
you and I don't know how to do it with the questions I am asking. 
Perhaps you can tell me. Why don't you explain when did your mother 
come to this country?
    Answer. 1978 or '79.
    Question. And you were----
    Answer. 1978.
    Question. And she had adult children by that time?
    Answer. We were all adult, yes.
    Question. Okay. Then I'm just trying to clarify, then your mother 
did not come to this country with young children?
    Answer. No.
    Question. Your mother came in 1978 or '79, after all three of her 
children had already come to this country?
    Answer. That's correct.
    Question. Then let's step back. Correct me if I am wrong, I believe 
you indicated you first immigrated to this country when you were 25?
    Answer. Twenty-one, '73, yes.
    Question. In 1973. Your sister Dai Lin was already here?
    Answer. Yes.
    Question. Was your brother Charlie Trie already here?
    Answer. No.
    Question. Okay. Again, trying to go back over what you went over 
earlier this morning. Your brother came approximately 1973?
    Answer. '74 or '5 or '6, I can't remember.
    Question. And he went directly to Arkansas?
    Answer. Yes.
    Question. So your brother came from China and moved directly to the 
State of Arkansas?
    Answer. From Taiwan.
    Question. From Taiwan to Arkansas?
    Answer. That's correct.
    Question. And your sister was already there?
    Answer. Yes.
    Question. So when your brother came to this country, in the mid-
1970s, he went directly to Arkansas and I believe you indicated earlier 
he began working for or with your sister in her restaurant?
    Answer. I believe so.
    Question. Okay. And your brother would have been, in the mid-'70s 
he would have been late twenties, perhaps approaching 30 years of age; 
is that correct?
    Answer. Something like that, 20-something.
    Question. What is your brother's educational background?
    Answer. He graduated from high school in Taiwan. He was in some 
kind of engineering school, or something.
    Question. Do you know, did your brother ever go to college?
    Answer. I don't think so.
    Question. When your brother came to Arkansas in the mid to late 
'70s, there was a time period from 1977 to 1983 when you lived in 
Arkansas?
    Answer. Yes.
    Question. So you would see your brother with some frequency, at 
least during those 6 years; isn't that correct?
    Answer. Yes, I see him.
    Question. I mean, your sister and your brother and you were all 
living in the State of Arkansas?
    Answer. Right.
    Question. From 1977 to 1983?
    Answer. Yes.
    Question. And were you living in the Little Rock area?
    Answer. Uh-huh.
    Question. So you were all living in the same city?
    Answer. Yes, that's correct.
    Question. Incidentally, before I get--on the matters we discussed 
earlier this morning, the reimbursement to you for the $12,500 check 
and the $10,000 check, did you ever discuss with your brother the 
source of the repayment, where he got the money to reimburse you or 
where anyone got the money to reimburse you?
    Answer. No.
    Question. Okay. Do you have any knowledge of anybody, other than 
your brother, seeing that you got repaid?
    Answer. No.
    Question. Directing your attention to the period of time, the late 
1970s, mid to late 1970s, I wasn't clear this morning whether or not 
your brother ultimately took over the restaurant from your sister or 
established his own restaurant. Do you know?
    Answer. I remember at first he was working for my sister, then they 
were--opened a new restaurant as a partnership together.
    Question. Okay.
    Answer. Then after my sister moved to Virginia, I assumed he was on 
his own.
    Question. And how long was he in the restaurant business?
    Answer. Since he came here until he sold his business. I don't 
remember what year.
    Question. Up until the time he sold his business and went to 
Washington, he was in the restaurant business, correct?
    Answer. Yes.
    Question. And that would have been approximately up until, like, 
1994?
    Answer. I don't know. I don't remember.
    Question. Do you know--strike that.
    I think you previously indicated to the investigators that on some 
occasions--and correct me if I am wrong--you have indicated that on 
some evenings, receipts at the restaurant on a given evening might be 
made as political contributions to Governor Clinton for his re-election 
campaigns in Arkansas at your brother's restaurant.
    Do you recall making that statement?
    Answer. I remember saying something like that. But--I don't know--
--
    Question. Can you give me some facts on that?
    Answer. No, I don't have no facts. I don't remember. Probably just 
my brother had--or somebody might have mentioned something to me, but--
--
    Question. I understand. I just want to explore what your 
understanding of that was about.
    Do you believe that your brother's relationship with Governor 
Clinton was such that he was a political supporter of Governor Clinton 
in Arkansas?
    Answer. I don't know if political supporter at first. I think they 
were just friends. They played basketball together or something like 
that.
    Question. And how often would he play basketball with Governor 
Clinton?
    Answer. I don't know. See I moved away from Little Rock.
    Question. In 1983?
    Answer. 1983.
    Question. President Clinton was then the Governor of Arkansas?
    Answer. I don't know.
    Question. And your knowledge in terms of his playing basketball, I 
think that your brother--you have a niece named Darcy Trie; is that 
correct?
    Answer. Say that name again.
    Question. Do you have a niece named Darcy Trie?
    Answer. No.
    Question. What are the names of the children of your brother? I am 
sorry; does your brother have any children?
    Answer. He has one daughter.
    Question. What is her name?
    Answer. E-Mei.
    Question. E-Mei. I am sorry; I thought her nickname was Darcy Trie. 
She is actually a student at the University of Arkansas?
    Answer. That's correct.
    Question. And do you recall a relationship between your brother and 
President Clinton, then Governor Clinton, that would cause them to play 
basketball together?
    Answer. I think it was a comment that was made. I don't know. Just 
back in my mind seems like they played basketball together.
    Question. The simple fact is, then, that your brother, apart from 
the comment that the President made to you last year at the party in 
Hillsborough----
    Answer. Uh-huh.
    Question [continuing]. In terms of his friendship with your 
brother, your brother clearly considered President Clinton, then 
Governor Clinton, to be a friend; isn't that correct?
    Mr. Stevens. Don't speculate. It sounds like you are asking her to 
read someone else's mind.
                      examination by mr. bennett:
    Question. We will step back. I usually interpret people who play 
basketball together and are political supporters to be friends. And I'm 
asking you, given what the President of the United States said about 
his friendship with your brother, Ms. Foung, clearly there must have 
been some comments by your brother with respect to how he felt about 
Governor Clinton, if he played basketball with him. That's my question 
to you.
    Answer. Okay. Could I give you a little background?
    Question. I would like it. That would be fine.
    Answer. I have been away from Arkansas since 1983. And since 1983 
until now, I spoke to my brother maybe three times, four times a year. 
Mostly he will call me and say, how you doing? And half of the time it 
is answering machine, because I am working. So we have very little 
discussion on a lot of things, not to mention the President of the 
United States.
    So I really--I was under the impression that my brother and Mr. 
Clinton, they know each other. And he's very loyal to the President, 
and a supporter. But I really cannot tell you anything more.
    Question. What does the phrase ``lao ke'' mean?
    Answer. I don't understand what that is.
    Question. Again, if you don't, I will be up the creek because I 
don't. L-A-O, and then ke, K-E. It is my understanding that it is a 
term of endearment in the Chinese language, but obviously you would 
know that better than I.
    Mr. Stevens. ``Lao ke,'' does that mean anything to you at all?
    The Witness. No, no.
                      examination by mr. bennett:
    Question. Do you know exactly how Charlie Trie ever met Governor 
Clinton?
    Answer. No, I don't know.
    Question. Do you know the facts surrounding your brother's 
appointment to any boards? Apart from Federal boards in Washington, any 
State boards, for example the Fire Extinguisher Board? Do you have any 
knowledge of any of that?
    Answer. No.
    Question. Do you know exactly why he sold his restaurant business?
    Answer. Not really, but I was under the impression same reason--he 
got tired of, I guess. I don't know.
    Question. Do you know anything about the businesses that he went 
into after or he tried to establish after he sold his restaurant?
    Answer. I remember he was trying to manufacture some kind of a tool 
that somebody had a patent on it.
    Question. Do you know any of the specifics of whether he procured 
the patent or whether he manufactured the tool or not?
    Answer. I believe they got the patent.
    Question. Who's ``they''?
    Answer. My brother and somebody else. Whoever invented the tool.
    Question. Okay.
    Answer. And they were talking about going to China to have--
hopefully to have it manufactured there.
    Question. But you don't have any knowledge of that?
    Answer. No.
    Question. Do you have any knowledge of Daihatsu International 
Trading Company?
    Answer. Yes.
    Question. And what knowledge do you have of that company?
    Answer. Just the letterhead, the envelope.
    Question. Did you ever see the offices of Daihatsu International 
Trading Company?
    Answer. I seen the office. I don't know that that's what it is. 
Remember, I told you back in Christmas '94, I was in Little Rock 
visiting my mother. I visited his office.
    Question. Your brother's office?
    Answer. My brother's office.
    Question. And there was an office. Did you see the sign ``Daihatsu 
International Trading Company'' on the door?
    Answer. I didn't. I didn't see.
    Question. I understand. And do you know whether that business was 
successful or not?
    Answer. It looks very successful to me. It is a very impressive 
envelope and letterhead.
    Question. Apart from seeing the envelope and letterhead, did you 
see any offices?
    Answer. The office----
    Question. Did you go--you said you went to your brother's office?
    Answer. Yeah, the business office.
    Question. Did you see, were there many employees there?
    Answer. Yes.
    Question. Okay.
    Answer. I met at least 10 people, maybe. Big office.
    Question. And to your knowledge, this was the Daihatsu 
International Trading Company?
    Answer. I was under the impression.
    Question. Okay. I don't want you to speculate. I'm just trying to 
ask you. Do you know anything about San Kin Yip International? Does 
that name ring a bell to you?
    Answer. Not really.
    Question. How about America-Asia Trade Center, Incorporated?
    Answer. No.
    Question. Sanyou Science & Technology?
    Answer. No.
    Question. Premier Advertising?
    Answer. No.
    Question. Do you know if your brother has any family sources of 
income? Does your mother have a great deal of money that she gives you 
and your brother and your sister?
    Answer. No, I know my mother received some kind of something from 
the Chinese government for my father's death, some kind of death 
benefit.
    Question. And how long ago was that? Does she still receive such 
benefits?
    Answer. I'm not so sure. Maybe. I don't know.
    Question. I guess my question to you is in terms of----
    Answer. I think it was a yearly distribution or something, I don't 
know.
    Question. I understand. But apart from that, is your mother an 
independently wealthy woman?
    Answer. No.
    Question. And to your knowledge there is no family source of money 
that comes to your brother or to your sister or to you?
    Answer. Not to me.
    Question. And do you have any knowledge of your brother receiving 
money from your mother in terms of some family source of money?
    Answer. I don't know.
    Question. You don't have any knowledge of that?
    Answer. No.
    Question. Have you discussed with your brother at any time his 
involvement in the election and re-election campaigns of President 
Clinton in 1992 and 1996?
    Answer. Not at all.
    Question. And I gather that that would also apply with respect to 
Mrs. Clinton or any other members of the Clinton family? You have not 
discussed your brother's involvement with any of them at any time?
    Answer. No.
    Question. Do you have any knowledge as to why your brother moved to 
Washington in the summer of 1994?
    Answer. I didn't know he moved to Washington. As far as I know, he 
lived in Arkansas--I mean, his residence is in Arkansas.
    Question. Until when?
    Answer. Still now; isn't it?
    Question. As a matter of fact, I was going to ask you that.
    Answer. His house is in Arkansas, but he's out of the country the 
majority of the time.
    Question. When was the last time your brother was in the country?
    Answer. I don't know.
    Question. When's the last time you spoke with your brother?
    Mr. Stevens. In person or on the telephone?
                      examination by mr. bennett:
    Question. On the telephone.
    Answer. On the telephone? I think it was after I spoke to the 
investigator. He called me one night.
    Question. Okay. Do you know how your brother would have known that 
you spoke with an investigator?
    Answer. Because I told my mother. I asked my mother if my brother 
calls, please give me a call.
    Question. Let me ask you again. You spoke with investigators in the 
latter part of August last month; is that correct?
    Answer. Yes.
    Question. And then you called your mother?
    Answer. Yes, I didn't call her--I called her after I find out I 
have to go to Washington for a hearing.
    Question. And you spoke with your mother. And what conversation did 
you have with your mother concerning your brother?
    Answer. Basically how ridiculous the whole thing was--is--or was--
is.
    Question. And you spoke with your mother about that?
    Answer. Uh-huh.
    Question. And did you ask your mother to get in contact with your 
brother?
    Answer. I asked my mother if my brother calls her, have him give me 
a call. Because I'm really----
    Question. I understand.
    Answer [continuing]. Trying to find out what is going on.
    Question. Do you know if your mother has the telephone number for 
your brother where she can reach him if she desires?
    Answer. No.
    Question. You don't know the answer to that?
    Answer. I don't know the answer, but I don't think so.
    Question. She has to wait for your brother to call her?
    Answer. My mother rarely call us. We call her, any one of us.
    Question. Do you know if your mother has the ability to contact 
your brother in the event of a family emergency?
    Answer. I never asked that. But my brother calls my mother 
sometimes.
    Question. I am going to get into that in a minute. My question is, 
is there any member of your family that has the ability to contact your 
brother in the event of any kind of an emergency?
    Answer. I don't know. I only know I don't.
    Question. Do you know if your sister has the ability to contact 
your brother?
    Answer. I don't know.
    Question. Getting back to the matter of after you were notified 
that you may have to attend a hearing, in fact that was the earlier 
part of this month, wasn't it in September?
    Answer. Something like that. Has to be.
    Question. So in this month when an initial appearance had been 
scheduled for you before a hearing before the committee, you contacted 
your mother?
    Answer. Yes.
    Question. And you asked that the next time your brother called, 
that he call you?
    Answer. Yes.
    Question. And how soon after that conversation did your brother 
call you?
    Answer. A few days.
    Question. A few days later?
    Answer. Yes.
    Question. Where was he calling from?
    Answer. I don't know.
    Question. Do you know whether or not he was overseas? Do you have 
any idea?
    Answer. I believe he was--he didn't tell me. Did I ask him? I 
couldn't remember. I might have asked him, ``Where are you?''
    Question. And what did he say?
    Answer. I don't remember he said anything or not. Maybe he say 
Taiwan, maybe Singapore. I don't know.
    Question. But you believe you asked him where he was and you 
believe----
    Answer. I couldn't remember because our normal conversation 
whenever he calls me I always say, hey, where are you, where are you 
now? He will tell me San Francisco or Washington or Taiwan or China, 
Hong Kong, or wherever he was. But there is so many.
    Question. Certainly in this conversation in this month of 
September, he didn't indicate he was in San Francisco or Washington; 
did he?
    Answer. Oh, no, no. I believe he was overseas.
    Question. And did you ask him when he was coming back to this 
country?
    Answer. No, I didn't ask that. In fact, the conversation was very 
brief. He indicated he shouldn't be talking to me, because I am a 
potential witness. So he doesn't want to say anything to influence me.
    The only thing--the only reason he say he called is he recommend I 
speak to an attorney. That's basically the reason he called.
    Question. Did he indicate to you whether he had been speaking with 
anyone else, other than your mother, concerning your situation?
    Answer. Concerning my situation?
    Question. I guess, specifically, your brother called you?
    Answer. Uh-huh.
    Question. After you called your mother?
    Answer. Uh-huh.
    Question. Did your brother indicate to you that he had spoken with 
anybody else--strike that.
    Did your brother indicate to you that he had even spoken with your 
mother?
    Answer. I--we didn't discuss that, I would assume so, otherwise----
    Question. But you don't know?
    Answer. No, I don't know.
    Question. When he called, did he indicate that he was aware of the 
fact that you were about to be called before a hearing?
    Answer. Yes.
    Question. And did he indicate whether or not he had spoken with 
anybody about your being called for a hearing?
    Answer. I couldn't remember. Maybe--maybe he mentioned his attorney 
or something.
    Question. Do you believe he spoke with his attorney concerning your 
coming before the hearing?
    Answer. I don't know. He asked me to call--call attorney.
    Question. Let me ask you this, Ms. Foung. I want to get back to 
this conversation, but have there been any other conversations with 
your brother, apart from this conversation, this month?
    Answer. Oh, no. The last time I spoke to him I think was earlier in 
the year, February or March.
    Question. Well, obviously you spoke with him in August because you 
had the transaction with the $10,000 check.
    Mr. Ballen. '97?
                      examination by mr. bennett:
    Question. I'm sorry; excuse me, that was '96. So, you believe that 
prior to this phone call with your brother in September of this year, 
that the last time you would have spoken with him would have been 
February or March of 1997?
    Answer. That's correct.
    Question. And except for this one particular phone call, you have 
not spoken with him any other time?
    Answer. No, no.
    Question. Now, in terms of his knowledge of your having been called 
before a hearing, did he specifically say with whom he had spoken 
concerning your having been called?
    Answer. I think he did mention he had his attorney--he had spoken 
to his attorney.
    Question. And do you know whether he called his attorney or his 
attorney called him?
    Answer. That I don't know.
    Question. Did he indicate that he'd spoken with anyone else 
concerning your having been called?
    Answer. No, no.
    Question. And what exactly did he say to you in connection with 
your coming before the committee before a hearing?
    Answer. Like I said earlier, he said he cannot discuss anything me 
because I'm a potential witness, and I need to speak to attorney.
    Question. Did he recommend any particular attorney for you to see 
initially?
    Answer. No.
    Question. Did he indicate that he had spoken with anyone else about 
your seeing an attorney?
    Answer. No, the conversation was very brief.
    Question. Did he ask you if you had been asked any questions?
    Answer. No.
    Question. And he did not discuss the content of the statements you 
made to investigators?
    Answer. Not at all.
    Question. And you don't have any knowledge of any other individuals 
speaking with your brother?
    Answer. Say that again.
    Question. Do you have any knowledge of any other individuals 
speaking with your brother over the past 6 weeks?
    Answer. My other family members?
    Question. Any other people, family member or----
    Answer. Oh, no, I wouldn't know at all. My mother would be the only 
person that I would know that speak to my brother periodically.
    Question. And apart from your mother having spoken with him, you 
don't have any knowledge of anyone else having spoken with him?
    Answer. No, not at all.
    Question. Do you know what your brother's source of income is now?
    Answer. I don't.
    Question. Is his wife still living in this country?
    Answer. No.
    Question. His wife has also left?
    Answer. She's--she's always staying overseas the past few years.
    Question. Where does she reside?
    Answer. She--she go to Taiwan sometimes. She's in China sometimes. 
I don't know, I never keep track of that.
    Question. And what is her name, I'm sorry?
    Answer. Wa Mei.
    Question. And there is only one child of that marriage and that is 
Denise who goes to the University of Arkansas?
    Answer. Yes.
    Question. Okay. That is the only child?
    Answer. That I know of.
    Question. That you know of. I understand. I understand. I'm not 
going to get into that. Believe me. I'm not going to begin to get into 
that.
    To your knowledge that is the only child he has?
    Answer. That's correct.
    Question. Do you have any knowledge of his financial situation?
    Answer. No, not at all.
    Question. Would you know where your brother would have--I guess 
you've read all the reports about your brother and the large 
contributions that he made or sought to make?
    Answer. To be honest with you, I never did.
    Question. You say you have never read all the press reports about 
that?
    Answer. No, I never did.
    Question. Do you have any knowledge of where your brother would 
have access to hundreds of thousands of dollars?
    Answer. I don't know.
    Question. Do you know, has he ever mentioned the various political 
groups that he's been involved with or efforts in terms of Vote Now 
'96, or Defeat Proposition 209 here in California?
    Answer. Not at all. We never discussed.
    Question. Never discussed political matters with him?
    Answer. Never discussed political matters. I asked him, do you 
think Mr. Clinton's going to win? He feel confident he will. That is 
the extent of our discussion as far as political.
    Question. Have you ever discussed his foreign trips with him in 
terms of his frequency of foreign trips?
    Answer. Like I said earlier, we spoke to each other three, four 
times a year. And we really don't discuss much. I'm not that curious. 
I'm more concerned about my personal business.
    Question. Sure, I understand. Since 1993, you have spoken two, 
three or four times a year?
    Answer. Maybe more or less.
    Question. Has he spoken to you in terms of any of his person or 
business problems?
    Answer. No.
    Question. He hasn't discussed any financial matters with you or his 
financial matters or problems?
    Answer. No.
    Question. Have you ever had any knowledge of his being in financial 
trouble?
    Answer. No, but earlier in the year he told me that he would have 
to obtain an attorney and it is very expensive. As far as I know.
    Question. Have you ever loaned him any money?
    Answer. I might have in the past, but I couldn't remember.
    Question. In the last 2 years----
    Answer. Oh, no.
    Question [continuing]. Have you loaned him any money?
    Answer. No.
    Question. Are you aware of any times he has had to borrow money 
from any of his friends?
    Answer. No.
    Question. And you indicated you don't know who Mark Middleton is?
    Answer. No.
    Question. Would you know why Mr. Middleton might be giving your 
brother $5,000?
    Answer. I have no idea.
    Question. And you have never discussed that with your brother?
    Answer. No.
    Question. And you have never discuss Mr. Mark Middleton with your 
brother?
    Answer. No, I never know that person.
    Question. Has your brother ever discussed with you the group Suma 
Ching Hai?
    Answer. No.
    Question. How about in September of 1995? According to our records, 
your brother attended a conference, actually with Mrs. Clinton. Do you 
remember discussing that with him in any way?
    Answer. No.
    Question. And you have not discussed any of his business trips to 
China or Hong Kong with him?
    Answer. No.
    Question. Did he ever discuss with you his appointment to a 
Presidential commission in terms of people who assisted him in that 
regard?
    Answer. I think he mentioned something about they have a very 
thorough background check, so they might check me as a sister.
    Question. And did he speak to you about that?
    Answer. Maybe, yes, I think so.
    Question. And what kind of conversation--basically, what was the 
content of that discussion?
    Answer. I couldn't remember. It was something that I'm not 
interested in.
    Question. Okay. Did you ever discuss with him his effort to assist 
the Presidential Legal Expense Trust in terms of President Clinton's 
legal expenses and a trust created for that?
    Answer. No.
    Question. Have you ever discussed the late Secretary of State, a 
gentleman who died, a gentleman named Ron Brown?
    Answer. No. I saw on the TV.
    Question. That he died in the plane crash?
    Answer. That he died, yeah. That's all I know.
    Question. You never discussed Ron Brown with your brother?
    Answer. No.
    Question. Do you know of any contact which your brother has had 
with President Clinton over the last year?
    Answer. My brother's what?
    Question. Do you know of any contact which your brother has had 
with President Clinton in the last year?
    Answer. No.
    Question. Do you know if he has had any contact with President 
Clinton?
    Answer. I don't know. I have no interest in that. So I wouldn't--
the time he speak to me, the time is so precious, I wouldn't be asking 
something that I'm not interested.
    Question. I understand. Hold on just one second.
    Just a few things. One, you don't have any knowledge of your 
brother's financial affairs in terms of whether or not the restaurant 
was successful or not?
    Answer. I believe the restaurant was successful.
    Question. But you don't know----
    Answer. While the time I was there.
    Question. When you were there, from '77 to '83?
    Answer. Yes.
    Question. You don't know any financial facts in terms of his sale 
of the restaurant?
    Answer. No.
    Question. And with respect to your niece, the daughter of Dai Lin 
Outlaw, Elaine Outlaw, do you know how old she is now?
    Answer. 20-something.
    Question. Do you know where she works?
    Answer. No.
    Question. Do you know whether or not she's ever worked for the 
Democratic National Committee?
    Answer. Not as I know of.
    Question. Where does she presently live?
    Answer. Elaine?
    Question. Yes.
    Answer. I thought it was Virginia.
    Question. Do you know where in Virginia?
    Answer. No.
    Question. And with respect to your attendance at any political or 
business events with your brother, I gather from your answers you have 
not attended any political events with your brother?
    Answer. No.
    Question. Ever?
    Answer. Never, except the one in Hillsborough.
    Question. And he was not there, but you were there?
    Answer. No, he wasn't. No, never together.
    Question. Have you ever gone--has your brother ever shown you 
photographs of him with the members of the Clinton family?
    Answer. No. He showed me the picture of him and Mr. Clinton and 
himself.
    Question. Okay. And when was that? First of all, when did he show 
you the photograph?
    Answer. Years and years ago.
    Question. And this would have been when President Clinton was 
Governor Clinton or would have been when he was President Clinton?
    Answer. President. It would be between '90--I think it was in 
California; yeah, I was in California. So it would be after '90.
    Mr. Bennett. Hold on one second. Ms. Foung, I have no further 
questions. As I mentioned to you when we started, Mr. Ballen may have 
some questions. Maybe I will wind up.
    Ken, do you have any questions?
    Mr. Ballen. I do, if we could just take a moment before we begin. 
Maybe a 5-minute break. Thanks very much.
    [Brief Recess.]
                       examination by mr. ballen:
    Question. First of all, I want to very much thank you for coming 
here this morning. I realize this is an imposition on your time. And on 
behalf of the Democratic Members of the committee, I would like to 
thank you.
    I think your answers this morning have been very candid, very 
honest, very forthcoming. Sometimes what is not reflected in the bare 
record of a deposition is the effort a witness makes and the facial 
expressions a witness may make to try to search for the truth. And I 
think we would all agree, both my counterparts on the Republican side 
and your own attorney, that throughout this deposition you have 
searched your memory very carefully and tried to come forward with 
truthful and complete answers, and I think we all appreciate that.
    Answer. Thank you.
    Question. And, frankly, I'd like to say that based upon what you 
have said, we are not sure why at this point you are being called or 
your life is being put under the kind of microscope that it is.
    Mr. Bennett. Objection.
                       examination by mr. ballen:
    Question. Well, Mr. Bennett is entitled to his objection, but, we 
are not sure. We don't see, based upon the record, the necessity for 
that.
    But maybe can I go to a bottom line here, if you will. As I read to 
you earlier in this deposition, Mr. Bennett's boss, Chairman Burton 
from Indiana, has said that there may be a conspiracy of the Chinese 
government at work here and that your brother is part of it.
    I want to emphasize that there is no particular evidence of that 
fact, and the Democratic Members have seen no evidence to support it, 
but I want to ask you about your knowledge of that.
    Do you have any reason whatsoever to believe that your brother is 
an agent or a spy of the Government of China?
    Answer. No.
    Question. I notice you're smiling.
    Answer. I think it was ridiculous.
    Question. And why do you think it is ridiculous?
    Answer. Just knowing my brother for being a brother-sister for 40-
some years, that's not him.
    Question. And you see no evidence to indicate that?
    Answer. Oh, no, absolutely.
    Question. How about of the Government of Taiwan? Is there any 
evidence whatsoever to show that your brother may be an agent or spy of 
the Government of Taiwan?
    Answer. No.
    Question. Government of Indonesia?
    Answer. I don't believe so.
    Question. Do you have any reason whatsoever to believe that the 
money that your brother reimbursed you for on the contributions came 
from the Government of China or the Government of Taiwan?
    Answer. No. China and Taiwan both are friendly with the United 
States. Why would they wanted to have a spy or anything like that? It's 
something beyond my understanding.
    Question. Okay. As far as you know, I believe you testified the 
money that your brother gave you, you thought came from him?
    Answer. I believe so.
    Question. And you still believe that now?
    Answer. Yeah.
    Question. Because he was doing--he has his own businesses, correct?
    Answer. Yeah, I don't know anything otherwise.
    Question. I'm sorry?
    Answer. I don't know otherwise, of why it would be from anywhere 
else.
    Question. All right. So you knew he had a business, and you knew he 
asked you to make some contributions and he reimbursed you for the 
contributions?
    Answer. Yes. And I viewed it no different than if he's late for his 
PG&E bill and asked me to pay the money and he reimbursed me. To me it 
was the same thing and I didn't think anything of it.
    Question. And you didn't----
    Answer. I didn't explore any further. It was just something that 
was not that important to me.
    Question. And that's all you know?
    Answer. That's all I know, uh-huh.
    Mr. Stevens. Just in case, Counsel, don't appreciate the reference 
to PG&E, that's a utility company. The reference was to making a 
utility bill payment on a timely manner.
    The Witness. Or house payment. If he saw some way he couldn't make 
that check in time, he asked me to advance the check. To me it was no 
difference to me at the time.
                       examination by mr. ballen:
    Question. Because this was something he was interested in doing, 
make these contributions?
    Answer. Yeah. I wasn't.
    Question. And so he asked you to do it?
    Answer. Yeah.
    Question. And that's basically all you know about this whole 
affair?
    Answer. Right.
    Question. And because you know that, your life has been put into 
turmoil; hasn't it?
    Answer. It has been very, very difficult. Stressful, and a lot of 
worries. I lost a lot of money, financial loss and everything. It 
wasn't pleasant.
    Question. This has been quite an ordeal for you; hasn't it?
    Answer. Yes.
    Question. And you talk about worry and stress. Could you tell us 
about that a little bit, about what this has done to you?
    Answer. My job is on the line. It's very--because a word has been 
mentioned about I being used by my brother, which I don't believe is 
true. If he knew it would cost me--if something was wrong or something, 
he would not ever ask me to do it. He would not use me. He always do 
things for me in the past.
    And I'm worried about my job because of the negative publicity, and 
I'm worried about--prior to getting the immunity, I didn't know I was 
in violation of anything. And it turned out to be I could have faced 
jail time. I could have faced a big penalty that I couldn't afford. 
Who's going to take care of my son, you know? All those things just 
back and forth in my mind.
    Question. You are a single mother?
    Answer. Yes.
    Question. And when you have to come and give the deposition or meet 
with your lawyer or go to Washington, that's time away from your job?
    Answer. Yes.
    Question. And does that put your job in jeopardy in any way?
    Answer. More than in jeopardy.
    Question. How so?
    Answer. First of all, I am not getting paid for the time I'm away 
from my job, because it's not like a sick or something that is covered.
    Then I have to arrange all kinds of child care for my son. And at 
my job, I am the person responsible for that unit. If I'm not there, 
they have to hire overtime people, somebody has to be there, and it was 
my responsibility to take care of it. So I tried to always be 
dependable being there.
    Question. So in other words, these repeated inquiries from the 
committees, this is a real problem for you on your job?
    Answer. It hasn't been because in the past the investigator has 
been very accommodating toward my schedule, although I still have--
facing the graveyard, I still have to be up all night working and come 
back on days, and I couldn't rest. I have to worry about it. It was 
very stressful. It is what is in the future? What impact is going to be 
on my life, my job and everything?
    Question. Let me ask you this, I mean, if you had to go back to 
Washington----
    Answer. That's what I mean. That's my biggest concern.
    Question. What would that do for your job?
    Answer. First of all, my son is year-round school. October is their 
offtrack, so he has no school daytime then--so he'll be out of care for 
24 hours. I have to arrange 24-hour care for him, which will be very 
difficult.
    I'll be away from my job. Not only I don't get paid for, also I 
have been having a perfect attendance award for the past years I have 
been with [Employer's name] and I will have to lose that and I'm not 
willing to, because this job means a lot to me.
    Not only my whole family depends on this job, also I like the job 
very well. I like the people I work with. I like the people I work for. 
And that's, I guess, the most important thing to me.
    Question. So it's your hope that you don't have to come back?
    Answer. I hope, since I don't think I can offer information that 
they are looking for, I really think it is a waste of everybody's time 
for me to be there.
    Question. And more than a waste of time, you're talking about your 
son and your job and----
    Answer. My life, yes.
    Question [continuing]. Your life. The disruption that might occur 
as a result of that?
    Answer. And the negative publicity that probably can hurt me for a 
long time.
    Question. I see this has made you quite upset?
    Answer. Very upset, because I love my brother very much. And seems 
like I am kind of being made to hurt him or to against him. And for 
Chinese tradition, that is something you shouldn't be doing.
    But I'm here to tell the truth, and I told the truth. Whatever I 
know, has very little impact on the overall case. I just don't know why 
I'm being treated like somebody so important or something like that. I 
mean, I like the attention, but not this type.
    Mr. Stevens. But you could live without it?
    The Witness. Uh-huh.
                       examination by mr. ballen:
    Question. In fact, you would rather live without it?
    Answer. I rather this not happening.
    Mr. Ballen. Maybe we can clarify right now what the plans are for 
Ms. Foung. Do you know the plans whether to bring her back to 
Washington or not?
    Mr. Bennett. I have no intentions of telling you that, Mr. Ballen. 
I would like to know, first of all, when you say ``We're not sure why 
you are being called,'' just for the record, are you as a counsel for 
this committee saying that you are not sure? Is that what you think 
Congressman Waxman--or was that you as a lawyer for the committee?
    Mr. Ballen. Well, that's me as a lawyer. And if I talked to 
Congressman Waxman----
    Mr. Bennett. I have no doubt about Congressman Waxman's position. I 
am wondering if you as a lawyer are representing as a lawyer for the 
committee, that you are representing that you as a lawyer are not sure 
why this witness is being called.
    Mr. Ballen. Yes.
    Mr. Bennett. In response to that, we have two clear indications of 
the laundering of money through this witness by Charlie Trie. We also--
her brother. We also have indications that this witness's name was used 
illegally to make a contribution to a United States Senator.
    I'll wait until Mr. Barnett finishes, so I can address you. I want 
to make sure you hear me.
    It doesn't really strain my background to understand why it would 
be relevant for a witness to testify as to two clear violations of law 
committed by her brother who, incidentally, Ms. Foung, so you know, it 
was on national television with Tom Brokaw. Did you see your brother on 
national television?
    The Witness. No.
    Mr. Bennett. Your brother was seen on national television saying, I 
quote, ``They'll never find me.'' And he was interviewed on national 
television by Tom Brokaw of NBC News and it was a topic of a great deal 
discussion in terms of your brother's boast that he will never come 
back from China and that ``They'll never find me.''
    To put on record to this witness as lawyers, apart from the 
politics, as lawyers that you are not clear why the witness is being 
called, I must tell you, Ms. Foung, that the reason you are being 
called is because you were used--you did nothing wrong as far as we're 
concerned, but you are used by your brother with respect to two 
particular transactions.
    And before the committee, you will see that the $25,000 that came 
for the February payments, in fact, was placed in an account by an 
individual named Antonio Pan and within minutes of a $25,200 deposit, 
within minutes, $25,000 was taken out of that account and sent to you.
    So we're not going to sit and debate the entire case with you other 
than to tell you that we believe as lawyers for the Majority that those 
indications of a violation of law are a piece of the puzzle. No one is 
casting aspersions on you, but it is my judgment as a lawyer, and Mr. 
Wilson's judgment as a lawyer, totally apart from the politics of the 
situation, that the testimony is relevant.
    And we don't expect you to have any knowledge of any allegations 
about what your brother did or did not do in China. I don't know that 
you would have knowledge of that. But you may not have seen your 
brother on national television, but he was interviewed by Tom Brokaw, 
as I say, of NBC News, interviewed at length, and was the topic of a 
great deal of national discussion about his interview and the fact that 
the government would never find him. And it's because of that, and 
because of your involvement in these two transactions with your 
brother, as well as the other matters that have come to our attention, 
that we believe that you have relevant testimony to offer to the 
committee, because it is our job to present facts.
    So, my role here is not to get into a political debate over the 
merits of Republicans versus Democrats. We are here as lawyers trying 
to present evidence. And I apologize to you that to the extent that you 
have been inconvenienced, unfortunately many times when facts have to 
be brought to light, unwilling or unwitting participants are dragged 
into the process, and that is unfortunate.
    We are doing everything we can to minimize your inconvenience. We 
have two lawyers and an investigator for the Republican side of the 
committee and three lawyers for the Democratic side of the committee 
out of the committee's budget, all of whom have flown here to 
California to interview you because we wanted to make it convenient for 
you.
    I will tell you that we were asked to have you come to Washington 
earlier and do it in Washington. We've come out here. We are trying to 
make things as convenient to you as possible and I apologize for any 
inconvenience.
    So in response to Mr. Ballen's question about when we are going to 
tell him when you will be called, given the pattern of conduct on the 
part of some of the people with whom Mr. Ballen works, we will let you 
know as quickly as possible in terms of when you will be called before 
a hearing. But you will need to come before the committee. No one at 
the committee level, either Republican or Democrats, I don't believe is 
going to be yelling at you or casting aspersions on you.
    It is my professional judgment as a lawyer, totally apart from the 
politics of the matter, that I believe you have relevant testimony to 
offer. I can assure you that that judgment is made by me as a lawyer. 
It would be made by me as a lawyer whether I was an Independent, a 
Republican, a Socialist or a Democrat. And because of that, that is why 
you are being called. Do you understand that? I am trying to be as 
honest with you as I can be. My judgment as a lawyer is that you have 
relevant testimony as to offer and you will be called a witness and we 
regret the inconvenience.
    Are you finished with your questions, Mr. Ballen? I wanted to 
respond to your inquiry to me directly.
    Mr. Ballen. You haven't responded and I would like to know, sir, 
what is your basis, when the Democratic Members vote, and the committee 
voting unanimously to grant this witness immunity, what is your basis 
for not informing us and informing this witness when she is going to be 
called?
    Mr. Bennett. I will certainly, as soon as that decision----
    Mr. Ballen. Are you saying that you don't know?
    Mr. Bennett. I don't know yet. My point is that once I know the 
decision by the Chairman, and the Chairman advises me what his decision 
is about when she should be called, I will let you know within 2 
minutes, either this afternoon or tomorrow. And I will let Mr. Stevens 
know immediately. I can't represent to you the exact day. I have reason 
to believe it will be next week, but until that decision is made by the 
Chairman, I can't let you know that. So I can't respond to you on that.
    Mr. Barnett. We were advised last week that we would begin the 
hearings on the 7th, and then the 8th and the 9th would be days when 
Ms. Foung would testify. Has there been a change in the plans?
    Mr. Bennett. For the record, not having introduced himself for the 
record, that is Mr. Phil Barnett, Minority counsel who has just spoken. 
That is not a change in plans now. I believe that is the case, but I 
need to confirm that. We can probably confirm that before we leave Mr. 
Stevens' office here today. But I am not prepared to respond directly 
this minute in terms of the actual day. I have reason to believe that 
is correct, but I want to confirm that with the Chairman.
    Mr. Stevens. May I suggest that we finish with the questioning of 
Ms. Foung so she can get back to work? She was planning to get back to 
work. Her place of employment is waiting for her. And then we can 
continue this illuminating discussion----
    Mr. Ballen. I have no further questions.
    Mr. Bennett. I am just responding to a direct----
    Mr. Stevens. I appreciate that. I know you need to state your 
intentions.
    Mr. Bennett. I've not had a lawyer direct an inquiry to me like 
that on the record, so I want to make sure that the record is clear 
back in terms of that direct question of me.
    Mr. Stevens. I think it is wonderful that I don't have to go watch 
C-SPAN to hear these kinds of arguments.
    Mr. Bennett. Hopefully you will see lawyers conduct themselves as 
lawyers, and not on political side.
    Mr. Stevens. I appreciate that.
                      examination by mr. bennett:
    Question. And a quick question to you, Ms. Foung. I'm frankly 
surprised, you're not aware then of your brother's interview with NBC 
News?
    Answer. No.
    Question. Did you see the broadcast with Tom Brokaw?
    Answer. No, I wish----
    Question. I assumed you had seen that. Perhaps someone could get a 
tape of that for you and you could see it and see the manner in which 
he presented himself to the American public in terms of his response.
    Do you know when your brother might be coming back from China, Ms. 
Foung?
    Mr. Ballen. Objection. You're assuming she knows where he is.
                      examination by mr. bennett:
    Question. You can answer the question.
    Answer. I don't know.
    Question. Has your brother indicated to you, in light of his 
comment to Tom Brokaw of NBC News that, quote, ``They'll never find 
me,'' end of quote, and his intention to stay in China, do you know 
whether--has he ever made that representation to you or your mother 
that he does not intend to come back to this country?
    Answer. No.
    Mr. Bennett. I have no further questions.
    Do you have any further questions, Mr. Ballen?
    Mr. Ballen. No, I do not.
                      examination by mr. bennett:
    Question. Ms. Foung, you have a right, obviously, to review this 
transcript. We will see that we get a transcript to you as quickly as 
possible, and as I advised you at the start, you will have an 
opportunity to review the transcript with Mr. Stevens, and if there are 
any errors in transcription or what have you, we will make sure that 
you are given an opportunity to do that. And I thank you very much for 
your patience here today.
    Mr. Ballen. Did you have something you wanted to say?
    Mr. Stevens. Off the record for a second.
    [Discussion off the record.]
    Mr. Bennett. I don't want counsel to think I knew all the detail. 
We should note on the record that any reference to Ms. Foung's employer 
should be deleted and just reference to ``her employer.'' It need not 
name her specific employer and all such references shall be stricken, 
and I assume the court reporter will see that that is done.
    Mr. Stevens. Thank you very much. I appreciate that.
    [Whereupon, at 12:20 p.m., the deposition was concluded.]

    [The exhibits referred to follow:]
    [GRAPHIC] [TIFF OMITTED] 44833.007
    
    [GRAPHIC] [TIFF OMITTED] 44833.008
    
    [GRAPHIC] [TIFF OMITTED] 44833.009
    
    [GRAPHIC] [TIFF OMITTED] 44833.010
    
    [GRAPHIC] [TIFF OMITTED] 44833.011
    
    [GRAPHIC] [TIFF OMITTED] 44833.012
    
    [GRAPHIC] [TIFF OMITTED] 44833.013
    
    [GRAPHIC] [TIFF OMITTED] 44833.014
    
    [GRAPHIC] [TIFF OMITTED] 44833.015
    
    [GRAPHIC] [TIFF OMITTED] 44833.016
    
    [GRAPHIC] [TIFF OMITTED] 44833.017
    
    [GRAPHIC] [TIFF OMITTED] 44833.018
    
    [GRAPHIC] [TIFF OMITTED] 44833.019
    
    [GRAPHIC] [TIFF OMITTED] 44833.020
    
    [GRAPHIC] [TIFF OMITTED] 44833.021
    
    [GRAPHIC] [TIFF OMITTED] 44833.022
    
    [GRAPHIC] [TIFF OMITTED] 44833.023
    
                           Executive Session

      Committee on Government Reform and Oversight,
                             U.S. House of Representatives,
                                                    Washington, DC.
               DEPOSITION OF: JOSEPH RAYMOND LANDON, JR.
                                 Monday, September 29, 1997

    The deposition in the above matter was held in the offices of 
Charles J. Stevens, Esq., 400 Capitol Mall, Suite 1450, Sacramento, 
California, commencing at 1:20 p.m.
Appearances:
    Staff Present for the Government Reform and Oversight Committee: 
James C. Wilson, senior investigative counsel; Richard D. Bennett, 
special counsel; Charles F. Little, investigator; Kenneth Ballen, 
minority chief investigative counsel; Phil Barnett, minority chief 
counsel; and Christopher Lu, minority counsel.
For JOSEPH RAYMOND LANDON, JR.:
    CHARLES J. STEVENS, ESQ.
    Stevens & O'Connell
    400 Capitol Mall, Suite 1450
    Sacramento, California 95814

    Mr. Wilson. Mr. Landon, good morning. On behalf of the members of 
the Committee on Government Reform and Oversight, I thank you very much 
for coming here today.
    This proceeding is known as a deposition. The person transcribing 
the proceeding is a House reporter and notary public, and I'll now 
request that he place you under oath.

   THEREUPON, JOSEPH RAYMOND LANDON, JR., a witness, was called for 
 examination, and after having been first duly sworn, was examined and 
                         testified as follows:

    Mr. Wilson. I'd like to note for the record those who are present 
at the beginning of this deposition. My name is James Wilson. I'm the 
designated Majority counsel. Appearing with me today are Mr. Richard 
Bennett and Mr. Chuck Little.
    Mr. Landon is represented by Mr. Charles Stevens, and appearing on 
behalf of the Minority are Ken Ballen and Christopher Lu.
    Although this proceeding is being held in a somewhat informal 
atmosphere, because you have been placed under oath, your testimony 
here today has the same force and effect as if you were testifying 
before the committee or in a courtroom.
    If I ask you about conversations you have had in the past, and you 
are unable to recall the exact words, you may state that you are unable 
to recall the exact words, but then please give me the gist or 
substance of that conversation to the best of your recollection. If you 
recall only part of a conversation or only part of an event, please 
give me your best recollection of either the conversation or the event.
    If I ask you whether you have any information about a particular 
subject, and you have overheard conversations about that subject or 
have seen correspondence or documents about that subject, please tell 
me that you do have such information and tell me the source from which 
you derived such information.
    Before I begin questioning, I want to give you some background on 
the investigation and your appearance here.
    Pursuant to its authority under House Rules X and XI of the House 
of Representatives, the committee is engaged in a wide-ranging review 
of possible political fund-raising improprieties and possible 
violations of law. Pages 2 through 4 of House Report 105-139 summarize 
the investigation as of June 19, 1997, and describe new matters which 
have arisen in the course of this investigation. Also, pages 4 through 
11 of the report explain the background of the investigation. All 
questions related either directly or indirectly to these issues, or 
questions which have the tendency to make the existence of any 
pertinent fact more or less probable are proper.
    The committee has been granted specific authorization to conduct 
this deposition pursuant to House Resolution 167, which passed the full 
House of Representatives on June 20, 1997. The committee Rule 20 
outlines the ground rules for this deposition.
    The Majority and Minority counsels will ask you questions about the 
subject matter of this investigation. Majority counsel will ask 
questions first, and then when we are finished, Minority counsel will 
follow and ask whatever questions they have to ask at that time. After 
they have finished, a new round of questioning may begin.
    Pursuant to the committee's rules, you are allowed to have an 
attorney present, and as we mentioned at the beginning, you are 
accompanied today by Mr. Charles Stevens.
    Any objections raised during the course of the deposition shall be 
stated for the record. If the witness is instructed not to answer a 
question, or otherwise refuses to answer a question, the Majority and 
Minority counsel will confer to determine whether the objection is 
proper. If the Majority and Minority counsels agree that the question 
is proper, the witness will be asked to answer the question. If an 
objection is not withdrawn, the Chairman or a Member designated by the 
Chairman may decide whether the objection is proper.
    This deposition is considered as taken in executive session of the 
committee, which means that it may not be made public without the 
consent of the committee pursuant to clause 2(k)(7) of House Rule XI. 
You are asked to abide by the rules of the House and not discuss with 
anyone other than your attorney this deposition and the issues and 
questions raised during this proceeding.
    Finally, no later than 5 days after your testimony is transcribed 
and you have been notified that your testimony is available, you may 
submit suggested changes to the Chairman. Practically speaking, the 
transcripts will be turned around very quickly. I imagine we will be 
able to Federal Express a copy of the transcript to Mr. Stevens within 
a day or two, and you will have an opportunity to review the deposition 
to ensure that the statements you made are correct.
    The committee staff may make any typographical or technical changes 
requested by you. Substantive changes or modifications, clarifications 
or amendments to the deposition transcript submitted by you must be 
accompanied by a letter requesting the changes and a statement of your 
reasons for the proposed changes. A letter requesting substantive 
changes or modifications must be signed by you. Any substantive 
changes, modifications clarifications or amendments will be included as 
an appendix to the transcript of the deposition conditioned upon your 
signing of the transcript.
    Do you understand everything we have gone over so far?
    The Witness. Good enough.
    Mr. Wilson. Are there any other statements or observations to be 
made?
    Mr. Ballen. Yes, I do have a brief statement. Thank you very much.
    Mr. Landon, on behalf of the Democratic Members of the committee, I 
want to thank you for being here today. I represent the Democratic 
Members of the Committee on Government Reform and Oversight.
    As you may know, every committee in the Congress is represented by 
two parties, the Democratic Party and the Republican Party, and the 
Republican Party is in the Majority and in control of the committee in 
terms of deciding what witnesses to call and what hearings to have. And 
Mr. Wilson and Mr. Bennett represent the Republican Majority.
    I do not represent either the Democratic National Committee or the 
current administration, but simply Democrat Members of the House who 
sit on our committee. Some of them you might be familiar with are from 
California. Our Ranking Member is Mr. Waxman from Los Angeles. We have 
other Members from this area, Gary Condit and Mr. Tom Lantos from the 
Bay Area.
    We want to take this opportunity at the outset to apologize because 
we know this has been an inconvenience on your time and your life.
    I don't know what, if anything, you have been informed, but 
certainly if you have any questions, what the nature of any proceedings 
might be if you have to come back to Washington in terms of testifying 
in a committee room with some 40-odd Members of Congress, and possibly 
television cameras or reporters or things along those lines, so if you 
have any questions in that regard, we would be happy to help, and 
certainly from our point of view, we will try to make this process as 
painless and as simple as possible in terms of what is in our control.
    The Witness. Okay.
    Mr. Wilson. I will be asking you questions concerning the subject 
matter of this investigation.
    Do you understand?
    The Witness. Yes.
    Mr. Wilson. If you don't understand a question, please say so, and 
I will repeat it or rephrase it so that you do understand the question.
    Do you understand that you should tell me if you don't understand 
my question?
    The Witness. Okay.
    Mr. Wilson. The reporter will be taking down everything that we say 
and will make a written record of the deposition, and I'd ask to you 
give verbal and audible answers so that the reporter can adequately 
transcribe all that takes place today.
    The Witness. Okay.
    Mr. Wilson. If you can't hear me, please say so, and I will repeat 
the question or have the court reporter read the question back to you.
    Do you understand that?
    The Witness. Yes.
    Mr. Wilson. Please wait until I finish each question before 
answering, and I'll try to wait until you finish your answer before I 
ask the next question.
    Do you understand that this will help the reporter make a clear 
record of the questions and answers today?
    The Witness. Yes, sir.
    Mr. Wilson. Your testimony is being taken under oath as if we were 
in court, and if you answer a question, it will be assumed that you 
understood the question and the answer was intended to be responsive to 
it.
    Do you understand that?
    The Witness. Yes.
    Mr. Wilson. And it's my understanding that you are here voluntarily 
today; is that correct?
    The Witness. That's correct.
    Mr. Wilson. Do you have any questions about this deposition before 
we begin the substantive portion of the proceedings?
    The Witness. Nope.
                       examination by mr. wilson:
    Question. Just to begin, I'd like to ask you a few background 
questions for the record.
    Could you please state your full name and spell it for the record?
    Answer. Joseph Raymond Landon, Jr.
    Question. And what was your birthdate?
    Answer. 3/27/49.
    Question. And if you could, give me a brief explanation of your 
employment history from the time of secondary school until the 
present--high school until the present.
    Answer. Out of high school I worked for a couple of electrical 
companies. Then I went down to the Navy, talked to the recruiter. And 
just so happens that the Army sent me a draft notice, and the next day 
I was supposed to go to the Navy, so I spent 20 years in the military; 
20 years and 3 months. After the military I worked two technical jobs 
on the outside. I retired in '89.
    Question. You retired from the military in 1989?
    Answer. Correct.
    Question. And where did you live when you were working with the 
military?
    Answer. After boot camp I was stationed in Georgia, Rhode Island; 
spent a few years in Antarctica. I was on the USS Midway, the Coral 
Sea, the USS California. I was stationed in Mare Island for a few 
years, I taught there, and I got out in Alameda.
    Question. And Alameda was your final posting?
    Answer. It was final. I was on the USS California there.
    Question. And after you retired in 1989, where did you work up 
until the present?
    Answer. I worked for George Martin Engineering Company, Mar Wais 
Steel, Current Affairs Electric. I had a bunch of temporary jobs, small 
jobs, and I'm currently with [Employer's Name].
    Mr. Stevens. Do we have the same stipulations?
    Mr. Wilson. Yes, if we could go off the record for a moment.
    [Discussion off the record.]
    Mr. Wilson. We just had a conversation about Mr. Landon's 
employment, and it's agreed by all present that his employer will not 
appear in the transcript of this deposition if possible. Please insert 
``his employer'' if that subject does come up again.
                       examination by mr. wilson:
    Question. Now, from 1989 to the present, where did you live in the 
different positions you have had?
    Answer. '89 to present? Up to '89, I was in the barracks. Then I 
lived in Vallejo from 1986 to present. I've also lived with Ms. Foung 
in Cordelia.
    Question. When did you first meet Ms. Foung?
    Answer. I think it was '94.
    Question. Okay. Prior to 1996, had you ever made any political 
contributions?
    Answer. No. I think it's only a dollar or whatever on the 1040.
    Question. Had you ever participated in any political activities or 
political campaigns?
    Answer. No. I don't talk good enough for that.
    Mr. Wilson. I'm providing the witness with a document which has 
been marked Exhibit JL-1.
    [Landon Deposition Exhibit No. JL-1 was marked for identification.]

    [Note.--All exhibits referred to may be found at end of 
deposition on p. 89.]
                       examination by mr. wilson:
    Question. And if you would take just a moment to review this. Let 
me just explain what it is. It is a one-page copy of a check, and then 
at the bottom of the page there is what is headed ``Check Tracking 
Form,'' and it is a document that was provided to this committee by the 
Democratic National Committee, and it represents some background 
information on the check and the contribution that appears to be made 
by Mr. Landon.
    Bearing in mind it's very difficult to see this check, do you 
recall writing a check to the DNC on February 19, 1996?
    Answer. Yes, sir.
    Question. Just if you could, give me the general background to why 
you came to write this check to the DNC in February of 1996.
    Answer. Ms. Foung asked if I would. I did it as a favor to her.
    Question. And beyond that, were you aware at the time of why she 
asked you to write this check?
    Answer. No, sir, at the time I didn't even know what the DNC was.
    Question. Have you had any subsequent conversations, any 
conversations since you wrote this check, about why she asked you to 
write the check to the DNC?
    Answer. She said it was for a function in Washington for someone 
overseas. I assumed at the time it was her brother, but I wasn't 
positive.
    Question. Did she mention to you around the time that you wrote 
this check that it had something to do with her brother?
    Answer. No.
    Question. Did you have an understanding, did you know whether or 
not in February of 1996 that you would be reimbursed for this check?
    Answer. She told me I would be.
    Question. And what did she tell you?
    Answer. Well, she said if I write, I could be reimbursed within a 
couple of days.
    Question. Do you recall whether she gave you any explanation about 
why you would be writing a check and you would be reimbursed a few days 
later?
    Answer. No.
    Question. Did you ask her any questions about why she wanted you to 
write the check and then you would be reimbursed right afterwards?
    Answer. No, I figured that was her business.
    Question. Now, once you wrote this check, if you could, again, just 
give me a description how you were reimbursed for the check that you 
had written.
    Answer. It was two $5,000 checks and $2,500.
    Question. Actually I'll show you in a moment some checks just to 
help us walk through this process, but before you actually got the 
checks, or before you were, in fact, paid back, were there any 
conversations during which you discussed how you were going to be 
reimbursed?
    Answer. How?
    Question. Yes.
    Answer. No, she just told me I would be.
    Question. So it's fair to say she told you you would be reimbursed 
if you wrote the check, and you expected that to happen?
    Answer. Yes.
    Question. Apart from Ms. Foung making the request for you to write 
this check, do you remember any other names that came up at the time? 
Did she describe anything else about this check or this contribution 
beyond what you have told us so far?
    Answer. No, she just said it's something to do with the Democrats, 
because I asked her what the DNC was. I didn't know. And she said it's 
just something to do with the Democrats.
    Question. Do you know whether she had had any conversations with 
anybody affiliated with the DNC----
    Answer. No.
    Question [continuing]. Before that?
    Answer. No.
    Mr. Wilson. I'm giving Mr. Landon a document which has been marked 
JL-2 for the record. It is a copy of two cashier's checks from the 
Amerasia Bank. And if you could take just a moment to review that.
    [Landon Deposition Exhibit No. JL-2 was marked for identification.]
                       examination by mr. wilson:
    Question. Do you remember how you received these checks?
    Answer. They were given to me by Ms. Foung.
    Question. Do you know how she got the checks?
    Answer. No.
    Question. Did she tell you at any time whether it was by mail or 
delivery or anything about how she got the checks?
    Answer. No, she just gave me the checks.
    Question. Now, when she gave you these checks, you had previously 
written a check for $12,500, and the two checks that have your name on 
them are for a total of $10,000, two $5,000 checks. Did you have any 
discussions with her about the balance of your contribution? What was 
your understanding of how you would get paid the balance of the 
contribution you had made?
    Answer. She gave me the difference. There was two $5,000 checks, 
and then $2,500 she gave me.
    Question. And how did she give you that?
    Answer. I think it was a check, her personal check.
    Question. Had you had any discussions about the reimbursement or 
the circumstances of the reimbursement before she got the checks and 
gave you the two $5,000? Actually what I'm trying to find out is did 
the $2,500 come to you about the same time as these two $5,000 checks?
    Answer. Yeah. She handed me those two and I'm pretty sure a 
personal check for $2,500 all about the same time.
    Question. So you were--just going back over what we've looked at, 
you wrote a check on February 19 of 1996, and you received a check from 
Amerasia Bank on February 22nd of 1996. So you were reimbursed right 
after the time that you wrote the check originally?
    Answer. Yes, just a couple of days.
    Question. Speaking about or just turning your attention to that 
same time period, did you know whether Ms. Foung also made a 
contribution to the DNC?
    Answer. I think she did.
    Question. And did you have any discussions with her about whether 
she was making a contribution to the DNC?
    Answer. If she was?
    Question. Making a contribution in February of 1996?
    Answer. No, no.
    Question. Did you know that she also wrote a $12,500 check to the 
DNC?
    Answer. She told me that she did.
    Question. Did she tell you that at same time that she was asking to 
you write your check?
    Answer. She might have. I don't remember for sure.
    Question. Do you remember when you first knew that she was going to 
be making a contribution in the same amount that you were making the 
contribution?
    Answer. She didn't tell me what amount, if any, she was going to 
write it for.
    Question. But it's fair to say you knew that approximately the same 
time that you were writing your check that she was going to be doing 
the same thing?
    Answer. Yes.
    Question. And was it your understanding that she was also going to 
be reimbursed for the check that she wrote?
    Answer. That I don't know.
    Question. I won't spend too much longer on this, but you wrote a 
check for $12,500, and you had the understanding that you would be 
reimbursed. Did you have--do you recall when you first, if you ever 
did, have a conversation with her when you found out that she was going 
to get paid back for her contribution?
    Answer. My only concern was covering my check. She said, yes, that 
she was to get reimbursed.
    Question. Do you know whether she had--I mean, do you know whether 
she had concerns about covering the check that she wrote?
    Answer. That I don't know.
    Question. When you wrote your check on February 19 of 1996, was 
there enough money in your bank account to cover the $12,500 check?
    Answer. No, there wasn't.
    Question. Did you have any conversations with her about there not 
being enough money in your bank account to cover the $12,500 check?
    Answer. I told her that I didn't, but she said just there's a time 
period in there, and they just wanted to write the check just so it 
would be at a Washington function, and it would be reimbursed before 
the check was cashed.
    Question. Did she tell you then that your check would be held for a 
period of a few days?
    Answer. That I don't know--well, she figured there would probably 
be a few days before it was cashed, so I shouldn't have any problem 
covering the check.
    Question. How--do you know how your check was forwarded on to the 
DNC? Was it sent by mail or Federal Express or?
    Answer. I don't know.
    Question. Do you know whether somebody picked it up or somebody did 
not pick it up?
    Answer. I have no idea.
    Question. Have you ever met an individual named Antonio Pan? The 
last name is spelled P-A-N?
    Answer. No.
    Question. In February of 1996, apart from your conversations with 
Ms. Foung about you writing the check, had you had any conversations 
with anybody about making a contribution to the DNC?
    Answer. No.
    Question. Later in the year, in August of 1996, Ms. Foung made a 
second contribution, a second contribution for her, to the DNC, and it 
was for an amount of $10,000. Did you have any conversations with Ms. 
Foung about the second contribution that she made to the DNC?
    Answer. No.
    Question. Did you know that she made a second contribution to the 
DNC?
    Answer. No.
    Question. Between February and August of 1996--actually let me make 
that a little bit less broad.
    After you had written your check for $12,500, and after you had 
been reimbursed, did you have any other conversations with Ms. Foung 
about that check, about that process?
    Answer. No. I didn't care.
    Question. Well, come to the present, actually. Let's take it right 
to the present then. When did you first become aware that there might 
be an issue about the whole process of you writing the check and then 
you getting reimbursed for the check?
    Answer. I think it was the newspaper or something said that they 
were returning checks to certain people. I'm pretty sure it was the 
newspaper. I read it in the newspaper.
    Question. Something that you saw in the newspaper?
    Answer. Yeah.
    Question. And do you recall approximately when that might have 
been? Not the day, but the month is fine.
    Answer. End of '96. Yeah, somewhere around the end of '96.
    Question. Did you ever--before you saw something in the newspaper, 
did you ever get any telephone calls, or did anybody ever make any 
inquiry of you about these checks?
    Answer. Somebody called me at work. They said they were from the 
Washington newspaper. I don't know if it was the Post, the Times, or 
something.
    Question. And when was that?
    Answer. About February of this year.
    Question. Do you remember whether they told you their name?
    Answer. They told me the name, but I'm not sure. I could only guess 
right now. I think it was an Asian name, but I'm not sure who it was.
    Question. At the time when they called you on the phone, did you 
make any notes, or did you write anything down?
    Answer. No, they left it on one of those memo pads and asked if I'd 
call an 800 number somewhere back in Washington.
    Question. I'll return in a minute to maybe some other contacts, but 
have you ever had any discussions with Ms. Foung about any other 
political contributions that she might have made?
    Answer. No.
    Question. I should simplify that question and actually make it easy 
for everybody to understand. Do you know whether she made any other 
political contributions apart from--I just mentioned two. She made one 
in February and she made one in August. Do you know of her ever having 
made any other political contributions?
    Answer. No, she didn't mention anything.
    Question. Has she ever mentioned contributions to Senator Tom 
Daschle?
    Answer. No.
    Question. Have you ever heard her mention that name before?
    Answer. I have no idea who he is.
    Question. Going back into 1996, and I think I've asked you this, so 
bear with me if I have asked in this form, but did you get any calls or 
contacts at all in 1996 about the check that you wrote to the DNC?
    Answer. Nothing.
    Question. Do you know whether Ms. Foung got any telephone calls or 
letters or any inquiry of any sort about the contributions that she had 
made to the DNC?
    Answer. No.
    Question. Have you ever met any of Ms. Foung's relatives?
    Answer. Her mother and her brother. I met him twice. Twice--maybe 
three times, but I know of twice.
    Question. And when and where did you meet? When you say ``her 
brother,'' you are referring to Yah Lin Trie, who is known as Charlie 
Trie?
    Answer. Yeah.
    Question. When did you meet him, and where did you meet him?
    Answer. He came by her home Christmas one year. I can't remember 
what--I'm not sure if it was this year. I know when he was there, I had 
to work, so I'm not sure if it was '95 or '96. And the other time is he 
flew into San Francisco, and we went down there. I think it was in '95. 
Might have been '94.
    Question. And do you know why he flew into San Francisco?
    Answer. No.
    Question. How long did you spend with him on that occasion?
    Answer. In San Francisco?
    Question. Yes.
    Answer. There were--he had some people with him, but she didn't 
talk to him too much. I mean, what they talked about, I have no idea.
    Mr. Stevens. He just asked you approximately how much time you 
spent with Charlie on that visit.
    The Witness. Oh, with Charlie? Two minutes.
                       examination by mr. wilson:
    Question. And where was it that you met Mr. Trie and the people 
that were with Mr. Trie?
    Answer. It was a hotel in San Francisco. Which one, I don't 
remember.
    Question. Apart from meeting at the hotel, did you do anything with 
them at that time?
    Answer. We drove around; the beach, Golden Gate Park.
    Question. Was this--I don't want to put words in your mouth, but 
was it a sightseeing type of visit?
    Answer. Yeah.
    Question. Were they there for business as far as you knew?
    Answer. No.
    Question. And who all ended up driving around?
    Answer. I drove.
    Question. So you drove. Who else was in the car?
    Answer. A few other people. Ms. Foung and some other people.
    Question. And one of them was Mr. Trie, Charlie Trie?
    Answer. No, he wasn't in that car.
    Question. Do you remember the names of any of the people that were 
in the car?
    Answer. I have no idea.
    Question. Where was Mr. Trie?
    Answer. He stayed at the hotel. Yeah, he stayed at the hotel. We 
just drove around to different--I think it was Golden Gate Park and the 
beach.
    Question. Do you remember the relationship of Mr. Trie to the 
people that he was with?
    Answer. No.
    Question. You mentioned that you have met Ms. Foung's mother on one 
occasion. Where was that?
    Answer. She's come to visit a couple of different times. She came 
Christmas one year, and she came to her home last year sometime.
    Question. Have you ever met Ms. Trie's--or Ms. Foung's sister whose 
name is Dai Lin?
    Answer. Once. Yeah, I'm sure once.
    Question. Where was that?
    Answer. I met her in--I met her in Las Vegas. We were going to make 
a trip over there, and she said he would be there.
    Question. And was she there by herself, or did she have family 
members with her?
    Answer. I think her mother was with her. Yeah, her mother was with 
her.
    Question. Was her husband with her at that time?
    Answer. No.
    Question. Have you ever met Ms. Outlaw's, Ms. Dai Lin Outlaw's, 
children?
    Answer. Not that I know of, no.
    Question. Do you know whether Ms. Foung has ever attended any 
political events, fund-raisers or events that could be described as 
political gatherings?
    Answer. Yeah. There was a place, Oakland, Hillsborough around here 
close. '96, the first part of '96. The President was at somebody's 
home. She was invited to that.
    Question. Who invited her?
    Answer. I have no idea.
    Question. And how did she go from where she lives to Hillsborough?
    Answer. I drove her.
    Question. And if you could just provide a little bit of background, 
where did you go?
    Answer. I wound up in the parking lot with about--I guess about 100 
security people, and a bus came in and drove a bunch of them off.
    Question. Do you know where they went?
    Answer. Up the street. Don't know.
    Question. Do you know what the arrangement was? Why you were in the 
parking lot?
    Answer. I guess you had to have an invite, and I didn't get one.
    Question. I can understand. I've been in some parking lots, too, 
without invitations.
    When you got down to Hillsborough, did Ms. Foung meet with anybody?
    Answer. Nobody that I know of.
    Question. Do you know whether she was supposed to meet with anybody 
or talk to anybody?
    Answer. No, I don't.
    Question. Once, just to summarize, it is my understanding that you 
waited in the parking lot until the event was over, and she came back 
to the car, and you drove back to where you lived; is that correct?
    Answer. Correct.
    Question. And did she tell you anything about the fund-raiser when 
you were driving back or about the event?
    Answer. She said the President was there, and she got a bottle of 
wine with his name on it. She didn't mention anything--talking about 
anything.
    Question. Did she tell you whether or not she met the President?
    Answer. She said--let me see--I think she said she got to talk to 
him, but it was no big deal.
    Question. Did she tell you what he said to her?
    Answer. No.
    Question. Do you know whether he made any comments to her about her 
brother Charlie?
    Answer. I don't know.
    Question. Now, apart from that one event in Hillsborough in 
California, do you know of any other political event that Ms. Foung 
went to?
    Answer. No.
    Question. Did she ever discuss with you her brother Charlie and 
whether he was appointed to a government commission or not?
    Answer. No.
    Question. I've got a short list of names, and not to be mysterious 
here, I'm just interested in finding out whether you ever met them or 
you know them. If you do, then I'll ask you more questions. If you 
don't, then I'll move on.
    Have you ever met John Huang?
    Answer. No.
    Question. On that one name, it's our understanding that Ms. Foung 
met Mr. Huang at the Hillsborough event while in the parking lot. Were 
you in the car during the whole time?
    Answer. I stayed in the car. She got out, and she was standing 
there at the bus.
    Question. Have you ever heard of an organization called the CHY 
Corporation, which is C-H-Y?
    Answer. No.
    Question. Have you ever had any contacts here, made calls yourself 
or received calls, from anybody at the Democratic National Committee?
    Answer. No.
    Question. Have you ever heard the names David Mercer or Ari 
Swiller?
    Answer. Who?
    Question. Ari Swiller?
    Answer. No.
    Question. Have you ever visited Ms. Foung's mother in Arkansas?
    Answer. No. I tend to stay away from the east coast.
    Question. Those of us from the true east coast, it is a long way 
from our home. That eliminated, I'm not going to ask you a lot of 
questions about people who live in Arkansas.
    Have you ever heard of George Chu, C-H-U?
    Answer. No.
    Question. He is associated with a company called Da Tung. D-A T-U-
N-G. Do you know of that organization?
    Answer. Never heard of it.
    Question. Have you ever heard the name Mark Middleton mentioned?
    Answer. No.
    Question. Do you know whether Ms. Foung ever attended any events 
with her brother?
    Answer. No. Nope.
    Question. Apart from the two times that you mentioned Mr. Trie 
being in the same place that you have been, do you know whether Ms. 
Foung visited Mr. Trie anywhere outside of California in the last 3 or 
4 years?
    Answer. I don't think so. I'm not sure, but I don't think so.
    Question. How often did Mr. Trie call his sister Ms. Foung?
    Answer. I can't say for sure. I don't know what year it was, but he 
called one year, I guess it was around February, but he just wanted to 
wish her a happy new year. I answered the phone, told him, she's in 
bed, she's got to work on the graveyard shift.
    Question. So, I mean, if you have to characterize contacts, is it 
fair to say that they spoke fairly infrequently?
    Answer. Yeah. As far as I know; two, maybe three times a year.
    Question. Just turning for a minute to Mr. Trie and his background, 
did Ms. Foung ever discuss what her brother was doing from the time you 
knew her, from the time you have known her to the present? Did she ever 
tell what you his job was or what he was doing to make a living?
    Answer. She said he owned a restaurant back in Arkansas, and then 
he was international trade or something like that. Something to do with 
a tool, some kind of tool.
    Question. Did she ever tell you why he got out of the restaurant 
business?
    Answer. No.
    Question. And do you know anything about once he got out of the 
restaurant business what he was doing after that time?
    Answer. No.
    Question. What was--you mentioned the tool a minute ago. What did 
she tell about that?
    Answer. Something about he was trying to get it made or market it 
or something of that--I never really paid too much attention when she 
talks about it.
    Question. On the two occasions that you met him, did he ever tell 
you what he was doing?
    Answer. No.
    Question. Have you ever--and I'll give you a couple of names of 
some companies just because I'm interested whether you know about them 
or what you know about them.
    The Daihatsu International Trading Company, have you ever heard of 
that name before?
    Answer. I saw it, I think, on an envelope. I can't be positive, but 
I think it was on an envelope sent to Ms. Foung. I think Charlie wrote 
her a letter or something.
    Question. Did you have any understanding about what Daihatsu--what 
it did, what the company was all about?
    Answer. No. When I first saw it, I thought it was from a car dealer 
or something.
    Question. A company called San Kin Yip International, have you ever 
heard of them?
    Answer. No.
    Question. America-Asia Trade Center, Incorporated?
    Answer. No.
    Question. Have you ever heard of Sanyou Science & Technology?
    Answer. No.
    Question. Have you ever heard of Premier Advertising?
    Answer. No.
    Question. Apart from the tool that you were mentioning, do you know 
anything more about what that was all about, what Mr. Trie was trying 
to do with the tool that you mentioned?
    Answer. I don't know anything else about it. He was trying to get 
it made or marketed or something to that effect, but I'm not positive.
    Question. Did you ever have any conversations with Ms. Foung during 
which she talked about how her brother was doing financially?
    Answer. No.
    Question. Did she ever make any comments to you about how her 
brother was doing----
    Answer. No.
    Question [continuing]. Financially or otherwise? In his life?
    Answer. She doesn't say too much about him.
    Question. Did Mr. Trie, on the occasion you talked to him, did he 
ever make any comments about knowing President Clinton?
    Answer. No.
    Question. Did Ms. Foung ever make any comments to you about her 
brother knowing President Clinton?
    Answer. She said he knew him from Arkansas when he was in the 
restaurant business.
    Question. Just sort of casting your mind back to that Hillsborough 
event, when you drove down and you were coming back, did Ms. Foung make 
any comments to you about anything the President told her about her 
brother?
    Mr. Ballen. Excuse me; I'm going to object. I mean, I've tried to 
be patient with the questioning, but we have at length--this witness 
has been asked this question and many similar questions. We got Ms. 
Foung's testimony. I mean, counsel's not trying to--I don't understand 
the purpose of these questions. Is it to trap Ms. Foung in an 
inconsistency? Why are we covering the same exact ground about what was 
said at the same time, especially multiple times? I guess I am going to 
enter an objection.
    Mr. Wilson. Mr. Stevens, do you have any objections?
    Mr. Stevens. Well, it strikes me as long as it is a relatively 
quick in-and-out follow-up, appropriate follow-up, now that he has some 
material that might refresh the witness' recollection as to what may 
have happened. My guess is the answer is not going to change, but I am 
happy to let him do it as long as we are not going to replow the whole 
prior event in Hillsborough, and I don't think we are going to.
    Mr. Wilson. No. In fact, that was my last question, and I don't 
know why we would take up any time discussing it.
                       examination by mr. wilson:
    Question. Turning your attention to when your contribution was 
returned, and I should ask you first whether your $12,500 contribution 
was returned. Was it returned?
    Answer. Yes.
    Question. Did you have, prior to that, any conversations with 
anybody about whether they were going to return, somebody was going to 
return, your money?
    Answer. No.
    Question. Did you ever talk to anybody from the accounting firm of 
Ernst & Young?
    Answer. Not that I can remember. No.
    Question. How--when you got your money back, when was the first you 
realized that you were going to get your money back?
    Answer. It was when the reporter called. And they gave me the 800 
number to call this woman back from The Washington Post or Washington 
Times. Surprised me.
    Question. Do you know whether that woman's name was Sue Schmidt? 
Does that ring any bells?
    Answer. No.
    Question. And what did they tell you?
    Answer. They asked me if I knew I was going to get the money back, 
and I said, nope.
    Question. And then after that, after that exchange, what was the 
next sort of link in this chain of you getting your money back? Was 
there any other communication with anybody, or was it when you got the 
money back?
    Mr. Stevens. This may seem like--you refer to it as ``his money,'' 
and you're--it may seem small, but I know from talking to him that he 
doesn't view it as his personal money.
    Mr. Wilson. And I am being imprecise there, and I shouldn't do 
that.
                       examination by mr. wilson:
    Question. Thinking about the $12,500 that was sent to you, when was 
the next time that you knew anything about this $12,500?
    Answer. I got one of those yellow slips from the post office for 
certified mail, and it showed up in an envelope.
    Question. And what was in the envelope?
    Answer. A check for twelve-five.
    Question. Was there any communication in addition--any additional 
communication apart from the check? Was it just a check in the 
envelope?
    Answer. Just a check.
    Question. And was there any----
    Answer. Well, it was a stub at the top.
    Question. Right. But was there any indication as to why the check 
was in the envelope and why you were getting this check?
    Answer. Not that I can remember.
    Question. Did you make any inquiries?
    Answer. Nope.
    Question. Did anybody--after you got the check, did anybody make 
any contacts with you to explain why the DNC--I should ask you that. 
Who sent you the check?
    Answer. I think it was DNC on the envelope.
    Question. Do you remember the account that the check was drawn on?
    Answer. No.
    Question. Did anybody contact you at any time to explain why you 
received a check for $12,500?
    Answer. Just the reporter.
    Question. When you received the check for $12,500, what did you do 
with it?
    Answer. I put it in the bank.
    Question. And did you put it in your account?
    Answer. Yes.
    Question. And what did you do with the money?
    Answer. It's still sitting there. I brought it in the first day I 
saw Mr. Stevens. I wanted to know what to do with it, and he said put 
it back in your account, and it's back in the bank.
    Question. Do you know whether any of the contributions that Ms. 
Foung made, the $12,500 one that was made at the same time that you 
made yours, and then there was a later $10,000 one, do you know whether 
any money was returned to her?
    Answer. I don't think so.
    Question. Do you know whether she has been contacted by anybody at 
the DNC or affiliated with the DNC about these two----
    Mr. Ballen. I'm going to object to this line of questioning. The 
same objection I had before. We have been over this. And I don't 
understand the purpose of questioning this witness.
    Mr. Wilson. Well, I think these are new questions and entirely 
appropriate.
    Mr. Stevens do you have any objections?
    Mr. Stevens. I've leave it to you folks. I'm along for the 
deposition. I'll leave it to you two to work out your own objections. I 
am happy to be viewed as judge, but I don't think this has reached the 
point of oppressing the witness. So I am happy to let both of you ask 
as many questions as you would like, until my boredom threshold kicks 
in, which is probably not too far away.
                       examination by mr. wilson:
    Question. Did Ms. Foung have any contacts with anybody about the 
two checks that she had contributed to the DNC?
    Answer. Did anybody call her?
    Question. Yes.
    Answer. Not that I know of.
    Question. Did she ever mention to you any calls from anybody that 
she received about the contributions she had made?
    Answer. If anyone contacted her? No.
    Question. Did she ever tell you whether she was going to call 
anybody about the checks?
    Answer. She said she called back to the DNC a few times.
    Question. And what happened when she made the calls?
    Answer. She didn't go into too much detail. She just said she's 
waiting to contact somebody else or talk to somebody else about getting 
the money back, and that was it.
    Question. Did you ever have any discussions with her about why you 
got money back and she didn't get money back?
    Answer. I thought it strange, but I didn't ask any questions.
    Question. Did you have any discussions with her about that, though?
    Answer. Well, I guess she was curious why I got mine back but she 
didn't, and that's why she got in touch with the DNC.
    Question. And did she tell you at any time what they told her when 
she had contacts with the DNC?
    Answer. No. She just kept calling back.
    Question. Do you know whether she was ever told whether she would 
get her money back or that she would not get her money back?
    Answer. She never said.
    Question. Has Ms. Foung been in contact with her brother in 1997?
    Answer. I'm not sure. I really don't know.
    Question. Do you know whether after you were first approached by 
investigators from this committee, do you know whether Ms. Foung made 
an attempt to get in touch with her brother?
    Answer. Not that I know of.
    Question. Do you know whether she called her mother suggesting--do 
you know whether she called her mother and discussed the visit of the 
investigators or whether she might or might not have to go to 
Washington?
    Answer. She calls her mother once in a while, but I don't know what 
they talk about.
    Mr. Wilson. I don't have any further questions for now.
    Mr. Ballen. Could we have----
    Mr. Stevens. Want to take a short break?
    Mr. Ballen. Yes, a 5-minute break.
    [Brief recess 2:20 p.m. to 2:30 p.m.]
    Mr. Wilson. As I stated before, I've finished with my questions. 
Mr. Ballen, if you have any questions.
    Mr. Ballen. Thank you, Mr. Wilson.
                       examination by mr. ballen:
    Question. I just want to take this opportunity again to thank you 
for coming here, Mr. Landon. I'd just like to ask you two questions if 
I might.
    Has this whole process been a burden on you, sir?
    Answer. Well, it's not something I'd want to do every day.
    Question. Why is that?
    Answer. Well, I guess I'm not the most sociable person. I'd rather 
be alone.
    Question. Do you have any concern about your job and missing time 
from your job?
    Answer. Well, whenever I'm away, I'm not making money. But I had a 
job when I came to this one. I'll probably have a different one before 
I retire. So I guess the military gets you used to the idea that you 
need to work here; next week we'll find some other place for to you go. 
And I'm used to traveling around.
    Question. Is there any danger of you losing your job by missing it?
    Answer. No, I'm a good worker.
    Question. So you're not in fear of that?
    Answer. No, even when I worked unions, they didn't want my name to 
come up on the list for me to leave.
    Question. Let me ask you this. What's your impression of this whole 
process, as a citizen?
    Answer. It's politics. I try to stay away from it.
    Question. I understand, sir.
    Answer. Every 4 or 6 years I'll vote for somebody, and if he does a 
good job, I'll vote for him again.
    Question. Thank you very much. I have nothing further.
    Mr. Wilson. I have nothing further apart from thanking you very 
much for being here today.
    [Whereupon, at 2:31 p.m., the deposition was concluded.]

    [The exhibits referred to follow:]
    [GRAPHIC] [TIFF OMITTED] 44833.024
    
    [GRAPHIC] [TIFF OMITTED] 44833.025
    
    [GRAPHIC] [TIFF OMITTED] 44833.026
    
    Mr. Bennett. Thank you, Mr. Chairman. For the record, Ms. 
Foung and Mr. Landon, you're accompanied here today, are you 
not, by your attorney here in Washington, Mr. Sedwick Sollers; 
is that correct?
    Ms. Foung. That's correct.
    Mr. Bennett. And do you have the microphones turned on in 
front of you?
    Mr. Burton. Ms. Foung, can you pull the microphone pretty 
close, because it does not pick up your voice unless it's 
fairly close to your mouth?
    And you, too, Mr. Landon.
    Mr. Bennett. Is that correct, Ms. Foung?
    Ms. Foung. That's correct.
    Mr. Bennett. OK.
    And Mr. Landon, Mr. Sollers is also representing you?
    Mr. Landon. Yes, sir.
    Mr. Bennett. At any time, if you have any questions, do not 
hesitate to ask your counsel for advice.
    Mr. Sollers, it's nice to see you here.
    Mr. Sollers. Thank you, Mr. Bennett.
    Mr. Bennett. I want to thank you very much for being here 
today. As you'll recall, I met you both for the first time, I 
think, last week and had the opportunity to take your 
depositions in Sacramento, CA, along with Mr. Kenneth Ballen, 
the minority counsel; and I believe Mr. Phil Barnett, also 
minority counsel, was present.
    I appreciate your--and for the record, Mr. Jim Wilson of 
our staff was also there.
    I appreciate your being here today. As you know, we have 
asked that you appear before this committee today to discuss 
contributions which both of you made to the Democratic National 
Committee; and then a second contribution, Ms. Foung, which you 
made to the Presidential re-election campaign of President 
Clinton.
    Let me begin by asking both of you, I believe that this is, 
in fact, the second time you've been here in Washington in the 
past week; is that correct?
    Ms. Foung. That's correct.
    Mr. Bennett. And I believe that you also agreed to appear 
and were cooperative with a Federal grand jury and appeared 
before a Federal grand jury last Friday here in Washington; is 
that correct?
    Ms. Foung. That's correct.
    Mr. Landon. That's correct.
    Mr. Bennett. Is that correct, Mr. Landon?
    Mr. Landon. Correct.
    Mr. Bennett. And that was at the request of the task force 
of the Department of Justice looking into campaign fund-raising 
violations; is that correct?
    Ms. Foung. That's correct.
    Mr. Landon. Yes, sir.
    Mr. Bennett. Ms. Foung, you are in fact the sister of Yah 
Lin Trie, also known as Charlie Trie?
    Ms. Foung. Yes.
    Mr. Bennett. And, Mr. Landon, you have indicated that you 
previously have met Mr. Trie and that you may have met him on 
two or three occasions; is that correct?
    Mr. Landon. That's correct.
    Mr. Bennett. Ms. Foung, when was the last time that you saw 
your brother?
    Ms. Foung. I believe it was Christmas of 1995.
    Mr. Bennett. And that would be the last time that you met 
with him in any fashion?
    Ms. Foung. I--the best I can remember, yes.
    Mr. Bennett. And, Mr. Landon, when was the last time that 
you saw Mr. Charlie Trie?
    Mr. Landon. It was the same Christmas, 1995.
    Mr. Bennett. And have you spoken with Mr. Trie since that 
time?
    Mr. Landon. He called, I think it was January, February of 
this year to wish his sister Happy New Year.
    Mr. Bennett. And let me ask you one thing, Ms. Foung. When 
was the last time that you would have spoken with your brother, 
Charlie Trie?
    Ms. Foung. I would say it was late August or early 
September.
    Mr. Bennett. Of this year?
    Ms. Foung. Of this year.
    Mr. Bennett. And was it in connection with your being 
called before this committee?
    Ms. Foung. Yes.
    Mr. Bennett. I believe there may be some followup questions 
with reference to that, but let me ask you this, do you know 
where your brother was when he called you within the last 3 
weeks?
    Ms. Foung. I was under the impression it was at Taiwan, he 
was in Taiwan.
    Mr. Bennett. And did you make an effort to make contact 
with your brother?
    Ms. Foung. Yes.
    Mr. Bennett. And exactly how did you go about making 
contact? Because there are a few people trying to make contact 
with him, that's why I'm asking.
    Ms. Foung. I asked my mother if my brother ever call her, 
give him the message I would like for him to call me.
    Mr. Bennett. I believe your brother was at one time 
interviewed on NBC News and there are a few people in this room 
who may want to know, if he would return the phone calls if 
they're contacted. Do you have any reason to believe he might 
be willing to return their phone calls?
    Ms. Foung. I don't know.
    Mr. Bennett. OK. Do you know whether or not your brother 
has any intentions of returning voluntarily to this country? 
Have you talked with him about that?
    Ms. Foung. I try to remember the conversation.
    Mr. Bennett. Take your time.
    Ms. Foung. I mentioned it to him, that the investigator 
from the committee mentioned to me that, because of statute of 
limitation or something, he should be back here in a couple 
years. I mentioned that to him. But I don't think he responded 
to that.
    Mr. Bennett. He had no response to your discussion about a 
statute of limitations?
    Ms. Foung. No.
    Mr. Bennett. And to your knowledge, does he intend to come 
back to this country within the next few years?
    Ms. Foung. I'm sure he would like to. But the past few 
years, he has been overseas the majority of his time and on a 
regular basis. So it would all depend on where his business is.
    Mr. Bennett. And with respect to his activities abroad of 
the last few years, that would have been true even during the 
election year 1996, that he was generally abroad most of the 
time?
    Ms. Foung. That's the way I understood.
    Mr. Bennett. How often would he have been in the country 
during 1996 to your knowledge?
    Ms. Foung. I don't know his schedule at all. The only time 
I will know is if he call me and left a message on my machine, 
if he is passing through San Francisco. The majority of time, 
he call me from overseas.
    Mr. Bennett. All right. Directing your attention to 
February 1996, or in fact, let's go back prior to February 
1996. Before you made any contributions about which we'll 
discuss today, Ms. Foung, had you, to your knowledge, ever made 
any contributions to any candidates or any political campaigns 
prior to February 1996?
    Ms. Foung. Not that I'm aware--I can't remember.
    Mr. Bennett. And were you politically active?
    Ms. Foung. No, sir.
    Mr. Bennett. Mr. Landon, had you, again, prior to February 
1996, had you ever made any political contributions to any 
candidate at that time or campaign prior to February 1996?
    Mr. Landon. No, sir.
    Mr. Bennett. And are you politically active?
    Mr. Landon. No, sir.
    Mr. Bennett. In fact, Ms. Foung, I believe that last week 
when I took your deposition in California, you indicated to me 
that you have at least, as of last week, never seen the tape of 
your brother being interviewed by Tom Brokaw of NBC News; is 
that correct?
    Ms. Foung. That is correct.
    Mr. Bennett. Have you still not seen that tape?
    Ms. Foung. No. I don't know how to get it.
    Mr. Bennett. I think NBC might be able to accommodate you 
if you would like, Ms. Foung.
    Directing your attention to the time period of February 
1996, I believe there came a point in time when both of you 
prepared checks made payable to the Democratic National 
Committee; is that correct?
    Ms. Foung. Yes.
    Mr. Bennett. Mr. Landon.
    Mr. Landon. That's correct.
    Mr. Bennett. What were the circumstances causing both of 
you to write checks to the Democratic National Committee? Ms. 
Foung, I'll ask you first.
    Ms. Foung. My brother called me.
    Mr. Bennett. If you can speak up a little bit into the 
microphone, I'm sorry.
    Ms. Foung. My brother called me, asked if I would advance a 
check to a certain place at a time. I wasn't familiar, it was 
DNC.
    Mr. Bennett. And it was the DNC. And what was the purpose 
of the check for in February 1996? Did your brother tell you 
that?
    Ms. Foung. Not really.
    Mr. Bennett. And Mr. Landon, in connection with that same 
phone call to Ms. Foung, you were, in fact, asked also to 
prepare a check to the Democratic National Committee; is that 
correct?
    Mr. Landon. Yes. Ms. Foung asked me.
    Mr. Bennett. Ms. Foung asked you. I'm now asking if we can 
have exhibit 68 on the screen, please?
    And Mr. Chairman, for the record, minority counsel has seen 
these exhibits and I believe we have an agreement with respect 
to the presentation of these exhibits here.
    Showing you first, Ms. Foung exhibit 68, looking at that 
exhibit, in fact, I gather you have a TV monitor in front of 
you. Can you see that? Mr. Sollers can your clients see that 
check on the screen?
    Mr. Sollers. Yes, they can, Mr. Bennett.
    [Exhibit 68 follows:]
    [GRAPHIC] [TIFF OMITTED] 44833.027
    
    Mr. Bennett. Looking at that exhibit, in fact, that was a 
check which was drawn on your bank account, is it not, Ms. 
Foung, made payable to the Democratic National Committee?
    Ms. Foung. That's correct.
    Mr. Bennett. And that is, in fact, your signature on the 
check on the lower right-hand corner?
    Ms. Foung. Yes.
    Mr. Bennett. And I ask that exhibit 69 be--and that, I'm 
sorry, 68, that's in the amount of $12,500, correct?
    Ms. Foung. That's correct.
    Mr. Bennett. And was it your understanding that you were 
going to be reimbursed for this payment?
    Ms. Foung. Yes.
    Mr. Bennett. And did your brother indicate that he would 
see that you were immediately reimbursed?
    Ms. Foung. Yes.
    Mr. Bennett. And Mr. Landon, we'll now ask that exhibit 69 
be placed on the screen.
    And again, that is a check dated February 15, 1996. And I 
think the bottom half of that exhibit for the record, Mr. 
Chairman, reflects the DNC tracking slip in conjunction with 
that check. And Mr. Landon, that was drawn on your bank account 
in the amount of $12,500, as well; is that correct?
    [Exhibit 69 follows:]
    [GRAPHIC] [TIFF OMITTED] 44833.028
    
    Mr. Landon. That's correct.
    Mr. Bennett. And that is your signature on the check?
    Mr. Landon. Can it get a little closer? I think it is.
    Mr. Bennett. We'll try.
    Mr. Landon. Yes, sir.
    Mr. Bennett. Now, as to both of you preparing these checks, 
Mr. Landon, did you, yourself, speak with Charlie Trie when he 
asked his sister to prepare these checks?
    Mr. Landon. No, sir.
    Mr. Bennett. So you did so basically at the instruction of 
Ms. Foung?
    Mr. Landon. Yes, sir.
    Mr. Bennett. Did either of you at the time when you wrote 
these checks in the amount of, total amount of $25,000, did you 
respectively have that kind of money in your bank account at 
that time?
    Mr. Landon. No, sir.
    Mr. Bennett. Ms. Foung?
    Ms. Foung. No.
    Mr. Bennett. Did either of you or were either of you aware 
of the fund-raising event at the Hay-Adams Hotel in Washington, 
DC, to which I believe Congressman Waxman made reference a few 
minutes ago in February 1996?
    Mr. Landon. No, sir.
    Ms. Foung. What was the question?
    Mr. Bennett. Were either of you aware of the fund-raising 
event for the Democratic National Committee at the Hay-Adams 
Hotel here in Washington in February 1996?
    Ms. Foung. No.
    Mr. Landon. No, sir.
    Mr. Bennett. And clearly neither of you attended that 
event, did you?
    Ms. Foung. No.
    Mr. Landon. No.
    Mr. Bennett. Ms. Foung did your brother talk to you about 
the event at the Hay-Adams Hotel? Did he explain to you why he 
was seeking to get checks to the Democratic National Committee?
    Ms. Foung. No.
    Mr. Bennett. Now, directing your attention for both of 
these checks in February 1996, Ms. Foung, first, as to you, you 
did have an understanding that you were going to be reimbursed, 
and, in fact, you were very quickly reimbursed; is that 
correct?
    Ms. Foung. That's correct.
    Mr. Bennett. I'll ask now if we can have exhibit 70.
    We'll go step by step. First of all, I'm going to show you 
three exhibits, Ms. Foung, exhibits 70, 71, and 72. And each of 
these checks are, in fact, cashier's checks drawn on the 
Amerasia Bank from the State of New York in the town of 
Flushing, I believe it's Flushing, NY. Do you see that there, 
Ms. Foung?
    [Exhibits 70, 71, and 72 follow:]
    [GRAPHIC] [TIFF OMITTED] 44833.029
    
    [GRAPHIC] [TIFF OMITTED] 44833.030
    
    [GRAPHIC] [TIFF OMITTED] 44833.031
    
    Ms. Foung. Yes.
    Mr. Bennett. And as to each one of these cashier's checks 
in the amount of $5,000, first as to exhibit 70, can you 
identify your signature on the bottom of the check--on the back 
of the check, I think it's on the bottom of the exhibit?
    Ms. Foung. Yes.
    Mr. Bennett. And then looking at exhibit 71, and then 72, 
again these cashier's checked were in the amount of $5,000, 
each dated February 22, 1996, a week after you made your 
contribution; is that correct?
    Ms. Foung. Yes.
    Mr. Bennett. And you did, in fact, receive that money and 
were reimbursed as your brother had promised; is that correct?
    Ms. Foung. That's correct.
    Mr. Bennett. Did you immediately deposit those into your 
bank account?
    Ms. Foung. I believe so.
    Mr. Bennett. Now, showing you exhibit 73, that's your bank 
statement of your account at Travis Federal Credit Union, 
correct, Ms. Foung?
    [Exhibit 73 follows:]
    [GRAPHIC] [TIFF OMITTED] 44833.032
    
    Ms. Foung. Yes.
    Mr. Bennett. For purposes of your own privacy, we agreed 
last week, Ms. Foung, I want to assure you we have deleted 
account numbers on that check for purposes of publication, but 
it does reflect that you deposited $14,500 of the $15,000 you 
received in cashier's checks; is that right?
    Ms. Foung. Yes.
    Mr. Bennett. And the other $500 you kept for your own 
personal use?
    Ms. Foung. I think so.
    Mr. Bennett. All right. At the time that you received the 
$15,000 in cashier's checks from the Amerasia Bank in Flushing, 
NY, did you have any knowledge as to who had actually sent the 
checks to you?
    Ms. Foung. No. I thought it was my brother arranged it.
    Mr. Bennett. All right. Did your brother ever mention the 
individual named Antonio Pan?
    Ms. Foung. Not that I can remember.
    Mr. Bennett. What was the basis of your believing that this 
money came from your brother? Why did you believe that it come 
from your brother?
    Ms. Foung. Where else could it be?
    Mr. Bennett. Essentially, you felt that he arranged to see 
to it that you were reimbursed for your check.
    Ms. Foung. I'm sorry.
    Mr. Bennett. You felt he was keeping his word to you, you 
were being reimbursed for your check, and I gather you presume 
these cashier's checks were from your brother.
    Ms. Foung. Yes. From his business.
    Mr. Bennett. Now, you were, in fact, paid back, Ms. Foung, 
and I want to now, if I can for a second, move over to Mr. 
Landon.
    Mr. Landon, showing you exhibits 75 and 76, exhibit 75 is 
also a cashier's check drawn on the Amerasia Bank from 
Flushing, NY, dated February 22, 1996. Do you see that, sir?
    [Exhibits 75 and 76 follow:]
    [GRAPHIC] [TIFF OMITTED] 44833.033
    
    [GRAPHIC] [TIFF OMITTED] 44833.034
    
    Mr. Landon. Yes, sir.
    Mr. Bennett. And can you identify your signature on the 
lower portion of that exhibit which is the back of the check?
    Mr. Landon. Yes, sir.
    Mr. Bennett. And, in fact, you did receive that money?
    Mr. Landon. I did.
    Mr. Bennett. And also looking at exhibit 76, the same thing 
would apply. You received that cashier's check from the 
Amerasia Bank and that is your signature on the back, correct?
    Mr. Landon. Yes, sir.
    Mr. Bennett. Now, your contribution to the Democratic 
National Committee the week before had been for $12,500 and you 
had been promised that you would be repaid immediately. Those 
two cashier's checks total $10,000. How did you get the 
remaining $2,500?
    Mr. Landon. It came from Ms. Foung.
    Mr. Bennett. Ms. Foung, do you agree with that? You gave 
the other money to Mr. Landon in cash?
    Ms. Foung. Yes.
    Mr. Bennett. Before you wrote the check to the Democratic 
National Committee, you indicated you had never made a 
political contribution before and that was also true of Mr. 
Landon; is that correct?
    Ms. Foung. Are you asking me?
    Mr. Bennett. Both of you. Neither of you had been involved 
in the political process, so this was your very first 
contribution and your first experience with anything like this, 
correct?
    Ms. Foung. To the best of my recollection.
    Mr. Landon. Except for a 1040 box.
    Mr. Bennett. All right checking off the $1 for 
contributions.
    Mr. Landon. Yes.
    Mr. Bennett. Perhaps people will encourage more of that in 
the future, Mr. Landon.
    Now, do either--let me ask you this, I asked Ms. Foung, Mr. 
Landon, do you know an individual named Antonio Pan?
    Mr. Landon. No, sir.
    Mr. Bennett. I'm going to place on the screen now, if I 
can, some information. I need to know whether or not you have 
any knowledge with respect to some of the transactions 
surrounding these cashier's checks.
    And I would ask that essentially there is information which 
has come to this committee in the course of its investigation 
thus far, and I would ask that exhibit 77, I believe it's up 
there now on the screen.
    First of all, looking at the information from the Amerasia 
Bank in the State of New York, sort of tracking where this 
money came from that came to the two of you, it indicates that 
an individual named Antonio Pan opened an account at the 
Amerasia Bank with a deposit of $25,200 the same day of the 
cashier's checks. And you'll notice that the address at the top 
there of that account is listed as Hong Kong in the bank 
records.
    Do you see that there, Ms. Foung? The second line down 
underneath the name, Pan, Antonio, there's reference to Central 
Hong Kong on the second line.
    [Exhibit 77 follows:]
    [GRAPHIC] [TIFF OMITTED] 44833.035
    
    Ms. Foung. OK.
    Mr. Bennett. Do you see that?
    Ms. Foung. Yes.
    Mr. Bennett. And, Mr. Landon, do you see that?
    Mr. Landon. Yes, sir.
    Mr. Bennett. Does that name, again the name, Antonio Pan, 
does not register with either one of you, correct?
    Mr. Landon. No, sir.
    Ms. Foung. That's correct.
    Mr. Bennett. How about the address in Hong Kong? Do you 
know anyone at that address, Ms. Foung?
    Ms. Foung. No.
    Mr. Bennett. Mr. Landon?
    Mr. Landon. No, sir.
    Mr. Bennett. For your purposes, exhibit 78--if we put 78 on 
the screen--I believe some of these were matters that we went 
over with you both last week in California; is that correct?
    [Exhibit 78 follows:]
    [GRAPHIC] [TIFF OMITTED] 44833.036
    
    Ms. Foung. When we were in California.
    Mr. Bennett. Yes.
    Ms. Foung. Yes. That's correct.
    Mr. Bennett. I'm trying to go--if you don't understand my 
questions, Ms. Foung, let me know and Mr. Landon. Exhibit 78 
indicates that on the same day that that account was opened by 
Mr. Pan and some attaching documents would show that within a 
matter of minutes after the $25,000 was placed into that 
account, the cashier's checks were written and only $200 was 
left in the account. Have you all ever received any further 
funds from that particular account, from that account at the 
Amerasia Bank in New York?
    Ms. Foung. No.
    Mr. Landon. No, sir.
    Mr. Bennett. One second, please. Ms. Foung, after you made 
the $12,500 February contribution to the Democratic National 
Committee, did there come a time when you had any further 
political involvement in either attending events or making 
political contributions?
    Ms. Foung. Yes.
    Mr. Bennett. And what event did you attend? Specifically, 
directing your attention to March 1996, there was a fund-
raising event in Hillsboro, CA; is that correct?
    Ms. Foung. At the time, I didn't know it was fund-raising.
    Mr. Bennett. Let me ask you this, there was an event that 
you attended in which you had the opportunity to meet President 
Clinton; is that correct?
    Ms. Foung. Yes.
    Mr. Bennett. And that, I believe, would have been 
approximately March 1996 in Hillsborough, CA.
    Ms. Foung. That's right.
    Mr. Bennett. Mr. Landon, did you attend that event as well?
    Mr. Landon. No, sir. I got as far as the parking lot.
    Mr. Bennett. You got as far as the parking lot.
    Mr. Landon. Yes, sir.
    Mr. Bennett. They wouldn't let you go in.
    Mr. Landon. I just drove Ms. Foung.
    Mr. Bennett. I understand. You weren't invited. Ms. Foung 
was.
    Mr. Landon. That's correct.
    Mr. Bennett. Ms. Foung, did Mr. Landon wait for you until 
the event was over?
    Ms. Foung. Yes.
    Mr. Bennett. Did you at that time meet an individual or 
talk to an individual named John Huang in connection with that 
event?
    Ms. Foung. Yes.
    Mr. Bennett. How did you speak with Mr. Huang? What caused 
you to speak with him?
    Ms. Foung. What do you mean by that?
    Mr. Bennett. Did you know Mr. Huang prior to March 1996?
    Ms. Foung. No, I spoke to him over the phone.
    Mr. Bennett. Had you ever heard of Mr. Huang?
    Ms. Foung. No.
    Mr. Bennett. And what was the purpose of his call?
    Ms. Foung. He asked for some background information for a 
security clearance to attend that event.
    Mr. Bennett. And exactly who asked you to attend the event 
given that you haven't been politically active except for 
writing the check and being reimbursed the month before? Did 
your brother talk to you about attending this event?
    Ms. Foung. Yes, he called me.
    Mr. Bennett. And did he tell you that Mr. Huang would be 
calling you?
    Ms. Foung. I don't remember.
    Mr. Bennett. So you were ready for a call from Mr. Huang as 
a result of your brother putting you on notice that someone 
would be calling you.
    Ms. Foung. Yes.
    Mr. Bennett. And did your brother ask that you attend the 
event?
    Ms. Foung. Yes.
    Mr. Bennett. Did you need to make any contribution to 
attend the event?
    Ms. Foung. Nobody mentioned anything about it.
    Mr. Bennett. When you attended, you ultimately did attend 
this event? Did you meet Mr. John Huang at the fund-raising 
event in Hillsborough, CA?
    Ms. Foung. Yes.
    Mr. Bennett. Was President Clinton also at this event?
    Ms. Foung. Yes.
    Mr. Bennett. Now, Ms. Foung, you had occasion to especially 
speak with the President, at that time to President Clinton; is 
that correct?
    Ms. Foung. Yes.
    Mr. Bennett. Now, I think some other Members may have 
followup questions in terms of your conversations with 
President Clinton, so I'll move on. But let me ask you this, 
after this fund-raising event in March 1996, Mr. Landon, did 
you have any further political involvement in terms of driving 
Ms. Foung to any other political events?
    Mr. Landon. No, sir.
    Mr. Bennett. Have you attended any other political events?
    Mr. Landon. Just this one.
    Mr. Bennett. Well, let me ask you this, Mr. Landon, did 
anybody ask--did you have to pay to get in here today? Did 
anybody ask you? Apart from Mr. Sollers, I don't want you to 
get into that. You may have paid more than the rest of us for 
that.
    Ms. Foung, I would like to turn your attention now to 
August 1996. Let me make sure that we're clear, apart from the 
February 1996 payment of $12,000, $12,500 to which you were 
reimbursed from the money from Mr. Pan and apart from the March 
1996 event in Hillsborough, CA, did you have any other 
political involvement in 1996 with respect to any other 
political candidates, to your knowledge?
    Ms. Foung. No, sir.
    Mr. Bennett. Directing your attention to August 1996, did 
you in fact at that time make a second contribution at the 
request of your brother?
    Ms. Foung. Yes.
    Mr. Bennett. Now, directing your attention to exhibit 93, 
which I believe is on the screen, exhibit 93, in fact, is a 
check written out to the Birthday Victory Trust. Do you see 
that on your check?
    [Exhibit 93 follows:]
    [GRAPHIC] [TIFF OMITTED] 44833.037
    
    Ms. Foung. Yes.
    Mr. Bennett. And that is, in fact, your check?
    Ms. Foung. That's correct.
    Mr. Bennett. What was the reason for your preparing this 
check, Ms. Foung?
    Ms. Foung. My brother called me to see if I would advance 
the check.
    Mr. Bennett. And was there indication that you were going 
to be immediately reimbursed as you were for the first check?
    Ms. Foung. Say that again.
    Mr. Bennett. Was there an understanding that you were going 
to pay this money yourself or you were going to get the money 
back?
    Ms. Foung. I would be reimbursed, yes.
    Mr. Bennett. And who told you that you were going to be 
reimbursed?
    Ms. Foung. My brother.
    Mr. Bennett. And did he indicate how quickly he was going 
to reimburse you?
    Ms. Foung. No. But I trust he will take care of it.
    Mr. Bennett. And, in fact, did you have $10,000 in your 
account at that time to pay to the Presidential Victory Trust?
    Ms. Foung. I might. I might not. I couldn't remember.
    Mr. Bennett. We'll go through some records in a minute. 
But, in fact, you were reimbursed the very same day, weren't 
you, when you wrote the check?
    Ms. Foung. According to the bank statement, yes.
    Mr. Bennett. And I note that on that check, Ms. Foung, 
along with making it payable to the Birthday Victory Trust, 
were you aware of any birthday celebration or fund-raising 
event in connection with the President's birthday in August 
1996?
    Ms. Foung. Not very much, not, in fact, not really.
    Mr. Bennett. I'm sorry did you, in fact, or were you 
invited to attend an event in New York City with connection 
with this event?
    Ms. Foung. No.
    Mr. Bennett. And I notice that the word ``Federal'' is 
written on the bottom left-hand corner of the check that's on 
the screen now. Do you see where the word ``Federal'' is 
written on the lower left-hand corner?
    Ms. Foung. Yes.
    Mr. Bennett. Why did you write the word ``Federal'' on that 
check?
    Ms. Foung. I was told.
    Mr. Bennett. You were told by whom?
    Ms. Foung. By my brother.
    Mr. Bennett. Now, looking at exhibit 94, on the projector 
screen, in fact, there is a record of a wire transfer to you 
from the Riggs National Bank, which, in fact, went into your 
account that same day in August 1996. Is that correct, Ms. 
Foung?
    [Exhibit 94 follows:]
    [GRAPHIC] [TIFF OMITTED] 44833.038
    
    Ms. Foung. The document there, yes.
    Mr. Bennett. And according to your records, you were 
immediately reimbursed the same day for this $10,000 check, as 
your brother promised; is that right?
    Ms. Foung. Yes.
    Mr. Bennett. Now, do you know an individual named Ng Lap 
Seng, sometimes known as Mr. Wu, Ms. Foung?
    Ms. Foung. No.
    Mr. Bennett. Have you ever heard the name before?
    Ms. Foung. Not before the deposition.
    Mr. Bennett. Do you know the individual--that individual 
from whose account this money apparently came into your 
account? Did you have any knowledge of the transfer of money 
from Riggs National Bank here in Washington to your account in 
connection with Ng Lap Seng?
    Ms. Foung. No. My brother does do business in China, 
Taiwan, Hong Kong, all different places. So I assume that was 
his bank back there, that he uses.
    Mr. Bennett. I am going to ask if you can now look at 
exhibit 96 and ask if you have any knowledge or information 
concerning some of the financial transactions. I know it is 
somewhat complicated, Ms. Foung, but if you will just look at 
this to make sure that you cannot provide the members of the 
committee with any information.
    There was, in fact, almost $200,000 wired from the Bank of 
China in Macao to the Watergate branch of the Riggs National 
Bank. Did your brother at any time in his conversations make 
reference, if not to Mr. Wu or Ng Lap Seng, if he made 
reference to the Riggs National Bank at any time with you?
    [Exhibit 96 follows:]
    [GRAPHIC] [TIFF OMITTED] 44833.039
    
    Ms. Foung. No.
    Mr. Bennett. It was sent from the account of a company on 
the document--again, if you can look closely at it, a company 
called Investimento E Fomento to the account of your brother 
and Ng Lap Seng. Do you have any knowledge of the company 
Investimento E Fomento?
    Ms. Foung. No.
    Mr. Bennett. Have you ever heard your brother talk about 
that company?
    Ms. Foung. No.
    Mr. Bennett. You can say--apparently according to the 
records of this committee, available to both the majority and 
minority Members, it was from this account that the $10,000 was 
wired to you.
    Finally, Ms. Foung, if I can put up exhibit 97 on the 
chart, and looking at exhibit 97, just again for your purposes, 
you will note that it does, in fact, indicate that the same 
day, on August 15, 1996, that you wrote out the check to 
President Clinton's birthday party at your brother's request; 
that you received the wire transfer in that amount. Do you see 
that there?
    [Exhibit 97 follows:]
    [GRAPHIC] [TIFF OMITTED] 44833.040
    
    Ms. Foung. I remember in the past when we discussed this, 
the check was written first. I guess it just come to my bank at 
the same time.
    Mr. Bennett. Finally, Ms. Foung, I will show you exhibit--I 
think it is marked C-28. Just so you understand, it is evidence 
before this committee at this time, in terms of the flow of 
money into a foreign account into an account here into this 
country, and ultimately into your account, from the Bank of 
China over to your brother and through accounts over to your 
account.
    Has your brother ever spoken to you about any foreign bank 
accounts?
    [Exhibit C-28 follows:]
    [GRAPHIC] [TIFF OMITTED] 44833.041
    
    Ms. Foung. No.
    Mr. Bennett. Has your brother ever discussed with you the 
source of money in terms of how he would have access to any 
amounts of money in terms of international wire transfers?
    Ms. Foung. No. But for business purpose, I am sure there is 
a reason.
    Mr. Bennett. I believe my time has now expired, Mr. 
Chairman.
    Thank you, Ms. Trie.
    Thank you, Mr. Landon.
    Mr. Chairman.
    Mr. Burton. We now have a vote on. What I would like to do, 
if it is all right with the minority, is to keep the 
questioning going; and those of us who want to run and vote 
right now, may. We will put somebody else in the Chair 
temporarily while I go vote, and then I will come back and then 
they can go vote, if that is all right.
    Mr. Waxman. Mr. Chairman, I plan to pursue the questioning, 
and I have to vote and I prefer to start and not be 
interrupted. So if you would permit, let's vote and I will get 
back here as soon as I possibly can.
    Mr. Burton. The Chair will stand in recess until the call 
of the gavel.
    [Recess.]
    Mr. Burton. The committee will come to order. When we 
recessed, the general counsel for the committee, Mr. Bennett, 
concluded his first half-hour. We will now yield to the ranking 
minority member for his half-hour.
    Mr. Waxman. Ms. Foung and Mr. Landon, welcome to our 
hearing today. I appreciate your being here. As I mentioned to 
you during the recess, I am also from California and lived in 
Sacramento for a period of time. It's a lovely place, and was 
also a long distance to travel to be here.
    When lawyers go into a court of law, if there is something 
not in dispute they have something they call ``stipulate.'' In 
other words, they don't fight over every fact. They say we will 
stipulate to this fact. And we could have stipulated to 
everything you had to say as factual.
    The Senate had a hearing. I don't know if either of you 
have been following the Senate hearings, but they had a hearing 
on July 29th.
    Ms. Foung, are you--were you watching these Senate 
hearings? Are you familiar with them?
    Ms. Foung. Not until after I was involved.
    Mr. Waxman. Well, they had a hearing on the same subject, 
whether your brother had given money to pay for contributions 
that others had made. And they had a hearing on July 29th and 
had two witnesses, that I mentioned in my opening statements, 
testify; and I have to say that you have less knowledge about 
this whole business than those two witnesses. So we learned 
more than what you have told us.
    We already knew, in fact, what you have said to us about 
the fact that contributions had been made and that your brother 
was responsible for reimbursing the people that made the 
contributions. The reason I raise that issue is, it just seems 
to me a real waste to have this hearing, have you come all the 
way from Sacramento, CA, and tell the committee information 
that we already know about.
    We ought to be advancing our knowledge about the campaign 
finance matters rather than spend taxpayers' dollars to learn 
what we already knew.
    Ms. Foung, I would like to begin by cutting to the heart of 
the committee's investigation. On June 20th, Chairman Burton 
stated on the floor of the House--and I want to quote--he said, 
``We are investigating a possible massive scheme of funneling 
millions of dollars in foreign money into the U.S. electoral 
system. We are investigating allegations that the Chinese 
Government at the highest levels decided to infiltrate our 
political system,'' end quote.
    Ms. Foung, Charlie Trie is your brother. You have known him 
your whole life. Do you have any reason to believe that he is 
an agent or spy of the Chinese Government?
    Ms. Foung. No, sir, not at all.
    Mr. Waxman. Do you have any reason to believe he is part of 
a massive scheme by the Chinese Government to influence our 
political system?
    Ms. Foung. No.
    Mr. Waxman. And I assume, Mr. Landon, you wouldn't answer 
any differently?
    Mr. Landon. That's correct.
    Mr. Waxman. As you testified this morning, I think you gave 
us good testimony, very direct. I had heard both of you had 
done that in your depositions, from my staff who were out there 
in California for those depositions, and you were 
straightforward. And I thought to myself, what if my sister had 
been called to answer questions about me?
    We are very close, but I don't think she knows much about 
me, but I know how she would react if somebody called me a spy. 
How do you feel about these kinds of accusations?
    Ms. Foung. I have a lot of respect for this place, but I 
really felt my brother was overestimated, and the--whatever you 
call the Government or public official is underestimated, to 
believe that he could influence a big country, the biggest 
country in the world, like this by--according to the newspaper, 
his biggest contribution was $600,000.
    And knowing him for all my life, he has been nothing but a 
wonderful person to me, to everybody else. He would do anything 
for people, never expect anything in return. He has done 
everything that I asked for, or I don't ask for it, to help me, 
to take care of me as a little sister.
    So I really don't know what to say about it.
    Mr. Waxman. You don't believe he is a spy. You don't know 
whether he is a spy, but you certainly don't believe he is a 
spy?
    Ms. Foung. He is not material for that kind of thing. 
Ninety percent of the time he left the house, he couldn't even 
find his key. He is not a spy material, I guarantee you.
    Mr. Waxman. Let me ask you some questions about the money.
    The majority has tried to track down the source of the 
money that you were paid by your brother. And their effort has 
yielded the same results that the Senate efforts yielded last 
July. The money that appears to have come from a Bank of China 
account in Macao, and this bank account apparently belonged to 
Ng Lap Seng. Do you know Ng Lap Seng, sometimes called Mr. Wu?
    Ms. Foung. No, I don't; never heard of him.
    Mr. Waxman. Have you ever met or talked to him, to your 
knowledge?
    Ms. Foung. Not as I can remember.
    Mr. Waxman. My understanding is, he might have been a 
business associate of your brother. Do you have any knowledge 
about your brother's business dealings with him?
    Ms. Foung. Not to him. I just--I was under the impression 
that my brother was a successful businessman, and I was happy 
for him; but other than that, the detail of his business or 
what does he do when he travels is really none of my business, 
so I never really asked that question.
    Mr. Waxman. Do you have any knowledge at all about the 
source of money that was used to reimburse your contribution?
    Ms. Foung. No. I thought it was his, or part of the 
business. I really don't understand all this.
    Mr. Waxman. Mr. Landon, those same questions?
    Mr. Landon. The source?
    Mr. Waxman. Do you know Mr. Ng Lap Seng?
    Mr. Landon. No, sir.
    Mr. Waxman. To your knowledge, you never met him?
    Mr. Landon. Never.
    Mr. Waxman. Do you know the source of the contribution, 
other than Ms. Foung's brother?
    Mr. Landon. No, sir.
    Mr. Waxman. One of the contributions that you made for her 
brother was a contribution for $12,500 on February 18, 1996. 
This contribution was for a fund-raiser at the Hay-Adams Hotel 
in Washington, DC, on February 19th.
    Did either of you attend that fund-raiser at the Hay-Adams 
Hotel in Washington?
    Mr. Landon. No, sir.
    Ms. Foung. No, sir.
    Mr. Waxman. In the Senate hearings, two witnesses testified 
you made contributions for the same event after being asked by 
your brother to do so, and these witnesses were Yue Chi and Xi 
Ping Wang. These witnesses also were reimbursed for these 
contributions. Do you know either of these two people?
    Ms. Foung. No.
    Mr. Landon. No, sir.
    Mr. Waxman. Now, in the Senate hearing, these two witnesses 
explained why they were asked to make the conduit contribution. 
These witnesses both said that they were asked to make their 
contributions so that a man named Ng Lap Seng could attend the 
fund-raiser and meet the President.
    Did your brother tell you that your contribution was so 
that Ng Lap Seng could go to the Hay-Adams Hotel fund-raiser?
    Ms. Foung. No, not at all. We didn't even know--I didn't 
even know anything about the fund-raising event.
    Mr. Waxman. Did he give you any explanation at all about 
why he was asking you to make the contribution?
    Ms. Foung. I cannot remember the exact conversation we had, 
but it seems like the check has to be in by a certain day or 
something like that; and at the time, to me, there is no 
difference than I advanced the check for him for a utility bill 
or a house payment. I didn't understand anything about the 
fund-raising or anything like that.
    Mr. Waxman. Mr. Landon, did you get any explanation of why 
you were asked to write this check?
    Mr. Landon. I--it was stated to me it was for a Washington, 
DC, function, and it was coming from someone overseas that 
wasn't able to be there in time.
    Mr. Waxman. Did you talk to Mr. Trie directly or just 
through Ms. Foung?
    Mr. Landon. Ms. Foung.
    Mr. Waxman. I would like to ask you briefly whether you 
have knowledge about your brother's activities that you think 
would be useful to this committee. Let me ask you--I guess you 
have said this before--how often do you talk with him?
    Ms. Foung. Talk to him directly, I want to say three, four 
times a year. A lot of times he calls me he left messages on 
the answering machine to say, I am just calling you to say 
hello, because I work all the time and because the time 
difference with overseas, he never knows whether I am home or 
not. So he just occasionally called to let me know that he is 
fine or if I am fine.
    Mr. Waxman. One of the companies your brother is involved 
in is the Sin Kin Yap Corp. Have you ever heard of it?
    Ms. Foung. No.
    Mr. Waxman. Have you ever heard of it?
    Mr. Landon. Never heard of it.
    Mr. Waxman. Another company he is associated with is the 
America-Asia Trade Center. Have you ever heard of this?
    Ms. Foung. No.
    Mr. Landon. Never heard of it.
    Mr. Waxman. Have you ever discussed any of your brother's 
business trips to Hong Kong or China with him?
    Ms. Foung. No.
    Mr. Waxman. Mr. Landon?
    Mr. Landon. Never spoke to him about it.
    Mr. Waxman. Do you even know the names of your brother's 
business associates?
    Ms. Foung. I am sorry?
    Mr. Waxman. Do you even know the names of your brother's 
business associates?
    Ms. Foung. No.
    Back in 1995--no, back in Christmas of 1994, I went to 
Little Rock to visit my mother, and he took me to his office 
and I met all of his employees. There was about 1 in 10--maybe 
10 or 15 of them, but I don't remember it--I don't remember it.
    Mr. Waxman. Let me switch over to your knowledge of your 
brother's political activities.
    First, let me ask you, you are not politically active 
yourselves, are you?
    Ms. Foung. No, sir.
    Mr. Landon. No.
    Mr. Waxman. Do you discuss politics with your brother?
    Ms. Foung. No, never.
    Mr. Waxman. Mr. Landon?
    Mr. Landon. Never.
    Mr. Waxman. Have you ever discussed with your brother his 
involvement in President Clinton's 1992 and 1996 campaigns?
    Ms. Foung. Not in depth. He might have mentioned--he never 
even emphasized that much about they were good friends or 
anything like that.
    Mr. Waxman. He didn't think he could impress you?
    Ms. Foung. The--not really, not really in depth. We really 
didn't have the time to talk about things like that.
    Mr. Waxman. Did you have any knowledge that your brother 
was trying to raise money for the President's legal expense 
trust?
    Ms. Foung. No, I didn't know.
    Mr. Waxman. Mr. Landon?
    Mr. Landon. No, sir.
    Mr. Waxman. Aside from the two times that your brother 
asked you to make campaign contributions for him, do you have 
any knowledge at all about your brother's political fund-
raising activities?
    Ms. Foung. No, not at all.
    Mr. Waxman. Mr. Landon, you have heard this question I just 
asked. Is your answer the same?
    Mr. Landon. Yes, sir, it is.
    Mr. Waxman. In fact, Mr. Landon, I believe that you 
testified at your deposition that when you made your 
contribution, you didn't even know what the initials ``DNC'' 
stood for; is that correct?
    Mr. Landon. That's correct.
    Mr. Waxman. Mr. Chairman, after asking these questions, I 
really must say that I am really at a loss as to why we called 
these witnesses here today. Months ago, the Senate heard 
testimony from witnesses who knew a lot more about Charlie 
Trie's activities than these two witnesses.
    We have spent millions of dollars on this investigation. We 
have been at work nearly a year with no hearings. If this is 
all we have to show for it, I find it hard to see how the 
taxpayer is being well served.
    I still have time, and I want to yield to Mr. Condit for 
some questions.
    Mr. Burton. Will the gentleman yield real briefly for me?
    Mr. Waxman. Well, we have our time allocated.
    Mr. Burton. That's fine.
    Mr. Waxman. And I think we should pursue it here.
    Mr. Condit. Thank you, Mr. Waxman. I would like to first 
thank both the witnesses for being here today. I know you are 
here at great personal inconvenience, and I appreciate your 
being here very much.
    I have just a few questions and they will go pretty quick. 
I would like to first start with Ms. Foung and go through the 
series of questions with her and then, Mr. Landon, I will get 
to you.
    Ms. Foung, have you been asked for information by any other 
investigative body or have you testified before any other body 
besides this committee?
    Ms. Foung. No. No.
    Oh, I am sorry. The grand jury, I----
    Mr. Condit. So, on the record, you have appeared before the 
grand jury, the Department of Justice grand jury; is that 
correct?
    Ms. Foung. That's correct.
    Mr. Condit. Have other's requests for information 
overlapped with requests by this committee? In other words, are 
they asking for the same questions or the same types of 
questions or the same material that we have asked this morning?
    Ms. Foung. You mean besides the investigator that came over 
and the attorney?
    Mr. Condit. The other----
    Ms. Foung. No.
    Mr. Condit. Are we asking similar questions, the same 
questions that you have already been asked by the Department of 
Justice and the grand jury?
    Ms. Foung. Yes.
    Mr. Condit. So you--on the record, you are saying that the 
questions we are asking this morning are similar or the same as 
you have been asked by the other bodies; is that correct?
    Ms. Foung. Yes.
    Mr. Condit. Can you estimate for me how much time you have 
spent responding to this committee's requests for information?
    Ms. Foung. Do you mean including the flying back and forth 
to DC?
    Mr. Condit. Yes, ma'am.
    Ms. Foung. Just coming here each time we will start 7 a.m., 
and we get here 7 p.m., and same thing for the returns, about 
an 8-hour flight. I have been to DC twice; and I try to 
minimize the amount of time that I have lost on my job, so I 
usually do it in 2 days, coming 1 day and returning 1 day.
    We had two trips here. Then we had the deposition in my 
attorney's office, numerous phone calls, and try to gather 
together information that was requested.
    I am sorry. I didn't keep a log of it, account of it.
    Mr. Condit. Would you say that it is a lot of time? How 
much work have you missed? Have you calculated how much work 
you have missed because of being deposed?
    Ms. Foung. Five days.
    Mr. Condit. Five days?
    Ms. Foung. Minimum, yes.
    Mr. Condit. Have you been reimbursed by anyone for that 
loss of time and for your cost of being here?
    Ms. Foung. No.
    Mr. Condit. Has being here and testifying before this 
committee, appearing before the grand jury caused you any 
problems at your job?
    Ms. Foung. Yes.
    Mr. Condit. Can you clarify for us what those problems 
might be?
    Ms. Foung. I had a perfect attendance at my job for every 
year that I was there; and now I have to take time off, which I 
feel terribly about it and the loss of wages, or my vacation 
time I have to use. It is just no use to get into.
    Mr. Condit. Can you respond to all the publicity that you 
have received because you have been here? How has that affected 
your life and your children's life?
    Ms. Foung. That's the reason I requested not to be 
broadcast or anything because I never was looking for--never 
cared for publicity, and I would rather just be my own--I have 
very private life. I would just rather keep it that way. And 
since I was forced to come here, I tried to limit the damage in 
that respect as minimum as I could.
    Mr. Condit. Have you--obviously you have incurred some 
expense by coming here and all the things that you have had to 
do for this committee. Have you--can you tabulate for us or 
give us an estimate of how much you have spent in preparing 
materials, legal counsel, travel, hotel expense? Can you tell 
us how much approximately you have spent?
    Ms. Foung. To the best--I understood all the expense, as 
far as the travel and hotel is being--is paid for. Right? I 
mean, I haven't seen the reimbursement, but I understood it 
will be reimbursed.
    Mr. Condit. Can you clarify that for me? Who is reimbursing 
you for the cost of that?
    Ms. Foung. My last trip, I understand, will be reimbursed 
by the Department of Justice and this trip will be reimbursed 
by the committee or something.
    Mr. Burton. Point of order. Just for the gentleman's 
edification, the committee is going to be paying their expenses 
as part of the expenses of the trip for all witnesses.
    Mr. Condit. Well, let me finish this and I may have an 
attitude or a problem or a suggestion or a question about that.
    Let me finish up with Mr. Landon.
    I--first of all, Ms. Foung, thank you very much. I know 
this has been a hardship on you and I appreciate you being here 
very much and I appreciate you trying to be as candid as you 
can with the questions.
    I would like to ask Mr. Landon, if I can, have you ever 
been asked by any other official investigative body to testify 
or provide information on matters being investigated by this 
committee? In other words, are we duplicating the other 
committees? Can you respond to that?
    Mr. Landon. Some of the questions are the same, but I am 
talking a lot less here.
    Mr. Condit. Are you--can you tell me, identify for me, what 
other committees you have appeared before?
    Mr. Landon. The Department of Justice, I went before the 
grand jury, and the attorneys in Sacramento during the 
deposition.
    Mr. Condit. And can you clarify for me, maybe in a little 
more detail, have there been requests for information of this 
committee that overlapped the requests of the other bodies?
    Mr. Landon. Some of the questions are close to being the 
same.
    Mr. Condit. Have you provided documents, information or 
testimony to this committee that you have previously provided 
to other investigative bodies? The answer would be, yes, I take 
it?
    Mr. Landon. Yes, sir.
    Mr. Condit. Can you estimate how much time you have spent 
in responding to requests from this committee?
    Mr. Landon. The same as Ms. Foung.
    Mr. Condit. She has missed 5 days of work and travel time. 
Was that similar?
    Ms. Foung. Four to--4 days travel time, yes, sir.
    Mr. Condit. Time off work?
    Mr. Landon. I took vacation.
    Mr. Condit. Heck of a way to spend your vacation.
    Have you incurred expense in responding to demands from 
this committee?
    Mr. Landon. Rooms, taxis and so forth.
    Mr. Condit. Are you being reimbursed?
    Mr. Landon. I haven't.
    Mr. Condit. Has anyone indicated to you that you are being 
reimbursed?
    Mr. Landon. The possibility was mentioned, but I don't know 
by who.
    Mr. Condit. Do you think you should be reimbursed?
    Mr. Landon. Well, I don't know.
    Mr. Condit. Well, Mr. Chairman, I just want to reiterate my 
earlier statement regarding the unnecessary burden that I think 
we have placed on these two individuals and our ranking member, 
Mr. Waxman, I think, pointed out earlier that he is not real 
sure why these two people are here, because in all due respect 
to them, and I don't mean this in any bad way at all, but they 
really have not added anything new that we didn't already know.
    Once again, I think that we have indicated--it indicated to 
us that we have sort of flattened out here. This has not 
offered us any new information that we didn't already know and 
I think it is a great expense to these two people, not to 
mention the inconvenience on their personal life to have to 
come here. I am real saddened that we have started this hearing 
off like this. It proves that we could have taken the other 
road and the other road would have been to have been 
cooperative and not duplicate what the other body is doing, and 
I think this is evidence that we have got massive problems with 
duplication of witnesses and information and on and so forth.
    The other thing I would like to add, what is going to be 
the policy? Mr. Waxman, can I----
    Mr. Waxman. Well, let me ask this of you. I think we ought 
to have an answer to that question, but I do want to yield to 
other Members while these witnesses are here----
    Mr. Condit. OK.
    Mr. Waxman [continuing]. To pursue any matters they want to 
ask of the witnesses. Then we ought to pursue from the chairman 
what our policy is going to be.
    Mr. Condit. OK.
    Mr. Waxman. Because we are clearly inconveniencing a lot of 
people and causing them to spend money.
    Mr. Lantos, I want to yield to you.
    Mr. Lantos. Thank you very much, Mr. Waxman.
    We are dealing with conduit payments in the 1996 
Presidential race, and as I raised the point yesterday, a 
company in Pennsylvania, a landfill company, paid $8 million in 
fines for making illegal conduit payments.
    Now, one of the items that the other side repeatedly raises 
is that we are talking about the notion that, well, maybe there 
are problems, but everybody does it and, of course, they very 
self-righteously say, but of course, everybody doesn't do it.
    Well, on the front page of the Washington Post, the story 
details, how the Dole-Kemp campaign received $80,000 in conduit 
payments, the Clinton-Gore campaign only $10,000 in conduit 
payments from this landfill company. And then it goes on to 
tell us that six Republicans: Senator Specter, Senator 
Santorum, Senate candidates Haytaian and DuHaime and 
Congressmen Fox and Paxon combined received $35,000 and two 
Members of Congress, who are Democrats, Mr. Baucus of Montana 
and Mr. Pallone, received a total of $4,000.
    Now, it seems to me that there are two ways of dealing with 
these issues and with these facts. It so happens that having 
served with former Vice Presidential Candidate Jack Kemp and 
with Vice President Gore, those two are good friends of mine. I 
think Mr. Clinton and Mr. Dole would also qualify as friends.
    There is no doubt in my mind that not one of those four 
gentlemen would, for a moment, have entertained the notion of 
having their campaign committees receive conduit payments, for 
two reasons:
    First, because they are honest people, and this is against 
the law. And I would bet my bottom dollar that Dole and Clinton 
and Gore and Kemp have the same view that every Member of this 
body has, that we would not engage in illegal transactions. 
Receiving conduit payments is an illegal transaction.
    The second reason why they would never do it, of course, is 
because this is absurd and counterproductive. This can cost 
them the election, unbelievable embarrassment afterwards as we 
are now seeing.
    It seems to me that this morning I got my answer as to 
whether this is Alice in Wonderland or the Theater of the 
Absurd.
    I want to express my apology to the two of you. You are two 
fine citizens. You should be more politically involved and 
active than you have been. I am a little disappointed that you 
are as apolitical as you obviously are. You should be making 
contributions to the party of your choice. You should support 
candidates vigorously of your choice and that's really the only 
disappointment I have; that you are wonderful people, hard-
working, honest and all that, but you are nonpolitical and 
perhaps--and perhaps this experience will make you want to 
become politically more active, so such Theaters of the Absurd 
will not be inflicted upon others.
    I might mention, by the way, that the party you attended, 
Ms. Foung--and you got to the parking lot, I understand, Mr. 
Landon--in the town of Hillsborough is my hometown, but I was 
not invited to the party. So I met neither of you; nor the 
President nor anybody else who was at that event.
    I must say that this hearing is so profoundly embarrassing 
and disappointing. Not a single shred of new fact or evidence 
has come forward and here we are going through this circus.
    Now, since the circus also relates to the Bank of China, I 
would like to request that a letter to our ranking minority 
member from Professor Naughton of the University of California 
at San Diego be admitted in the record.
    Mr. Burton. Reserving the right to object, may I see the 
letter, please?
    Mr. Lantos. You certainly may.
    This letter outlines Professor Naughton's understanding of 
the Bank of China which, of course, is one of the large 
international banks on the face of this planet with 12,300 
offices in China, 525 branches overseas, including two branches 
in New York City and one in California.
    Presumably, Professor Naughton says, anyone, including you 
or I could walk into the New York branch on Madison Avenue and 
open an account.
    I think it is sort of important for all of us who are 
looking at these issues with a degree of maturity and knowledge 
and understanding is to recognize that while there are probably 
not many in the Congress who are as opposed to the policies of 
the current China--Government in China as I am, it is important 
to realize that the Bank of China, quoting again, ``it is 
unreasonable to assume that the Chinese Government or its 
officials would have direct knowledge of any individual wire 
transfer or any other transaction from an individual or 
corporate commercial account at the Bank of China. Such 
transfers are routine and occur millions of times each day at 
the bank.''
    There is nothing to prevent the Chinese Government from 
using the Bank of China to transfer funds internationally, but 
it is equally true that the Chinese Government could just as 
well use any other international commercial bank for the same 
purpose.
    Now, the point of my raising this issue is very simple. I 
detest the Government in China. Unlike some--many of my 
colleagues here, I have voted against Most Favored Nation 
treatment and I will vote for the package of anti-Beijing 
measures that we will be debating on the floor soon. And it was 
my resolution that resulted in the President of Taiwan being 
allowed to get a visa and come to Cornell to obtain his 
honorary doctorate. So I have very little good to say about the 
Chinese Government. But I think it is part and parcel of this 
attempt to blow smoke and create this mysterious impression 
that since the transfer came from the Bank of China, this, 
chances are, could be Chinese Government money.
    Well, it could be, but it could just as well be money of an 
American business corporation or a citizen of any country who 
chose to engage in the transfer.
    I again ask, Mr. Chairman, to place the letter in the 
record.
    Mr. Burton. Without objection, so ordered.
    [The letter referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 44833.042
    
    [GRAPHIC] [TIFF OMITTED] 44833.043
    
    [GRAPHIC] [TIFF OMITTED] 44833.044
    
    Mr. Lantos. Final observation.
    Mr. Burton. The gentleman's time has expired.
    Mr. Lantos. Thank you very much, Mr. Chairman.
    Mr. Burton. I would just like to clarify one point before 
we go to our next questioner, and that is that the grand jury 
that is investigating campaign finance problems came to us 
after we had started our investigation and found these 
witnesses and asked us for the information pertaining to Ms. 
Foung, Mr. Landon and Mr. Wang.
    We provided them with the information. The Justice 
Department asked us for information we had and not the other 
way around. And also, the information that goes to the grand 
jury is secret and it is not a two-way street. We gave to them. 
They cannot give to us.
    Mr. Cox, you are recognized for 10 minutes.
    Mr. Cox. Thank you, Mr. Chairman. I have just a brief 
amount of time unlike the preceding questioners, so I will try 
and be brief in my questions and permit you to answer as fully 
as you can.
    On this last point, it is the case, is it not, that when 
this committee's investigators contacted both of you, you had 
not been contacted by either the FBI or the Justice Department?
    Mr. Landon. That's correct.
    Ms. Foung. That's correct.
    Mr. Cox. But now that this committee has brought your 
identity as Charlie Trie's sister to the attention of the 
authorities, they have contacted you; is that right?
    Let me rephrase the question. Have you been contacted by 
the FBI or the Justice Department?
    Ms. Foung. No, not by those two agencies.
    Mr. Landon. The Department of Justice asked for us to 
appear.
    Mr. Cox. So you have been contacted by the Justice 
Department, Mr. Landon. But you have not?
    Mr. Landon. Well, it was just a subpoena to go before the 
grand jury.
    Ms. Foung. Oh, so the FBI and Justice Department are the 
same thing? I thought they were two different----
    Mr. Cox. Have you been contacted by either one?
    Ms. Foung. The Justice Department, yes.
    Mr. Cox. The Justice Department. OK. But we contacted you 
before they did and they did not contact you before we did?
    Ms. Foung. That's correct.
    Mr. Cox. All right. I just want to straighten that out.
    I wonder if I might ask you, Ms. Foung, when you met 
President Clinton, did he say anything to you about your 
brother?
    Ms. Foung. Very briefly, something like the--your brother 
has been a--I don't remember--a good friend or a close friend 
or a long-time friend for 20 years or two decades.
    Mr. Cox. He said that he had been a close friend of your 
brother's for 20 years?
    Ms. Foung. I don't remember if it was a good friend or a 
close friend.
    Mr. Cox. Either a good friend or a close friend?
    Ms. Foung. Or long-time friend, something like that.
    Mr. Cox. All right. You said a moment ago that you think 
people overestimate your brother. What do you mean by that?
    Ms. Foung. The brother--my brother, the one I know, is just 
a down-to-earth, good person.
    Mr. Cox. Do you mean that he is not politically 
sophisticated?
    Ms. Foung. Not as I know of.
    Mr. Cox. Do you think it is odd for somebody who is not 
very sophisticated to be friends with the President of the 
United States?
    Ms. Foung. They both came from the same place. They met in 
his business as a restaurant owner.
    Mr. Cox. But your brother is not the kind of person who 
would be friends with other political figures?
    Ms. Foung. He never mentioned anything to me about it.
    Mr. Cox. So you wouldn't say, for example, that he would be 
tight with officials of the Communist party or the People's 
Republic of China?
    Ms. Foung. I have no knowledge of anything like that.
    Mr. Cox. Would it surprise you if he were?
    Ms. Foung. Yes.
    Mr. Cox. Do you know how many legal political parties there 
are in the People's Republic of China?
    Ms. Foung. I know there is Communist Red China and Taiwan 
is the Republic of China.
    Mr. Cox. Right. In the People's Republic of China, there is 
just the Communist party, is that your understanding, as far as 
political parties go?
    Ms. Foung. That's all I know of.
    Mr. Cox. So if you were friends with government officials 
in China, you would be friends with members of the Communist 
party, presumably, right?
    Ms. Foung. Do they have a Congress party?
    Mr. Cox. Communist party. That's who runs the People's 
Republic of China.
    Ms. Foung. It is such a big country. I don't know, how does 
it work? I really have no knowledge of that country. I was born 
in Taiwan.
    Mr. Cox. Earlier on, you were asked whether your brother 
might have any involvement with Communist officials in China, 
and I wonder--and I took it, you said, that you think not?
    Ms. Foung. Not that I am aware of. He never mentioned 
anything like that to me.
    Mr. Cox. Would it surprise you that he put out a bio on 
himself just a couple of years ago that says, ``Over the course 
of time I have developed a personal relationship with a number 
of government officials throughout China''?
    Ms. Foung. I have no comment.
    Mr. Cox. Is that a surprise to you?
    Ms. Foung. Yes.
    Mr. Cox. It comes as a surprise?
    Ms. Foung. Yes.
    Mr. Cox. Is it a surprise to you that he has moved to the 
People's Republic of China?
    Ms. Foung. Is it surprise to me what?
    Mr. Cox. That he moved there, that he lives there now? Had 
he ever lived there before?
    Ms. Foung. I understand he spent a lot of time there for 
business reasons.
    Mr. Cox. Was it ever his residence, his home?
    Ms. Foung. His residence is in Little Rock, AR, I thought.
    Mr. Cox. And he is a U.S. citizen, isn't that right?
    Ms. Foung. Yes, that's correct.
    Mr. Cox. So his moving to the People's Republic of China, 
is that unusual?
    Ms. Foung. The way I understood it, it was for business 
reasons, for business needs.
    Mr. Cox. Now, you have talked to him a few times on the 
telephone and have done so regularly over the years. And when 
he talks to you, he is calling lately from the People's 
Republic of China; isn't that right?
    Ms. Foung. I don't know. I only talked with him twice this 
year.
    Mr. Cox. Let me put up on the screen, if I might, the 
picture that shows where the money came from that you ended up 
giving to the DNC.
    You're familiar with what's in front of you on the TV 
screen, the $200,000 moved from the Bank of China in Macao, as 
the ranking member said--and he's no more sure of it than I am, 
but it's our suspicion that this money came from Ng Lap Seng, 
that $200,000 moved from the Bank of China eventually to you.
    Are you familiar with how that works now, having had it all 
covered in the weeks since we've contacted you?
    Ms. Foung. No. The screen is, the screen that you come up 
was, I'm looking at it. That's all my knowledge.
    Mr. Cox. You don't remember the questions that Mr. Bennett 
asked you?
    Ms. Foung. Could you repeat that question?
    Mr. Cox. Didn't you just go over these transactions 
earlier?
    Ms. Foung. Yeah, we went over this screen before.
    Mr. Cox. Yes. Thank you very much.
    Now, you therefore understand at this point that you and 
Mr. Landon laundered $35,000?
    Ms. Foung. Could you repeat that?
    Mr. Cox. Are you familiar with these transactions now?
    Ms. Foung. I only am familiar with my part.
    Mr. Cox. Yes. And do you think that your part involved 
giving money through your checking account that wasn't yours?
    Ms. Foung. Like I testified earlier, the only knowledge I 
have is, I have----
    Mr. Cox. You've been granted immunity, so we're not trying 
to trip you up.
    Ms. Foung. No, you're not, but it seems like you're putting 
words in my mouth that I have no idea of any laundering 
activity or anything like that.
    To me, I simply did my brother a favor; and I will do 
things for him because he's done things for me over time as a 
family.
    Mr. Cox. Ms. Foung, I want to believe, as the minority has 
suggested, that you're an honest person.
    Ms. Foung. I am.
    Mr. Cox. And everyone in this room looking at this and 
understanding these transactions and looking at the exhibits 
and looking at the checks and knowing that your brother 
promised to reimburse you and did so, for amounts of money to 
you and Mr. Landon totaling $35,000, means that you laundered 
money. It wasn't your money; it was somebody else's money.
    You gave it politically. And I, for one, think that it's 
one thing to not know it at the time; it's another thing weeks 
later to suggest that you don't know what the hell's going on. 
At some point, it's got to become clear, because I'd like to 
encourage you also to be involved in politics, but I don't want 
to encourage you to be involved in politics if you still 
haven't figured out that this is money laundering.
    It's a serious problem to us because, according to our most 
recent information, over $900,000 went from Ng Lap Seng to your 
brother just in the years that he was raising money. You know 
that your brother was a 20-year friend of the President of the 
United States. You personally talked to the President of the 
United States about it. And I hope that, in addition to the 
information that you provide today, that you will work with us, 
because we're after information from your brother who is now 
hiding in the People's Republic of China. We want to get him 
back. It's something of sufficient importance that the 
President of the United States hopefully will raise it with 
Jiang Zemin when he is visiting in just a few weeks.
    So I look forward, particularly in light of the grant of 
immunity that the minority and majority Members agreed jointly 
to extend to both of you, to your thorough cooperation on this 
matter. I yield back.
    Ms. Foung. Could I respond to that?
    Mr. Cox. Of course you may respond. My time is up, but 
yours is not.
    Ms. Foung. First of all, I am a very honest person. I 
believe everybody here already checked my background, checked 
my record. I'm clear as a piece of paper. Never had any 
unlawful activities. I'm a hard-working blue collar; and I pay 
my taxes, I pay my bills. And I don't know what you are trying 
to say that I'm lying. I really cannot, even if I wanted to.
    I have no more information to offer to you than I already 
did. I don't know anything.
    To me, my brother asked me for a favor, to advance a check. 
I didn't even know what DNC means. I asked him, what does it 
mean? And I don't know how else I can explain to you.
    Something like that really wasn't important to me at all. 
And you make it like I should have known what's going on. I 
didn't care. This whole fund-raising thing is like a football 
game that I don't understand. I'm not interested. I turn away 
every time it shows up on the TV. That's the extent of my 
understanding of this whole thing.
    Mrs. Morella [presiding]. The gentleman's time has expired.
    I would now like to recognize Mr. Waxman for extended 
questioning for 10 minutes.
    Mr. Waxman. Madam Chair, I'm going to have to hold on 
asking the questions, because we've got the people that we're 
going to yield to running back onto the House floor.
    Let me say, I don't agree with anything that Mr. Cox just 
had to say to you and I want that very clear. We're going to 
withhold on asking questions at this moment.
    Mrs. Morella. The committee will now recess subject to the 
call of the Chair.
    [Recess.]
    Mr. Burton [presiding]. The committee will resume its 
business.
    Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman.
    First of all, I want to note for the record that there's 
been another violation of our committee rules. You told us a 
few minutes ago that you provided materials about these 
witnesses to the grand jury. Under paragraph C(3)(a) of the 
document protocol we adopted on April 10, the chairman is 
required to notify me before--at least 24 hours prior to 
releasing committee documents. I did not receive any notice of 
this release, as required by our document protocol.
    And Mr. Chairman, I don't think I would have objected, but 
I just wanted to point that out for the record.
    Mr. Burton. If the gentleman will yield real briefly?
    Mr. Waxman. Certainly.
    Mr. Burton. I stand corrected. The only thing we gave them 
were the names of these people, so they could contact them. I 
did not give them any documents.
    Mr. Waxman. All right. I'm pleased to hear that.
    Mr. Burton. Our document protocol allows us to give 
documents of any kind to law enforcement agencies.
    Mr. Waxman. Mr. Chairman, I want to take issue with Mr. 
Cox's inference about Charlie Trie's connection to the Chinese 
Government. In the July 29 Senate hearing, it was revealed that 
Ng Lap Seng, sometimes referred to as Mr. Wu, sits on a local 
provincial advisory committee in China. This, of course, 
shouldn't be surprising; since China is a Communist country, 
anyone wanting to do business with China would be foolish not 
to have some friends in government. However, this does not mean 
that Ng Lap Seng is a high-level Chinese official.
    It's absurd to suggest that simply because Charlie Trie is 
a business partner of Ng Lap Seng that Charlie Trie has 
connections to the Chinese Central Committee. It's like saying 
because someone is on a school board that therefore they know 
the President of the United States.
    As Ms. Foung correctly stated, China is a big country. 
There are, no doubt, millions of people who have some 
connection to the government, as indeed 3 millions of people in 
the United States who have some connection to the Government, 
as there are millions of people in the United States who have 
some connection to the Government as well.
    I want to yield now to the gentlelady from New York, Mrs. 
Maloney.
    Mrs. Maloney. Thank you. I would like to ask Manlin Foung, 
have you ever met the First Lady?
    Ms. Foung. No, ma'am.
    Mrs. Maloney. Have you ever met the Vice President?
    Ms. Foung. No.
    Mrs. Maloney. Have you ever been to the White House?
    Ms. Foung. No.
    Mrs. Maloney. So I take it you've never had coffee at the 
White House?
    Ms. Foung. No, madam.
    Mrs. Maloney. And you never slept in the Lincoln Bedroom?
    Ms. Foung. No.
    Mrs. Maloney. Did you expect to receive any political favor 
as a result of your contribution?
    Ms. Foung. No.
    Mrs. Maloney. Did you ever ask anyone else to make a 
contribution to the DNC?
    Ms. Foung. No, except Joe.
    Mrs. Maloney. Do you have any personal knowledge of any 
donations other than ones that you made and your friend, Mr. 
Landon?
    Ms. Foung. Not at all.
    Mrs. Maloney. I would like to ask Mr. Landon, did you ever 
expect to receive any political favors as a result of your 
contribution?
    Mr. Landon. None.
    Mrs. Maloney. Did you ever ask anyone else to make a 
contribution?
    Mr. Landon. No, ma'am.
    Mrs. Maloney. Do you have any personal knowledge of any 
donations other than the ones that you and Manlin made to the 
DNC?
    Mr. Landon. No.
    Mrs. Maloney. I have no further questions.
    Mr. Waxman. Thank you.
    I want to yield to Mr. Barrett.
    Mr. Barrett. Thank you, Mr. Chairman.
    I, like probably most people in this room, have made 
mistakes in judgment in my life. And I will probably continue 
to make mistakes in judgment. In fact, when constituents from 
time to time either compliment me on the job I'm doing or am 
critical, I tell them, don't worry, I will make a mistake 
someday.
    I believe that you both made a mistake. I don't know 
whether--whether you knew it was wrong, but it was a mistake to 
do what you did for your brother. I probably would do the same 
for my brother if my brother asked me to do something. But it 
was a mistake.
    My concern goes more to the fact that you made these 
contributions, but to what it shows about our political system. 
And what concerns me about these hearings today is that it 
does, I think, quite effectively--and maybe some of my 
colleagues on this side of the aisle disagree, but I think it 
quite effectively shows some of the cancer in our system.
    It is wrong for the Democratic National Committee or wrong 
for anybody on this side of the aisle to take contributions 
that are not legally given. But this hearing process is a 
charade; and the reason it's a charade is because someone in 
this room would be left to believe that the Democrats are the 
bad guys and the Republicans are the good guys, and the reality 
couldn't be further from the truth.
    We've heard people mention this morning the headline in the 
Washington Post today, and it talked about contributions, 
$120,000 in contributions, I think was the figure. $80,000 in 
contributions to the Dole campaign, exactly the type of 
contributions that you made where someone was asked to make a 
contribution, and they were reimbursed; $35,000 in 
contributions to Republican Senate and congressional 
candidates, $4,000 to Democratic Senate and congressional 
candidates.
    We will hear nothing about that in this hearing. We will 
hear nothing about money that has been illegally given to 
Republicans, because that's not the purpose of these hearings.
    And, Mr. Landon, when you said that this was only the 
second time that you've been to a political event, this is a 
political event. That's what this is today; this is a political 
event. Because this is not a serious attempt to look at the 
systemic problems in the system, because if it were, we would 
be trying to get at ``Firm to Pay $8 Million Fine for Illegal 
Campaign Gifts.'' We would be trying to deal with that. We 
would be bringing employees from that company here to talk 
about it. But that's not what this is about.
    I'm sorry you made a mistake; I hope that it was an 
innocent mistake. Obviously, the committee unanimously felt 
that you were not crucial cogs in any sort of scheme, or we 
wouldn't have given you immunity. But just as I will make 
mistakes in the future, I assume you will.
    But I want to thank you for being here today. But what I 
want to say is, don't make the same mistake twice.
    I yield back the balance of my time.
    Mr. Waxman. Mr. Cummings.
    Mr. Cummings. I also, I want to associate myself with the 
words of Mr. Barrett, who just spoke. I don't have any 
questions, because I mean, I'm a trial lawyer. I practiced for 
20 years. And I've listened to your testimony, I think you've 
been very candid with us. And we really appreciate your 
testimony.
    I think for me to sit here and to ask you any questions is 
merely taking up more of your time, taking more of the time of 
this committee when we need to be getting on to other things.
    I'm a new Member of the Congress, and I must tell you that 
I--and this is more to our committee, and I'm very, very 
disappointed. I am sure that there will be other questions 
trying to solicit information, but basically, I think any--most 
people who know anything about testimony would probably pretty 
much conclude that we've--I mean, through the questioning that 
has already taken place, we've gotten about as much as we are 
going to get.
    But, again, I thank you all for being here, and I hope that 
you can go on with your lives. Thank you.
    Mr. Waxman. Mr. Chairman, in the interest of moving forward 
with this hearing and not wasting any time, we yield back the 
balance of our time.
    Mr. Burton. The gentleman yields back the balance of his 
time.
    Mr. Shays.
    Mr. Shays. Thank you.
    Ms. Foung, it's true you're not Webster Hubbell, who's 
refused to cooperate with the Justice Department and the 
committee, a major figure in this investigation.
    It's also true you're not John Huang, who's taken the fifth 
and refused to cooperate. And it's also true you're obviously 
not Charlie Trie, who--your brother who has fled the country, a 
major figure in our investigation.
    And it's also true you're here at great inconvenience of 
your time. That's true.
    But you're also here because both of you collectively 
laundered $35,000. And in my way of looking at it, $35,000 is a 
lot of money. And it was laundered money; this money was not 
your money, correct?
    Mr. Landon. Correct.
    Mr. Shays. Ms. Foung, was this your money? You don't need a 
long time to answer it. Yes or no.
    Ms. Foung. Would you repeat your question again, without 
all that statement prior to that?
    Mr. Shays. No, I'm not going to repeat the question again.
    You testified to that.
    Ms. Foung. OK. I'll answer your question.
    No, I did not--I didn't think I was laundering money. That 
wasn't my money. I was simply doing my brother--did my brother 
a favor.
    Mr. Shays. You testified to Mr. Waxman that your brother 
was a successful businessman. What was his business and where 
did he get his money?
    Ms. Foung. That is none of my business. I don't know.
    Mr. Shays. How do you know he's a successful businessman 
then?
    Ms. Foung. I told you, back in 1994, I had gone to Little 
Rock for Christmas. He showed me his office. It was a big, 
good-looking office with--full of employees.
    Mr. Shays. You testified in deposition and before this 
committee that your brother asked you for money for a house 
payment. Why would he have asked you for money?
    Ms. Foung. No. Apparently you misunderstood. I said this 
is--to me, is the same as if he could not come back to the 
country, he asked me to advance a house payment until he can 
get back, reimbursement to me.
    Mr. Shays. So you said, it is not testimony that he 
borrowed money from you, you likened the laundering of $35,000 
to a campaign in your name as the same as his borrowing money 
for your house?
    Ms. Foung. Could you repeat that? I really lost somewhere 
what we're trying to find out.
    Mr. Shays. I'm not going to repeat the question.
    Ms. Foung, according to your deposition and testimony, 
other than your two contributions to the Democratic National 
Committee, the DNC, on February 1996 and on August 1996, you 
have never made any other political contribution; is that 
correct?
    Ms. Foung. To the best of my recollection, that's correct.
    Mr. Shays. To the best of your recollection. So you stand 
on record that you've contributed on two occasions 10--10, 
$12,000, $12,500 on February 19th, which was money that you got 
from your brother, and on 8/18/96, $10,000. That's the extent 
of your political contributions?
    Ms. Foung. Yes.
    Mr. Shays. Are you aware that Federal Election Commission 
records show you making two $1,000 contributions to the 
minority Leader of the Senate, Tom Daschle, on June 26th, 1995?
    Ms. Foung. I saw the document, yes.
    Mr. Shays. Did you make that contribution?
    Ms. Foung. Not to my knowledge--my recollection.
    Mr. Shays. Well, I mean, did you or didn't you?
    Ms. Foung. Like I said, not to the best of my recollection, 
no.
    Mr. Shays. See, you've been immune from testimony, so----
    Ms. Foung. Exactly.
    Mr. Shays [continuing]. So you don't need to keep anything 
from us.
    Wouldn't you know if you made a contribution?
    Ms. Foung. Yes, if I made contribution, I would know.
    Mr. Shays. Did you know?
    Ms. Foung. I'm speaking under oath. I don't want something 
I didn't remember to come back to me as I'm lying.
    Mr. Shays. It's possible you made a contribution?
    Ms. Foung. To the best of my recollection, no.
    Mr. Shays. OK. Are you aware that Federal Election 
Commission records show that Dai Lin Outlaw, your sister, 
contributed $1,000 to Mr. Daschle on 6/26 and another $1,000 on 
6/26. Are you aware of that?
    Ms. Foung. To the extent if you're showing me the document.
    Mr. Shays. Have you been told that this happened?
    Ms. Foung. I might have. I just----
    Mr. Shays. Did you ask your sister if she made this 
contribution?
    Ms. Foung. No.
    Mr. Shays. Are you aware that Federal Election Commission 
records show that Jim Outlaw, your brother-in-law, made two 
$1,000 contributions on the same date?
    Ms. Foung. If that's what the record reflects.
    Mr. Shays. Are you aware that that contribution----
    Ms. Foung. No.
    Mr. Shays [continuing]. Was made?
    Are you aware that the Federal Election Commission records 
show that E-Foung Do Trie, your mother, made two $1,000 
contributions to--again, to Mr. Daschle's campaign in 1995?
    Ms. Foung. No, I'm not aware of it.
    Mr. Shays. No one on this committee has asked you about 
these contributions?
    Ms. Foung. They probably have. I've been asked a lot of 
questions. I answered it.
    Mr. Shays. Well, so, you were asked and you remembered, or 
you don't remember? That's kind of a surprising thing to 
forget, isn't it?
    Ms. Foung. Not really. All this fund-raising thing might be 
very important thing to you, but it's not to me, except to the 
extent that it affects my life greatly.
    Mr. Shays. Well, it affected your life greatly because your 
brother asked you to commit a felony.
    Ms. Foung. No, my brother didn't. If my brother knew that, 
he would never ask me something like that.
    Mr. Shays. No, your brother asked you to launder money, and 
to put it in your name. And it wasn't your money.
    Ms. Foung. No.
    Mr. Shays. That's what your brother did. That is a felony.
    Ms. Foung. My testimony is, my brother asked me a favor 
because he cannot make those checks in time. That's the extent 
of what he asked me. He did not ask me to launder money. If he 
knew----
    Mr. Shays. When you----
    Ms. Foung [continuing]. That he was going to get me in this 
position, he wouldn't ask me.
    Mr. Shays. Your testimony is, your brother didn't know he 
was asking you to launder money?
    When I asked you--when you met the President, according to 
your deposition, President Clinton knew your brother. What did 
he say about your brother?
    Ms. Foung. Just what I testified earlier.
    Mr. Shays. Why don't you do this? Why don't you turn to 
page 29 of the deposition, since you have a hard time 
remembering things you said to us, and tell me if, when the 
question was asked, exactly what did the President say to you 
about his relationship with your brother back in Little Rock, 
AR, days.
    Your answer was--excuse me, it's on page 30; I'm sorry, on 
page 30.
    Your answer was: He said my brother, Charlie Trie, is a 
close friend of his in two decades. Is that the answer you 
still stand by?
    Ms. Foung. Yes. And I believe that was the answer I gave 
you earlier.
    Mr. Shays. OK. No, it wasn't, because I didn't ask that 
question.
    Ms. Foung. Yes, I did.
    Mr. Shays. Have you had any contact with the Democratic 
National Committee, the DNC?
    Ms. Foung. Yes, I did.
    Mr. Shays. Who initiated that contact?
    Ms. Foung. I did.
    Mr. Shays. Why did you initiate that contact?
    Ms. Foung. Because there's a combination of several 
reasons. The first reason was, I thought maybe the DNC had made 
a mistake that had overlooked my contribution. So I wasn't----
    Mr. Shays. Was that your contribution?
    Ms. Foung. English is my second language. If you're picking 
on what I said all the time, I am sorry, it will be very 
difficult to me.
    Mr. Shays. I'm sorry, too. But the bottom line is, I only 
have 10 minutes.
    You can complete your story here. You called them because 
you wanted your money back?
    Ms. Foung. I want my brother's money back.
    Mr. Shays. OK. And why do you think your brother was 
entitled to his money back?
    Ms. Foung. To the best of my knowledge, that was his money.
    Mr. Shays. Well, but he gave it to you to give to the 
party. And why wouldn't you just be happy with your 
contribution? Why would you have made the contribution then, 
and felt good about it; and now want your money back, which 
wasn't your money?
    Ms. Foung. No, I didn't feel good or bad. I had no 
feelings. I simply did a favor for my brother.
    Mr. Shays. So your brother wanted his money back?
    Ms. Foung. And it turned out to be--no.
    Mr. Shays. Did your brother ask you for the money back?
    Ms. Foung. I thought that was the way it was supposed to be 
handled. My limited knowledge of that was, they were refunding 
money related to my brother.
    Mr. Shays. OK. Ms. Foung, did you receive--excuse me.
    Mr. Sollers. Mr. Landon.
    Mr. Shays. Mr. Landon, I'm sorry.
    Did you receive--have any contact with the DNC?
    Mr. Landon. No, I did not.
    Mr. Shays. OK. Did the DNC return the money that you 
laundered to the DNC?
    Mr. Landon. Yes, they did.
    Mr. Shays. OK. Did they explain why they were doing that?
    Mr. Landon. All I got was the check is in the mail. I got 
no communication with the DNC.
    Mr. Shays. OK.
    Ms. Foung, have you received any money back from Senator 
Daschle?
    Ms. Foung. No.
    Mr. Shays. Are you inclined to ask him for your money back?
    Ms. Foung. No.
    Mr. Shays. OK. How come?
    Ms. Foung. Because that's something I'm not aware of.
    Mr. Shays. Would you like--I would like to yield to Mr. 
Cox.
    Do you have a question?
    Mr. Cox. I just wondered, as a followup, Mr. Landon, when 
you got the check, did you keep it?
    Mr. Landon. Yes, sir.
    Mr. Cox. Do you still have it?
    Mr. Landon. I put it in the bank, and it's still there.
    Mr. Cox. Boy, good for you.
    Mr. Shays. OK. I thank you. I yield back my time.
    Mr. Burton. The gentleman yields back his time.
    Mr. Barr.
    Mr. Shays. Isn't it on that side, Mr. Condit?
    Mr. Condit. I can wait.
    Mr. Burton. Mr. Barr.
    Mr. Barr. Point of order, are they yielding back their 
time?
    Mr. Burton. If the gentleman, Mr. Condit----
    Mr. Condit. No, I would like to claim my time.
    Mr. Barr. I'm sorry.
    Mr. Burton. OK, Mr. Condit, then we'll go back to your 
side.
    Mr. Condit. Are you yielding to me Mr. Chairman at this 
point?
    Mr. Burton. We recognize you for 5 minutes.
    Mr. Condit. Pardon? I would like to take my time, Mr. 
Chairman, and clarify something we started a little bit ago 
with you, if I may; I'll do it now, if you like, or--I can do 
it now, or you----
    Mr. Burton. You can take your 5 minutes.
    Mr. Condit. What is the policy of the committee on how we 
reimburse these witnesses? What are the guidelines? Do we 
intend to reimburse Ms. Foung for her child care, her travel 
and the hotel; and Mr. Landon, too? Is that the policy of the 
committee.
    Mr. Burton. We reimburse for travel, hotel, meals, and 
incidental expenses for their trip out here.
    Mr. Condit. How about her time off work and her child care?
    Mr. Burton. We provide what the rules of the House and the 
Government normally require.
    Mr. Condit. And what is that?
    Mr. Burton. What I just stated. Travel, hotel, meals and 
incidentals.
    Mr. Condit. Do you intend to do this for Mr. Landon, as 
well?
    Mr. Burton. Yes.
    Mr. Condit. And all witnesses that appear here?
    Mr. Burton. All witnesses that we subpoenaed and have come 
before the committee.
    Mr. Condit. It was my understanding Ms. Foung, there was a 
commitment made to her about her son traveling with her, that 
she would be allowed to bring her 9-year-old son, later was 
told that she couldn't do that. She had to get child care to 
take care of him for 24-hour periods.
    Mr. Burton. That was discussed. But under the rules of the 
House and the rules of the investigation, that's not allowed. 
The only thing is allowed is for witnesses. We did look into 
some other way to facilitate that, but there was no other way 
to do it. So we provided transportation, hotels and meals and 
incidentals for Ms. Foung and Mr. Landon.
    Mr. Condit. Thank you, Mr. Chairman.
    Mr. Burton. Does the gentleman yield back?
    Mr. Condit. Yes.
    Mr. Burton. The gentleman yields back.
    Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman. Mr. Landon, just to 
followup briefly on the previous questions from my colleagues, 
Mr. Shays and Mr. Cox here, that $12,500, is that in a bank 
account over which you have control?
    Mr. Landon. Yes, sir.
    Mr. Barr. OK. Has that been declared as income to you?
    Mr. Landon. No, it's not mine.
    Mr. Barr. Who's is it?
    Mr. Landon. I assume it's Charlie Trie's.
    Mr. Barr. Is he the one you received it from?
    Mr. Landon. No, I got it from Ms. Foung.
    Mr. Barr. What information is available to you that it is 
Mr. Trie's money?
    Mr. Landon. Just she said it was.
    Mr. Barr. OK.
    Mr. Landon. I assume from what I've read in the paper that 
it belongs to him.
    Mr. Barr. OK. Nothing that you've gathered through these 
hearings or through the grand jury proceedings would lead you 
to that conclusion.
    Mr. Landon. No, sir.
    Mr. Barr. You testified earlier, Mr. Landon, I think it was 
in response to some questions my colleague, Mr. Waxman, had 
asked you that you understood that the checks that you received 
were from overseas.
    Mr. Landon. Yes sir.
    Mr. Barr. OK. You don't know from who they were from, 
though?
    Mr. Landon. No, sir.
    Mr. Barr. OK. But it's your conclusion now that they were 
from Mr. Trie?
    Mr. Landon. Yes, sir.
    Mr. Barr. OK. During the course of your discussions with 
your attorney and with the Department of Justice, and I presume 
that you have had discussions concerning immunity; is that 
correct?
    Mr. Landon. That's correct.
    Mr. Barr. OK. And it's your understanding that you are 
immunized and that means safe from prosecution for anything 
that you talk about here; is that correct?
    Mr. Landon. That's correct.
    Mr. Barr. OK. Are you aware that it is illegal under the 
laws of this country to make political contributions in the 
name of another person?
    Mr. Landon. I am aware.
    Mr. Barr. OK. Are you also aware that it is against the 
laws of this country to launder money?
    Mr. Landon. Yes, sir.
    Mr. Barr. OK. And are you aware that there are, indeed, 
criminal penalties that attach to violations of those U.S. 
laws?
    Mr. Landon. Yes, sir.
    Mr. Barr. OK. Do you know what those penalties are?
    Mr. Landon. No, sir.
    Mr. Barr. OK. But you--it is your understanding that you 
are here under a grant of immunity so you are not to be 
prosecuted--you cannot be prosecuted for any of these offenses.
    Mr. Landon. Yes, sir. As long as I tell you everything I 
know.
    Mr. Barr. OK.
    Ms. Foung, is that your understanding also that you are 
here under a grant of immunity and that you cannot be 
prosecuted for violation of election laws or money-laundering 
laws of this country?
    Ms. Foung. That's correct.
    Mr. Barr. OK. And are you aware, as Mr. Landon has 
testified that he is aware, that it is indeed against the laws 
of this country to make contributions, political contributions 
in the name of another person?
    Ms. Foung. I do now. But I didn't know then.
    Mr. Barr. Nobody has made you aware of that up until this 
point today.
    Ms. Foung. That's correct. Not today, until the whole thing 
that happened to me.
    Mr. Barr. Sure. In other words, but you've had discussions, 
I presume, with your lawyer and so forth about these various 
laws that you are being immunized from.
    Ms. Foung. Yes.
    Mr. Barr. OK. Are either of you familiar with--familiar 
with the gentleman named Antonio Pan?
    Ms. Foung. No.
    Mr. Landon. No, sir.
    Mr. Barr. OK. Ms. Foung, you previously testified that you 
and Mr. Landon were reimbursed for your two separate February 
1996 contributions to the DNC in the amount of $12,500 each for 
a total of $25,000. And I believe those checks have already 
been shown. Were you, Ms. Foung, aware of before being informed 
by this committee that Antonio Pan was the source of that 
$25,000?
    Ms. Foung. No.
    Mr. Barr. And Mr. Landon?
    Mr. Landon. No.
    Mr. Barr. OK. And are both of you under the impression that 
it was your brother's money, Ms. Trie----
    Ms. Foung. Yes.
    Mr. Barr. Ms. Foung?
    Mr. Landon. Yes.
    Mr. Barr. OK. As has been discussed previously before 
today, the committee has learned through the bank records of 
February 22, 1996, Antonio Pan, a former Lippo associate and 
close executive to John Huang and your brother, Mr. Trie, 
opened a savings account at Amerasia Bank in Flushing, NY, with 
an initial deposit of $25,200 cash. If we could see document 78 
please?
    Within minutes of that initial deposit, Mr. Pan withdrew 
$25,000 from the savings account and purchased from Amerasia 
Bank five sequentially numbered $5,000 cashier's checks 
totaling $25,000. Three of the cashier's checks totaling 
$15,000 were made payable to you, Ms. Foung, and two totaling 
$10,000 were made payable to you, Mr. Landon.
    If we can see briefly documents 70 to 72 and 75 and 76. And 
let me add this question to both of you, please. Would it 
surprise you if you discovered that the money sent to you was, 
in fact, your brother's and that Antonio Pan was merely 
assisting your brother in sending the money?
    [Exhibits 70, 71, 72, 75, 76, and 78 follow:]
    [GRAPHIC] [TIFF OMITTED] 44833.045
    
    [GRAPHIC] [TIFF OMITTED] 44833.046
    
    [GRAPHIC] [TIFF OMITTED] 44833.047
    
    [GRAPHIC] [TIFF OMITTED] 44833.048
    
    [GRAPHIC] [TIFF OMITTED] 44833.049
    
    [GRAPHIC] [TIFF OMITTED] 44833.050
    
    Mr. Landon. It would be a surprise to me.
    Mr. Barr. Would that surprise you, Ms. Foung?
    Ms. Foung. Are you talking about back then or now?
    Mr. Barr. You have to testify truthfully. So it doesn't 
matter. Would that surprise you now?
    Ms. Foung. Back then, his name is not there, so, no, I--it 
didn't surprise me. But now, yes. Maybe they do business 
together or something, I don't know.
    Mr. Barr. OK. It's interesting to note that except for the 
$25,200 deposit and the $25,000 withdrawal, from this 
particular savings account established by Mr. Pan on February 
22, 1996, no other activity whatsoever has ever occurred in 
that account, except for the minimal payment of interest on the 
$200 that he left remaining in the account, as we can see from 
documents 115, and 119.
    No other deposits or withdrawals were ever made after the 
establishment of the account and purchase of the $25,000 in 
cashier's checks that were sent to you, Ms. Foung and Mr. 
Landon. Just so the American people and you will know, Antonio 
Pan's business card indicates that he is the executive director 
of your brother's company, America-Asia Trade Center Inc., as 
can be seen from document No. 60.
    Another one of Mr. Pan's business cards indicates that he 
is the chief executive officer of Daihatsu International 
Trading, Inc., another company established and owned by your 
brother, Ms. Foung, Mr. Trie, as shown in document 61.
    Antonio Pan is relevant to Mr. Wang's testimony that we'll 
hear later today, as well as the testimony by the two of you. 
According to Mr. Wang, Mr. Pan accompanied then DNC executive, 
John Huang, to Mr. Wang's car dealership in California where 
John Huang solicited a $5,000 contribution for the DNC from Mr. 
Wang and a $5,000 contribution from Mr. Wang's friend David Wu.
    Later that same day, and again a few days later, Antonio 
Pan delivered envelopes of cash totaling $10,000 to reimburse 
both Mr. Wang and Mr. Wu for their contributions. Evidently, 
your brother was a friend of John Huang, as well. He served as 
a fund-raiser for the DNC and in doing so worked with John 
Huang. In fact, your brother wrote a check for $1,775 to John 
Huang from his America-Asia Trade Center checking account held 
at Riggs Bank. Document 53. The committee continues to 
investigate this check.
    Finally, Mr. Chairman, it should be noted that Antonio Pan 
visited the White House on at least eight occasions between 
August 1995 and October 1996, including one occasion with Mr. 
Charlie Trie. Document 67.
    Mr. Chairman, with today's hearings, we see the 
introduction of another key player in this campaign finance 
scandal, ex-Lippo executive, Antonio Pan. What is particularly 
interesting is the two friends of the Riadys, both ex-Lippo 
executives, Antonio Pan and John Huang, appear to be working in 
concert with the President's long-time friend, Mr. Charlie 
Trie.
    Mr. Chairman, I yield back the balance of my time.
    [Exhibits 115, 119, 60, 61, 53, and 67 follow:]
    [GRAPHIC] [TIFF OMITTED] 44833.051
    
    [GRAPHIC] [TIFF OMITTED] 44833.052
    
    [GRAPHIC] [TIFF OMITTED] 44833.053
    
    [GRAPHIC] [TIFF OMITTED] 44833.054
    
    [GRAPHIC] [TIFF OMITTED] 44833.055
    
    [GRAPHIC] [TIFF OMITTED] 44833.056
    
    [GRAPHIC] [TIFF OMITTED] 44833.057
    
    [GRAPHIC] [TIFF OMITTED] 44833.058
    
    [GRAPHIC] [TIFF OMITTED] 44833.059
    
    [GRAPHIC] [TIFF OMITTED] 44833.060
    
    [GRAPHIC] [TIFF OMITTED] 44833.061
    
    [GRAPHIC] [TIFF OMITTED] 44833.062
    
    Mr. Burton. The gentleman yields back the balance of his 
time. Does anyone on the minority side seek time? If not, 
anybody on the majority side seek time? Mr. Shadegg, or excuse 
me, Mr. Mica. You're recognized for 5 minutes.
    Mr. Mica. Thank you, Mr. Chairman. Now, I know it appears 
that both of you innocently participated in this activity, at 
least that's what you've testified to today; is that correct?
    Mr. Landon. That's correct.
    Ms. Foung. Yes.
    Mr. Mica. And I know you've been inconvenienced, both of 
you. You said 4 days or 5 days and other disturbances to you 
personally. That's correct?
    Mr. Landon. Yes.
    Ms. Foung. Yes.
    Mr. Landon. Yeah.
    Mr. Mica. Did anyone tell you what the penalty would be if 
you did not cooperate, if you did not have immunity, and you, 
you had a problem facing you, a legal problem facing you?
    Ms. Foung. I'm sorry, I don't understand the question.
    Mr. Mica. Did anyone tell you the severity--I mean, you are 
clearly, it appears, innocent participants in this. But you 
were granted immunity both to come before this committee, and I 
understand that you have immunity, I guess, with the Department 
of Justice.
    Mr. Landon. Correct.
    Mr. Sollers. Correct.
    Mr. Mica. OK. But did anyone explain to you that there 
might be some penalty for what you did or your participation?
    Ms. Foung. I was told by your investigator over and over I 
didn't do anything wrong.
    Mr. Mica. No. But again, you were granted immunity.
    Ms. Foung. Yes.
    Mr. Mica. From possible prosecution. I mean, if you did 
nothing wrong, there would be no reason to really get immunity 
from the Department of Justice. They've basically provided you 
cover, and this committee has, to come before us, tell us the 
truth, and you will not be prosecuted. But what you did, it's 
been explained to you, is basically served as a conduit. And 
your action has been illegal. It is illegal. Do you understand 
this, Mr. Landon?
    Mr. Landon. Yes.
    Mr. Mica. What you did was not right.
    Mr. Landon. That's correct.
    Mr. Mica. So you could have been inconvenienced a great 
deal more, I--if.
    Mr. Landon. That is correct.
    Mr. Mica. If the Department of Justice wanted to----
    Mr. Landon. Without the immunity, that is correct.
    Mr. Mica. That's my understanding. Now, I heard about the 
money coming back. Now, you have $5,000 in an account or 
$1,000?
    Mr. Landon. $12,500 in an account.
    Mr. Mica. You have $12,500. Do you have any money in an 
account? Did you get any money back?
    Ms. Foung. No.
    Mr. Mica. And you called DNC and asked for your money back?
    Ms. Foung. Well I better make this clear. My brother's 
money.
    Mr. Mica. OK. Well, but did you get the money back?
    Ms. Foung. No.
    Mr. Mica. You never got anything.
    Ms. Foung. Not yet.
    Mr. Mica. And how did you get your money back? Did you 
place a call, too?
    Mr. Landon. No, sir, I didn't. It was sent to me in, I 
believe, it was June of this year.
    Mr. Mica. Now, the only way you can get in trouble, I 
guess, is if you don't tell the truth or you change your story. 
When you talked to your brother, he didn't say anything about 
not cooperating with anyone, did he?
    Ms. Foung. No. He emphasized over and over that he will not 
discuss anything with me, because I'm a potential witness. He 
don't want to influence me.
    Mr. Mica. But he said to--did he say to cooperate with us?
    Ms. Foung. I don't believe we discussed that.
    Mr. Mica. But did he say anything about you being able to 
get your money back? Is that what prompted you calling DNC, to 
get the money back?
    Ms. Foung. No, he didn't indicate one way or the other.
    Mr. Mica. How did you find out about the ability--how did 
you find out you could get the refund?
    Ms. Foung. That was in the paper, isn't it, that they were 
refunding anything relating to my brother.
    Mr. Mica. Did you just call DNC and----
    Ms. Foung. That's correct.
    Mr. Mica. Do you remember who you talked with?
    Ms. Foung. Joe Sandler. That was the counsel for DNC.
    Mr. Mica. They put you in touch with DNC counsel?
    Ms. Foung. Yes, he put me in touch with DNC counsel. That's 
correct.
    Mr. Mica. I guess you--you two must have a pretty close 
relationship, because she asked you to participate in this, 
right?
    Mr. Landon. Correct.
    Mr. Mica. And did you have any clue of what you were doing 
might be--I mean----
    Mr. Landon. At the time, no, sir.
    Mr. Mica. But I've got good friends and I've never had 
anybody ask me to write a check for $12,000----
    Mr. Landon. She asked me to write the check. My only 
concern when I did her this favor was make sure I got my money 
back, to cover the check.
    Mr. Mica. Did you ask her any questions about it?
    Mr. Landon. She----
    Mr. Mica. You testified earlier----
    Mr. Landon. She mentioned something, it was something for 
the Democrats.
    Mr. Mica. It was something for the Democrats.
    Mr. Landon. Yes.
    Mr. Mica. But again, it was your close relationship, she 
told you it was something for the Democrats so you wrote a 
check for that amount?
    Mr. Landon. Correct.
    Mr. Mica. And didn't question the source?
    Mr. Landon. Well, my initial was I didn't know what the DNC 
was until she mentioned that it had something to do with the 
Democrats.
    Mr. Mica. Wait, she testified earlier that she didn't--she 
didn't even know what the DNC stood for.
    Mr. Landon. I'm pretty sure.
    Mr. Mica. I thought I heard her say that.
    Mr. Landon. Something to do with the Democrats.
    Mr. Mica. And she told you that. I'm afraid my time is 
expired, Mr. Chairman.
    Mr. Burton. The gentleman's time has expired.
    Mr. Souder.
    Mr. Souder. Ms. Foung, I wanted to followup briefly on a 
question that Mr. Shays had asked. When he asked you whether 
you were going to request your $1,000 back that was sent to 
Senator Daschle, you said you weren't; is that correct? There 
is $1,000 that was sent to Senator Daschle from you. You said 
you weren't going to request that $1,000 back.
    Ms. Foung. No.
    Mr. Souder. That pretty strongly suggests that you earlier 
answered that you didn't recollect and that the reason you 
didn't want to say that you flat out didn't know about the 
contribution is you didn't want to discover later that, in 
fact, you did know; is that not true? In other words, when he 
asked you did you know about the $1,000 that was sent to 
Senator Daschle, you said to the best of your recollection, you 
don't remember.
    Ms. Foung. That's correct.
    Mr. Souder. Do you write a lot of $1,000 checks?
    Ms. Foung. Yes. My house payment is over $1,000 every 
month.
    Mr. Souder. But that's--do you write a lot of $1,000 checks 
that aren't repetitive?
    Ms. Foung. No.
    Mr. Souder. In other words, my house payment check is over 
a $1,000, too, and occasionally you have a major thing. But a 
$1,000 check pretty likely you would remember it; isn't that 
true?
    Ms. Foung. Exactly.
    Mr. Souder. So most likely, even though you said to the 
best of your recollection, especially since that you aren't 
asking for rebuttal, it means you almost are 100 percent 
certain that you didn't write that check. It would just be a 
fluke of memory that if somebody came back to you, because you 
really don't remember that check.
    Ms. Foung. That's correct.
    Mr. Souder. And so most likely it was sent by somebody else 
on your behalf using your name, and that's why you aren't 
asking for the refund.
    Ms. Foung. I'm sorry. I didn't understand that part.
    Mr. Souder. Most likely that check was sent by someone else 
using your name, and that's why you don't--aren't asking for a 
refund, and that's why you don't remember.
    Ms. Foung. Yes.
    Mr. Souder. Thank you. Your brother.
    Mr. Cox. I'm sorry, would you yield for just a moment?
    Mr. Souder. I would be happy to yield.
    Mr. Cox. For the record, my understanding of the witness 
testimony to Mr. Shays was there was two, $1,000 checks to Mr. 
Daschle written on the same day in the witness' name. And I 
yield back. Thank you.
    Mr. Souder. Thank you. I understand that you earlier said 
that you felt your brother's influence was overestimated. Had 
he spoken to you or others in the past about any of his 
opinions on China policy?
    Ms. Foung. No.
    Mr. Souder. You've never had a discussion about those 
issues anywhere in family discussions over the years? Do you 
know if he has been active in any other organizations?
    Ms. Foung. No.
    Mr. Souder. To your knowledge, not only about American 
politics, but do you have any information about how he felt 
about China?
    Ms. Foung. No.
    Mr. Souder. The----
    Ms. Foung. Let me correct that. We grew up in Taiwan. We 
were brought up to believe Red China is a different country, is 
our enemy. But as I grow up, it's not as important to me 
anymore. They're old China.
    Mr. Souder. Does it surprise you that your brother would 
have first raised, which has been reported, fairly extensively 
$460,000 in checks for the Presidential campaign and then 
followed that with a letter to the President urging restraint 
in how they handled the--when Mainland China threatened, at 
least--at least blustered a threat at Taiwan, and that he would 
have been interested in trying to influence that policy in the 
United States?
    Ms. Foung. For the best interest of the United States, the 
experience that we learned from China--learned from Vietnam war 
and Korean war, wouldn't that be the best interest of the 
United States to not get involved with the war or something 
like that? And he is citizen of the United States. He and me 
both love this country very much. I'm sure his way of thinking 
is maybe most of the Americans' here thinking too. So how come 
when he say something like that, it's influencing policy. If 
it's American people so nice to me say the same thing, it's not 
influencing policy. So are we being separated from--just 
because we're Asian-American?
    Mr. Souder. He absolutely has a right to speak. And all 
Americans have the right to speak. But when you bring checks in 
for $460,000, at the time you're influencing policy, and you 
raise that money from overseas sources, it's a little bit 
different. That's what we're trying to get to.
    Ms. Foung. Right. I understand.
    Mr. Souder. It's not about Asian-Americans. In fact, I want 
to say this for the record. I think Asian-Americans have been 
used by this administration. We don't see other continents and 
people from other types of nations being drug through this like 
this. Asian-Americans like you were used to launder money. And 
it's a discredit to this administration the way they've abused 
the Asian-Americans. And with that, I yield back.
    Mr. Burton. The gentleman yields back the balance of his 
time. Mr. Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman. I want to begin by 
establishing that, first of all, when you wrote this check, you 
wrote two checks, one for $12,500, and later, one for $10,000; 
is that right?
    Ms. Foung. That's correct.
    Mr. Shadegg. And as I understood your earlier testimony, 
when you wrote the $12,500 check, you did not have $12,500 in 
your account; is that right?
    Ms. Foung. That's correct.
    Mr. Shadegg. And I guess you weren't clear as to when you 
wrote the $10,000 check as to if you had money in your account 
at that time. You might or might not have.
    Ms. Foung. I might or might not have.
    Mr. Shadegg. OK. Not sure. Mr. Landon, when you wrote the 
$12,500 check, as I understand it, you did not have $12,500 in 
your account.
    Mr. Landon. That's correct.
    Mr. Shadegg. I want to ask another question of you, ma'am. 
As I understand it, you did not get paid any money for doing 
this. Your brother did not offer you any money for doing this, 
did he?
    Ms. Foung. No, my brother does give me money periodically, 
you know, being gifts or being just help me out and things like 
that.
    Mr. Shadegg. So he does make gifts to you or sometimes 
gives you money.
    Ms. Foung. To my kids or, yes. He's a very generous person.
    Mr. Shadegg. How much has he given you over time?
    Ms. Foung. Thousand, a few hundred, and--I didn't keep 
track of it. Or if I need, I ask him to give the amount he can 
afford.
    Mr. Shadegg. When he asked you to write this $12,500 check 
to an entity you didn't know the name of, did you have and--and 
didn't know what it was, did you have a belief or understanding 
that if he did that, he might later make a gift to you or to 
your children?
    Ms. Foung. I didn't expect anything.
    Mr. Shadegg. You didn't expect anything.
    Ms. Foung. Huh-uh.
    Mr. Shadegg. You were doing this because you care about 
your brother and he's family and this was a favor to him.
    Ms. Foung. It was something small. I have no financial 
loss. Why not? If I knew it was wrong, I'm sure I wouldn't do 
it. He wouldn't ask me. That's the extent of what I believe in.
    Mr. Shadegg. I know you're here under a grant of immunity 
and you've been protected and I don't--and I appreciate you 
coming forward, as our colleagues on the other side have 
expressed.
    Ms. Foung. Yes.
    Mr. Shadegg. I have to tell you that I'm a little concerned 
that you're caught up in a web of serious conduct here, which I 
think goes to the integrity of this Government. If we corrupt 
the political process in this country, people won't have faith 
in the Government, and I think it has serious consequences.
    You say it wasn't anything wrong, it was a little thing. 
For most of us--you described yourself as a blue collar worker. 
For most of us, writing a $12,500 check, later writing a 
$10,000 check, is not a little thing. It would not be a little 
thing particularly to a group we had never heard of. So I am 
having some trouble.
    I believe you. I believe the speech you made earlier about 
you are an honest person, but there are other people out there 
in America who may get used, next year or today, like it 
appears you got used; and quite frankly, what is evident here, 
whether you like it or not, is that your brother corrupted the 
American political process. And that does serious damage.
    And when you say, well, there was nothing wrong, it was a 
little thing, I guess I have to ask you, did it occur to you 
that it might not be a good idea to write a check for $12,500 
to an organization you didn't know what it was when you didn't 
have $12,500 in your bank?
    Ms. Foung. I guess there would be several answers to your 
question. It's a long question. When I said--I said at the time 
when I did it, it was a small thing to me because there is no 
financial impact to me. I didn't know it was wrong. I thought I 
was simply putting a check in for him because of time, and what 
was I--and I think I repeated over and over, if I knew it was 
wrong, it wouldn't have happened. I wouldn't be sitting here.
    Mr. Shadegg. Let me go to that, because my time is 
beginning to run out here.
    Most of us know that it is not right to write a check out 
of our account for an amount we don't have in the account. And 
so most of us would have been very concerned about--that's 
called kiting checks. It is improper.
    I am a little stunned that you would sit here and say, 
well, I wrote a check for $12,500 knowing I didn't have it in 
my account. I am a little worried about that. And if other 
people across America are going to get asked to do it, I hope 
that, as a result of this hearing, they will ask themselves, 
even if it is their brother, gee, I don't think I ought to 
write a check for $200 that isn't in my account, much less 
$12,500 that isn't in my account. Why don't you just write the 
check?
    And I think it should have been a clue to you, and I hope 
is a clue to future Americans, that if somebody asks them to 
write a check, they are really making a statement that I think 
is fundamentally dishonest. When I send a check to somebody, I 
am claiming that's my check; and to do that to the tune of 
$12,500, when I don't have that in my bank, I ought to be 
asking a few questions.
    You know, what is this organization? You would have us 
believe, for example, that you didn't really care whether this 
group was nuclear terrorists. Your brother asked you and you 
did it, even though the check itself was a crime; and I just am 
concerned about that, and I hope other Americans will 
understand that there are consequences to their conduct, and 
that money laundering in this country, whether it is for 
political purposes or otherwise, is dangerous.
    I yield back the balance of my time.
    Mr. Burton. The gentleman's time has expired. Does anyone 
on the minority have any desire for time?
    If not, who seeks time on the majority side?
    Mr. Cox. Mr. Chairman.
    Mr. Burton. Does Mr. McHugh? Mr. Pappas.
    Mr. Pappas. Yes.
    Mr. Burton. Mr. Pappas.
    Mr. Pappas. Thank you, Mr. Chairman. I think I would like 
to get back to something we spoke about earlier.
    At the time, Mr. Landon, you received the request by Ms. 
Foung to make this, I guess it was a $12,500 check, you said 
that she asked you to make a check out for, I guess it was the 
DNC, and you obliged.
    Mr. Landon. Yes, sir.
    Mr. Pappas. Did you ask--would you tell me again what--did 
you ask her any questions? Did you ask her to elaborate?
    Mr. Landon. Well, when I first got the--saw the DNC, I 
didn't know what it was. And she says it was coming from 
something overseas--someone overseas was requesting it, and it 
was to be sent to Washington, DC.
    Mr. Pappas. And did you know--I guess you assumed that you 
would be reimbursed?
    Mr. Landon. Yes, sir.
    Mr. Pappas. And did you know within what timeframe you 
would be reimbursed?
    Mr. Landon. I believe she told me it was a couple of days.
    Mr. Pappas. OK. And were you made aware that her brother 
was in any way involved in this, at the time?
    Mr. Landon. At the time, I am not sure she specifically 
said her brother. I think I might have assumed it was her 
brother because that was the only one she had ever mentioned 
overseas.
    Mr. Pappas. OK.
    Ms. Foung, I guess the same question for you--and these may 
have been questions you probably have been asked many times: It 
was your brother who was the one that made the request that you 
write this initial $12,500 check?
    Ms. Foung. Yes.
    Mr. Pappas. And at the same time, did he ask that you have 
Mr. Landon do the same?
    Ms. Foung. I have to say yes, because otherwise I have no 
other reason.
    Mr. Pappas. OK. And did you ask him why?
    Ms. Foung. I might have.
    Mr. Pappas. OK. Do you remember if he had told you, or did 
he--in response to a question that you asked him, did he tell 
you why?
    Ms. Foung. He might have told me something that I--it just 
didn't mean anything to me. I didn't understand the whole 
thing.
    Mr. Pappas. And do you remember if your brother 
specifically gave a reason, even if you did not ask him a 
question, why he was asking you to do this?
    Ms. Foung. I honestly didn't pay attention. I really didn't 
at the time. I didn't pay attention.
    Mr. Pappas. And assuming--I think that's what you said 
earlier, that you did not believe, or you weren't sure whether 
you had that amount to cover that check, did you know within 
what timeframe you would receive a reimbursement?
    Ms. Foung. My brother has never cheated me with money, and 
if I write a check that has--it bounces, it doesn't do him any 
good, it doesn't do me any good.
    Mr. Pappas. So you assumed, based upon your experience with 
your brother previously, that that would be something that 
would be resolved quickly?
    Ms. Foung. Yes.
    Mr. Pappas. OK. Did you wonder when the money appeared--
evidently it was wired into your account. Did you wonder where 
it came from?
    Ms. Foung. No.
    Mr. Pappas. Can you tell me why you didn't wonder?
    Ms. Foung. Why should I wonder? My concern is that the 
check was covered.
    Mr. Pappas. So at the time you were not specifically 
concerned where that money may have been wired from or from 
whom?
    Ms. Foung. That's correct.
    Mr. Pappas. OK. And shifting gears a bit, you mentioned 
that you were aware that your brother had a relationship with 
the President in some way.
    Ms. Foung. I didn't say ``relationship.'' Just what----
    Mr. Pappas. Friendship, acquaintanceship, whatever. I am 
not trying to put words in your mouth, but some sort of 
contact.
    Ms. Foung. I know my brother knew Mr. Clinton ever since--
back in Little Rock.
    Mr. Pappas. Right. And are you aware of whether your 
brother had any acquaintanceship or friendship or working 
relationship with any other public figure or--any political or 
public figure?
    Ms. Foung. Not at all.
    Mr. Pappas. OK. I yield back. Thank you, Mr. Chairman.
    Mr. Burton. The gentleman yields back the balance of his 
time.
    Does anyone else seek time?
    Mr. Cox. Mr. Chairman.
    Mr. Burton. Mr. Cox.
    Or Mr. McHugh, did you seek time?
    Mr. McHugh. Yes, Mr. Chairman.
    Mr. Burton. Let me go to Mr. McHugh first, and then I will 
could come back to you.
    Mr. McHugh. I was--under what I assume is the protocol of 
this committee, I was going to yield to Mr. Cox.
    Mr. Cox. I think, as it happens, we have reached the end of 
the first round, so it would be the same result in either case.
    Mr. Burton. OK. Who seeks time? Mr. Cox.
    Mr. Cox. I will seek time. Thank you.
    Ms. Foung, you said earlier that you contacted the 
Democratic National Committee because you wanted your money 
back. And what did you propose to do with the money if they 
gave it back to you?
    Ms. Foung. That would be up to my brother to decide.
    Mr. Cox. And how would you work that out with your brother?
    Ms. Foung. I don't know. I never had a problem with getting 
in touch with him in the past.
    Mr. Cox. It is pretty easy to get in touch with him?
    Ms. Foung. I wouldn't say ``easy.'' If there was some 
emergency, I must talk to him, I usually just ask my family 
member if my brother calls, have him give me a call.
    Mr. Cox. Like the time you asked your mother----
    Ms. Foung. Right.
    Mr. Cox [continuing]. ``Have him call me,'' and he called 
you right back?
    Ms. Foung. That's correct.
    Mr. Cox. So you get in touch with him, you discuss with 
him, ``I got the money back from the DNC; what do you want me 
to do with it?''
    Ms. Foung. Yes.
    Mr. Cox. And since you have said it is not your money, 
would you probably want to give it back to him?
    Ms. Foung. It is up to him to decide.
    Mr. Cox. Maybe he will make a gift of it to you, maybe not?
    Ms. Foung. It is up to him.
    Mr. Cox. I am just trying to--what are the options? It is 
up to him. His choice is, let you keep it, have you send it to 
him; any other options that you can think of?
    Ms. Foung. I don't know. I haven't thought about it.
    Mr. Cox. OK. So those are pretty much the main options 
then, either you keep it or you send it back to him.
    If you send it back him, how might you do that?
    Ms. Foung. I am sorry?
    Mr. Cox. If he said, I want the money back, how would you 
send it to him?
    Ms. Foung. I don't know. I am sure he will let me know how.
    Mr. Cox. Give you some specific instructions on how to wire 
it or something?
    Ms. Foung. Probably, yes.
    Mr. Cox. OK. Now, since apparently you can get in touch 
with your brother like this, will you undertake to help this 
committee get in touch with your brother?
    Ms. Foung. Yes, I did. I tried to get in touch with him is 
because of doing something for this committee.
    Mr. Cox. On a continuing basis, in the future, will you 
help us to get in touch with him?
    Ms. Foung. That, I don't know.
    Mr. Cox. You don't know whether you will help? Will you try 
to help?
    Ms. Foung. I have very bad experience with this whole 
thing, so I really--it is to be determined.
    Mr. Cox. Well, we have had a bad experience, as well. We 
are trying to locate a man who has fled to the People's 
Republic of China for the purpose of avoiding the process of 
this committee.
    And it is not just the House of Representatives, it is not 
just this committee; it is also the U.S. Senate and the 
Department of Justice, and the FBI. So you would be helping 
your Government if you would--because we have given you 
immunity from prosecution by your Government, if you would 
assist us in locating the man who is the reason you are here 
today, who unwittingly used you to launder money.
    So do you think you might be willing to help us?
    Ms. Foung. I have done everything I could so far.
    Mr. Cox. I am sorry?
    Ms. Foung. I have done everything I could to be cooperative 
as I could.
    Mr. Cox. And as you can tell from the comments of the 
committee, we are appreciative. But what we are particularly 
interested in--and this is a matter between our two governments 
right now, between the United States Government and the 
Government of the People's Republic of China--is getting your 
brother to return to the United States. And we need to get in 
touch with him for that purpose.
    We have been unable to get in touch with him. Do you think 
you could put us in touch with your brother?
    Ms. Foung. Like I said, I tried already. I already told him 
exactly what your investigator told me, that he is not what you 
guys are really looking for and they wanted to talk to him 
anywhere, like anywhere outside the country, outside the United 
States; and I repeat that to him.
    And he said--I remember he said something about, yes, I 
tried--we tried over and over, wanted to talk to him, but it 
hasn't been successful. So I don't know what the true story is.
    Mr. Cox. Well, I do hope that you will. Because this 
committee and this Government has been very generous to you in 
being sure that you will not be prosecuted in return for your 
cooperation, I hope you will, in fact, provide cooperation with 
us on this very important matter.
    In March 1996, you attended this event with the President 
and talked to the President there, as we have covered here. And 
you also at that event talked to John Huang; is that right?
    Ms. Foung. Yes.
    Mr. Cox. And you talked to John Huang on the telephone 
before that event; is that right?
    Ms. Foung. Yes.
    Mr. Cox. And you talked to John Huang on the phone after 
that event; is that right?
    Ms. Foung. I believe so.
    Mr. Cox. In connection with all of this, did you learn that 
your brother had introduced Wang Jun, who is the head of one of 
the largest parts of the Chinese--the People's Republic of 
China's military-industrial complex, to the President, at a 
White House coffee just a month before?
    Ms. Foung. No.
    Mr. Cox. My time has expired.
    Mr. Burton. The gentleman's time has expired.
    Mr. Mica.
    Mr. Cummings. I seek time.
    Mr. Burton. Do you seek time?
    Mr. Cummings. When the second round comes up.
    Mr. Burton. We will give you time right now, Mr. Cummings.
    Mr. Cummings. I wasn't going to ask you any questions but 
after all this series of questions, I just want to clear some 
things up for the record.
    Ms. Foung, when you did this for your brother, you did not 
know that you were committing any kind of crime; is that 
correct?
    Ms. Foung. That's correct. I also didn't cover anything up. 
Everything was very clear, what I had done.
    Mr. Cummings. All right. But now looking at it in 
retrospect, having gone through the grand jury, spoken to your 
lawyer, you understand that you probably did do something 
wrong. And I take it that if you had it to do all over again, 
you wouldn't do this, is that right, that is, the writing of 
the check? Is that correct?
    Ms. Foung. That's correct.
    Mr. Cummings. All right.
    Mr. Landon, you are a Navy veteran; is that correct?
    Mr. Landon. That's correct.
    Mr. Cummings. You don't have a criminal record?
    Mr. Landon. No, sir.
    Mr. Cummings. Never been in any trouble with the law?
    Mr. Landon. No, sir.
    Mr. Cummings. And so--and when you did this, you didn't 
even know what the DNC was; did you?
    Mr. Landon. No, sir.
    Mr. Cummings. And so did you know that you were possibly 
violating the law when this took place?
    Mr. Landon. Not at the time, but I found out real quick 
since then.
    Mr. Cummings. And I take it that if you had to do this 
again you wouldn't do it based upon the knowledge that you have 
today; is that correct?
    Mr. Landon. That's very correct.
    Mr. Cummings. Now, you are retired from the Navy?
    Mr. Landon. Yes.
    Mr. Cummings. Honorable discharge?
    Mr. Landon. Yes.
    Mr. Cummings. You served your country?
    Mr. Landon. Yes.
    Mr. Cummings. Now, let me ask you this, Ms. Foung: There 
have been a number of questions asked with regard to your 
brother and your knowledge of all his political goings on. I 
take it that you didn't have a lot of knowledge about what he 
did politically; is that correct?
    Ms. Foung. That's correct.
    Mr. Cummings. So did you--so you didn't have regular 
discussions about what his involvement was with the Democratic 
party or President Clinton or anything of that nature; is that 
right?
    Ms. Foung. That's correct.
    Mr. Cummings. All right. I don't have anything else.
    Mr. Burton. The gentleman yields back the balance of his 
time.
    I think we have one more questioner, Mr. Mica.
    Mr. Mica. Ms. Foung, I have previously referred to you as 
rather innocent in this process, and now I am reviewing some of 
the documentation that we have received at this hearing, but I 
find that on--in June 1995, you, in fact, gave $1,000 to--well, 
$2,000 on that date to this--a lot of people supporting Tom 
Daschle; is that correct?
    I will put up exhibit 110.
    [Exhibit 110 follows:]
    [GRAPHIC] [TIFF OMITTED] 44833.063
    
    Ms. Foung. This one is the first time I have seen it.
    Mr. Mica. So back in 1995, June 1995, you were giving 
$2,000 in this--into a campaign. You got that money from your 
brother, too?
    Mr. Sollers. Congressman, she has already testified that 
she did not recall giving that money. It has already been made 
clear on the record.
    Mr. Mica. Now, this Dai Lin Outlaw; that's your sister?
    Ms. Foung. That's correct.
    Mr. Mica. And your brother-in-law is Jim Outlaw. Did you 
talk to them? They both gave the money on the same day. Did you 
ever talk to your brother--your sister or brother-in-law about 
giving money back in 1995?
    Ms. Foung. No, never talked about it at all.
    Mr. Mica. Have you ever talked to your brother or sister-
in-law?
    Ms. Foung. My sister and brother-in-law.
    Mr. Mica. Your sister and brother-in-law, you have never 
talked to them about it?
    Ms. Foung. No.
    Mr. Mica. What about--your mother gave $2,000 on the same 
day?
    Ms. Foung. No.
    Mr. Mica. And you have never discussed with your mother the 
giving of any contribution?
    So according to the records we have, the whole family gave 
on that day, just coincidentally.
    Then on--the next experience is February 1996, we have the 
$12,500, which you, Mr. Landon, you sent $12,500 in February 
the 19th and you sent $12,500 the 19th of February; both the 
same date; is that correct?
    Mr. Landon. I believe that date is correct.
    Mr. Mica. Is that correct, Ms. Foung; $12,500 was your 
first----
    Ms. Foung. I don't remember.
    Mr. Mica. This was your second experience? This is a year 
later. You didn't remember the first one.
    Ms. Foung. I remember, according to the record, it was the 
day after.
    Mr. Mica. So we go back to June 1995, and we have a record 
of contributions that suddenly appear under each of the family 
member's name; February. Then we get to August 1996, a little 
over a year ago, the $10,000. And you do recall that, Ms. 
Foung; is that correct?
    Ms. Foung. Yes.
    Mr. Mica. So it is sort of a trail of doing this over and 
over again and you never had a question about it?
    Ms. Foung. No. There was only two times.
    Mr. Mica. Now. We all sympathize with your inconvenience, 
but the law--and I asked for a copy of it--here says that any 
person who knowingly or willfully violates--commits a violation 
of any provision of this act, which involves making, receiving, 
or reporting any contribution or expenditure aggregating $2,000 
or more during a calendar year, shall be fined and imprisoned 
for not more than 1 year or both, and the amount of the fine 
shall not exceed $25,000 or 300 percent of any contribution or 
expenditure involved in such violation.
    That could be a lot more inconvenience than 4 or 5 days; 
couldn't it?
    Ms. Foung. There is a word ``intentionally.''
    Mr. Mica. You don't have to answer, because you didn't--you 
didn't violate it to the degree. I mean, you only did $12,500; 
is that right?
    Mr. Landon. That's correct.
    Mr. Mica. Well, OK. The other assumption is that there is 
nothing new here today. So you testified and you testified that 
no one contacted you prior to our committee contacting you; is 
that correct?
    Ms. Foung. That's correct.
    Mr. Mica. That's correct?
    Mr. Landon. As far as?
    Mr. Mica. Anything about this matter, the FBI, the 
Department of Justice.
    Mr. Landon. A newspaper reporter.
    Mr. Mica. Oh, a newspaper reporter got to you first?
    Mr. Landon. It was back in February of--February of this 
year.
    Mr. Mica. Tell me which one just for the heck of it. Do you 
remember?
    Mr. Landon. It was a Washington paper. I don't know Post, 
Times or what it was.
    Mr. Mica. All right. We want to give the Times full credit. 
They are beat up lately.
    Now, the first contact that took place with you from any 
official body was this committee, correct? Is that correct? On 
this matter? The first contact with you from any official 
Government body was this committee; is that correct?
    Mr. Landon. Well, the Department of Justice got in touch 
with me, too.
    Mr. Mica. But no, who got to you first? Do you remember 
when?
    Mr. Landon. When did you guys?
    Ms. Foung. Yes, the investigator.
    Mr. Mica. When?
    Mr. Landon. Sometime in September, I believe.
    Ms. Foung. I am sure your record will----
    Mr. Mica. September of this year?
    Ms. Foung. No. Your record should have shown the date. They 
came to my house.
    Mr. Mica. OK. We will just say 2 or 3 months ago.
    Has anyone from the Senate investigations, Senate 
committee, contacted you?
    Mr. Landon. No, sir.
    Mr. Mica. Have they contacted you?
    Ms. Foung. No.
    Mr. Mica. OK. And when did the FBI or the Department of 
Justice contact you? Can you remember? A month ago or 2 months 
ago?
    Ms. Foung. No, they didn't.
    Mr. Mica. They have not contacted you?
    Ms. Foung. No, except we know we went to the grand jury.
    Mr. Mica. When you were called into the grand jury?
    Ms. Foung. Uh-huh.
    Mr. Mica. The same with you?
    Mr. Landon. Correct.
    Mr. Mica. Well, Mr. Chairman, I will yield back my time.
    Mr. Burton. The gentleman's time has expired.
    And I guess we have one last questioner, Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    Ms. Foung, who do you work for? You talked about your job 
but I don't recall----
    Mr. Burton. We agreed to keep the witnesses' employment 
confidential.
    Mr. Barr. OK. What is the nature of your duties, without 
disclosing who you work for? What is the nature of your 
employment duties?
    Ms. Foung. It is real complicated. We do mechanical 
maintenance work.
    Mr. Barr. I am sorry, what?
    Ms. Foung. Mechanical or maintenance or operator.
    Mr. Barr. OK. Have you worked for an insurance company or 
companies in the past?
    Ms. Foung. Yes.
    Mr. Barr. OK. USF&G?
    Ms. Foung. Yes.
    Mr. Barr. Any others?
    Ms. Foung. St. Paul, Aetna.
    Mr. Barr. OK. Approximately how many years total were you 
in the insurance business?
    Ms. Foung. Approximately 8 years.
    Mr. Barr. OK. If we could have up the Birthday Victory Fund 
check. Is that August 15th, 1996, for $10,000, the one, Ms. 
Foung, that is noted at the bottom, ``Federal.'' You testified, 
I think earlier today, and I believe also in your deposition, 
that the word ``Federal'' was written in the lower left-hand 
corner because your brother had asked you to put that there?
    Ms. Foung. Yes.
    Mr. Barr. Did he offer any explanation at all about what 
that meant?
    Ms. Foung. No.
    Mr. Barr. Did you ask him?
    Ms. Foung. No.
    Mr. Barr. Is your brother a fairly particular type person? 
In other words, if he says something, is there usually a reason 
for what he says?
    Ms. Foung. Yes.
    Mr. Barr. OK. So you figured--you would agree with me that 
there was a reason why he asked you to put ``Federal'' on the 
check there? He didn't just pull that name out of the air?
    Ms. Foung. Yes, I agree with you.
    Mr. Barr. OK. The check is made out to the Birthday Victory 
Fund. Whose birthday is that?
    Ms. Foung. I believe he mentioned that something was to 
Mister--the President's birthday.
    Mr. Barr. OK. Did you ask him about that at the time?
    Ms. Foung. About what?
    Mr. Barr. Did you say, Charlie, whose birthday am I giving 
this to, or something like that?
    Ms. Foung. I probably did.
    Mr. Barr. OK. Why did you ask him about that and not the 
rest of the information on the check? You don't know?
    Ms. Foung. Birthday, that's interesting--that's something 
interesting me more than politics.
    Mr. Barr. Well, I don't know that birthday means politics 
to most of us. But asking you to put the word ``Federal,'' 
which could relate to the Federal Government, that didn't 
interest you?
    Ms. Foung. Not really. I thought it was a part of a 
business.
    Mr. Barr. What business is that?
    Ms. Foung. His business.
    Mr. Barr. Well, what business?
    Ms. Foung. A lot of corporations or businesses have a 
lobbyist, contributions, things like that; is that right? I 
mean, that's something I don't understand. So if it is 
something I don't understand, I don't ask.
    Mr. Barr. A lot of us don't. That is why we are trying to 
sort of be able to ask him directly.
    Ms. Foung. I am not talking about him. I am talking about 
corporation in this country in general.
    Mr. Barr. I am talking about him. I am talking about this 
check and this incident.
    Ms. Foung. Until this moment, I still don't know what that 
``Federal'' means. Maybe you can explain it to me?
    Mr. Barr. I could explain to you but I doubt that our 
colleagues on the other side would be interested.
    What I am interested in is what you know about the check, 
what you knew about it at the time and what he intended, and we 
have covered that.
    Mr. Landon, if I could, refer back to another document, and 
I apologize--I don't recall whether we looked at this earlier, 
but you, I believe, testified that you don't know Mr. Huang; is 
that correct?
    Mr. Landon. That's correct.
    Mr. Barr. Prior to all of this happening, did you ever--had 
you ever heard his name before?
    Mr. Landon. No, sir.
    Mr. Barr. Yet you are now aware that this document, which 
details the check to you--from you coming in for the dinner was 
attributed to Mr. Huang's account, as it were?
    Mr. Landon. I know it was given to the DNC.
    Mr. Barr. I am sorry?
    Mr. Landon. I know it was wrote for the DNC.
    Mr. Barr. Right. Do you see there where Mr. Huang's name 
appears on the bottom left?
    Mr. Landon. Yes, sir.
    Mr. Barr. OK. Does it at this point bother you that you 
have apparently been, to some extent, used by somebody that you 
don't even know?
    Mr. Landon. If you mean do I wish I hadn't wrote the check, 
that's correct.
    Mr. Barr. Yes. Thank you. Thank you very much.
    And I yield back, Mr. Chairman.
    Mr. Burton. The gentleman yields back the balance of his 
time.
    I want to conclude this part of our hearing today, by 
thanking Mr. Landon and Ms. Foung. I know you had a couple of 
uncomfortable moments. I apologize for that, but we really 
appreciate your cooperation. And Mr. Sollers, we appreciate 
your being here. We will stand in recess until 3 p.m., so we 
can get a bite to eat.
    [Whereupon, at 2:15 p.m., the committee recessed to 
reconvene at 3 p.m., this same day.]
    Mr. Burton. The committee will reconvene. Would the 
officers shut the doors, please?
    We are now ready for our second panel that consists of Mr. 
David Wang. Mr. Wang, please approach the table, please.
    Mr. Wang, would you raise your right hand?
    [Witness sworn.]
    Mr. Burton. On behalf of our committee, Mr. Wang, we 
welcome you here today. We understand that you may be in need 
of an interpreter and one has been provided for you. And I ask 
that all Members who are going to be questioning the witness be 
as patient as they can because there will be a translation, in 
many cases, necessary.
    I now recognize the committee's chief counsel, Mr. Bennett, 
for 30 minutes.
    [The deposition of David Wang follows:]

                           Executive Session

      Committee on Government Reform and Oversight,
                             U.S. House of Representatives,
                                                    Washington, DC.
                       DEPOSITION OF: DAVID WANG
                                    Monday, October 6, 1997

    The deposition in the above matter was held in Room 2203, Rayburn 
House Office Building, commencing at 1:05 p.m.
Appearances:
    Staff Present for the Government Reform and Oversight Committee: 
Richard D. Bennett, chief counsel; James C. Wilson, senior 
investigative counsel; Barbara Comstock, chief investigative counsel; 
Kenneth Ballen, minority chief investigative counsel; Christopher Lu, 
minority counsel; Michael T. Yang, minority counsel; Andrew Su, staff 
assistant; Michael J. Raphael, minority counsel, Phil Schiliro, 
minority staff director; Agnieszka Fryszman, minority staff; Phil 
Barnett, minority staff.
    Also Present: Paul N. Herbert, criminal investigator, Department of 
the Treasury.
    Interpreter for the Witness: Herman Liang.
For DAVID WANG:
    MICHAEL CARVIN, ESQ.
    R. TED CRUZ, ESQ.
    Cooper & Carvin
    Suite 401
    2000 K Street, N.W.
    Washington, D.C. 20006

For DAVID WANG:
    MARK T. FLEWELLING
    Walker, Wright, Tyler & Ward, LLP
    Suite 900
    626 Wilshire Boulevard
    Los Angeles, California 90017-3209

    THEREUPON, DAVID WANG, a witness, was called for examination by 
   counsel, and after having been first duly sworn, was examined and 
                         testified as follows:

    Mr. Bennett. Good afternoon, Mr. Wang. I'm Dick Bennett, chief 
counsel for the Government Reform and Oversight Committee. On behalf of 
all of the members of the committee, Republicans and Democrats alike, I 
want to thank you for appearing here today. The record should reflect 
that you have a translator who has been provided by the committee 
seated to your right and if you would identify yourself please, sir.
    The Interpreter. Herman Liang.
    Mr. Bennett. Mr. Liang is here to translate any questions which you 
don't understand or translate your answers. Do you understand that?
    The Witness. Yes.
    Mr. Bennett. Do you have a working understanding of the English 
language so you believe you understand what I have said thus far?
    The Witness. Yes.
    Mr. Bennett. Also, we should note that you are appearing here 
pursuant to an immunity order signed by Judge Johnson of the United 
States District Court for the District of Columbia, a copy of which has 
been provided to your counsel, Mr. Carvin. Is that correct, Mr. Carvin?
    Mr. Carvin. Yes, that's right.
    Mr. Bennett. This proceeding is known as a deposition, Mr. Wang. 
The person transcribing this proceeding is a House reporter and notary 
public. You have been placed under oath.
    I would like to note for the record those who are present at the 
beginning of the deposition. As I said, I am Dick Bennett, chief 
counsel for the committee. To my right is Jim Wilson, chief assistant 
Majority counsel for the committee. I am accompanied here today by Mr. 
Paul Herbert, who is a criminal investigator with the Department of the 
Treasury and I believe you have met Mr. Herbert before, correct?
    The Witness. Yes.
    Mr. Bennett. Also, Mr. Ken Ballen and Mr. Chris Lu are Minority 
counsel for the committee, and they are accompanied by, and perhaps I 
should make sure I have the names correctly.
    Mr. Ballen. Michael Yang, Andrew Su, and Michael Raphael.
    Mr. Bennett. For the record, Mr. Wang, you are represented here 
today by?
    Mr. Carvin. Michael Carvin, Cooper & Carvin, with my associate Ted 
Cruz. And Mark Flewelling, who is Los Angeles counsel.
    Mr. Bennett. I would advise you, first of all, Mr. Wang, that 
although this proceeding is being held in a somewhat informal 
atmosphere, because you have been placed under oath, your testimony 
here today has the same force and effect as if you were testifying 
before the committee or in a courtroom. Do you understand that?
    The Witness. Yes.
    Mr. Bennett. And for the record, as a courtesy to Congressman 
Waxman, Congressman Waxman of California has arrived, Congressman, it 
is nice to see you, sir.
    Mr. Waxman. Thank you.
    Mr. Bennett. In a minute, Congressman, I'll defer to you, if you 
have any questions.
    But in advising the witness in terms of the procedures to be 
followed, if I ask you or anyone asks you any questions about 
conversations you have had in the past and you are unable to recall the 
exact words used in that conversation, you may state that you are 
unable to recall those exact words and then you may give the gist or 
substance of any such conversation to the best of your recollection. Do 
you understand that?
    The Witness. Yes.
    Mr. Bennett. If you recall only part of a conversation or only part 
of an event, please give me your best recollection of those events or 
parts of conversations that you recall.
    If I ask you whether you have any information about a particular 
subject and you have overheard other persons conversing with each other 
regarding that subject or have seen correspondence or documentation 
about that subject, please tell me that you do not have such 
information and indicate the source from which you derive such 
knowledge. Do you understand that?
    The Witness. Okay.
    Mr. Bennett. Before we begin the questioning, I want to give you 
some background about the investigation and your appearance here. 
Pursuant to its authority under House Rules X and XI of the House of 
Representatives, the Committee on Government Reform and Oversight is 
engaged in a wide-ranging review of possible political fund-raising 
improprieties and possible violations of law.
    Pages 2 through 4 of the House Report 105-139 summarizes the 
investigation as of June 19, 1997, and describe new matters which have 
arisen in the course of the investigation. Also, pages 4 through 11 of 
the report explain the background of the investigation. All questions 
relating either directly or indirectly to these issues, or questions 
which have the tendency to make the existence of any pertinent fact 
more or less probable than it would be without the evidence, are 
proper.
    Mr. Liang, I think in an abundance of caution, if you will 
translate that for Mr. Wang as well, because that was somewhat 
involved.
    The Witness. Yes.
    Mr. Bennett. The committee has been granted specific authorization 
to conduct this deposition pursuant to House Resolution 167 which 
passed the full House on June 20, 1997. Committee Rule 20 outlines the 
ground rules for the deposition.
    Majority and Minority committee counsels will ask you questions 
regarding the subject matter of the investigation. Minority counsel 
will ask questions after Majority counsel has finished, which means 
after I ask questions, then Mr. Ballen or Mr. Lu will ask questions. Do 
you understand that?
    The Witness. Yes.
    Mr. Bennett. As a matter of courtesy to a Member of Congress, 
Congressman Waxman in a few minutes will be accorded the opportunity to 
ask questions initially, or Congressman Waxman at any time may 
interject questions that he has. Do you understand that?
    The Witness. Yes.
    Mr. Bennett. After the Minority counsel has completed questioning 
you, a new round of questioning might begin. As I said, Members of 
Congress who wish to ask questions will be afforded an immediate 
opportunity to ask their questions. When they are finished, we may 
continue to ask questions.
    Pursuant to the committee's rules, you are allowed to have an 
attorney present to advise you of your rights being here today. Any 
objection raised during the course of the deposition shall be stated 
for the record. So I note your attorneys are here, and if your 
attorneys object or instruct you not to answer, then you are not to 
answer. Absent your attorney objecting or instructing you not to 
answer, you should answer the question. Do you understand that?
    The Witness. Yes.
    Mr. Bennett. If the witness is instructed not to answer a question 
or otherwise refuses to answer a question, Majority and Minority 
counsel will confer to determine whether your attorney's objection was 
proper. If Majority and Minority counsels agree that a question is 
proper, the witness will be asked to answer the question. If an 
objection is not withdrawn, the Chairman or a Member designated by the 
Chairman, in this case Congressman Dan Burton of Indiana, may decide 
whether the objection is proper.
    Again, Mr. Liang, in an abundance of caution, if you would 
translate that again to make sure Mr. Wang understands.
    Mr. Wang, continuing, this deposition is considered as taken in 
executive session of the committee, which means it may not be made 
public without the consent of the committee pursuant to clause 2(k)(7) 
of House Rule XI. You are asked to abide by the rules of the House and 
not discuss with anyone other than your attorney this deposition and 
the issues and questions raised during this proceeding.
    Finally, no later than 5 days after your testimony is transcribed 
and you have been notified that your transcript is available, you may 
submit suggested changes to the Chairman. The transcript will be 
available for your review at the committee office. The committee staff 
may make any typographical and technical changes requested by you. 
Substantive changes, modifications, clarifications, or amendments to 
the deposition transcript submitted by you must be accompanied by a 
letter requesting those changes and a statement of your reasons for 
each proposed change. A letter requesting substantive changes, 
modifications, clarifications, or amendments must be signed by you. Any 
substantive changes, modifications, clarifications, or amendments shall 
be included in an appendix to the transcript conditioned upon your 
signing of the transcript.
    In light of the fact that you have been called as a witness before 
the full committee this Thursday, October 9, I have indicated to your 
counsel that a daily copy will be provided by tomorrow to your attorney 
for you to have an opportunity to review that.
    Do you understand what I have said? Again, Mr. Liang, if you could 
translate.
    The Interpreter. By Thursday you will provide?
    Mr. Bennett. By the end of the day tomorrow, he will be provided a 
copy of his testimony transcript because he will be testifying as a 
witness on Thursday. Do you understand what I said, Mr. Wang?
    The Witness. Yes.
    Mr. Bennett. Mr. Wang, do you understand everything we've gone over 
so far?
    The Witness. Yes.
    Mr. Carvin. Let me if I may just ask for the record, are you 
following, Mr. Wang? Are there any problems that you have with the 
translation or are you understanding everything he says?
    The Witness. In fact, there are something here, some words.
    Mr. Carvin. In English?
    The Witness. Yes.
    Mr. Carvin. But you are following everything he said carefully?
    The Witness. Yes.
    Mr. Carvin. Thank you.
    Mr. Bennett. And if at any time you don't understand, please just 
raise your hand and indicate. You don't have any questions about 
anything we have gone over so far?
    The Witness. No.
    Mr. Bennett. Just a few other housekeeping matters. I will be 
asking you questions concerning the subject matter of this 
investigation. If you don't understand a question, please say so and I 
will repeat it or rephrase it.
    As I said, the reporter will be taking down everything we say and 
he will make a written record of the deposition. Therefore, you must 
give verbal answers. A mere nod of the head or a gesture--you have to 
give an answer so the court reporter understands. Do you understand 
that?
    The Witness. Yes.
    Mr. Bennett. As I said, your testimony is being taken under oath as 
if you were in court. If you answer a question, it will be assumed that 
you understood the question and the answer was intended to be 
responsive. Do you understand that?
    The Witness. Yes.
    Mr. Bennett. Are you here voluntarily or here as a result of a 
subpoena? I think the record should reflect that you have a subpoena to 
appear before the committee for a hearing on Thursday. I don't believe 
you are here pursuant to a subpoena for the deposition, however. Is 
that correct, Mr. Carvin?
    Mr. Carvin. There was a Notice of Deposition, but after the 
immunity order was entered, we are here cooperating voluntarily.
    Mr. Bennett. I thank you for that.
    As a courtesy to Congressman Waxman, who is present, I shall defer 
questioning to Congressman Waxman at this time.
    Congressman, if you have any questions.
    For the record, Mr. Ballen, designated Minority counsel.
    Mr. Ballen. If we could have on the record the translator's 
qualifications and credentials, where he is employed, I think that will 
be helpful.
    Mr. Bennett. Thank you.
    The Interpreter. I've been contract interpreter for State 
Department for the past 15 years. I work over at USIA. I have 
translated for Presidents and Vice Presidents, both past and present, 
from President Reagan until President Gore's last trip to China. Also, 
for former Secretary of State when they have visited China or when they 
had Chinese delegations visiting over here on a variety of subjects, 
and for the executive--different branches of the executive branch, 
different heads. And also for the Navy on a very wide range of issues, 
from the launching of satellites to maybe gasification.
    Mr. Ballen. Thank you very much.
    Mr. Carvin. Just to clarify the record, what particular language 
are you speaking?
    The Interpreter. Mandarin.
    Mr. Waxman. Thank, Mr. Bennett.
    Mr. Wang, I'm a Congressman from your area, Los Angeles, not 
precisely your part of Los Angeles, I'm from West L.A., I'm also the 
senior Democrat on the Government Reform and Oversight Committee. I 
want to thank you for your assistance in this investigation. I 
appreciate your being here.
    I wanted to ask you some questions briefly, and I appreciate 
counsel allowing me to do it. You met on August 15 with two 
investigators from the committee, Paul Herbert and Jim McFadden; is 
that correct?
    The Witness. Yes action.
    Mr. Waxman. They wrote up what is called a Memorandum of Interview 
that summarized their interview with you. I have a copy here and I 
would like to give it to--I understand your lawyer was given a copy of 
this document before the deposition.
    Mr. Bennett. Just for the record, Congressman, I note that the 
document we received actually has all three interviews stapled 
together; is that correct?
    Mr. Lu. That is correct.
    Mr. Bennett. They being August 15, 1997, August 19, 1997, and 
September 2, 1997; is that correct?
    Mr. Lu. That is right.
    Mr. Carvin. This procedural question. The Congressman will you be 
asking questions about this document. I was just wondering if we were 
going to make this an exhibit to the deposition assuming there is 
reference to it.
    Mr. Waxman. Why don't we make that----
    [Minority Exhibit No. 1 was marked for identification.]

    [Note.--All exhibits referred to may be found at end of 
deposition on p. 217.]

    Mr. Waxman. When you met with our committee investigators, did they 
tell you it was important to tell the truth?
    The Witness. Yes.
    Mr. Waxman. Did you tell the truth when you answered the questions 
to the investigators?
    Mr. Carvin. I am going to seek a clarification. We are talking 
about three different meetings here over a space of time.
    Mr. Waxman. I'm merely asking when he talked to them.
    Mr. Carvin. And if there was a particular question, it may help 
focus the witness on--I'll note, for example, on the August 15 memo, 
there are inconsistencies between the first part and the second part of 
the meetings after the 10-minute break. I just don't want my witness to 
get tripped up on technicalities. And I know that is not your intent, 
but if perhaps you could focus in on something more specific, that 
would be helpful.
    Mr. Waxman. I want to go through some basic questions with you 
about your contribution to the Democratic National Committee. My 
question is based on the statements you gave the committee 
investigators and my questions will ask you some of the same things the 
investigators asked you. I apologize for going over this with you 
again, but since we are having this deposition, I wanted to hear it, 
exactly what happened.
    In your statement to the committee investigators on August 15, you 
said that you knew John Huang and had met him; is that correct?
    The Witness. Yes.
    Mr. Waxman. I think the statement said that you socialized with 
John Huang a couple of times at the 888 Seafood Restaurant in the San 
Gabriel Valley; is that correct?
    The Witness. This question, named some restaurant, I'm not sure of 
the 888.
    Mr. Waxman. That's not important. But you knew him and you 
socialized with him at a restaurant.
    The Witness. Yes.
    Mr. Waxman. In the statement you also said that your brother-in-law 
John Liu----
    The Witness. John.
    Mr. Waxman [continuing]. Also knew John Huang; is that correct?
    The Witness. In fact, he also met on some social party.
    Mr. Waxman. Then he had met him?
    The Witness. Yes.
    Mr. Waxman. Does your father or other members of your family know 
John Huang?
    The Witness. I think my father. My father.
    Mr. Waxman. Your father. Does your father know John Huang?
    The Witness. Same thing like me, we met on a social party at a 
restaurant.
    Mr. Waxman. I see. Your father, your brother-in-law, and you?
    The Witness. In fact my brother-in-law, I'm not so sure, because 
one thing I must correct because one time we met on John Huang, me and 
my father, the meeting in a restaurant.
    Mr. Waxman. You and your father met him in a restaurant?
    The Witness. Yes.
    Mr. Waxman. Your statement said that you met with John Huang in 
August 1996 and that John Huang asked you to make a contribution to the 
Democratic National Committee; is that correct?
    The Witness. Yes.
    Mr. Waxman. Your statement also says you made a contribution of 
$5,000 to the DNC and we have a copy of your check to the DNC. It is 
dated August 16 and it is check Number 178.
    Did you write a check to the DNC on August 16, 1996, for $5,000?
    The Witness. Yes.
    Mr. Waxman. Why don't we make that Exhibit 2.
    [Minority Exhibit No. 2 was marked for identification.]
    Mr. Waxman. Your statement says that John Huang and another man 
picked up the $5,000 check from you at your place of employment; is 
that correct?
    The Witness. Yes.
    Mr. Waxman. I take it that John Huang picked up the check to the 
DNC on August 16, 1996, the same day you wrote the check; is that 
right?
    The Witness. Yes.
    Mr. Waxman. The check is dated August 16. Did he pick it up that 
same day?
    The Witness. Yes.
    Mr. Waxman. Did you have a different meeting with John Huang when 
he asked you to write a check?
    The Witness. No.
    Mr. Waxman. So he asked you to write the check on that date, you 
wrote the check, and then he took the check?
    The Witness. Yes.
    Mr. Waxman. And that was on August 16, the day the check was 
written?
    The Witness. Yes.
    Mr. Waxman. Where did this occur?
    The Witness. In my office.
    Mr. Waxman. Do you remember what time of day it was, morning, 
afternoon?
    The Witness. Morning. In the morning.
    Mr. Waxman. Who was there? Who was present when you met with John 
Huang and he asked you to contribute to the Democratic National 
Committee?
    The Witness. Me and my father.
    Mr. Waxman. Your father was there?
    The Witness. Yes.
    Mr. Waxman. Is this a different meeting than the time you were at a 
restaurant together?
    The Witness. Yes.
    Mr. Waxman. John Huang asked you to give money, you wrote a check, 
and he took it all in the same day?
    The Witness. Yes.
    Mr. Waxman. Now, I want to ask you about whether you were 
reimbursed for your contribution. At this point I'm a little confused 
because you gave two different statements to the investigators. First, 
you said you weren't reimbursed, then when the investigators came back 
you said you were reimbursed. I want to ask you some questions to 
clarify exactly what happened.
    Were you reimbursed for your contribution?
    The Witness. Yes.
    Mr. Waxman. Why did you first tell the investigators that you had 
not been reimbursed?
    The Witness. Because I think that maybe give me some trouble. But 
later I think, be honest. Honest is everything, it's good. So then I 
change. I got the money back.
    Mr. Waxman. Could you describe when and how you received the 
reimbursement?
    The Witness. After they took the check and they come back, and for 
the cash.
    Mr. Waxman. Was that the same day or another day?
    The Witness. The same day.
    Mr. Waxman. Was the day that they took the check from you the day 
they gave you money, the same day?
    The Witness. The same day. They come that afternoon.
    Mr. Waxman. Were the people that took your check the same people 
that came and gave you money?
    The Witness. In fact, money come to person and that afternoon only 
that Mr. Pan, he come back.
    Mr. Waxman. Was Mr. Pan at the meeting in the morning?
    The Witness. Yes.
    Mr. Waxman. He was with John Huang?
    The Witness. You mean afternoon? In the morning?
    Mr. Waxman. You're confusing me. In the morning John Huang asked 
you for the check, you wrote a check, and he took the check. In the 
afternoon you said somebody came and gave you money. You said that was 
Mr. Pan?
    The Witness. Yes.
    Mr. Waxman. Was Mr. Pan--had Mr. Pan been in the meeting in the 
morning?
    The Witness. Yes.
    Mr. Waxman. He was with John Huang?
    The Witness. Yes.
    Mr. Waxman. And that was the same day?
    The Witness. Yes.
    Mr. Waxman. Did you receive the money all at one time?
    The Witness. Yes.
    Mr. Waxman. How much money did you get?
    The Witness. Totally $10,000.
    Mr. Waxman. You got $10,000?
    The Witness. Yes.
    Mr. Waxman. Was that in a check or in cash?
    The Witness. Cash.
    Mr. Waxman. How do you know you were reimbursed by Mr. Pan? He 
introduced himself as Mr. Pan?
    The Witness. Your question means I know how he is Pan?
    Mr. Waxman. Yes.
    The Witness. That's before we know each other in the social party.
    Mr. Waxman. You knew him before?
    The Witness. In a social party.
    Mr. Waxman. Let me see if I understand everything. John Huang and 
Mr. Pan together asked you and your father for a contribution?
    The Witness. Yes, in the morning.
    Mr. Waxman. And then you wrote a check and they took it that 
morning, yes?
    The Witness. Yes.
    Mr. Waxman. That afternoon, the same day, Mr. Pan came in and gave 
you $10,000?
    The Witness. Yes.
    Mr. Waxman. Was that August 16, the same day that you wrote the 
check?
    The Witness. Yes.
    Mr. Waxman. When you met with John Huang, did you discuss 
reimbursements with him and did John Huang say that you would be 
reimbursed for your contribution?
    The Witness. Yes.
    Mr. Waxman. The translator told you that I asked whether John Huang 
told you that morning you would get money back?
    The Witness. Yes.
    Mr. Carvin. That was a compound question, and I think it was asked 
and answered. The first time the question was asked was whether Mr. Pan 
or Mr. Huang said they would be reimbursed, and I believe the second 
time it was that Mr. Huang would say it, and I would like to clarify 
for the record whether or not the witness recollects whether it was Mr. 
Huang or Mr. Pan who said that you would be reimbursed for your 
contribution. Can you do that?
    Mr. Waxman. Let me just for clarity of the record, let me make it 
as simple as I can. Do you recall if it was Mr. Huang or Mr. Pan who 
said you would be reimbursed?
    The Witness. I'm not so sure who exactly say they reimbursed me, 
but I know one of them said the money can be reimbursed, so that's why 
I make the check.
    Mr. Waxman. Do you know where the money came from that was paid to 
you for reimbursement?
    The Witness. No.
    Mr. Waxman. According to your statement, you also received 
reimbursement for a contribution to the DNC made by Daniel Wu. Can 
explain what you know about Daniel Wu's contribution and the 
reimbursement he received?
    The Witness. Daniel Wu?
    The Witness. Yes. I made the check for Daniel Wu.
    Mr. Waxman. You made a check for Daniel Wu?
    The Witness. Yes.
    Mr. Waxman. You wrote it out of your account?
    The Witness. From his account.
    Mr. Waxman. From his account?
    The Witness. Yes.
    Mr. Waxman. You wrote a check from his account. You were able to 
sign your name on his account or did you sign his name?
    The Witness. I signed his name.
    Mr. Waxman. Do you know who Charlie Trie is?
    The Witness. No.
    Mr. Carvin. Just again to clarify, there has been some publicity 
about Mr. Trie. I take it your question is whether he has personal 
knowledge and acquaintance with Mr. Trie?
    Mr. Waxman. Have you ever met or spoken with Charlie Trie?
    The Witness. No. The name only shows on the newspaper I know.
    Mr. Waxman. Do you know if Antonio Pan worked for Charlie Trie?
    The Witness. No, I don't know.
    Mr. Waxman. Do you know Mr. Pan's first name?
    The Witness. Before in fact, before I did know him as Mr. Pan until 
later on, they said I know his first name.
    Mr. Waxman. When later on did you learn his first name?
    The Witness. In fact after the investigator.
    Mr. Waxman. That was after the investigators came to talk to you?
    The Witness. Yes.
    Mr. Waxman. But when you were at a social occasion with Mr. Pan, 
you didn't know his first name at that time?
    The Witness. No.
    Mr. Waxman. Have you told about these answers to these questions to 
anyone other than the investigators and your attorney?
    The Witness. The people, in fact, my family?
    Mr. Waxman. Yes.
    The Witness. Yeah. Besides my family, I don't talk to anybody.
    Mr. Waxman. So you've talked to investigators and your family and 
your lawyers?
    The Witness. Yes.
    Mr. Waxman. And no one else?
    The Witness. No.
    Mr. Waxman. I thank you again for cooperating with this 
investigation. We all want to know all the information that will help 
us decide what the best policy should be to change the campaign finance 
laws or if there are violations of laws, to be sure that the laws are 
enforced. You have been very helpful. Thank you.
    Mr. Bennett. Congressman Waxman, I'm not sure if you intend to stay 
for the whole deposition, but if you were going to leave I wanted to 
clarify one point in case you wanted to follow up on one question.
    Mr. Waxman. Sure.
                      examination by mr. bennett:
    Mr. Bennett. One point, in fairness to you, if you wanted to follow 
up, Mr. Wang, I'll start with a little more background and go through 
step by step but, so Congressman Waxman has the opportunity to follow 
up on a question, you gave out of your own account a total of $5,000, 
correct?
    The Witness. Yes.
    Mr. Bennett. And you had the power of attorney for a friend of 
yours named Daniel Wu; is that correct?
    The Witness. Yes.
    Mr. Bennett. And so pursuant to that power of attorney, you made a 
$5,000 contribution for Daniel Wu as well; is that correct?
    The Witness. Yes.
    Mr. Bennett. And in terms of the two individuals, Mr. Huang and Mr. 
Pan indicating to you that you would be reimbursed, you were advised 
that you would be reimbursed for both your check and Mr. Wu's check; is 
that correct?
    Mr. Carvin. Just for clarification, Dick, are you asking whether or 
not there was specific conversation on reimbursement for both checks or 
whether that was Mr. Wang's impression from the general conversation?
                      examination by mr. bennett:
    Mr. Bennett. Be fine if it's his impression. I'm trying to follow 
up Congressman Waxman's point about the $10,000 he received.
    The Witness. Yes.
    Mr. Bennett. So if the Congressman understands, when you received 
$10,000 back, that was not just for you, it was also for Mr. Wu?
    The Witness. Yes.
    Mr. Bennett. I just wanted to clarify that, Congressman, in case 
you had any other follow-up questions. I don't want you to 
misunderstand.
    Mr. Waxman. No, I understood that.
    Mr. Bennett. Going back, Mr. Wang, I want to thank you also on 
behalf of the Republican members of the committee and thank you for 
coming here. Congressman Waxman asked a question concerning an 
interview that was conducted of you by joint detailees, people who are 
assigned to work for both the Republicans and the Democrats on the 
committee. In fact, Mr. Paul Herbert, the record should reflect, is 
here behind me. Do you recognize Mr. Herbert?
    The Witness. Yes.
    Mr. Carvin. I'm sorry to interrupt, Dick, but there's some other 
folks who haven't been identified. For the record, I don't know who 
they're with, but it would be helpful for my purposes if I knew who 
they were.
    Mr. Bennett. I'm not sure if I can identify them all.
    Mr. Ballen. You want me to do it?
    Mr. Bennett. Perhaps.
    Mr. Ballen. Phil Schiliro, our staff director, Agnieszka Fryszman, 
Minority staff, and Phil Barnett, Minority staff.
                      examination by mr. bennett:
    Mr. Bennett. Thank you, Mr. Ballen.
    With respect to Mr. Herbert who's here in the room, as well as any 
other individual who accompanied him, for the record they are required 
to report to both the Republican and Democrat members of the committee. 
Do you understand that?
    The Witness. Yes.
    Mr. Bennett. Just for their own professional reputations, was Mr. 
Herbert and the other people who were with him, were they polite and 
courteous to you at all times?
    The Witness. Yes.
    Mr. Bennett. They were?
    The Witness. Yes.
    Mr. Bennett. At any time did they threaten you or frighten you in 
any way?
    The Witness. No.
    Mr. Bennett. Mr. Carvin, for the record, do you make a contention 
that your client's constitutional rights were violated at the time of 
any of his interviews?
    Mr. Carvin. We do not make such a contention. I do not, of course, 
waive any arguments that we may make in any subsequent civil or civil 
prosecutorial enforcement, but for purposes of these proceedings, as I 
say, we're perfectly content to let the record speak for itself and 
have David straighten out things.
    I do want to put on the record notwithstanding the good faith of 
the investigators that Mr. Wang is a recent citizen, he has limited 
English proficiency, he was caught by surprise, and although I don't 
think anybody intended to threaten him, there is inherently some 
concerns by recent citizens when visited by the government and there 
was not an attorney present during any of these conversations. So to 
the extent there are potential inconsistencies that have been alluded 
to, I think those can be contradicted to those factors.
    Mr. Bennett. I understand. I can certainly understand that. But you 
do not contend that his constitutional rights were violated?
    Answer. No.
                      examination by mr. bennett:
    Question. If I could have some background, Mr. Wang, what is your 
date of birth, sir?
    Answer. February 11, 1963.
    Question. And where were you born?
    Answer. In Taiwan.
    Question. Are you a United States citizen?
    Answer. Yes.
    Question. When did you become a citizen?
    Answer. August 9, 1996.
    Question. When did you come to this country?
    Answer. December 1988.
    Question. I'm sorry, December 1988?
    Answer. Uh-huh.
    Question. And you actually became a naturalized citizen about a 
week before two individuals came to see you concerning this 
contribution; is that right?
    Answer. Yes. But I turn out application a whole year.
    Question. I understand. But you officially became a naturalized 
citizen on December 9, 1996?
    Mr. Carvin. I'm sorry, December 9?
                      examination by mr. bennett:
    Question. August 9, I am sorry.
    Answer. August 9.
    Question. Are you married, sir?
    Answer. Yes.
    Question. Do you have any children?
    Answer. Yes.
    Question. How many children do you have?
    Answer. One. One daughter 2 years and next month will be another 
one.
    Question. That's wonderful. Good luck to you.
    Answer. Thank you.
    Question. What is your educational background, sir?
    Answer. I graduate in Tangshung University in Taiwan, in banking 
department.
    Question. You are presently employed in the car business in 
California; is that correct?
    Answer. Yes.
    Question. And how long have you been a car salesman and in the car 
business?
    Answer. Since I come to the United States.
    Question. Since 1988?
    Answer. 1988.
    Question. Can I have the names of your--are both your parents here 
in the United States now?
    Answer. Yes.
    Question. And the names of your parents, please?
    Answer. Father, James Wang.
    Question. And your mother's name?
    Answer. Shirley Chen.
    Question. Do you have any brothers or sisters?
    Answer. Yes. One, my elder--my older sister is Diana Wang and the 
elder brother Joe Wang.
    Question. Your siblings, your brothers and sisters, are they United 
States citizens now?
    Answer. Yes.
    Question. Are your mother and father, United States citizens?
    Answer. My father. My mother is not yet.
    Question. Where do your mother and father reside?
    Answer. Also living in Los Angeles.
    Question. Do your siblings, your brothers and sisters, do they live 
in the Los Angeles area as well?
    Answer. Yes. Yes.
    Question. Directing your attention to, first of all, August 16, 
1996, about what you testified earlier in response to the Congressman's 
question, let me ask you to go back a few months prior to August of 
1996.
    Mr. Liang, you might wand to translate that for him.
    Answer. Okay.
    Question. Prior to August of 1996, had you been involved in 
politics?
    Answer. Political?
    Question. Political involvement, had you made any contributions to 
any political candidates prior to August of 1996 to your knowledge?
    Answer. Yes.
    Question. The answer is yes?
    Answer. Yes.
    Question. How many political candidates?
    Answer. A number one time for the city. I think city council, for 
our city, the mayor election.
    Question. In the city of Los Angeles?
    Answer. The city of Rosemead.
    Question. City of Rosemead?
    Answer. Yes, small city.
    Question. You made a political contribution to a candidate running 
for political office in Rosemead, California?
    Answer. Yes.
    Question. Any other political contributions that you know of?
    Answer. No.
    Question. When did you first meet John Huang? Not the day when he 
came to your house but just step back. When was the first time you met 
him? I believe you said you met him at a social party; is that correct?
    Answer. Yes.
    Question. When would that have been?
    Mr. Carvin. I'm sorry, just to interrupt and clarify your prior 
questions, when you were asking about contributions, would that 
encompass writing checks for other people to attend fund-raisers and 
those kinds of things?
    Mr. Bennett. Yes.
    Mr. Carvin. The President's birthday party, even though you didn't 
attend?
    Mr. Bennett. That would be separate from the August 1996 event.
    Mr. Carvin. For your brother-in-law?
    The Witness. Yes.
    Mr. Carvin. Why don't you relate the circumstances of your brother-
in-law going to the President's birthday party?
    The Witness. Oh, yes, write a check. I think I write it for party, 
for President Clinton in Los Angeles.
                      examination by mr. bennett:
    Question. For President Clinton?
    Answer. Yes.
    Question. How much was that check for?
    Answer. For $300.
    Question. $300?
    Answer. Yes.
    Question. Did you attend that event? Did you go to it?
    Answer. No.
    Question. Did you send someone in your place to go?
    Answer. Yes. That time my brother-in-law, and also he bring two 
friends.
    Question. So the three of them were permitted to go to the birthday 
party for $300?
    Answer. Yes.
    Question. And that would have been before August 16, 1996?
    Answer. Yes.
    Question. Any other contributions?
    Answer. I talk to you for city.
    Question. I'm just clarifying. So we have the contribution for a 
local candidate, we have a $300 check for President Clinton's birthday 
party in Los Angeles, and to your knowledge they are the only political 
contributions you would have made; is that correct?
    Answer. Yes.
    Question. How did you know about the birthday party for President 
Clinton? Who called you?
    Answer. The President come to L.A. for big event in the Chinese 
community and everybody heard about it in the news and everybody wanted 
to go there. So, so far I don't remember exactly who tell me, just say, 
friend, everybody say you want to go.
    Question. You did not attend that event, though?
    Answer. No. Suppose I called.
    Mr. Ballen. Could we ask when? When was the event? I'm sorry.
    Mr. Bennett. Just for the record, as Mr. Ballen and I discussed in 
California, many times we have Majority finish with questions and then 
the Minority has questions. I have no objection to Mr. Ballen 
interjecting a question at an appropriate time to allow for flow of 
information, Mr. Ballen.
    Mr. Ballen. Thank you. When was this event that you made the 
contribution, sir?
    The Witness. I think in July. The day of my check, 22nd or 26th. 
That's the day the President come.
    Mr. Ballen. Was this the month before you made the August 16 
contribution, one month before?
    The Witness. Yes, almost a month.
    Mr. Ballen. Thank you.
                      examination by mr. bennett:
    Question. When was the very first time that you believe--I think I 
had asked this before and Mr. Carvin wanted to clarify a point. When 
was the very first time that you met John Huang?
    Answer. About, I think 1996, June or July. Exactly I don't 
remember.
    Question. Just to the best of your knowledge.
    Answer. Yes, in a Chinese restaurant.
    Question. Sometime in June or July of 1996, you met Mr. John Huang, 
and you believe it was at a restaurant?
    Answer. Yes.
    Question. When was the first time you ever met a gentleman named 
Antonio Pan?
    Answer. In fact the same day.
    Question. The same day?
    Answer. Yes.
    Question. Mr. Pan and Mr. Huang. I don't want to get yet into the 
matter of when they came to visit you on August 16, 1996. I'm trying to 
go back before that. Just so I understand, and if I'm not correct, 
correct me, you would have met Mr. Pan at the same time you met Mr. 
Huang at this restaurant?
    Answer. Yes.
    Question. And what type of an event was it? Was it a political 
event?
    Answer. I think just very, a social party. No political.
    Question. But the two of them were talking there at the event at 
the restaurant when you met them?
    Answer. Yes.
    Mr. Waxman. Just a clarification. You met them both at the party, 
that's what you said?
    The Witness. Yes.
    Mr. Waxman. When you were at the party, were the two of them 
together when you met them or just you met them both at that party?
    Mr. Carvin. As best you can recall.
    The Witness. If question, I don't--two sit together, one here and 
one there. I can recall they were there in the restaurant.
    Mr. Waxman. Thank you.
                      examination by mr. bennett:
    Question. Did you talk to both of them at that time?
    Answer. Yes, I think so.
    Question. Do you recall what conversation you had, first of all, 
with Mr. Huang?
    Answer. I'm not--I not remember very well. Common social. A 
conversation. Not special talking about other thing.
    Question. What about Mr. Pan? Do you remember the conversation you 
had with Mr. Pan?
    Answer. I do not remember.
    Question. When was the next time you saw either Mr. Huang or Mr. 
Pan? Was it August 16 when they came to visit you?
    Answer. Yes.
    Question. Did you recognize both of them from having met them the 
previous month or two at the restaurant?
    Answer. Yes.
    Question. So this would have been the second time you saw Mr. Huang 
and the second time you saw Mr. Pan?
    Answer. Yes.
    Question. Going into the matter of their initial meeting with you 
on August 16, 1996, I'm going to show you, if I can, three exhibits, 
and I want to go through with you the events of that day as you look at 
these exhibits, sort of going back over what Congressman Waxman went 
over with you a few minutes ago.
    Perhaps you want to explain that to him, Mr. Liang, in the process.
    For the record, Congressman, I'm showing the witness what has been 
marked already as Exhibit DW-1, which is in fact the same document I 
believe as Minority Exhibit 2, previously shown to the witness, but 
since these are already tabbed, I'll do that, if you don't mind.
    [Wang Deposition Exhibit No. DW-1 was marked for identification.]
                      examination by mr. bennett:
    Question. I'm showing you that exhibit, first of all, Mr. Wang. At 
the top there, do you recognize your check to the Democratic National 
Committee for $5,000?
    Answer. Yes.
    Question. And then at the bottom--so you understand, is some 
tracking information from the Democratic National Committee. You've not 
seen that prior to today, I gather; is that right?
    Answer. Yes.
    Question. When you were first approach by Mr. Huang and Mr. Pan, 
with respect to the matter of reimbursement in terms of reimbursing you 
for your $5,000 check, did they ask you at that time if you had any 
friends who might also be willing to write a check for which he or she 
might be reimbursed? And if you'll translate that for him, Mr. Liang.
    Mr. Waxman. Counsel, that was a confusing question. Because you 
said, when he was first approached, and then was he asked whether he 
had friends on August 16. We don't know whether that's all the same day 
or another day.
    Mr. Bennett. I believe it's all the same day, Congressman, but I'll 
rephrase it.
                      examination by mr. bennett:
    Question. Directing your attention to August 16, 1996, as you 
indicated to Congressman Waxman earlier, there was a discussion about 
your writing a check and then being reimbursed for the money; is that 
correct?
    Answer. Yes.
    Question. At that time, that same time, when you were talking with 
Mr. Huang and Mr. Pan, you indicated you don't recall which one said 
that to you; is that correct?
    Answer. Yes.
    Question. But both of them were present when whichever one would 
have said that to you, and you probably should translate that, Mr. 
Liang.
    Answer. Yes.
    Question. Regardless of which one actually said they were going to 
reimburse with the other one being present, was there a discussion also 
about whether or not at that time you may have had any friends, a man 
or a woman who might also write out a check for which they would be 
reimbursed; isn't that correct?
    Answer. Yes.
    Question. And did you give them a name of Mr. Daniel Wu?
    Answer. Yes.
    Mr. Carvin. Again to clarify, when you say, give him the name, did 
he verbally use, state the name Daniel Wu or did he write a check at 
that time in the name of Daniel Wu? Did you mention the name Daniel Wu 
to Mr. Huang and Mr. Pan? Do you recall?
    The Witness. I talked to him as a friend, and he also can do the 
contribution.
                      examination by mr. bennett:
    Question. Was Mr. Wu present when you spoke with Mr. Pan and Mr. 
Huang?
    Answer. No.
    Question. To your knowledge, did Mr. Pan or Mr. Huang know Daniel 
Wu?
    Answer. No.
    Question. If I can show you Exhibit WD-2, showing you, if you can, 
you have to take a minute to look through it, and your counsel, Exhibit 
DW-2. For the record, it being photocopies of your account information 
from the China Trust Bank of California.
    [Wang Deposition Exhibit No. DW-2 was marked for identification.]
    The Witness. Yes.
                      examination by mr. bennett:
    Question. For the record, by the way, one of the things we may want 
to do, counsel, is I would suggest that, unless Minority counsel has 
any objection, we can line out Mr. Huang's home address in terms of 
certain privacy considerations for Mr. Wang. If the court reporter 
wants to line out the home address.
    Mr. Carvin. Yes, we would appreciate that and I would note that 
would be on the first page and the second page.
    Mr. Bennett. Perhaps we should do that now in the abundance of 
caution, if the court reporter would do that, please.
    Mr. Carvin. Can I make a similar request for Exhibits DW-1 and the 
one that is Exhibit 2. As you can see underneath David Wang's name on 
both of those checks, it has a phone number in it and a home address. 
Is there any way to do that?
    Mr. Bennett. That is fine. We can take the home telephone number 
out. Do you have any objection to that, Mr. Ballen?
    Mr. Ballen. No, I have no objection. But one thing to make clear 
for the record, I think you already did, Mr. Bennett, but just in the 
abundance of caution here, Minority Exhibit 2 has a different Bates 
Stamp than the Majority Exhibit DW-1. I believe that was, the check, so 
they reflect the same document that we are all referring to and I 
believe you stated, just so the record is clear, you should probably 
pen both documents.
    Mr. Bennett. For the record, you are quite right. Your exhibit had 
the DNC Number 1804366 and our document doesn't have a DNC number. It 
just has 0000323, marked confidential. I think that is the distinction; 
isn't that correct?
    Mr. Ballen. I think so. I think they are both from the DNC.
    Mr. Bennett. I believe that is correct.
                      examination by mr. bennett:
    Question. Looking at Exhibit DW-2, that in fact represents, does it 
not, copies of account information for you dated August 16 and 
September 17, 1996; is that correct, Mr. Wang?
    If the translator would translate that and if you would look at 
that for a minute, please?
    Answer. Yes.
    Question. And, in fact, this reflects deposit information in your 
account out of which you had written the $5,000 check; is that correct?
    Answer. Yes.
    Question. Well, strike that.
    It is a different account, but it represents information concerning 
your receiving money back in return for your $5,000 check; is that 
correct?
    Mr. Carvin. Are you asking about the deposits?
    Mr. Bennett. Yes, I am.
    Mr. Carvin. I think it might help things, counsel, if you could 
point him just to the line you are referring to.
    Mr. Bennett. I am about to.
                      examination by mr. bennett:
    Question. To refresh your recollection, the $5,000 check was 
written on August 16, 1996, correct?
    Answer. Yes.
    Question. And in response to questions from Congressman Waxman you 
indicated that you were told by Mr. Huang and Mr. Pan, one of the two 
said to you that you would be reimbursed?
    Answer. Yes.
    Question. Is that correct?
    Answer. Yes.
    Question. And the other who did not speak sat there while the other 
person who did speak told you that?
    Answer. Yes.
    Question. And looking at the first page of DW-2, in fact, that 
reflects a $3,000 deposit back to you the same day; is that correct?
    Answer. Yes.
    Question. And the second page of DW-2 reflects a $2,000 payment 
back to you 4 days later; is that correct?
    Answer. Yes.
    Question. Is that correct?
    Answer. Yes.
    Question. And if you will explain the circumstances pursuant to 
which you received money back on those 2 days, do you recall who--I 
think Congressman Waxman asked you a question as to whether or not you 
recalled who came back to give you your money and I believe, and if I 
am incorrect, correct me, I believe you said that Mr. Pan came back and 
brought you money; is that correct?
    Answer. Yes.
    Question. How many times did Mr. Pan return?
    Answer. He returned only one time.
    Question. My question is, you received $3,000 or you deposited 
$3,000 on August 16, and then you deposited $2,000 on August 20th, and 
I am trying to clarify whether or not Mr. Pan returned to your home two 
times with money or one time with money. And perhaps to assist you in 
that regard, Mr. Wang, if I can show you Exhibit DW-3. That is for the 
reporter right there. Your attorney has that.
    [Wang Deposition Exhibit No. DW-3 was marked for identification.]
                      examination by mr. bennett:
    Question. Can you identify Exhibit DW-3?
    Answer. Yes.
    Question. For the record, it appears it is being a calendar--
photocopies, 2 pages of calendar entries from August 15 to August 21, 
1996; is that correct?
    Answer. Yes.
    Question. And reviewing that, what notations do you have on August 
16 and then on the second page, August 20th?
    Mr. Bennett. If you will translate for Mr. Wang to assist him, 
please. I'm not sure if the court reporter got that.
    Mr. Carvin. I think it might be more helpful if you spoke more 
slowly. On August 16th you did what?
    The Witness. On August 16th, I deposited cash for I think it was 
$3,000, under David, $3,000, and then on August 20, it was for David 
$2,000 and then Daniel $2,000.
                      examination by mr. bennett:
    Question. And the Daniel you are referring to is Mr. Daniel Wu; is 
that correct?
    Answer. Yes.
    Question. And I will get his financial matters in a minute. But 
then there was one deposit on August the 16th for you and Mr. Wu for 
reimbursement and there was a second deposit on August 20 for you and 
Mr. Wu; is that correct?
    Answer. Yes.
    Question. And then having looked at the documents, can you 
recollect the circumstances and who came to your home to give you the 
money for reimbursement?
    Mr. Carvin. Can you clarify that, ``came to his home?''
    Mr. Bennett. Wherever, I'm sorry. Your home, your office, first of 
all, August the 16th, when you received $3,000 for yourself and $3,000 
from Mr. Wu, who came to your home?
    Mr. Ballen. I am going to object, that wasn't his testimony.
    Mr. Carvin. It might be simpler, if you don't mind.
    Mr. Bennett. Sure.
    Mr. Carvin. Mr. Pan came back in the afternoon.
    The Witness. [By the witness] Yes.
    Mr. Carvin. How much money did he give you at that time?
    The Witness. A total of $10,000.
    Mr. Carvin. He gave him $10,000.
                      examination by mr. bennett:
    Question. That's what I am trying to clarify. He came one time and 
gave you $10,000?
    Answer. Yes.
    Question. And then what did you do with the $10,000?
    Answer. He told me don't deposit at one time.
    Question. Who told you that?
    Answer. Pan.
    Question. Mr. Pan told you not to deposit it all at one time?
    Answer. Yes, so I just spread out for 2 times, $3,000 and $2,000 
thousand.
    Question. So you had all the $10,000 for both you and Mr. Wu, and 
pursuant to Mr. Pan telling you not to deposit the $10,000 at one time, 
you made two different payments or deposits for both yourself and Mr. 
Wu; is that correct?
    Answer. Yes.
    Question. Do you know why you were told not to deposit it at one 
time?
    Answer. No. No.
    Question. And with respect to the money, this $10,000, do you know 
the source of that money?
    Answer. No, I don't.
    Question. When Mr. Pan told you not to deposit it all at one time, 
did he discuss with you whether or not you should discuss this with 
anybody?
    Answer. Yes.
    Question. I'm sorry?
    Answer. Yes.
    Question. And what did he say, sir?
    Answer. He said just don't tell anyone.
    Question. When Mr. Huang was speaking with you, did Mr. Huang ever 
make a reference to this repayment of money as being a secret?
    Answer. Well, in fact, I am not sure I remember that he tell me it 
was a secret or something like that.
    Question. I'm sorry?
    Answer. He didn't mention this is a secret or something like that.
    Question. When was the first time you were told not to tell anyone?
    Answer. This is Mr. Pan.
    Question. When Mr. Pan came to your home?
    Answer. Yes, he put the cash back.
    Question. Do you know whether or not these contributions, these two 
$5,000 checks, for which you and Mr. Wu were reimbursed, do you know if 
it was related to a particular fund-raising event, a particular party?
    Answer. Well, in fact, as I know, he told me this for the 
President.
    Question. When you say he, who is he?
    Answer. Either Pan or Huang.
    Question. In other words, either one, you are not sure, one of them 
told you it was for the President's what?
    Answer. The President, the campaign, the fund-raising.
    Question. Fund-raising for the President?
    Answer. Yes.
    Question. And it would have either been Mr. Huang or Mr. Pan and 
you are not sure which one?
    Answer. No, I am not sure.
    Question. But whichever one said it, was the other then present 
when the first person spoke?
    Answer. Yes.
    Mr. Ballen. Can I just clarify?
    Mr. Bennett. Absolutely. Go right ahead.
    Mr. Ballen. And when did that occur, sir?
    The Witness. August 16.
    Mr. Ballen. That was the morning meeting at your office.
    The Witness. Yes.
    Mr. Bennett. Any other questions, Mr. Ballen?
    Mr. Waxman. Was it related to a party or an event or just a 
contribution?
    The Witness. Contribution.
    Mr. Waxman. Did they talk to you in English or in Chinese?
    The Witness. Chinese.
    Mr. Waxman. Both Mr. Huang and Mr. Pan?
    The Witness. Yes.
    Mr. Waxman. Both in the morning and the afternoon, Mr. Pan spoke to 
you in Chinese?
    The Witness. Yes.
    Mr. Waxman. If counsel wouldn't mind, before that, you had given 
another contribution for a party that the President attended in Los 
Angeles that you didn't go to, but the President was there.
    The Witness. Yes.
    Mr. Waxman. Did you get reimbursed for the money you paid for that?
    The Witness. No.
    Mr. Waxman. Did anybody suggest to you that you might get 
reimbursed?
    The Witness. No.
    Mr. Waxman. And how was it that Mr. Huang and Mr. Pan came to see 
you that morning? Did they call for the appointment or did they just 
show up?
    The Witness. Well, before they come, they must make a phone call.
    Mr. Waxman. Who called you?
    The Witness. I think it is Huang.
    Mr. Waxman. And when was that, the same day or week?
    The Witness. Same day.
    Mr. Waxman. He said I am coming by this morning.
    The Witness. Yes.
    Mr. Waxman. Did he tell you why he wanted to come by and see you?
    The Witness. He said he was around that area and he wanted to come 
to my office to visit.
    Mr. Waxman. He didn't say why?
    The Witness. No.
    Mr. Waxman. And had you ever heard about anybody else getting paid 
back for the money they gave to the campaign at that time?
    The Witness. No.
    Mr. Waxman. And when you gave the contribution earlier to the party 
for the President, where he attended, where the President attended, who 
asked you to give to that? Did John Huang ask you to give to that or 
someone else? This was in July?
    The Witness. Well, in fact, at that time, I am not so sure, just 
before I answered the question, for that particular event, everybody 
knows, and the event, I am not so sure who would go together by who, 
and--so we know to go there, bring a check, pay to DNC, and just go 
there.
    Mr. Waxman. So you wrote out a check and your brother-in-law took 
it?
    The Witness. Took it, yes.
    Mr. Waxman. And you don't know who asked you to do that, you just 
heard about the event?
    The Witness. Yes.
    Mr. Waxman. Thank you.
    Mr. Bennett. Any other questions, Congressman?
    Mr. Waxman. No, those were some questions I figured I would ask.
                      examination by mr. bennett:
    Question. Mr. Wang, did you have any contact with the Democratic 
National Committee concerning these contributions when you wrote out 
the two $5,000 checks that morning, August 16th?
    Answer. No.
    Question. Did Mr. John Huang at that time----
    Mr. Ballen. Excuse me. I'm sorry, I didn't hear the answer.
    Mr. Bennett. He said, no.
                      examination by mr. bennett:
    Question. Did Mr. Huang, John Huang, at that time, indicate what 
his position was with the Democratic National Committee?
    Answer. No.
    Question. Did Mr. Huang subsequently call you to thank you for your 
contributions for which you were reimbursed?
    Answer. Yes.
    Question. And do you know where he was when he called you to thank 
you?
    Answer. No.
    Question. After you were reimbursed for the $10,000, were you ever 
contacted by anyone from the Democratic National Committee?
    Answer. No.
    Question. Do you have any understanding about who John Huang was or 
who Antonio Pan was with respect to President Clinton's campaign or the 
Democratic National Committee? It is a compound question and I guess it 
covers the territory. I am just asking what his understanding was, 
Counsel, as to John Huang or Antonio Pan?
    Answer. Yes.
    Question. What was your understanding, first of all, as to John 
Huang, who was John Huang, what was his position?
    Answer. Well, in fact, during that time, John Huang, in the Chinese 
community, they have some newspaper, and also on TV, they interview 
John Huang, he is the--I think he is the--he do election for the 
President and he is a very, like, well-known person in the Chinese 
community.
    Question. And do you know what his position was with either the 
Democratic National Committee or with President Clinton's re-election 
campaign in August of 1996?
    Mr. Carvin. Clarification. Did he know what was his understanding 
at the time or what has he learned subsequently?
    Mr. Bennett. At the time.
    The Witness. Yes.
    Mr. Bennett. I'm sorry, you need to translate his answer. It 
doesn't require a, yes, response, Mr. Liang, so if you could.
    The Witness. Well, it seemed to me that at that time, he was on the 
campaign trying to be either the Vice Chairman on the National--
Democratic National Committee or trying to be a Deputy Secretary for 
Commerce.
    Mr. Ballen. Can we ask how he knew that?
    Mr. Carvin. Yes, and, first of all, did you just say that to him? 
Are you giving your understanding of what you knew in August of '96 or 
what you have learned subsequently in the newspapers?
    The Witness. Before, prior to August 16th.
    Mr. Carvin. What was your understanding, can you say it in English, 
please? In English, what was your understanding?
    Mr. Bennett. He need not say it in English. He can have it be 
translated. If he doesn't think he can express it in English, the 
translator can translate for him.
    Mr. Carvin. That is fine. I am a little concerned about clarity 
here.
    The Witness. During the time, I mean, August 16th, before, even the 
social party, we know John Huang, he is a very important person.
                      examination by mr. bennett:
    Question. And now the translator indicated that you had knowledge 
that he was either the Vice Chairman of the Democratic National 
Committee or an Assistant Secretary of Commerce; is that correct?
    The Interpreter. Sorry, correction. I didn't say he was. He was 
trying to get a job of campaigning for the job.
                      examination by mr. bennett:
    Question. I understand. So you did not know what position he had at 
the time?
    Answer. No, only I know he is a very important person in the 
Government.
    Mr. Ballen. Can I just ask, how did you know that, did he tell you 
that or did you read it in the newspapers?
    The Witness. From the newspapers.
                      examination by mr. bennett:
    Question. Did John Huang tell you he was trying to get an important 
Government job?
    Answer. No, no.
    Question. When were you first contacted by the Democratic National 
Committee or any representative of the Democratic National Committee in 
connection with these $10,000 in payments and the reimbursement?
    Mr. Carvin. I object. It has been asked and answered. He said he 
wasn't contacted by the DNC, unless you are including John Huang within 
the definition of people who represent the DNC.
    Mr. Bennett. For the record, counsel, he clearly was contacted by 
Ernst & Young on behalf of the Democratic National Committee. I am 
about to get there and I am just trying to verify that is the very 
first time.
    Mr. Ballen. Maybe say after the 16th then.
                      examination by mr. bennett:
    Question. I don't know how it can be any clearer. I will try again.
    Whenever you were contacted by any representative of the Democratic 
National Committee, after you made the payments of $10,000, and after 
you were reimbursed, I am just trying to find out when that might have 
been, whether it was today, yesterday, when was the very first time you 
were contacted by the Democratic National Committee or a representative 
of the Democratic National Committee.
    Mr. Carvin. And I am really trying to streamline this and not 
complicate it. He already told you John Huang called him after August 
16th and then I take it, included within your question of people who 
represent the Democratic National Committee would be the accounting 
firm working in connection with them, Ernst & Young.
    Mr. Bennett. Just for the record, the witness has not said he knew 
that Mr. Huang was an official of the Democratic National Committee, so 
in fairness to the Democratic National Committee, I am trying to 
clarify when in his own mind someone called and said they were calling 
on behalf of the DNC. That is the nature of the question.
    Mr. Carvin. Fair enough.
    Mr. Bennett. So why don't you translate that. I don't want to trap 
the witness. I am trying to find out what the witness knows.
    The Witness. You mean besides John Huang.
                      examination by mr. bennett:
    Question. That is correct, sir, when was the very first time? 
Again, I am not trying to trap you, Mr. Wang. I am just trying to get 
the information when in your own mind you knew. Apart from John Huang, 
you were talking to someone else from the Democratic National Committee 
and I will show you what has been marked as Exhibit DW-4.
    Mr. Waxman. Before you get into that, Counsel, Mr. Wang's attorney 
said he was called by John Huang afterwards and I didn't know about 
that.
    Mr. Bennett. For the record, I am sorry, Congressman Waxman. I 
asked if he was called later and thanked by John Huang and I think he 
said he was called and thanked. I assume that is what the witness is 
making reference to. We can clarify that if you want.
    Mr. Waxman. Is that correct?
    The Witness. Yes.
    Mr. Waxman. Did he say anything else to you other than thank you?
    Mr. Carvin. Can you give him a time frame for the question?
    Mr. Waxman. After August 16th, did John Huang call you up?
    The Witness. Yes.
    Mr. Waxman. And how long afterwards, a week, 2 weeks, a month, just 
generally?
    The Witness. Just a couple days, within 1 week, roughly.
    Mr. Waxman. And what did he say to you when he called you?
    The Witness. As I know, he just tried to say thank you for the 
contribution and that is all. The phone call was very short. He just 
wanted to say thank you.
    Mr. Waxman. Before August 16, just so I have this clear, did you 
only meet John Huang that one time?
    The Witness. Yes.
    Mr. Waxman. Before the day he came to your office, you had only met 
him one time?
    The Witness. Yes.
    Mr. Waxman. But you had heard about him.
    The Witness. Yes, sure.
    Mr. Waxman. And you knew he was an important person in the 
Democratic Party?
    The Witness. Yes.
    Mr. Waxman. Did he or Mr. Pan spell out $5,000 or did they just ask 
for a contribution?
    The Witness. Yes.
    Mr. Waxman. He asked for $5,000.
    The Witness. Yes.
    Mr. Waxman. And then asked if someone else could give more money, 
like another $5,000, a friend.
    The Witness. Yes, he asked do you know another friend or person who 
also wants to contribute $4,000 or $5,000.
    Mr. Waxman. Thank you. I'm sorry.
    Mr. Ballen. So I'm clear, that was on the morning of August 16th.
    The Witness. Yes, in the morning.
    Mr. Waxman. I have to run to another meeting, but thank you very 
much and we will look forward to seeing you in a couple days.
    The Witness. Okay.
                      examination by mr. bennett:
    Question. And at that point during that conversation, just to go 
back for a second, either Mr. Pan or Mr. Huang then indicated that the 
full $10,000 will be paid back to you; is that correct?
    Answer. Yes.
    Mr. Bennett. Now showing you what has been marked as DW-4, if you 
want to take a look at that with Mr. Carvin, your attorney, it 
essentially is, I submit to you, a survey form with respect to efforts 
for the Democratic National Committee on a survey. Have you had a 
chance to look at this yet, counsel?
    [Wang Deposition Exhibit No. DW-4 was marked for identification.]
    Mr. Carvin. Is it intentional that we are skipping every other page 
or is that a Xeroxing problem.
    Mr. Wilson. This is the way the documents are.
    Mr. Bennett. For the record, that is how we got the documents and 
there is a gap in the numbering of pages which is of concern to us, but 
that is a totally separate issue.
    Mr. Carvin. This is what you got.
    Mr. Bennett. That is what we received on Majority side and in 
response to subpoenas to the Democratic National Committee.
    Mr. Carvin. Just to clarify the record, there is a gap in both the 
Bates Stamps, and it seems as if the pages on the documents--and 
Counsel is indicating that that is how the document was received, so my 
suspicion is, this not a complete copy.
    Mr. Ballen. And just so the record is clear, and counsel for the 
Majority said that is how the document was received by the Majority, 
the same document was produced to both Majority and Minority.
    Mr. Bennett. And for the record, I cannot represent that--strike 
that.
    For the record, I cannot represent that this committee has not 
received--for example, these numbered pages are DNC 1804346, then 349, 
then 351, then 353, 355, 356, 366 and 368. I cannot represent that the 
committee has never received or has not received some sequential pages 
in between there. I believe we definitely have missed pages, but I 
cannot represent all those pages are missing. Perhaps it is in terms of 
relevant documents being made a part of this exhibit.
    So I don't want the record to reflect the Democratic National 
Committee has not given us any of the pages in between. I don't believe 
we have all the pages in between, but it may be that some really 
weren't relevant in terms of putting the document together in terms of 
the deposition. So I don't want the record to reflect that I am making 
that accusation against the DNC, because I don't have a basis for that.
    Mr. Ballen. Just so you understand, Mr. Carvin, the DNC did 
withhold some documents from the committee on the basis of privilege so 
that may explain--I do not know why.
    Mr. Carvin. Thank you.
    Mr. Bennett. Thank you, Mr. Ballen.
                      examination by mr. bennett:
    Question. Looking at this exhibit--particularly, if you will, look 
at answer number 14, which is on document number DNC 1804351, there, 
the question from Ernst & Young, the accounting firm retained by the 
Democratic National Committee. The particular question is asked with 
respect to, can you confirm that all the money that was used to make 
this contribution was your money and did not come from some other 
source or person? And there you indicate, yes, you could confirm that; 
is that correct, Mr. Wang?
    Answer. Yes.
    Question. Did you at any point in this survey from Ernst & Young--
do you recognize your handwriting there?
    Answer. Yes.
    Question. And you in fact completed this survey and sent it back to 
Ernst & Young; is that correct?
    Answer. Yes.
    Question. At any point in this survey, apart from answering, yes, 
that it was your money, did you indicate anywhere that you had in fact 
been reimbursed the same day for your contribution?
    Answer. No.
    Question. No.
    And why was that, sir?
    Answer. Well, because I am afraid.
    Question. You were afraid?
    Answer. Yes.
    Question. I understand that.
    Did anyone from the Democratic National Committee ever get back in 
touch with you after this survey, after you filled this out?
    Answer. From my memory, I am not so sure, but after--the survey, I 
remember the survey; before, I forget that this was surveyed. And on a 
Friday, I mentioned they have phone-called me, but in fact I am not so 
sure--I mean, from the same company.
    Question. You say on Friday, you mean this past Friday?
    Answer. Yes.
    Question. I am going to get to that in a minute. But do you recall 
any other contact with the Democratic National Committee after you 
filled this survey out?
    Mr. Carvin. You mean after his memory was refreshed on Friday?
    Mr. Bennett. No, I believe the document has a draft date of 
December 6, 1996, from Debevoise & Plimpton, and I am trying to confirm 
or to find out if there was any other contact from the Democratic 
National Committee after December of 1996, if he knows.
    The Witness. I am not so sure. Let's say they give me a phone call, 
but I don't know if it is before this one survey or after the survey.
                      examination by mr. bennett:
    Question. Who says that they gave you a phone call?
    Answer. On Friday.
    Mr. Carvin. Let me help you. The Assistant U.S. Attorney, Mr. 
McNamara.
    Mr. Bennett. Just for the record, you appeared before a Federal 
grand jury here in Washington this Friday, October 3, 1997; is that 
correct?
    Answer. Yes.
    Question. And how long did you appear in front of the grand jury?
    Answer. About 30 or 40 minutes in grand jury.
    Question. And during that period of time, did you have a translator 
there with you?
    Answer. Unfortunately, no, because Friday, there be no translating.
    Question. And at that time, someone indicated to you that perhaps 
you had received a telephone call from the Democratic National 
Committee in addition to this survey?
    Answer. Well, in fact, one thing I want to say, before this one 
event, this is from the DNC, because the head-letter says Ernst & 
Young--I don't know if this is from DNC or not--and only the survey and 
also the one phone call to call me.
    Question. Okay. And who gave the one phone call to you when you 
were called, who called you? You say one phone call; who called you?
    Answer. In fact, I don't remember the phone call, but they say they 
have a phone call in this one.
    Question. ``They,'' who is ``they,'' sir? You say, the Assistant 
U.S. Attorney?
    Answer. Yes.
    Question. Tom McNamara, Assistant U.S. Attorney?
    Answer. Yes.
    Question. I am trying to make sure we are clear. In fact, within 
the last week, one of the lawyers for the Minority called you or called 
your father; is that correct?
    Mr. Carvin. I don't know if he understands the term ``the 
Minority.''
    Mr. Bennett. Either Mr. Ballen or Mr. Lu; is that correct.
    The Witness. Yes.
                      examination by mr. bennett:
    Question. Within the last week?
    Answer. Last week, Friday.
    Question. All right. And who called you, or did they call you or 
call your father?
    Answer. Called my father.
    Question. Okay. I am not referring to that phone call when I ask 
you about the Democratic National Committee. I am trying to make sure 
we are talking about two separate phone calls.
    Mr. Bennett. Why don't you translate that, Mr. Liang?
    The Witness. Yes.
                      examination by mr. bennett:
    Question. Okay. You didn't get a phone call from Mr. Ballen or 
anyone? Your father got the phone call?
    Answer. Friday, yes, my father, he received one phone call.
    Question. One phone call?
    Answer. Yes.
    Question. Who did he receive the phone call from; do you know?
    Answer. As I know, he told me he called Mr. Lu.
    Question. Mr. Lu called him?
    Answer. Yes. In fact, this is two persons; one speaks English and 
the other, Mr. Lu, he can speak a little Chinese.
    Question. Okay.
    Answer. Because my father's English is no good.
    Question. So your father was called by two lawyers, Mr. Lu and 
another lawyer, last week?
    Answer. Yes.
    Question. And what day of last week would that have been?
    Answer. Last Friday.
    Question. This past Friday, October the 3rd?
    Answer. Yes.
    Question. Were you able to talk with your father about what the 
nature of that phone conversation was?
    Answer. My father, he told me it's about when my father met John 
Huang, about how he met John Huang and how many times they see each 
other.
    Question. Was your father present when you met with John Huang and 
Antonio Pan on August 16, 1996?
    Answer. Yes.
    Question. Do you know whether or not your father was asked about 
that last week?
    Answer. Yes.
    Question. And do you know what your father responded, what he said 
to the lawyers who called him last week about whether or not he was 
present when you met with John Huang and Antonio Pan?
    Answer. Yes.
    Question. And what did your father say to them?
    Answer. He said he is also in a meeting.
    Question. He said he was present?
    Answer. He was present on August 16.
    Question. So, to your knowledge, your father told the lawyers who 
called him last week that he was present at the meeting of August 16th?
    Answer. Yes.
    Question. Okay. Was anyone else present at the meeting apart from 
your father?
    Answer. No.
    Mr. Carvin. And Mr. Huang and Mr. Pan.
                      examination by mr. bennett:
    Question. Yes, the meeting with Mr. Huang and Mr. Pan, was there 
anyone else present besides you and your father?
    Answer. No.
    Question. Was any money ever returned to you by the Democratic 
National Committee?
    Answer. No.
    Question. Now there have been references--we will go back now if we 
can, to discussions about--let me get these exhibits, if I can.
    Now, Congressman Waxman previously asked you and I asked you about 
Mr. Wu, the individual for whom you wrote the second $5,000 check and 
which was also reimbursed.
    Let me first of all show you, if I can, Exhibit DW-5.
    [Wang Deposition Exhibit No. DW-5 was marked for identification.]
                      examination by mr. bennett:
    Question. In fact, Mr. Wang, you have the power of attorney, do you 
not, for Mr. Daniel Wu?
    Answer. Yes.
    Question. And do you still hold the power of attorney for Mr. Wu?
    Answer. Yes.
    Question. And why is it that you have his power of attorney?
    Answer. Well, I think that the reason is for immigration purposes, 
because he is a green card holder, and he wants to open the account 
here; and in his bank, they have some transaction that looks like he is 
living in the United States.
    Question. Does he live in the United States?
    Answer. No.
    Question. Where is he presently residing?
    Answer. I think in Taiwan.
    Question. What is your relationship with him?
    Answer. Just friend.
    Question. And how often do you see him?
    Answer. In fact, sometimes we use a phone call. But he is busy; he 
not come here, not so often.
    Question. And do you know what he does for a living, what is his 
occupation?
    Answer. Exactly, as I know, he is a businessman in Taiwan.
    Question. And what is his business in Taiwan, sir?
    Answer. It is like a trading company. I am not sure what kind of 
thing--I mean, project he does, but I know he does the trading company.
    Question. And exactly what does he trade? In terms of having a 
trading company, what does he trade?
    Answer. I don't know.
    Question. Okay. And when is the last time you saw him?
    Answer. I think about 2--almost 2 or 3 years ago.
    Question. Two or 3 years ago?
    Answer. Yes.
    Question. So when you wrote out the check in August of 1996 for Mr. 
Wu, you had not seen him for over 2 years; is that right?
    Answer. Yes.
    Question. And you did not need to speak with him about this because 
you already had the power of attorney; is that correct?
    Answer. You mean about----
    Question. About the $5,000 check?
    Answer. Yes, I didn't talk to him.
    Question. Because you had this power of attorney, as reflected by 
Exhibit DW-5, you were able to write out the $5,000 check and then put 
the money back into his account when you were reimbursed the same day?
    Answer. Yes.
    Question. I will show you Exhibits DW-6 and 7.
    [Wang Deposition Exhibit Nos. 6 and 7 were marked for 
identification.]
                      examination by mr. bennett:
    Question. Looking at DW-6 and 7, first, in DW-6----
    Mr. Carvin. Which we are not sure which is which.
    Mr. Ballen. We don't have a copy of both of these.
    Mr. Bennett. I think you do have a copy of both.
    Mr. Ballen. I just have one.
    Mr. Bennett. Counsel, you have that now in front of you.
                      examination by mr. bennett:
    Question. On DW-6, there are entries similar to the entries of your 
account, reflecting--are there not, Mr. Wang--a deposit on August 16, 
1996, of $3,000, and then August 20 of $2,000. Do you see that in front 
of you there, sir?
    Answer. Yes.
    Question. Does that reflect the same types of deposits you made 
into your account with respect to the $5,000 to Mr. Wu's account?
    Answer. Yes.
    Question. And looking at Exhibit DW-7, that in fact reflects the 
check on Mr. Wu's account of $5,000 that cleared through and for which 
you were reimbursed; is that right?
    Answer. Yes.
    Question. Do you know why the check was held until September 25, 
1996?
    Answer. No, I don't.
    Question. How often do you need to make deposits or withdrawals 
from Mr. Wu's account, Mr. Wang?
    Answer. In fact, every month.
    Question. Every month?
    Answer. Yes.
    Question. And what kind of transactions do you engage in every 
month for Mr. Wu's account?
    Answer. Well, in fact, I use his name under the other company, like 
he is employee of our company; and then the company, they write the 
paycheck to his account.
    Question. If I can follow up on this, your company?
    Answer. Not my company, other company.
    Question. I'm sorry.
    Mr. Bennett. To the extent that I can't understand the witness, Mr. 
Liang, it might be helpful if you translate the answer for me, if you 
could, please?
                      examination by mr. bennett:
    Question. With respect to the monthly activity into Mr. Wu's 
account, what is deposited into Mr. Wu's account, Mr. Wang?
    Answer. Another company would write a check out in Daniel Wu's 
name, as an employee of that company; and that is when I would deposit 
that check into his account.
    Question. And you do that each month?
    Answer. Yes.
    Question. And what is the name of the company that issues a check 
to Mr. Wu?
    Answer. Ji Tai International Company.
    Question. And where is Ji Tai International Company?
    Answer. Also in Los Angeles.
    Question. Are there any other companies that issue checks to Mr. Wu 
besides Ji Tai International?
    Answer. There is another company, Bao Li Hang International, Bao Li 
Hang International.
    Mr. Bennett. Perhaps, Mr. Liang, if you could try to spell both of 
those companies for the court reporter to the best of your ability.
    For the record, have we put in the names of both companies?
                      examination by mr. bennett:
    Question. So I understand, the two companies, there are two 
companies which issue checks to Mr. Wu; is that correct?
    Answer. Yes.
    Question. And they do it each month?
    Answer. Yes.
    Question. And you deposit those checks into Mr. Wu's account?
    Answer. Yes.
    Question. And the names of the two companies are Bao Li Hang?
    Answer. Bao Li Hang.
    Question. Bao Li Hang, and the second company is?
    Answer. Ji Tai International.
    Question. Ji Tai International?
    Answer. Yes.
    Question. How much are those checks for, do you know, sir?
    Answer. I don't remember exactly the amount. I have to look and see 
from the statement.
    Question. I'm sorry, do you know the approximate amount, sir?
    Answer. About $600 something.
    Question. $600?
    Answer. $600 something, yes, I forget.
    Question. Each one?
    Answer. Yes, the other is about $700 something.
    Question. Do you know what are these for?
    Answer. That is for the payroll check.
    Question. It is a payroll check?
    Answer. Yes.
    Question. Do you know what Mr. Wu does for these two companies?
    Answer. No.
    Question. Does this money leave the account? Do you withdraw the 
money from Mr. Wu?
    Answer. Yes, and then I return to the two companies, return to 
them.
    Mr. Bennett. I don't understand the witness' answer. You will need 
to translate, please.
    The Witness. I put the money into the account, and then I draw out 
money, the same amount of money that was put in, and return them to 
those two companies.
                      examination by mr. bennett:
    Question. Correct me if I am wrong, you deposit two checks each 
month into Mr. Wu's account from these companies?
    Answer. Yes.
    Question. And then you withdraw the same amount that you deposit 
out of that account?
    Answer. Yes.
    Question. And then what do you do with the money? You have cash, 
you will cash them in cash; is that correct?
    Answer. No, I just also make a check, write a check.
    Question. But you will put it into your account and then write a 
check?
    Answer. Yes, to Daniel Wu account and then use the Daniel Wu 
account to write a check the same amount for deposit.
    Question. And to whom do you send these checks, back to the 
companies?
    Answer. Yes.
    Question. Okay. Who is the individual with whom you have contact at 
these two companies?
    Answer. Well, it is just comes in my job, I just return the check 
to them.
    Mr. Ballen. Can I ask a clarification?
    Why do you take the checks that you get from the company, deposit 
them to Mr. Wu's account and then return them to the two companies? Why 
do you do that?
    Any time you don't understand, please have it translated.
    The Witness. I can say this is for----
    Mr. Ballen. Please use the translator.
    Mr. Bennett. And, Mr. Liang, it would be helpful--to the extent the 
witness has difficulty explaining his answer, it would be helpful not 
only to translate the questions to the witness but translate his 
answers for counsel here if you could.
    The Interpreter. Yes, sir.
    The Witness. So that the two companies make out a certain amount to 
me to Mr. Wu every month, and which I deposit into his account, and 
then write out two checks for the same amount that the companies gave 
Mr. Wu to return them. That was in order to prove to the Immigration 
Service that Mr. Wu was, in fact, physically in the United States and 
not outside the States.
    Mr. Bennett. Just for the record, counsel, we don't need to belabor 
this now, but if you can just supplement and make sure counsel here 
have the names and addresses of those corporations, if the witness can 
locate that information, if you can supplement his response for both 
the Majority and Minority counsel as to the names of the corporations.
                      examination by mr. bennett:
    Question. I gather, then, Mr. Wu has not had any contact with the 
Democratic National Committee or Ernst & Young in terms of the survey?
    Answer. No.
    Question. And to the extent that the Democratic National 
Committee--and I will show you what has been marked as DW-8.
    [Wang Deposition Exhibit No. DW-8 was marked for identification.]
                      examination by mr. bennett:
    Question. To the extent that Ernst & Young, on behalf of the 
Democratic National Committee, tried to locate Mr. Wu, it is clear from 
this document they were not able to locate Mr. Wu; is that correct?
    Answer. Yes.
    Question. The second page----
    The Interpreter. To your question, Mr. Huang answered yes.
    Mr. Ballen. I'm sorry, I didn't understand you.
    The Interpreter. The question counselor raised----
    Mr. Bennett. They said that the Democratic National Committee was 
not able to get a hold--to contact Mr. Wu, and the witness said, that 
is correct, they were not able to get a hold of him.
    Mr. Ballen. To his knowledge.
                      examination by mr. bennett:
    Question. Looking at the second page of that document, DNC, Bates 
Stamp DNC 1803072, the No. 818-571-2288; do you know whose number that 
is?
    Answer. Oh, yes, that is my company.
    Question. That is your telephone number?
    Answer. Yes.
    Question. And that was the telephone number listed with respect to 
the contribution initially?
    Answer. Yes.
    Question. I will go back. How would the Democratic National 
Committee have your telephone number in connection with this 
contribution, Mr. Wang? How would the Democratic National Committee 
have this telephone number in connection with the contribution from Mr. 
Wu?
    Answer. I don't know. I don't know how they get the number.
    Question. Mr. Wang, are there any other political contributions 
made by you that we have not discussed today?
    Answer. No.
    Question. Are there any other political contributions by Mr. Wu in 
the name of Mr. Wu that we have not discussed?
    Answer. No.
    Mr. Carvin. To his knowledge.
    Mr. Bennett. To his knowledge.
                      examination by mr. bennett:
    Question. The question meaning, have you used Mr. Wu's account in 
any other manner like you did on August 16, 1996, in making a 
contribution?
    Answer. There was only a one-time shot, on August 16th.
    Question. And you have had no other activity in a political 
campaign or political involvement other than what you have mentioned 
thus far here today?
    Answer. No.
    Question. I am going to read some names to you and ask if you have 
any knowledge of these people, and if you have met them. And take your 
time; if you don't understand or if I mispronounce someone's name, I 
will do the best I can. And some of these you may have already been 
asked about.
    Do you have any knowledge of or relationship with Mr. Charlie Trie, 
Yah Lin Trie?
    Mr. Carvin. One is the Americanization and the other is the Chinese 
name.
    The Witness. Well, this name I saw so many times in the newspaper, 
Yah Lin Trie.
                      examination by mr. bennett:
    Question. I think the Congressman asked you earlier, have you ever 
met Mr. Trie?
    Answer. No.
    Question. Do you know anyone with the CHY Corporation?
    Let Mr. Liang translate for you, please.
    Answer. I heard the firm of CHY. I learned of this firm for the 
first time because the investigator, Mr. Paul Hubert----
    Question. Might have asked about it?
    Answer. Yes, that is when I learned about it.
    Question. No other knowledge besides that?
    Answer. No.
    Question. All right. Huan Hsu, also known as Tony Hsu?
    Answer. No.
    Mr. Carvin. Spell that, please.
    Question. H-S-U?
    Answer. No.
    Question. David Mercer or Ari Swiller?
    Answer. No.
    Question. Martha Shoffner?
    Answer. No.
    Question. Lorin Fleming?
    Answer. No.
    Question. Maria Mapili?
    Answer. No.
    Question. Jody Webb?
    Answer. No.
    Question. Yue Fang Chu?
    Answer. No.
    Question. An individual named Ng Lap Seng, also known as Mr. Wu?
    Answer. No.
    Question. Keshi Zhan?
    Answer. No.
    Question. Ming Chen?
    Answer. No.
    Question. Xiping Wang?
    Answer. No.
    Question. Zhengwei Cheng?
    Answer. No.
    Question. Charles T. Chiang?
    Answer. No.
    Question. Bei Bei Liu?
    Answer. No.
    Question. Zhengang Shao?
    Answer. No.
    Question. George Chu/Da Tung?
    Answer. No.
    Question. Peter Chen?
    Answer. No.
    Question. Sy Zuan Pan?
    Answer. No.
    Question. Yogesh Gandhi?
    Answer. No.
    Question. Lottie Shackleford?
    Answer. No.
    Question. Mark Middleton?
    Answer. No.
    Question. Ernie Green?
    Answer. No.
    Question. Mr. Wang, I want to thank you for your effort today. Now 
Mr. Ballen may have some follow-up questions.
    Mr. Ballen. I do. Thank you very much, Mr. Bennett. If I could just 
have about 30 seconds? I don't even want to take a break. Just 30 
seconds.
    Mr. Bennett. Would you like to take a break?
    Mr. Carvin. Let's take a quick 5-minute break.
    [Brief Recess.]
    Mr. Ballen. We are back on the record now. I just have several 
questions to follow up with you, sir.
                       examination by mr. ballen:
    Question. First, did you understand the questions that were posed 
to you today by both Mr. Waxman, Mr. Bennett, and myself and your own 
counsel?
    Answer. Yes.
    Question. If there was ever a point when you did not understand the 
questions, did you consult with the translator who is sitting next to 
yourself?
    Answer. Yes.
    Question. I think the record should reflect that, and I do not know 
whether the court reporter indicated it or not, every time you 
consulted with the translator, but I believe all counsel would agree 
with me that it was frequent throughout the deposition. Is that 
correct? You did frequently consult with him on questions and answers?
    Answer. Yes.
    Question. So that you feel you had the opportunity to understand 
each question and each answer that you gave here today?
    Answer. Yes.
    Question. And you had the opportunity throughout this deposition to 
consult with the translator sitting by your left?
    Answer. Yes.
    Question. Have you understood the translator at all times?
    Answer. Yes.
    Question. And you understand here that you are under oath today?
    Answer. Yes.
    Question. I notice the translator actually translated that question 
for you.
    Does the translator speak the same dialect of Chinese that you 
speak?
    Answer. Yes.
    Question. And you already stated that you understand your answers 
are under oath and that they must be truthful?
    Answer. Yes.
    Question. And you have given truthful answers here today, sir?
    Answer. Yes.
    Question. And you have understood both the questions and the 
answers and the nature of the answers you have given?
    Answer. Yes.
    Question. I would like to go back, I believe it is Exhibit No. 1, 
sir, your Memorandum of Interview. I will wait until you have it before 
you.
    Mr. Bennett. For the record, it's not his Memorandum of Interview.
    Mr. Ballen. I'm sorry, I stand corrected, Memorandum of Interview 
you had with the two investigators.
    Mr. Bennett. Actually for the record, the entirety of the exhibit 
is 5 pages, the first 3 of them are a Memorandum of Interview, both 
interviews on August 15, 1997, and then the 4th page is August 19, 
1997, and the 5th page is September 2, 1997.
    Mr. Ballen. That is correct.
                       examination by mr. ballen:
    Question. Sir, I am going to direct your attention to paragraph 4 
and I will wait for the translator to translate.
    For the record, I believe the translator has just translated for 
you paragraph number 4 on the first 2 pages of Exhibit No. 1; is that 
correct?
    Answer. Yes.
    Question. Now, in this statement you said you made a contribution 
for $5,000 because it was a chance to meet President Clinton, and you 
also said that the contribution bought you two tickets to a party, and 
you said that you went to the party but did not meet the President, is 
that correct, sir?
    Mr. Carvin. Objection. Compound.
    Mr. Ballen. I'll ask him one at a time.
                       examination by mr. ballen:
    Question. In your statement you said that you made the contribution 
because it was a chance to meet President Clinton?
    Answer. Repeat the question.
    Question. Yes. The question is, in your statement you stated, is 
this correct, that you made the contribution because it was a chance to 
meet President Clinton?
    Answer. Yes.
    Question. Is that correct? Did you make it for that reason or not?
    Mr. Carvin. There may be confusion. I take it you're not asking him 
if the statement was made to the investigators but whether that was the 
real reason that he gave the donation. Or were you asking two 
questions?
    Mr. Ballen. I asked two questions. The first question, did he make 
that statement to the investigators, the next question, is it a true 
statement?
    Mr. Carvin. You want me to ask him again or do you want to go?
                       examination by mr. ballen:
    Question. That is fine. Did you make that statement to the 
investigators?
    Answer. Yes.
    Question. Is it correct, sir?
    Answer. It is not correct.
    Question. The next question is, you also said to the investigators 
that the contribution bought you two tickets to a party. Did you tell 
that to the investigators?
    Answer. In that, yes.
    Question. You did say it?
    Answer. Yes.
    Question. Is it correct, sir?
    Answer. No.
    Question. In the statement you said you went to a party, a fund-
raising party, is that correct, did you say to the investigators?
    Answer. Yes.
    Question. Did in fact you go to a party?
    Answer. No.
    Question. So you never went to any fund-raising party for the 
President?
    Answer. Yes. I mean----
    Question. Did you ever go?
    Answer. No.
    Question. Directing your attention, sir, to August 16, 1996, do you 
recall how long--you testified, I believe, that you received a phone 
call from John Huang before he came to your place of business on August 
16?
    Answer. Yes.
    Question. How long before August 16?
    Mr. Carvin. Objection. That mischaracterizes his testimony. He said 
before they came to the meeting. He didn't say it was before August 16.
    Mr. Ballen. The meeting was August 16.
    Mr. Carvin. You can call at 9 o'clock, you can call at 10 o'clock.
    Mr. Ballen. Let's get that clarified.
    The Witness. I think not too long. I think within an hour. Within 
one hour of his phone call, he came to my office.
                       examination by mr. ballen:
    Question. John Huang called you on August 16, then, the same day he 
came?
    Answer. Yes, the same day, after the phone call and after, not over 
one hour, then he came here.
    Question. Came to where, sir?
    Answer. To the office.
    Question. Did he say where he was calling from, John Huang?
    Answer. No.
    Question. Did he say when he would come to the office?
    Answer. No.
    Question. He just said he would come that same day to the office?
    Answer. Yes. Because he was nearby in the area.
    Question. So on August 16 when he called you in the morning, he 
said he was nearby the office?
    Answer. Yes.
    Question. How did he come to your office? Did he come in a car?
    Answer. I'm not sure because I didn't see how they used the car. 
They just come in.
    Question. When they left, where did they leave? Meaning they, John 
Huang and Mr. Pan on August 16, 1996.
    Answer. I don't know. They just left the office.
    Question. Did they say how they arrived, whether they had arrived 
on foot or bus or taxi?
    Answer. No.
    Question. Just to go back one moment to my prior questions about 
your statements, sir, when you said to the investigators that you made 
the contribution to buy two tickets--because it was a chance to meet 
the President and because it would buy two tickets to a party and that 
you went to a party, that was not true, was it, when you told the 
investigators that?
    Answer. I beg to differ. I did not buy the two tickets to that 
party in the off chance that I might meet President Clinton. And it was 
a misstatement when I said--when I read in the report that I had 
attended the party. So I wish to correct these two points.
    Question. So that I understand, did you attend a party or did you 
not?
    Answer. No, I don't attend. Sir, I did not attend that party.
    Question. Did you buy tickets to attend the party?
    Mr. Carvin. Can I help here?
    Mr. Ballen. Yes.
    Mr. Carvin. Now he's confused. Now we're going back to the fund-
raiser for the President, the hundred dollar ticket, you're not asking 
about that?
    Mr. Ballen. No.
    Mr. Carvin. You're asking about, was the $5,000 donation on August 
16 intended to purchase a ticket for a party?
    The Witness. No.
                       examination by mr. ballen:
    Question. Let me go back to August 16 again if I can. You testified 
you received on the morning of August 16 a call from John Huang; is 
that correct?
    Answer. Yes.
    Question. Did John Huang call you?
    Answer. Yes. He called.
    Question. Did he call you or your father? Do you recall?
    Answer. He called us.
    Mr. Carvin. It may be--who picked up the phone?
    The Witness. I picked up the phone first and then I transferred it 
to my father. So he called me or called my father. The same.
                       examination by mr. ballen:
    Question. Were you surprised when John Huang asked to meet with you 
on August 16?
    Answer. Yes. A little surprised and happy.
    Question. And happy? Why were you happy?
    Answer. I was happy because such a well-known person gave me a 
buzz.
    Question. And did he say in the phone call why he was coming, John 
Huang?
    Answer. No.
    Question. So you did not know why he was coming?
    Answer. Yes.
    Question. He came within an hour of the phone call?
    Answer. Yes. It was within an hour.
    Question. Who did he meet with? You testified, I believe, your 
father, yourself, Mr. Pan, and John Huang?
    Answer. Yes.
    Question. Is that correct, sir?
    Answer. Yes.
    Question. Where did you meet?
    Answer. We met in the office, in my father's office.
    Question. In your father's office?
    Answer. Yes.
    Question. How long did the conversation occur?
    Answer. You mean on the telephone?
    Question. No, no. When you all met in your father's office on 
August 16.
    Answer. Not so long. I would say about 20 or 30 minutes.
    Question. Do you recall who asked you to make a contribution first?
    Answer. I know, I don't remember which, whether Pan or Huang 
exactly.
    Question. Did they ask you or did they ask your father?
    Answer. In fact we sit together. He asked my father and you 
interested, me and my father.
    Question. So they asked both of you?
    Answer. Yes.
    Question. Were you surprised when they asked you to make a 
contribution?
    Answer. Yes. Surprised.
    Question. How did you respond? Did you respond or did your father 
respond?
    Answer. I'm not so sure. The surprise not like this, but in my mind 
can feel what the contribution is so much about.
    Question. What did you say or your father say when John Huang asked 
for a contribution?
    Answer. Well, in fact we didn't--although my father and I did not 
say it was quite a huge sum, $5,000, but from the expressions on our 
face which showed that we were a little bit taken aback by being asked 
for such a great sum or big sum.
    Question. Was it at that time that the offer for reimbursement 
occurred?
    Answer. Yes.
    Question. Did you understand at the time when the offer for 
reimbursement was made that it was wrong?
    Answer. I didn't know it was illegal but I had my suspicions about 
it.
    Question. You testified earlier in response to a question of Mr. 
Bennett about checks from two companies to Daniel Wu's account and that 
the reason those checks--why don't you--I don't want to characterize 
your testimony. Why don't you tell us again what the reason for the 
checks to Mr. Wu's accounts were, why you were doing that?
    Mr. Carvin. Just to clarify, you are now talking about the monthly 
deposits, nothing to do with the DNC checks?
    Mr. Ballen. Correct, the monthly deposits that have to do with the 
immigration and naturalization.
    The Witness. I received two different checks from two different 
companies showing that Mr. Wu was on their payroll. And I put it--I put 
the checks into his account after which I reimbursed the two companies. 
The reason being that for immigration purposes, it would show that Mr. 
Wu was here in the States physically. And on the part--and that he was 
working in the States. And on the part of the two companies, it was to 
show they had an employee on the payroll which might give them a tax 
credit or a tax break. So it was for tax purposes.
                       examination by mr. ballen:
    Question. But if I understand your testimony correctly, Mr. Wu was 
not here physically in the United States while these checks were being 
paid, is that correct, sir?
    Answer. No, he is not here.
    Question. He is not?
    Answer. No.
    Question. So did you understand when you were doing that that it 
was wrong, too?
    Answer. No, I'm sorry, I didn't.
    Question. I just have a few more questions, sir.
    I believe you told Mr. Waxman that you did not know Mr. Pan's first 
name when you met him in 1996; is that correct?
    Answer. I don't know his first name.
    Question. In fact, the only time you heard his first name was when 
the investigators from the committee asked you his first name; is that 
correct?
    Answer. Yes.
    Question. So you don't know whether Antonio Pan is the first name 
of the Mr. Pan that you met; do you?
    Answer. On the day of August 16? Is that it?
    Question. Correct.
    Mr. Carvin. Did he know on August 16 his first name or does he know 
today his first name?
    Mr. Ballen. Did he know on August--let's take them seriatim.
                       examination by mr. ballen:
    Question. Did you know on August 16 what his first name was, 1996?
    Answer. No.
    Question. Do you know today what his first name is?
    Answer. Yes.
    Question. What I am trying to establish is how do you know that is 
the same person today that you think it was then if you don't know what 
his name was then?
    Answer. I could put it like this: I knew that it was the same Mr. 
Pan from the description of Mr. Pan that the investigators gave me. And 
I also learned from him that Mr. Pan's name was Anthony. And 
afterwards, I got from my father's place his business card, and that is 
how I also learned what his first name was.
    Question. Do you have his business card, sir?
    Answer. Yes.
    Question. Have you produced that to the committee?
    Mr. Carvin. No.
    Mr. Ballen. Mr. Bennett, would that be something then you can ask 
the witness to produce to the committee?
    Mr. Bennett. That is fine. We can document that the money came from 
Antonio Pan, but certainly to the extent he can find the business card, 
if you have it, we'd love to see it. To the extent the witness recalls 
getting the business card and recalls it's Antonio Pan, that's 
sufficient as well. But, Mr. Carvin, if you could see if they have the 
business card, the committee would like to have it.
    Mr. Carvin. In all candor, this came up on Friday in connection 
with the grand jury. We received today the original of the business 
card. The Justice Department, frankly, has first dibs on it. We'll be 
happy to supply the committee with a copy. I don't think there will be 
any questions as to authenticity.
    Mr. Bennett. Thank you.
    Mr. Ballen. I have nothing further, sir. Thank you.
                      examination by mr. bennett:
    Question. Mr. Wang, when you were first interviewed on August 16, 
and it was paragraph 4 that was read to you by Mr. Ballen, the first 
paragraph, you at first were not truthful with the agents and then were 
honest with them when they came back the second time; isn't that 
correct?
    Answer. Yes.
    Question. And the second time they came back for further inquiry, 
then you told them the truthful story?
    Answer. Yes.
    Mr. Bennett. Thank you.
                       examination by mr. ballen:
    Question. I just have one follow-up question. Today you're telling 
us the truthful story; is that correct?
    Answer. Yes.
    Mr. Ballen. Thank you.
    Mr. Bennett. Mr. Wang, you have the opportunity to read and review 
your deposition, as we said in the start of the deposition. A 
transcript will be made available to your attorney within the next 24 
hours so you will have an opportunity to review it and we will be in 
contact with Mr. Carvin with respect to your appearance before the full 
committee this Thursday, August 9.
    Mr. Carvin, you will try to supply the names of the two 
corporations he discussed as well as provide a copy of the business 
card which Mr. Antonio Pan left; is that correct?
    Mr. Carvin. Yes.
    [Whereupon, at 3:50 p.m., the deposition was concluded.]

    [The exhibits referred to follow:]
    [GRAPHIC] [TIFF OMITTED] 44833.064
    
    [GRAPHIC] [TIFF OMITTED] 44833.065
    
    [GRAPHIC] [TIFF OMITTED] 44833.066
    
    [GRAPHIC] [TIFF OMITTED] 44833.067
    
    [GRAPHIC] [TIFF OMITTED] 44833.068
    
    [GRAPHIC] [TIFF OMITTED] 44833.069
    
    [GRAPHIC] [TIFF OMITTED] 44833.070
    
    [GRAPHIC] [TIFF OMITTED] 44833.071
    
    [GRAPHIC] [TIFF OMITTED] 44833.072
    
    [GRAPHIC] [TIFF OMITTED] 44833.073
    
    [GRAPHIC] [TIFF OMITTED] 44833.074
    
    [GRAPHIC] [TIFF OMITTED] 44833.075
    
    [GRAPHIC] [TIFF OMITTED] 44833.076
    
    [GRAPHIC] [TIFF OMITTED] 44833.077
    
    [GRAPHIC] [TIFF OMITTED] 44833.078
    
    [GRAPHIC] [TIFF OMITTED] 44833.079
    
    [GRAPHIC] [TIFF OMITTED] 44833.080
    
    [GRAPHIC] [TIFF OMITTED] 44833.081
    
    [GRAPHIC] [TIFF OMITTED] 44833.082
    
    [GRAPHIC] [TIFF OMITTED] 44833.083
    
    [GRAPHIC] [TIFF OMITTED] 44833.084
    
    [GRAPHIC] [TIFF OMITTED] 44833.085
    
    [GRAPHIC] [TIFF OMITTED] 44833.086
    
    [GRAPHIC] [TIFF OMITTED] 44833.087
    
    [GRAPHIC] [TIFF OMITTED] 44833.088
    
    [GRAPHIC] [TIFF OMITTED] 44833.089
    
    [GRAPHIC] [TIFF OMITTED] 44833.090
    
    [GRAPHIC] [TIFF OMITTED] 44833.091
    
    [GRAPHIC] [TIFF OMITTED] 44833.092
    
    [GRAPHIC] [TIFF OMITTED] 44833.093
    
    [GRAPHIC] [TIFF OMITTED] 44833.094
    
    [GRAPHIC] [TIFF OMITTED] 44833.095
    
    [GRAPHIC] [TIFF OMITTED] 44833.096
    
    [GRAPHIC] [TIFF OMITTED] 44833.097
    
    [GRAPHIC] [TIFF OMITTED] 44833.098
    
    Mr. Bennett. Mr. Chairman, in the interest of time, I will 
try not to take the full 30 minutes, if possible.
    Mr. Wang, thank you very much for being here today. As you 
recall, I took your deposition on Monday of this week.
    Before we start, we should note that Mr. Liang, you are 
here as an interpreter, is that correct, sir?
    Mr. Liang. Yes, sir.
    Mr. Bennett. And just state your full name, for the record.
    Mr. Liang. Herman H. Liang.
    Mr. Bennett. I am sorry, sir. We can't hear you. You need 
to pull up the microphone.
    Mr. Burton. If you all will pull the microphone as close to 
you as possible. Just pull it up.
    Mr. Liang. Herman H. Liang, L-I-A-N-G.
    Mr. Bennett. And your background, sir, is I believe you are 
with the U.S. Information Agency; is that correct?
    Mr. Liang. Yes, sir.
    Mr. Bennett. And you have been a contract interpreter with 
the State Department for 15 years, is that correct, Mr. Liang?
    Mr. Liang. Yes, sir.
    Mr. Bennett. Mr. Liang, in light of the fact that 
Congressman Waxman and I had the occasion to take, and also Mr. 
Ballen, minority counsel, your client's deposition on Monday 
and my concerns with his understanding the English language, I 
would ask in the abundance of caution, if you translate as we 
go. I will try to go slowly. Sometimes it is difficult for me, 
but I will try to go slowly, and I ask that you make sure that 
you translate everything that I say for your client. Could you 
do that, Mr. Liang?
    Mr. Liang. Yes, sir.
    Mr. Bennett. Thank you, sir.
    Again, Mr. Wang, we took your deposition on Monday of this 
week. Before we start, I would like to give you an opportunity 
to correct or further explain any of the answers which you gave 
during that deposition.
    To the best of your knowledge, are the statements made on 
Monday here in Washington, during the deposition, attended by 
me and Congressman Waxman and Mr. Ballen and other staff, are 
they correct, sir?
    [Unless otherwise indicated, all answers of Mr. Wang are in 
English.]
    Mr. Wang. Yes.
    Mr. Bennett. You need to speak more loudly into the 
microphone, Mr. Wang. You need to bring that closer to you, 
sir.
    Mr. Wang. Yes.
    Mr. Bennett. Mr. Wang, as you know, this committee has an 
interest in the contributions that you made to the Democratic 
National Committee. I would like to ask you some questions in 
connection with the contribution which you made in August 1996 
and also contributions made in the name of Daniel Wu.
    Mr. Wang. Yes.
    Mr. Bennett. Do you understand that that will be the area 
of my questions?
    Mr. Wang. Yes.
    Mr. Bennett. First of all, Mr. Wang, this is your second 
appearance, actually your third appearance, with respect to 
these matters here in Washington over the past 6 days. Is that 
correct?
    Mr. Wang. Yes.
    Mr. Bennett. And you are also represented--I meant to 
welcome you, Mr. Carvin; I am sorry--by Mr. Michael Carvin, an 
attorney here in Washington.
    You have had an opportunity to be with your client over the 
last week and a half, I guess, Mr. Carvin; is that correct?
    Mr. Carvin. That's correct.
    Mr. Bennett. And did you accompany him to the Federal grand 
jury?
    Mr. Carvin. Actually, my partner did, but he was 
represented.
    Mr. Bennett. Pursuant to the Federal Rules of Criminal 
Procedure, no lawyer could be in the grand jury with Mr. Wang; 
is that correct?
    Mr. Carvin. That's correct.
    Mr. Bennett. And with respect to the matters of August 
1996, Mr. Wang, directing your attention to August 1996, 
records obtained by this committee reflect that you made a 
contribution to the Democratic National Committee. Do you 
recall being asked to make a contribution to the Democratic 
National Committee in August 1996?
    Mr. Wang. Yes.
    Mr. Bennett. And I will ask that we put on exhibit 99 on 
the projector at this time.
    [Exhibit 99 follows:]
    [GRAPHIC] [TIFF OMITTED] 44833.099
    
    Mr. Bennett. Let me ask you something first, Mr. Wang. Had 
you ever made a political contribution to a political campaign 
prior to August 1996?
    Mr. Wang. Yes.
    Mr. Bennett. And how many political contributions had you 
made prior to August 1996?
    Mr. Wang. One time.
    Mr. Bennett. And that was for how much, sir?
    Mr. Wang. That--$99.
    Mr. Bennett. And apart from that one $99 contribution, had 
you made any other contributions to any political candidates or 
political parties prior to August 1996?
    Mr. Wang. Yes. Another contribution for the President of 
the party for $300.
    Mr. Bennett. Mr. Liang, if you will help Mr. Wang with 
respect to that answer and translate that for us, please.
    Mr. Wang [through interpreter.] There was another 
contribution that I made that was for President Clinton's 
birthday party and I made out a check for $300.
    Mr. Bennett. For $300.
    Mr. Wang. Yes.
    Mr. Bennett. Now, to your knowledge, Mr. Wang, apart from 
the $99 check and the $300 check for President Clinton's 
birthday party fund-raiser--in fact, you made that contribution 
yourself; is that correct, Mr. Wang?
    Mr. Wang. Yes.
    Mr. Bennett. Mr. Liang, verify that the client understands 
that no one reimbursed him for that contribution. Correct?
    Mr. Wang. Yes.
    Mr. Bennett. No one did? If you will translate his answer, 
Mr. Liang, clarifying that there is no testimony that someone 
reimbursed him for that payment. Correct?
    Mr. Liang. The answer should have been no because the 
differences in the two languages.
    Mr. Bennett. All right. Thank you. Directing your attention 
now to exhibit 99, which is on the projector screen, this is, 
in fact, a check which you prepared dated August 16, 1996, paid 
to the order of the DNC, $5,000.
    Can you identify that copy, Mr. Wang?
    Mr. Wang. Yes.
    Mr. Bennett. And so you understand, Mr. Wang, the tracking 
form on the bottom of that check is, in fact, the tracking form 
which we procured from the Democratic National Committee. 
Directing your attention to that check, you can identify your 
signature on the check?
    Mr. Wang. Yes, that's my signature.
    Mr. Bennett. And, Mr. Wang, when were you first asked and 
by whom to make this contribution? What were the circumstances 
surrounding your making this contribution?
    Mr. Wang. That's on the day August 16th, and it had been--
by Huang or Pan.
    Mr. Bennett. Mr. Liang, you will have to translate. I 
thought I understood him to say by Huang or Pan, but you will 
need to translate the answer. I am trying to ask who--what 
person or persons contacted Mr. Wang with respect to this 
check?
    Mr. Wang [through interpreter.] It could be either one, 
either Mr. Huang or Mr. Pan.
    Mr. Bennett. All right. Was it by telephone or in person?
    Mr. Wang [through interpreter.] They came in person and 
asked me to make a donation.
    Mr. Bennett. All right. Was there a telephone call prior to 
anyone arriving in person to visit with Mr. Wang?
    Mr. Wang [through interpreter.] Yes, there was a phone 
call.
    Mr. Bennett. And does he recall who called him?
    Mr. Wang [through interpreter.] Mr. Huang.
    Mr. Bennett. Now, with respect to Mr. Huang, does he know 
Mr. Huang's first name? Mr. Wang, do you know Mr. Huang's first 
name?
    Mr. Wang [through interpreter.] At that time, I knew only 
his name in Chinese.
    Mr. Bennett. Directing your attention to August 16, 1996, 
which is the date of the check, did this occur the same day, 
Mr. Wang?
    Mr. Wang. Yes.
    Mr. Bennett. Did you know an individual named John Huang 
prior to August 16, 1996?
    Mr. Wang. Yes.
    Mr. Bennett. And who was John Huang? I want to make sure we 
are or not talking about the same person. Who was John Huang, 
to your knowledge, on August 16, 1996, Mr. Wang?
    Mr. Wang. John Huang during that time----
    Mr. Bennett. Mr. Liang, I think you may have to assist him 
with this, if you will, please.
    Can you respond for your client, Mr. Liang?
    Mr. Wang [through interpreter.] I think he was one of the 
better known persons or figures that was involved in raising 
funds for President Clinton's campaign.
    Mr. Burton. To make it easier for all the Members, would 
you pull the microphones, both of them, very close to you, 
please? Pull them close to you so we can hear you better. Thank 
you.
    Mr. Bennett. Had you met Mr. John Huang before, Mr. Wang?
    Mr. Wang [through interpreter.] Yes, sir.
    Mr. Bennett. And on how many occasions had you met Mr. John 
Huang prior to the visit by me and another individual, 
according to your testimony, on August 16, 1996?
    Mr. Wang [through interpreter.] Just once, sir.
    Mr. Bennett. And except for one time, prior to August 16, 
1996, there was only one occasion that you had ever actually 
met Mr. John Huang; is that correct?
    Mr. Wang. Yes.
    Mr. Bennett. And where and when had you met him, sir?
    Mr. Wang. In Philadelphia about--at that time, I don't 
remember, but June or July in 1996 in one Chinese restaurant.
    Mr. Bennett. Mr. Liang, I believe your client testified 
that he had met this individual one time before in June or July 
1996 at a Chinese restaurant. Is that what he said?
    Mr. Wang [through interpreter.] Yes, sir.
    Mr. Bennett. And that was in California?
    Mr. Wang [through interpreter.] Yes, sir.
    Mr. Bennett. Had you ever seen Mr. John Huang's pictures in 
the newspaper?
    Mr. Wang [through interpreter.] Yes, sir.
    Mr. Bennett. Mr. Huang, let me ask you this: Does your 
father know John Huang?
    Mr. Wang [through interpreter.] Yes, sir.
    Mr. Bennett. And if so, how? I don't want you to get into 
the nature of your business because that is, I think, stricken 
from the record in terms of privacy concerns for this witness, 
Mr. Chairman. But how does your father known John Huang?
    Mr. Wang [through interpreter.] It was at a social occasion 
and some friends introduced my father to Mr. John Huang.
    Mr. Bennett. Now, directing your attention to this 
particular day in August 1996, August 16, 1996, according to 
exhibit 99, did there come a point in time when you met with 
two individuals at your home or at your place of business?
    Mr. Wang. In the office.
    Mr. Bennett. In the office?
    Mr. Wang. Yes.
    Mr. Bennett. And was it the same day of the telephone call?
    Mr. Wang. Yes.
    Mr. Bennett. And to the best of your knowledge, it was 
August 16, 1996?
    Mr. Wang. Yes.
    Mr. Bennett. Mr. Huang, I should tell you that Tuesday, the 
day after your deposition, I was visited by John Huang's 
attorney, whom I know personally, who insisted that his client 
was not with you in California on that particular day and that 
you are mistaken with respect to the identity of one of the two 
men whom you met on that day.
    If you will translate that for him, Mr. Liang?
    Mr. Wang [through interpreter.] To the best of my 
knowledge, I took that person who came with Mr. Pan to be John 
Huang.
    Mr. Bennett. I understand. Just, in fairness to your 
client, Mr. Carvin, I wanted to make sure he understood that. 
And just in further fairness to your client, Mr. Carvin, I 
received at lunchtime today, about 35 minutes ago, a copy of a 
letter which Mr. John Huang's attorney, in fact, given to 
minority counsel last night, and I had not seen it, but in 
that--Mr. Cobb is an attorney whom I have known personally for 
some 20 years. He gave me the heads up and gave me a copy of 
it. So I only have the copy that John Huang's attorney has 
given to me and I have provided a copy of that letter to your 
attorney, Mr. Carvin.
    Mr. Carvin, I am just trying to move forward here, but I 
want to make sure that no one tries to unfairly trap this 
witness with respect to the two people who visited with him. 
Absent any further inquiry you have, I am prepared to move 
forward with respect to the discussion of the events of that 
particular day.
    Mr. Carvin. I have no further inquiry.
    Mr. Bennett. Thank you, Mr. Carvin.
    Mr. Waxman. What was the counsel's answer? I couldn't hear 
him.
    Mr. Carvin. I have no further inquiry at this point.
    Mr. Bennett. Mr. Wang, what was the name of the other 
individual with whom you met? You indicated that you believe 
that one--in your opinion, one individual was John Huang. Who 
was the other person who was with Mr. Huang on the day of 
August 16, 1996?
    Mr. Wang [through interpreter.] His family name is Pan. Mr. 
Pan, as I know him.
    Mr. Bennett. P-A-N?
    Mr. Wang [through interpreter.] Yes, sir.
    Mr. Bennett. Mr. Wang, did you subsequently learn that the 
gentleman, the second gentleman, was a gentleman named Antonio 
Pan?
    Mr. Wang. Yes.
    Mr. Bennett. Did you have any knowledge of Mr. Huang's 
prior employer, the Lippo Group?
    Mr. Wang [through interpreter.] No, I didn't know anything 
about it.
    Mr. Bennett. Mr. Wang, directing your attention, then, to 
August 16, 1996, the same day on which you prepared the check 
to the DNC in the amount of $5,000 on that day, did you have a 
discussion with these two individuals with respect to your 
immediately being reimbursed for this contribution?
    Mr. Wang [through interpreter.] All I remember is that when 
I wrote out the check those two individuals said that the money 
would be reimbursed.
    Mr. Bennett. And I am going to get to the later events of 
the day, but with respect to the two individuals who said you 
would be reimbursed, do you recall which individual said you 
would be reimbursed?
    Mr. Wang [through interpreter.] I don't quite remember, 
sir, but anyway, it was one of the two.
    Mr. Bennett. Whichever one told you that, was the other one 
sitting there and present when the first person said that you 
would be reimbursed?
    Mr. Wang [through interpreter.] Yes, sir.
    Mr. Bennett. Now, then, in fact, you prepared this check in 
the amount of $5,000 and there was a second check also prepared 
by you, isn't that correct, Mr. Wang, on this day?
    Mr. Wang. Yes.
    Mr. Bennett. Do you know an individual by the name of 
Daniel Wu, Mr. Wang?
    Mr. Wang. Yes.
    Mr. Bennett. And, Mr. Wang, who is Daniel Wu?
    Mr. Wang. He is my friend.
    Mr. Bennett. Did you discuss with these two gentlemen, when 
they met with you, whether or not a contribution to the DNC 
similar to that represented by exhibit 99 could also be made 
through any other accounts?
    Mr. Wang [through interpreter.] At that time, so far as I 
recollect, those two individuals asked me if I had any friends 
who could make a donation, and at that time I brought up the 
name of Mr. Daniel Wu.
    Mr. Bennett. And I will ask if we can put an exhibit on the 
projector, exhibit 100. Looking at that exhibit, Mr. Wang, that 
is, in fact--well, why don't you identify that? I believe it is 
a power of attorney form for Mr. Wu; is that correct?
    [Exhibit 100 follows:]
    [GRAPHIC] [TIFF OMITTED] 44833.100
    
    Mr. Wang. Yes.
    Mr. Bennett. How is it that you have the power of attorney 
for Mr. Daniel Wu?
    Mr. Wang. Yeah, he is my friend. He want me----
    Mr. Wang [through interpreter.] As he is my friend, or 
rather as I am his friend, he gave me the power of attorney for 
to act on his behalf in the United States.
    Mr. Bennett. In fact, Mr. Wu has not been in this country 
for several years; is that correct, Mr. Wang?
    Mr. Wang. Yes.
    Mr. Bennett. Now then, showing you--did you, in fact, write 
out a check on Mr. Wu's account also for $5,000?
    Mr. Wang. Yes.
    Mr. Bennett. And that was made payable to whom, sir?
    Mr. Wang. The DNC.
    Mr. Bennett. I am sorry. The DNC?
    Mr. Wang. Yes.
    Mr. Bennett. And did you give both of those checks to the 
two individuals who were visiting with you in your office?
    Mr. Wang. Yes.
    Mr. Bennett. Now, then, I will show--ask that the projector 
place up on the exhibit screen exhibit 101. In fact, that 
account reflects a $5,000 transaction ultimately clearing your 
account with respect to the $5,000 payment you made; is that 
correct, Mr. Wang?
    If we can try to expand that in size a little bit on the 
projector?
    [Exhibit 101 follows:]
    [GRAPHIC] [TIFF OMITTED] 44833.101
    
    Mr. Wang. Yes.
    Mr. Bennett. Do you know whether the check you wrote out to 
the DNC on Mr. Wu's account was cashed?
    Mr. Wang. Yes.
    Mr. Bennett. Let me just get into the matter of what 
occurred with respect to these payments. At the time you wrote 
the second $5,000 check on Mr. Wu's account, did you have an 
understanding that this money would be paid back also? And who 
did you believe was going to pay the money back?
    Mr. Wang. Yes.
    Mr. Bennett. And who was going to pay you back, Mr. Wang, 
for the total of $10,000 in contributions to the DNC on August 
16, 1996?
    Mr. Wang [through interpreter.] I am sorry to say, I don't 
know.
    Mr. Bennett. Ultimately, you were, in fact, paid back the 
same day, weren't you, Mr. Wang?
    Mr. Wang. Yes.
    Mr. Bennett. And the individual who paid you back and came 
back to your office, who was that person?
    Mr. Wang. Mr. Pan.
    Mr. Bennett. You do not contend, nor did you contend in 
your deposition, that the individual whom you believed was John 
Huang brought back the $10,000. It is your contention that it 
is the other individual who you know by the name Pan, who 
brought the $10,000; is that correct?
    And I am saying that in such a lengthy fashion, Mr. Liang, 
so that you have an opportunity to translate that and make sure 
that he understands his response.
    Mr. Wang [through interpreter.] I believe it was Mr. Pan.
    Mr. Bennett. I am going to ask to be put on the projectors, 
exhibits 102 and 103.
    First of all, 102, Mr. Wang, reflects a deposit by you 
directly back into your account on August 16th, the same day, 
of $3,000.
    Do you see that there, sir?
    [Exhibits 102 and 103 follow:]
    [GRAPHIC] [TIFF OMITTED] 44833.102
    
    [GRAPHIC] [TIFF OMITTED] 44833.103
    
    Mr. Wang. Yes.
    Mr. Bennett. Exhibit 103, if we can put that up, reflects a 
deposit back into your account of $2,000.
    Mr. Wang. Yes.
    Mr. Bennett. Do you see that?
    Mr. Wang. Yes.
    Mr. Bennett. If we can also--with respect to the other 
account, Mr. Wu's account, if you will look at exhibit 106--
looking at exhibit 106, that also reflects August 16, 1996, 
$3,000 is placed into Mr. Wu's account and $2,000 was placed 4 
days later on August 20, 1996, into Mr. Wu's account. Is that 
correct?
    [Exhibit 106 follows:]
    [GRAPHIC] [TIFF OMITTED] 44833.104
    
    Mr. Wang. Yes.
    Mr. Bennett. When were you, in fact, paid the total of 
$10,000, back by Mr. Huang?
    Mr. Wang. August 16, 1996.
    Mr. Bennett. You, in fact, received $10,000 in cash back 
the very same day from Mr. Pan; is that correct?
    Mr. Wang. Yes.
    Mr. Bennett. And why is it that you deposited $3,000 into 
your account and $3,000 into Mr. Wu's account, waited 4 days, 
and then deposited $2,000 into your account and $2,000 into Mr. 
Wu's account? What was the reason for the delay of 4 days?
    And if you will translate that for me, please, Mr. Liang?
    Mr. Wang. The reason is that Pan, he told me don't deposit 
the money one time, total money one time. So that is why I 
spread two times for deposit.
    Mr. Bennett. Mr. Liang, if you could perhaps make sure we 
got that, if you could translate again and state what your 
client said?
    Mr. Wang [through interpreter.] Mr. Pan instructed me not 
to deposit the money at one time, in one lump sum, but to 
spread it out.
    Mr. Bennett. Mr. Wang, do you have any familiarity with 
respect to what are called ``currency transaction reports'' 
required by the U.S. Government for transactions of $10,000 or 
more?
    If you will translate that for him, Mr. Liang?
    Mr. Wang. Yes.
    Mr. Bennett. And, in fact, I will show exhibits 104 and 
105, if I can, on the projector screen, reflecting entries on 
August 16 in your journal. And then exhibit 105 is August 20 in 
your journal, with respect to both of those account entries; is 
that correct, Mr. Wang?
    [Exhibits 104 and 105 follow:]
    [GRAPHIC] [TIFF OMITTED] 44833.105
    
    [GRAPHIC] [TIFF OMITTED] 44833.106
    
    Mr. Wang. Yes.
    Mr. Bennett. Mr. Wang, do you have any knowledge as to 
where Mr. Pan would have gotten the money and where he would 
have received the money to pay you back?
    Mr. Wang. No, no idea.
    Mr. Bennett. Did he tell you whether or not you should 
speak to anyone about this transaction?
    Mr. Wang. I don't remember he tell me anything--I mean 
don't tell anybody.
    Mr. Bennett. Don't tell anybody. And again that is from Mr. 
Pan when he came back, not Mr. Huang; is that correct?
    Mr. Wang [through interpreter.] What Mr. Wang meant was 
that he does not--I do not recall that Mr. Pan told--instructed 
me not to mention this to anyone.
    Mr. Bennett. I am sorry, Mr. Liang, you said he recalls Mr. 
Pan did or did not say that?
    Mr. Wang [through interpreter.] As far as he remembers, he 
said he does not recall that Mr.----
    Mr. Wang. Can you repeat the question again?
    Mr. Bennett. Basically I am asking you--I believe at your 
deposition, page 48 of your deposition taken on Monday, you 
indicated to Congressman Waxman and me that Mr. Pan had 
indicated to you ``just don't tell anyone.''
    Mr. Wang. Yes.
    Mr. Bennett. Mr. Wang, is there any doubt in your mind that 
you were visited by two individuals on August 16, 1996, with 
respect to your contribution to the Democratic National 
Committee?
    Mr. Wang. Yes.
    Mr. Bennett. Yes, there is a doubt; or yes, you in fact 
were visited by two individuals?
    Mr. Wang. Yes, two persons.
    Mr. Bennett. And with respect to those individuals, is 
there any doubt in your mind that you were asked to make a 
payment for which you were going to be reimbursed the same day? 
Is there any doubt in your mind about that, sir?
    Mr. Wang. Yes.
    Mr. Bennett. Again, I believe the response, Mr. Liang, 
should be from the witness, if I am not mistaken.
    Mr. Wang [through interpreter.] It should have been no, 
sir.
    Mr. Bennett. Finally, Mr. Wang--I didn't mean to take up my 
whole time, Mr. Chairman, but I think I am about up--with 
respect to the identity of those two individuals, to the best 
of your knowledge and belief, you believe one of those 
individuals was John Huang and the other was an individual 
named Antonio Pan. Is that to the best of your recollection and 
belief?
    Mr. Wang. Yes.
    Mr. Wang [through interpreter.] Yes, sir.
    Mr. Bennett. Just one last question and I will be finished, 
Mr. Chairman.
    When you received the telephone call from an individual 
whom you believed to be John Huang, did that individual 
identify himself to you as John Huang in that telephone call?
    Mr. Wang. Yes.
    Mr. Wang [through interpreter.] He did, sir.
    Mr. Bennett. Thank you, Mr. Wang. I have no further 
questions. Thank you.
    Mr. Burton. Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman.
    Mr. Wang, good to see you again. I won't go over all of the 
territory that counsel has just reviewed with you.
    As I understand your statement today, it is the same as 
your statement in the deposition on Monday to the effect that a 
man you believed to be John Huang and another man you believed 
to be Antonio Pan came to your place of business in the morning 
on August 16, 1996, and that they asked you for a contribution, 
and you wrote out a check for $5,000 from your account, another 
$5,000 from Mr. Wu's account, and you were told that you would 
be reimbursed.
    You gave the man you believed to be Mr. Huang the checks, 
and later that same day the man you believed to be Mr. Pan came 
back to your office with $10,000 in cash.
    Is that correct?
    Mr. Wang. Yes.
    Mr. Waxman. Mr. Wang, after your testimony on Monday, my 
staff looked into whether John Huang was in Los Angeles on 
August 16, 1996, and we prepared a report with a number of 
documents that we have given to you and to your lawyer. We will 
give them----
    Mr. Burton. For the record, we have not received those 
documents, but we will look at them right now.
    Mr. Waxman. You do have them.
    In this document, we have dozens of exhibits, including 
affidavits from eyewitnesses, expense account records, and 
photographs, all of which place John Huang in New York City, 
not in Los Angeles.
    One exhibit shows John Huang's hotel bill from the Sheraton 
Hotel in New York which indicates he stayed there from August 
10, 1996, through August 18, 1996. This exhibit also contains 
Mr. Huang's expense record from the Democratic National 
Committee, which shows him in New York City from August 10, 
1996, to August 18, 1996.
    We have obtained affidavits from eight eyewitnesses, eight 
people who were with John Huang in New York City during this 
period, including from four witnesses who place him in New York 
City on August 16, 1996.
    For example, one of the exhibits is a statement from Erica 
Payne, who was in charge of the fund-raising for the Democratic 
National Committee for President Clinton's 50th birthday gala. 
Her testimony, and I quote, was that ``John Huang was 
continuously physically present in New York City conducting 
fund-raising for at least 5 days prior to the August 18th 
celebration.''
    Mr. Shadegg. Point of parliamentary inquiry.
    Mr. Burton. The gentleman will state his parliamentary 
inquiry. We will not take away from your time. Stop the clock, 
please.
    Mr. Shadegg. The portion of the affidavit that the ranking 
member just read from has an introductory phrase which 
qualifies that rather dramatically.
    Mr. Waxman. This is not a parliamentary inquiry.
    Mr. Shadegg. I am wondering when I raise the point of 
order, the fact that that language has been omitted.
    Mr. Burton. The language has been omitted, so the document 
is not correct; is that what you are saying?
    Mr. Shadegg. From the question, the language was omitted in 
the affidavit; that is, he read just part of the affidavit, not 
the qualifying phrase. My question is, when can I raise the 
question of the propriety of that?
    Mr. Waxman. The gentleman has a full copy of the affidavit.
    Mr. Fattah. So do the counsel and the witness.
    Mr. Burton. The gentleman will suspend. We are not going to 
take away from his time.
    Mr. Waxman. If I could read it in full----
    Mr. Burton. Wait just 1 second.
    Until the questioning starts, our parliamentarian has 
advised me that it is in order for someone to ask a question 
like this before questions are put to the witness.
    Mr. Waxman. I presume that would be if I were willing to 
yield to him, and I am not willing to yield at this time.
    Mr. Burton. The gentleman will proceed. He has to yield to 
you in order for you to be able to respond.
    Mr. Waxman. I want to read from the affidavit of Erica 
Payne and draw Mr. Shadegg and everyone else's attention to her 
statement, ``To the best of my recollection, John Huang was 
continuously physically present in New York City conducting 
fund-raising for at least 5 days prior to this August 18th 
celebration.''
    And then, to complete it, ``I worked with and saw him each 
day during that period, and in fact approximately 2 to 4 days 
prior to the event.''
    We have another exhibit from--an affidavit from Ethel Chen.
    Mr. Barr. Mr. Chairman, I have a parliamentary inquiry.
    Mr. Burton. The gentleman will state his parliamentary 
inquiry.
    Mr. Barr. Mr. Chairman, what are the rules in the House and 
in the committee to refer to documents that are 
mischaracterized, as the gentleman from California is doing? 
This is not a sworn document. This witness is not before us--
there is no notary seal on this document. It does not meet the 
legal requirements of either testimony or affidavit or under 
oath; a document simply saying what it would like us to believe 
it is does not make it so.
    I think that there are rules of evidence that we use here 
that require that in order for something to be an affidavit 
under oath, or testimony, it has to be sworn to in an official 
capacity; and evidence thereof has to be either made in this 
committee or on the face of the document itself, neither of 
which is present here.
    Mr. Burton. Just 1 second. We will refer to our counsel.
    [Discussion off the record.]
    Mr. Burton. The hearsay rule does not apply, and if it is 
pertinent to the investigation and questioning, then it will be 
allowed.
    Mr. Barr. Another point of parliamentary inquiry.
    Mr. Waxman. Maybe I can clarify the matter for the 
gentleman.
    Mr. Burton. The Chair rules the gentleman may proceed.
    Mr. Barr. Further point of parliamentary inquiry.
    Mr. Burton. State your parliamentary inquiry.
    Mr. Barr. Are there any rules that pertain in the House or 
committee thereof, both of which this body consists of, that 
require that if a document is not an affidavit or sworn to, 
that it be characterized as simply a piece of paper and not 
something that is actually sworn to or testified to or an 
affidavit itself?
    Mr. Waxman. Mr. Chairman, I think I can simplify the 
matter.
    Mr. Burton. Just 1 second.
    [Discussion off the record.]
    Mr. Burton. I think we will have to look at this as any 
other document that we are talking about before the committee. 
This is not a court of law. We will take it at face value, 
unless it is proven otherwise.
    Mr. Kanjorski. Parliamentary inquiry, Mr. Chairman.
    I understand the discomfort of some of my colleagues on the 
other side. I would assume we are coming very close to the 
question of whether this witness may have committed perjury. I 
would suggest that Mr. Waxman be allowed to complete his 
examination, and then all of the documents he is using in that 
examination----
    Mr. Burton. The gentleman is out of order. That is not a 
parliamentary inquiry. The question of perjury has not even be 
raised and should not be raised at this point.
    The gentleman will proceed with his inquiry.
    Mr. Waxman. Point of personal privilege. This is an 
affidavit I am referring to by Ethel Chen, which was notarized. 
We are quibbling over whether it is called an affidavit or 
simply a statement. We have statements----
    Mr. Barr. The document has not been notarized.
    Mr. Waxman. In this case, it was notarized.
    Mr. Burton. The gentleman from California has the time.
    Mr. Waxman. I will leave it to a court some time to decide 
whether it is sufficient. But we have statements from these 
people that say that John Huang was in New York; and Ethel 
Chen, an Asian-American leader from Queens, met with John Huang 
on several occasions prior to the President's birthday gala on 
Sunday, August 18, 1996. According to her statement, and I want 
to quote from the statement, ``One of those meetings took place 
on the Friday before the event, August 16th.''
    This morning we received another statement from a gentleman 
named Tak Luk Cheng, an acquaintance of John Huang, who had 
lunch with Mr. Huang at a Chinese restaurant in New York, at 2 
p.m., on August 16th. The time of this lunch is critical 
because, according to you, Mr. Wang, John Huang was soliciting 
your contribution at almost the exact same time, 3,000 miles 
away in Los Angeles.
    Another exhibit we obtained earlier this morning is a 
letter from John Huang's lawyer, Ty Cobb; this was referred to 
by Mr. Bennett, and it states his client was in New York, not 
in Los Angeles, on the days in question.
    We also have newspaper articles from Chinese language 
newspapers which contain photographs of Mr. Huang in New York 
City's Chinatown between August 15th and August 17th.
    My point is clear. We have overwhelming evidence that Mr. 
Huang was in New York, not Los Angeles, on the day you said you 
met with him; and I would like to hear what your explanation 
might be of all of this evidence indicating Mr. Huang could not 
have been in your place of business on August 16, 1996.
    Mr. Wang [through interpreter.] So far as I recollect, one 
of the two individuals that went to my office that day, I 
assumed--I assumed that he was Mr. John Huang.
    Mr. Waxman. You think you might have confused him for 
another person?
    Mr. Wang [through interpreter.] Sir, so far as I can 
recollect, it was Mr. John Huang.
    Mr. Horn. Mr. Chairman, could I ask the gentleman, if he 
would yield, to tell how any of this story that he--might be 
relevant to this question?
    Mr. Waxman. I don't yield to you.
    Mr. Horn. All right.
    Mr. Waxman. Mr. Wang, it seems hard to believe that it was 
John Huang, but you felt it was John Huang. You had met Mr. 
Huang before; is that correct?
    Mr. Wang [through interpreter.] That is correct, sir.
    Mr. Waxman. And how many times had you met him previous?
    Mr. Carvin. In fairness to the witness, I think it is 
really important to clarify the record of the circumstances of 
the questioning that is going on now. We have had no 
opportunity to review the volumes of evidence that you are 
producing to us. Indeed it was handed to me only after I sat 
down at counsel table, but I would like to make a couple of 
points for the record before we pursue this line of 
questioning, certainly if there is going to be allegations of 
perjury bandied about.
    Mr. Waxman. Counsel, first of all, let me interrupt you. I 
have not made any allegation of perjury. We have a 
contradiction in testimony, and I haven't asked you a question, 
and I only have a limited amount of time. I don't want to stop 
you from making any statement you think is pertinent. I realize 
you didn't have this information, but your client has testified 
that John Huang was in his office in Los Angeles on a date when 
it looks like he wasn't in Los Angeles.
    I guess we have no explanation except we have Mr. Wang's 
belief that John Huang was in his office, and an overwhelming 
number of others who have given statements to the contrary that 
Mr. Huang was in New York.
    Now, Mr. Wang----
    Mr. Carvin. There may be a difference of recollection, 
Congressman, but you did state this morning, as I understand 
it, that Mr. Wang misled the committee. Your staff has handed 
out statements saying other false statements by David Wang. So 
to suggest that you are not accusing him of misleading the 
committee, I would suggest, is disingenuous.
    I think in fairness to the witness, he should be given an 
opportunity to present the context in which these statements 
were made and to offer some chance of rebuttal. I would like a 
few minutes to do that. I am sure the chairman would not take 
it out of your time, and at that point you could obviously 
pursue any questions you want.
    First, as to the question of whether Mr. Wang----
    Mr. Waxman. Do you want to make a statement now or recess?
    Mr. Carvin. I would like to do it now.
    Mr. Waxman. Do you want a recess now or make a statement 
now?
    Mr. Carvin. I would like to make a statement now.
    Mr. Burton. The Chair will make sure that the gentleman 
from California's time is reserved. Counsel for Mr. Wang is 
recognized to make a statement.
    Mr. Carvin. Thank you.
    Mr. Fattah. Could you identify the gentleman who just 
spoke?
    Mr. Carvin. My name is Michael Carvin and I represent----
    Mr. Fattah. The gentleman who just spoke?
    Mr. Carvin. That was my associate, Ted Cruz.
    First, the notion that Mr. Wang would perjure himself on 
this question seems to me so facially implausible as not to be 
seriously entertained.
    To say that somebody would falsely say that he was a 
conduit for John Huang is absurd. I can't think of any person 
in the world that you would want to associate yourself with 
less than John Huang.
    If Mr. Wang could have possibly said that he didn't know 
Mr. Huang and had not engaged in illegal transactions with him, 
I assure you, he would have done so. He would not be here 
today. He would not be in front of the grand jury, and he would 
not be in the largest problem he has ever faced.
    So you can argue plausibly that he is mistaken. What you 
cannot do is plausibly assert that he has willingly misled the 
committee or is otherwise perjuring himself.
    No. 2, the notion that he has benefited from the immunity 
that the committee has granted him is also demonstrably untrue. 
As you know, Congressman Waxman, Mr. Wang cooperated with 
congressional investigators before he was granted immunity and 
told this story.
    As I recollect, last week you made a impassioned speech 
about how unfair it was for the committee to take a person, a 
recent citizen with limited English proficiency, and run these 
questions by him without counsel present. Indeed, I think that 
was the reason that you suggested that immunity should be 
granted to him, which you subsequently voted for.
    Yet today I am handed a document which takes those 
statements from the investigation that was conducted without 
counsel present, and you use it to impeach Mr. Wang's integrity 
and honesty. I am puzzled by that, and, indeed, I think it is 
somewhat hypocritical.
    Third, he wouldn't have needed immunity if he had not 
implicated John Huang, because the investigators would have 
left and he would have gone on with his life. So the notion 
that he was somehow misleading the committee, implicating 
himself in a scheme with John Huang so he could then garner 
immunity, is, again, demonstrably untrue.
    As to the treatment Mr. Wang is receiving today, I can only 
say that it has the effect, although I am sure not the purpose, 
are frustrating uncovering illegal activity in connection with 
fund-raising activities. Although I know it is not your purpose 
to cover up illegal activity by the Democratic National 
Committee, if witnesses are dragged here and berated by the 
community, are falsely sandbagged with documents and have their 
integrity impugned, I think we will all agree it will deter 
people from voluntarily cooperating and bringing very important 
information to the light of this committee and the American 
public.
    So I think everyone should weigh their treatment of this 
witness, as well as their statements generally, before 
embarking on this very dangerous course.
    Thank you.
    Mr. Burton. How much time does Mr. Waxman have remaining, 
does anybody know?
    The Clerk. Eighteen minutes.
    Mr. Burton. The gentleman is recognized for the remaining 
18 minutes.
    Mr. Waxman. Counsel, did you want to recess to talk to your 
client, or did you just want to make that statement?
    Mr. Carvin. Recess for what purpose?
    Mr. Waxman. I thought you said you wanted a recess and you 
wanted to make a statement.
    Mr. Carvin. No. I was just suggesting that. I didn't want 
to cut into your time.
    Mr. Waxman. Thank you. Counsel, the only thing I would 
point out is that I am not raising statements by Mr. Wang. I am 
raising statements by others that indicate that Mr. Huang was 
not in Los Angeles, but was in fact in New York. This is 
puzzling.
    Mr. Wang, this is not the only statement that you made to 
committee investigators that I see a conflict in. I would like 
to introduce as an exhibit the notes from the interviews that 
committee investigators conducted with you on August 15 of this 
year. During two interviews with committee investigators, you 
made other statements that appear to be false.
    The first false statement occurred when you originally were 
approached by the investigators. During your first interview, 
which lasted 1 hour, you----
    Mr. Barr. Mr. Chairman, I have a parliamentary inquiry.
    Mr. Waxman. Mr. Chairman, I consider the Member harassing 
me. None of us have interrupted him in his many times during 
questioning.
    Mr. Barr. I have a parliamentary inquiry, Mr. Chairman.
    Mr. Burton. The Chair will ask the gentleman to state his 
parliamentary inquiry.
    Mr. Barr. Might I inquire of the Chair as to what the rules 
of the committee and the House are with regard to reading from 
a Memorandum of Interview which has not been made public? Does 
that not require unanimous consent in order to disclose the 
contents thereof?
    Mr. Waxman. Mr. Chairman, these are committee documents.
    Mr. Burton. The counsel has informed me that the committee 
protocol allows documents to be utilized during hearings of 
this type.
    Mr. Shays. Without unanimous consent?
    Mr. Burton. Yes, without unanimous consent.
    Mr. Waxman. And during that interview, by our committee's 
investigators, you told them during that hour period that you 
were not reimbursed for your contribution. Instead, you stated 
that the contribution was made with your own money.
    We know this was untrue. When the investigators came back a 
second time on August 15th, you told them you were reimbursed, 
but the reimbursement occurred in two different installments. 
You were given $6,000 on August 16, 1996, and $4,000 on August 
20, 1996. This is also apparently untrue.
    At your deposition you changed your story and you said you 
received the entire $10,000 at one time on August 16th, not in 
two installments.
    Another contradiction involves the contribution of Daniel 
Wu. In August you told the committee investigators that you 
were not involved in the $5,000 contribution that Daniel Wu 
made to the DNC. At your deposition you admitted you had power 
of attorney over Mr. Wu's bank account, and that you, in fact, 
wrote the $5,000 check for Mr. Wu.
    Finally, you told investigators that your brother-in-law, 
John Lu, was present on August 16, 1996, at the meeting with 
John Huang and Antonio Pan, or the men who were presumably John 
Huang and presumably Antonio Pan. At your deposition you 
contradicted yourself and you said that your father, James 
Wang, not your brother-in-law, was at the August 16th meeting.
    In fact, even this statement about your father is suspect. 
Two of my staff members have recently spoken to your father, 
and he has denied being at any such meeting with John Huang. I 
would like to introduce a statement from my staff member's 
attesting to their conversation with Mr. Wang's father.
    I could go on. Additional false statements are described in 
the minority staff report, and I know you only received that 
report today, but you did have the report from the 
investigators in advance.
    My point is clear, Mr. Wang. I don't think you have been 
candid from day-to-day, from day one maybe. Each time we get a 
different version of what happened.
    Do you want to say anything in response to what I just 
said?
    Mr. Carvin. Since it is not a question, I will try and 
respond.
    Mr. Waxman. I asked Mr. Wang if he wants to say something? 
If he doesn't, it is OK.
    Mr. Carvin. Thank you. I am not going to allow him to 
answer a compound question with, by my count, 23 sub-parts to 
it.
    Mr. Waxman. I understand that. I appreciate that. I accept 
that.
    Mr. Carvin. OK.
    Mr. Waxman. My point though, Mr. Wang, is that we have 
heard different stories from you. Unfortunately, we are faced 
with a situation that is even more serious than simply what may 
be false testimony, and that is something that I didn't 
investigate on my own. It came up in the deposition.
    We granted immunity to you, but it appears you may have 
engaged in a conspiracy to violate our immigration and tax 
laws. These are criminal violations that are more serious than 
even conduit payments. They are criminal violations that no one 
on the Democratic side had any knowledge of when we were asked 
by the chairman to vote for immunity, and now, because of the 
grant of immunity, they are criminal violations that Mr. Wang 
can never be prosecuted for, as I understand it.
    Mr. Wang, I want to draw your attention to your own 
deposition. Counsel, I can refer to the pages, on pages 68 to 
77 and 93 to 94, you discussed your relationship with Daniel 
Wu. I want to ask you some questions about that relationship.
    Mr. Wang, maybe you want to pull the microphone closer to 
you.
    Mr. Wu is a green card holder, a legal resident, who has 
been out of the United States for several years; is that 
correct?
    Mr. Carvin. Before we go any further, I would really like 
to be able to respond to the numerous attacks on his character. 
First----
    Mr. Waxman. Counsel, I am going to allow you to do that, 
but I would like to get these specific questions responded to, 
and then I will be glad to yield to you.
    Mr. Carvin. I would like to ask the Chair if delegating 
questions of alleged illegality that have absolutely nothing to 
do with the jurisdiction of this committee is a proper line of 
inquiry, particularly since this information was voluntarily 
disclosed by the witness pursuant to a grant of immunity?
    No one would have ever known about any of these activities 
absent the granting of immunity. So the notion that somehow he 
is again benefiting from the grant of immunity is demonstrably 
false. No one would have, as Mr. Waxman points out, known 
anything about these immigration matters absent the grant of 
immunity. So if you had not granted him immunity, none of this 
would have come up. None of it has anything to do with campaign 
finance, and I ask the Chair to please restrict this line of 
questioning?
    Mr. Waxman. The other side of it, counsel, is from our 
perspective, if the committee had done a more thorough 
investigation of what was going on, we would have been 
informed. It just came up in the deposition, but we should have 
been informed in advance of this, before we went along with the 
immunity.
    Mr. Carvin. Not if Mr. Wang was represented by legal 
counsel.
    Mr. Waxman. It came up by Monday.
    Mr. Burton. Just 1 second. Point of clarification. I will 
not deduct from your time, but you have been aware of this, as 
well as the majority, since August.
    Mr. Waxman. I didn't hear what you said. This matter came 
up in the deposition on Monday. It was a line of questioning to 
which counsel did not object at the time of the deposition. The 
information came out at that time, and I think it is important 
to pursue. It certainly goes to the credibility of the witness, 
as well as other matters that concern us as legislators.
    Mr. Carvin. It cannot possibly bear on the credibility of 
the witness, because, as you just stated, he was the one who 
voluntarily disclosed this without objection. So it simply 
can't bear on any credibility. It certainly can't bear on 
anything relating to campaign finance. It is by definition 
irrelevant and immaterial.
    Mr. Waxman. Are you objecting to your client answering 
these questions?
    Mr. Carvin. Yes, I am.
    Mr. Waxman. But he did answer these very same questions on 
Monday. His deposition speaks for itself.
    Mr. Carvin. And I was under the impression pursuant to 
committee rules that the depositions were to be kept strictly 
confidential and not shared with the public.
    We were also appearing, as you know, at the time in a 
spirit of good faith to put all facts before the committee so 
that they could make a judgment. I had no idea at the time, 
Congressman, that you would parade this deposition in front of 
the news media as part of a sustained character attack on Mr. 
Wang, particularly since the week before the information you 
are now using to defame his character, you properly suggested, 
raised serious constitutional questions because it was induced 
by Government agents against a recent citizen without the 
benefit of counsel.
    So that is true. I did proceed in a spirit of good faith to 
give the committee the information it desired. I did not 
believe it would be used to later defame my client.
    Mr. Waxman. Well, there is a character question involved 
here, and this came out in the deposition itself, which the 
chairman made public this morning. I don't think that anybody 
was told the depositions would not ever be made public.
    Now, these are questions--I shouldn't say the chairman, 
this was a unanimous consent this morning.
    Mr. Burton. If the gentleman would yield, there was no 
indication to me or anybody else on the committee that the 
depositions should be kept confidential, because we all agreed 
we would make it public today during the hearing. If there was 
a misunderstanding, counsel, I apologize for that.
    Mr. Waxman. Do you feel better, counsel? I shouldn't be 
sarcastic. I apologize.
    Look, we are facing some apparently serious matters, if you 
were part of a scheme to deceive the INS or the IRS, or part of 
a conspiracy to defraud the Internal Revenue Service by using 
two companies. I gather one is called Ji Tai International, and 
Bao Li Hang International. And they got a tax break for Mr. Wu, 
even though he didn't actually do any work for them. Is that 
right, Mr. Wang?
    Mr. Carvin. My objection stands.
    Mr. Waxman. Mr. Chairman, objection has been made about the 
question I asked.
    Mr. Burton. I am sorry, forgive me, I was talking to 
counsel. What was the objection, sir?
    Mr. Carvin. That this has nothing to do with campaign 
finance; that it can't possibly bear on any issue that this----
    Mr. Burton. I cannot, for the life of me, see why you 
continue to delve into other aspects of this gentleman's 
character when we are talking about one specific period. If you 
are trying to criticize his character, I don't think that that 
is a legitimate line of questioning. If the gentleman chooses 
to do that, I don't think there is any rule against it. I would 
just say that I think it is something that should be thought 
out very thoroughly.
    Mr. Waxman. Mr. Chairman----
    Mr. Burton. One more thing, counsel informed me that the 
questions must be pertinent to the issue at hand, and it 
stretches----
    Mr. Waxman. Mr. Chairman----
    Mr. Burton. Just 1 second.
    It stretches one's imagination how some of these questions 
are relevant to the line of questioning or the issue at hand.
    Mr. Waxman. Mr. Chairman, I just want to point out that 
this is a line of questioning your counsel pursued in the 
deposition itself, and the deposition is now public, so I guess 
I can let Mr. Wang's statements speak for themselves. I am 
simply trying to understand what is going on, when we give 
immunity for a witness. That court order said David Wang may 
not refuse to testify and may not refuse to provide other 
information in proceedings before or ancillary to the committee 
on the basis of his constitutional privilege against self-
incrimination. It seems strange that there would be an 
objection that it is not pertinent when your counsel asked 
those same questions in the deposition, Mr. Wang's counsel 
didn't object. They are already on the record.
    The fact of the matter is this is an extraordinary and 
incredibly embarrassing situation. In effect, this committee, I 
think, has been snookered. We have given Mr. Wang immunity for 
serious immigration and tax law violations, and we may well 
have gotten in return false testimony. I don't know whether it 
is false or not, whether it is misunderstanding or not. I don't 
know if it is perjury or not. What I do know is that Mr. Wang 
insists that John Huang was with him in Los Angeles at the same 
time a number of other people have given clear statements and 
all other evidence and photographs that indicate that Mr. Huang 
was in New York City.
    I know what it is like to go back and forth. You don't do 
it on an hour's flight. So I think that, it seems to me, is an 
inconsistent statement that we received from Mr. Wang, and hard 
to understand, and we haven't been given an explanation. Mr. 
Wang maybe doesn't know how to explain it because he evidently 
believes John Huang was in his offices.
    This is still my time, and I will reserve my time.
    Mr. Carvin. I can only repeat, Congressman, it would have 
made no sense for Mr. Wang to make up this story so he could be 
dragged in front of this committee and defamed like this. If 
Mr. Huang wasn't in the office, any rational person would have 
said he is not in the office. He would be selling cars in Los 
Angeles today, rather than being called a felon and a perjurer 
in public. So I don't know who got snookered here, but I assure 
you, it was not the committee.
    Mr. Kanjorski. Would the gentleman yield?
    Mr. Waxman. I yield.
    Mr. Kanjorski. I think Mr. Fattah brought up the point, the 
issue here is would we have granted immunity to this witness 
and would he be important except for the fact that he put John 
Huang in California as being part of a conspiracy to form a 
conduit for campaign contributions. If he said John Huang was 
never there, I would not think this individual would be a 
pertinent witness to this committee or process, and certainly 
we would not have given him blanket immunity.
    Now that we have given him blanket immunity, and the 
question raised there, the counsel is asking why would this 
happen, to get blanket immunity and talk about every criminal 
violation of law that he may have talked about so he can never 
be prosecuted on it?
    So I think it is very germane to find out what happened 
here from the staff's standpoint; why didn't we find out about 
this; why wasn't it examined in depositions, obviously 
criminality was discussed, potential serious crimes by the 
witness; and whether or not this committee should have granted 
immunity. And I think it all goes back to that very essence, if 
he had not testified in his prior statements or interviews to 
the investigators that John Huang was in his office in 
California on August 16th, there would have been no reason for 
this committee to issue immunity and call him as a witness.
    Mr. Waxman. I want to reclaim my time and simply say I am 
not trying to embarrass Mr. Wang. I am just trying to get to 
the truth. The purpose of my being here is not Mr. Wang. My 
purpose of being here as a Member of Congress is to get to the 
truth. And the statement that we had earlier from witnesses is 
that they served as conduits, and I don't find it incredible to 
believe that Mr. Wang also was a conduit for a contribution to 
the Democratic National Committee, and that he was paid back. 
But the issue is whether John Huang was in his office and 
participated in this personally.
    There have been a lot of allegations about John Huang. In 
fact, that is what this whole hearing is about, is an 
accusation against John Huang. If we are going to have an 
accusation against John Huang that hurts him, we ought to have 
the truth of the matter before us, and it appears, from all I 
can tell, from a whole stack of other people, and other 
evidence, that John Huang was not in L.A.; he was in New York.
    I hope we will find out further what happened. I think that 
is the dilemma before us.
    Mr. Burton. Does the gentleman yield back his time?
    Mr. Waxman. I yield back my time.
    Mr. Shadegg. Point of parliamentary inquiry.
    Mr. Burton. The gentleman will state his parliamentary 
inquiry.
    Mr. Shadegg. I understood from the ruling of the 
parliamentarian that this Memorandum of Interview taken by the 
committee staff automatically went into evidence, into the 
record, in this hearing, without being proffered or an offer of 
unanimous consent; is that correct?
    Mr. Burton. Mr. Waxman asked unanimous consent that it be 
included in the record.
    Mr. Shadegg. He did not do that. We are talking about two 
different things. There is the affidavit which I said it was a 
committee record, and I believe the Chair ruled it went in 
because it is a committee record. There is a huge packet of 
information which Mr. Waxman has characterized in a thousand 
different ways as saying it is stock full of sworn affidavits 
that show Mr. Huang was not in California, he was in New York 
City. It has photos that prove that. It has a number of people 
who say that. I mean, he characterized it, we agree with you, 
it was not a committee record. It was produced by the minority 
today and given to counsel at counsel table.
    My fundamental question, I know Mr. Waxman has not 
proffered this, he has not asked for unanimous consent to put 
this huge packet, as he described it, in the record. I am 
trying to find out if without him seeking unanimous consent to 
put it in, does it go in automatically?
    Mr. Burton. These documents can only be entered into the 
record by unanimous consent, but the document that Mr. Waxman 
was alluding to falls under the rule of the committee protocol, 
and that is why part of it could be entered into the record. 
But that information you are talking about cannot be entered--
--
    Mr. Shadegg. All these sworn affidavits.
    Mr. Burton. It cannot be entered into the record without 
unanimous consent. He has not sought unanimous consent for 
those records.
    Mr. Waxman. Mr. Chairman, may I ask unanimous consent that 
it be accepted into the record?
    Mr. Shadegg. Reserving the right to object.
    Mr. Burton. Objection is heard.
    Mr. Barr. I object.
    Mr. Burton. Objection is heard. Regular order. The Chair 
now wants to be heard for 5 minutes, just like everybody else, 
so I request my time.
    Will you put up on the screen exhibit No. 99, please. I 
hope everybody will take a close look at exhibit No. 99. Can 
you enlarge the screen a little bit down there?
    In that little right-hand corner, you will notice that the 
DNC contact for this contribution is John Huang, and that is 
his handwriting. Now, there may be some question among members 
of this committee whether or not that was John Huang in that 
office, but there can be no mistake about that. John Huang 
solicited that contribution and there it is, the DNC contact, 
in his handwriting. That is No. 1.
    Now, would you guys be quiet for just a minute, please? 
That is a DNC document.
    The second thing is, we could learn a lot if John Huang, a 
friend of the President, a member of the Commerce Department 
and the DNC, had not taken the fifth amendment. Now, if he 
wants to come before this committee at any time, I would love 
to have him here. And I will do whatever I can do to assist him 
in coming before this committee. Now, they are asking for 
immunity or partial immunity. We will look into that. But John 
Huang is the problem. He doesn't want to testify, he has 
exerted his fifth amendment rights against self-incrimination. 
And this $5,000 contribution and the other $5,000 was solicited 
by John Huang, because there it is in writing.
    The final thing I want to point out to my colleagues is 
this: According to the USA Today, the Democratic figures who 
were interviewed said that they moved in July to limit Huang 
from fund-raising activities, before this took place. That was 
3 months before press reports made Huang a central figure in 
the Democratic fund-raising controversy.
    So the bottom line is we are not talking about some angel 
here, or some guy we shouldn't be concerned about. John Huang 
did some things that are very questionable. He should come 
before this committee and he should testify and not take the 
fifth amendment against self-incrimination. That is John 
Huang's handwriting on that DNC form and nobody can change 
that.
    With that, I yield back the balance of my time.
    Mr. Fattah. Mr. Chairman, a point of clarification. You 
said that it said that John Huang was the solicitor. It does 
list him as the DNC contact, but it lists apparently Charlie 
Trie as the solicitor.
    Mr. Burton. It has Charlie Trie on there as well. But the 
handwriting is John Huang's. There is no question about that.
    Mr. Lantos. Mr. Chairman, I merely would like to ask some 
information, and then make a motion.
    Mr. Burton. Well, the gentleman does not have the time. 
Does the gentleman seek time?
    Mr. Lantos. I do, Mr. Chairman.
    Mr. Burton. The gentleman is recognized for 5 minutes.
    Mr. Horn. Mr. Chairman, is he alternating?
    Mr. Burton. Yes, but I was the one on our side.
    Mr. Horn. OK.
    Mr. Lantos. Mr. Chairman, I would merely like some 
clarification. There are two names there. The contact is 
indicated as John Huang, and at the bottom it is Charles Trie. 
Does--the solicitor in this case is Mr. Trie. What does the 
word ``contact'' mean? Does that mean he is the person who 
actually solicited or is the person who solicits the 
contribution?
    Mr. Burton. Is the questioner asking me that question? I 
would be happy to answer that.
    Mr. Lantos. I would be very happy to have the chairman 
answer.
    Mr. Burton. The witness testified when that the phone call 
was made to him, the man who made the call identified himself 
as John Huang. That sounds like a solicitation to me.
    Mr. Lantos. Well, we are now relying on the witness' 
statement. You were a minute ago introducing a document from 
the DNC as your proof. I am suggesting that the DNC document 
does not in any sense suggest or certainly does not prove that 
Mr. Huang solicited this contribution. All you have is the 
witness' statement. That is all I wanted to clarify.
    Now I would like to make a motion that the minority staff 
report--OK, I yield back the balance of my time.
    Mr. Burton. The gentleman yields back the balance of his 
time. Mr. Cox.
    Mr. Cox. I thank the chairman. I thank the witness. I 
apologize to the witness for any badgering that may have gone 
on.
    You may or may not be telling us the truth. I don't know 
you. As with the preceding panel of witnesses, I hope that you 
are telling us the truth and your counsel lays out some 
persuasive reasons that you probably ought to be telling the 
truth.
    I want to recap the bidding, because there has been a 
question raised about the whereabouts of John Huang on August 
16, 1996, when, according to your testimony, he solicited a 
contribution from you along with Antonio Pan.
    What we all agree on, the minority and the majority, as far 
as we understand the facts, is that you did in fact write two 
$5,000 checks, one for yourself and one for Mr. Wu; that those 
$10,000 checks were in fact received by the Democratic National 
Committee. The document that is up there on the screen, which 
is shown only in part, is a record of one of those two checks. 
It is one of the $5,000 checks. It makes it very clear that 
there was, in fact, money that went from the Bank of Canton of 
California and that you were the author of the check; that it 
went to the Democratic National Committee; that they cashed the 
check; that they recorded it; that they attributed to a 
particular event. This is because that is a DNC document which 
we obtained through discovery.
    Further, that the event it was attributed to is the 
President's birthday party; that the DNC contact for this 
particular check is John Huang; the committee believes this is 
John Huang's handwriting, so he is the person stating that he 
is the DNC contact on both of these checks; and the solicitor 
is listed as Charlie Trie, according to John Huang.
    I believe that to recap the bidding, that everybody agrees 
that we can stipulate, as the ranking minority member says, to 
those facts.
    So the only fact that is left for us to determine is your 
credibility on the point of John Huang's physical presence in 
soliciting this contribution, although apparently John Huang 
himself says that he is responsible for collecting your check. 
He may have been responsible from long distance or he may have 
been responsible from California.
    I have gone through the packet of documents that the 
minority has provided, and nobody can provide us with evidence 
of the time in question to say that, I was with John Huang at 
the time that he was allegedly meeting with you. We know the 
night before he was at an event in New York, according to these 
things. We know the next day he was in New York. But we don't 
have anybody who can say that I was there with this person, 
John Huang, at the time, at all times when he could have been 
with you. We have someone who said sort of generally I was with 
him at all times over a period of days, although that is 
obviously hyperbole, because that is not possible. He is also 
part of these things at other times. That is only one person. 
So we have circumstantial evidence on this one point that 
contradicts your testimony that John Huang was personally with 
you.
    I read through the deposition and the questions put to you 
in deposition by Mr. Waxman. Right now our only evidence of the 
date on which you met with Mr. Pan and Mr. Huang is the date on 
the check. The date on the check is the 16th of August.
    Do have any other reason to believe it was the 16th of 
August?
    Mr. Wang [through interpreter.] From the bank statement, it 
can be seen that the money was deposited on the 16th, so there 
can be no question that the check was not written on August 
16th.
    Mr. Cox. I am sorry, can you repeat that answer?
    Mr. Wang [through interpreter.] So there can be no doubt 
that the check was written on August 16th, because the money 
was deposited into the bank on the same day, and the bank 
statement says so. And also a journal book that he keeps.
    Mr. Cox. I am a Congressman from California, and I travel a 
lot back and forth. In fact, this week I will have traveled 
four times across country. When I go out to California, 
sometimes I go out to make a speech at lunch, but I am still 
here in Washington in the morning. I can be there well before 
noon. I can also leave late at night, there are red eyes, all 
sorts of ways to get back and forth.
    Now, by the way, I don't want to rehabilitate you as a 
witness or anything else, because I don't know if you are 
telling the truth or not. I want to ask you whether or not in 
your experience it is possible to travel back and forth between 
California and Washington in less than a day?
    Mr. Wang [through interpreter.] I'm sorry, sir. I don't 
know, because I haven't had that kind of experience.
    Mr. Cox. You are very fortunate.
    I see that my time has expired. I just want to point out, 
at least on the basis of the documents that have been provided 
by the minority, it is possible to reconcile everybody's 
stories. We don't have any conclusive proof and that conclusive 
proof, because you are testifying as an eyewitness to a meeting 
with Mr. Huang, would be best provided by Mr. Huang himself, as 
it has been pointed out here.
    So I hope that we can get, as the chairman suggests, the 
testimony from Mr. Huang one way or the other, and I yield back 
and thank the chairman.
    Mr. Burton. The gentleman's time has expired. The Chair 
declares the committee in recess until after this vote. Please 
come back as quickly as possible so Members can get to their 
planes or whatever they want to do.
    [Recess.]
    Mr. Burton. The committee will come to order. The gentleman 
from California is recognized for 5 minutes.
    Mr. Horn. Thank you very much, Mr. Chairman. I was 
interested in the discussion that has taken place as to where 
Mr. Huang was. I'm not sure where he was, but I would like to 
suggest that there's one story by a reputable reporter that 
would claim, based on quotations, also from people in New York, 
that he was never there at the time. So let me go through this 
a little bit and lay it out.
    This is an article from USA Today, February 19, 1997. It's 
by--the reporter is Thomas Squitieri. And it's a rather 
extensive article, and I won't read it all. I'll just read a 
few key points here.
    ``The Democratic National Committee had returned $1.2 
million raised by Huang because of questions about the origins 
of the money.''
    And the, ``Democratic National Committee Finance Chairman 
Marvin Rosen and Finance Director Richard Sullivan made the 
decision when they reviewed the guest list'' for the New York 
function that they weren't too keen--they didn't stay for the 
dinner. They just went to the cocktail hour. And they weren't 
too keen on having him near the President.
    So President Clinton did attend. And what is relevant to 
this is that it notes here, quote, ``Many DNC officials were 
suspicious of Huang when he joined the Democratic National 
Committee because of his personal links to Clinton operatives 
from Little Rock.''
    Huang left his--unquote. ``Huang left his Commerce 
Department job to work as a DNC fund-raiser,'' all of which you 
know.
    Now, quote, ``Huang was never told of the July decision 
made by Rosen and Sullivan,''--namely to keep him out of 
there--``but their decision had a quick impact.''
    Quote, ``For example, Huang was a coordinator for the bash 
August 19th at New York's Radio City Music Hall in honor of 
Clinton's 50th birthday. But as the event neared, Huang never 
came to New York to help with last-minute fund-raising details, 
which surprised others on the DNC fund-raising team.''
    So that's the story by a reputable reporter, and that's one 
aspect.
    The other I would like to note is the survey that was done 
by the accounting firm--let's see. Here we are.
    In the spring of this year, this is the Ernst & Young 
survey, and there are three questions that Mr. Wang answered:
    14. ``Can you confirm that all the money''--this is exhibit 
113, by the way, Mr. Chairman. ``Can you confirm that all the 
money that was used to make this contribution was your money 
and did not come from some other source or person?'' The person 
that interviewed over the telephone checked yes. Presumably 
that's the statement from Mr. Wang.
    16. ``If you can recall, who was the person who asked or 
solicited you to make this contribution?'' The answer written 
down by the survey team hired by the Democratic National 
Committee said, ``Mr. Huang.'' That's Mr. Wang's answer.
    Now, the 17th was, ``May we telephone you to ask any 
followup information?'' And the person interviewing Mr. Wang 
checked ``no.'' Presumably that was his response at the time.
    So all I'm saying is, with that reputable story, it just 
seems to me that whatever evidence the minority has needs to be 
double-checked and triple-checked, because this reporter and 
his sources had no reason to mislead anybody at that point.
    I yield back my time.
    [Exhibit 113 follows:]
    [GRAPHIC] [TIFF OMITTED] 44833.107
    
    Mr. Burton. The gentleman yields back the balance of his 
time. Does anyone seek time on the minority side?
    Mr. Kanjorski, the young fellow with gray hair.
    Mr. Kanjorski. Mr. Wang, following up, earlier you 
testified that you knew John Huang, is that correct, John 
Huang?
    Mr. Wang. Yes. Yes.
    Mr. Kanjorski. And could you identify him if he walked into 
this room today?
    Mr. Wang. Yes.
    Mr. Kanjorski. All right.
    Now, you further testified you didn't know Mr. Trie; is 
that correct?
    Mr. Wang. No, I don't know. I don't know him.
    Mr. Kanjorski. Have you ever talked to him, communicated 
with him, written to him?
    Mr. Wang [through interpreter.] No, sir.
    Mr. Kanjorski. Are you sure now? Maybe you called him from 
your place of business or maybe he called you and you talked. 
Are you sure now? It's very important. I want you to know this 
is very important.
    Mr. Wang. No. But probably--in fact, I--in fact, I didn't 
know Mr. Trie. And even--probably it's my father sometimes he 
call. It's my father, not me.
    Mr. Kanjorski. And your father lives where?
    Mr. Wang. Also, he lives in Los Angeles.
    Mr. Kanjorski. And does he have the same place of business 
that you have?
    Mr. Wang. Yes.
    Mr. Kanjorski. So you're both in the same business. You 
work with your father in that business?
    Mr. Wang. Yes.
    Mr. Kanjorski. Now, Mr. Cox wanted to suggest, I suppose, 
or give you the opportunity to reconstruct what you've 
previously testified to insofar as he suggests that you can 
communte--or transport between New York City and California in 
about 6, 7 hours. And it's been known for people to fly one way 
and come back.
    Was there any suggestion, when you met with the man whom 
you identify as John Huang, that he had just flown in from the 
East and he just arrived?
    Mr. Wang [through interpreter.] There was no sign that he 
had just flew in from New York, none at least that I could see 
of.
    Mr. Kanjorski. OK. I'm going to send the photos down. There 
are two photos. I want you to take your time. I want you to 
look at them. They're on the screen now. And as you look at the 
photos, I would like you to look at the person on the left and 
the person on the right and see if you can identify either one 
of them.
    [The photograph follows:]
    [GRAPHIC] [TIFF OMITTED] 44833.108
    
    Mr. Wang [through interpreter.] I don't know the person on 
the left. But the person on the right is John Huang.
    Mr. Kanjorski. All right. Now, is that the man that you met 
with on the 16th of August?
    Mr. Wang [through interpreter.] On the right side?
    Mr. Kanjorski. The gentleman that you can identify on the 
right, you've identified as John Huang?
    Mr. Wang. Yes.
    Mr. Kanjorski. Is that the gentleman that you met with on 
August 16th in California?
    Mr. Wang. Yes.
    Mr. Kanjorski. Without any question in your mind?
    Mr. Wang. Yeah.
    Mr. Wang [through interpreter.] To the best of my memory, 
that's him.
    Mr. Kanjorski. All right. Now, when you met, do you know 
exactly what time of day you met with him in California on 
August the 16th?
    Mr. Wang [through interpreter.] It was in the morning. In 
the morning.
    Mr. Kanjorski. Was it before 9 o'clock? Was it after 9 
o'clock? Was it just before noon?
    Mr. Wang [through interpreter.] I'm sorry, I don't recall 
the exact time.
    Mr. Kanjorski. Well, when you say it was a morning, was it 
1 a.m.? Was it dark out?
    Mr. Wang [through interpreter.] It couldn't have been that 
early, sir.
    Mr. Kanjorski. Well, could it have been 3 a.m.?
    Mr. Wang. No.
    Mr. Wang [through interpreter.] No, sir.
    Mr. Kanjorski. Since there was a check made out and 
deposits made, was it likely that it was sometime during 
banking hours?
    Mr. Wang [through interpreter.] Yes, sir.
    Mr. Burton. The gentleman's time has expired.
    To the recorder, I just want to make sure that that entire 
exchange is in the record, including the photo.
    Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman.
    Mr. Wang, you're not Webster Hubbell. You're not Charlie 
Trie. In fact, you couldn't identify Charlie Trie. But you 
could identify John Huang. And neither of them is here.
    John Huang has taken the fifth. But he's given information 
to his lawyer, and our esteamed colleagues on the other side of 
the aisle felt it very appropriate to allow Mr. Huang, who is 
taking the fifth, to present his arguments without being under 
oath, because his--some of the documentation by Ky Cobb--excuse 
me, by Ty Cobb, the entire statement for Mr. Huang was 
submitted. And it says, ``I am''--in the second paragraph--``I 
am, however, grateful that you and the Ranking Minority Members 
have elected to pursue the unfortunate allegation that Mr. 
Huang was in Los Angeles, California.''
    So you have basically an agreement on the part of Mr. 
Huang's attorney to represent his client with the minority on 
the other side of the aisle in spite of the fact that Mr. Huang 
has taken the fifth. That's a real stretch for me.
    I would like to say to you that I don't know if you are 
telling the truth. I don't know if you are mistaken. I don't 
know if you are simply those two. I don't know if you're 
telling the truth or not telling the truth, or you're just 
simply mistaken.
    But the one thing I know, you're the only person in this 
room right now, besides your translator, who is under oath. 
Your attorney isn't under oath. Mr. Waxman isn't under oath. 
I'm not under oath. So you have a lot more credibility to me at 
this point than people who have submitted documentation that 
was not sworn under oath, that were not affidavits.
    But, Mr. Chairman, if no one else does, I'm going to make a 
motion for unanimous consent to put all the documentation that 
Mr. Waxman put in into the record at some point before we 
adjourn; and then I think we should analyze some of that 
documentation.
    But the one thing that troubles me the most----
    Mr. Burton. The gentleman does not want to make that motion 
at this point?
    Mr. Shays. Not now, but I will, because I think it should 
be part of the record. And frankly it is. And I don't know 
who's right.
    I want it part of the record because I don't want it around 
later on spread around this Capitol and maybe it wasn't part of 
what he had submitted here. I want everything that he put in 
the record, because I think some of it is very weak. And some 
of it is very valid, and I want to know which is which.
    I want to focus in on the statement of Kenneth Ballen and 
Christopher Lu. They basically had a telephone conversation 
with your father; and according to their statement, their 
father--your father says he was not present at the meeting you 
said he was present at.
    Now, this is just a piece of paper. It's no different than 
the piece of paper that Mr. Horn used. But, frankly, Mr. Horn's 
paper is as valid as this paper. It's not under oath. It's not 
a sworn affidavit. So I would just like to know if you've seen 
this documentation or if your attorney has, and if you can 
speak to this? Because if you have an answer to this, I do 
think it needs to be put in the record.
    Mr. Carvin. Mr. Chairman, I know Mr. Wang has not seen the 
statement. I did have an opportunity to review it during the 
break. Mr. Wang's father, James Wang, contacted me after he was 
contacted by the counsel for the minority and wanted to clarify 
his statements to them.
    Mr. Ballen and Mr. Lu represent, ``James Wang told us that 
he was neither present at any meetings nor aware of any 
conversations in which John Huang asked David Wang to make a 
campaign contribution.''
    Mr. Wang's father, James Wang, after having this 
conversation with Mr. Ballen, sent me a letter. I have the 
handwritten original here in which he states: ``I am David 
Wang's father. I was present at the meeting with my son and 
John Huang and Mr. Pan on August 16, 1996. At that meeting, 
John Huang asked for a donation to the Presidential campaign.'' 
And it's signed ``Jim Wang, 10/4/97.''
    So the substantive point is that I don't know--I wasn't 
present at the conversation, so I don't know whether this 
triple hearsay that the minority has introduced is accurate or 
not. I do have a handwritten statement from Mr. Wang directly 
refuting the substance of it.
    My procedural point is that Mr. Ballen waxed very 
eloquently with me on the phone about how unfair it was for 
committee investigators to contact recent immigrants with 
limited English proficiency without counsel present because of 
the severe constitutional issues that raised and the potential 
for inaccuracies.
    After having that conversation, of course, Mr. Ballen and 
Mr. Lu, who I think both are attorneys, did contact James Wang, 
a recent immigrant with limited English proficiency, and 
engaged in precisely the same behavior. They then faxed to Mr. 
Wang a statement which basically repeats what is in here.
    He did not want to sign that. Then he contacted me. And I 
have his letter.
    And if this material is going into the record, Mr. 
Chairman, and I'll of course allow whatever objections to be 
made----
    Mr. Burton. Mr. Shays has the time. If he chooses to ask 
that be submitted for the record, it shall be.
    Mr. Shays. I would ask that be submitted for the record, 
but it doesn't address----
    Mr. Waxman. I would object.
    Mr. Shays. Let me say this: I would postpone that because I 
think we should all have it on, Mr. Waxman, because I think we 
can have a very interesting dialog about the documents you want 
to submit.
    But let me just conclude by saying, the part that troubles 
me is the paragraph, which isn't addressed there. It says James 
Wang also added that he was in Europe from July 23d, 1996 until 
August 7th, 1996, and I request he fax us two pages from his 
passport which attest to this fact. And that does note the 
address.
    Mr. Carvin. If I may, we can confirm he was, indeed, out of 
the country until August 7, 1996, but all agree that the 
relevant meeting was August 16th, some 9 days thereafter.
    Mr. Shays. So that last paragraph is irrelevant.
    Mr. Carvin. It's puzzling.
    Mr. Burton. The gentleman's time has expired. Who seeks 
time on the minority side?
    Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman.
    Mr. Waxman. Mr. Fattah, will you just yield to me on this 
very point?
    Mr. Fattah. Yes.
    Mr. Waxman. Our investigators were doing what they should 
be doing, trying to find out the accurate information. And they 
received information from Mr. Wang's father, a statement that 
he's now changed. But I do want to also indicate to the counsel 
that Mr. Wang, Sr. was talked to in Chinese as well as English, 
so there was no language difficulty in his understanding what 
our investigators were----
    Mr. Fattah. Reclaiming my time.
    Mr. Waxman. Thank you.
    Mr. Fattah. I just want to make a couple of statements. One 
is--and questions. One is that, as I understand it, your client 
did take the fifth amendment prior to receiving immunity; is 
that correct, counselor?
    Mr. Carvin. Well on 4----
    Mr. Fattah. Just a yes or no. Did he take the fifth?
    Mr. Carvin. No. If you want to hear the answer----
    Mr. Fattah. OK. He refused to testify unless he got 
immunity.
    Mr. Carvin. He talked to congressional investigators----
    Mr. Fattah. And that was very reasonable for him to do.
    Mr. Carvin. If you don't want an answer, then I'll----
    Mr. Fattah. Let me say a couple of things. Your client, 
unfortunately, I think is just in the middle of a big political 
drama playing out. He's an unfortunate player in it. Because 
conduit payments are not--this is not a unique circumstance 
when we talk about campaign irregularities. In fact, conduit 
payments are one of the more common features of campaign 
irregularities.
    In today's news, we see a company from my own home State 
that's paid an $8 million fine because she participated in a 
scheme to put tens of thousands of dollars into the Dole 
campaign. Another gentleman paid a similar multimillion-dollar 
fine, Mr. Fireman, for again running money through a Hong Kong 
bank into the Dole campaign. And conduit payments, as we've 
shown on some of the documents that we've given out, the FDC is 
investigating in numerous instances.
    The issue really, the reason why it rises to a point of a 
congressional investigation, is not the persons who 
participated in the conduit, but really what the source of the 
money is. Because the reason why this committee is sitting is 
because there was some belief that a foreign government was 
attempting to influence an American election. And what I would 
like to know is whether your client has any information that 
you're aware of that he could share with this committee on the 
reason why we really spent our day here and why your client has 
had to go through this unfortunate set of circumstances. 
Whether he has any knowledge that the gentleman that visited 
him, whether that was John Huang or not, represented any 
foreign government or had any--any reason to believe that they 
were agents of a foreign government.
    Mr. Carvin. I'll allow him to answer, but the short answer 
is that he doesn't know of the source of these funds or where 
they came from. And I don't think he can bear any light on that 
question.
    Mr. Fattah. And I appreciate your answer. Because what we 
have here is we have a circumstance in which, just like the 
people who testified before your client, they were participants 
in a conduit scheme. And, again, there is ample evidence on the 
record that the Dole campaign and the Clinton campaign were 
victimized by contributions that were made to those campaigns.
    And the U.S. attorney spoke in the matter that is 
publicized today and made it very clear that none of the 
campaigns involved had any knowledge that the checks that they 
were receiving--the Democratic National Committee received over 
2.7 million individual checks; 130 or so of those checks, like 
the ones that were offered by your client, have come under 
significant questioning. But they represent a very small 
percentage of the old ball checks that were received. And 
there's no information that President Clinton or high officials 
in our Government knew that these checks were, as they were, 
inappropriate. But that's why conduit schemes take place, is 
they are an effort to hide the source.
    This committee wants to find out the source of those 
dollars. And I know that, even though there is a lot of 
partisan back and forth, there would be a lot of bipartisan 
support if we could get even close to the point of finding that 
a foreign government was actually trying to influence an 
American election.
    But as it appears, your client really has no information to 
share with us or that he's just one more of many, many 
Americans who in their efforts to either do someone a favor or 
whatever the case may be have written checks to campaigns that 
really were not of their own inspiration or dollars that they 
generated themselves.
    And I want to thank you for your appearance. And, again, I 
think that some of what has taken place today has been 
unfortunate. But I do think that the committee hopefully 
eventually will get to the point of what it was that the 
chairman originally brought us together for, which was his 
impassioned plea that we have a real investigation to make sure 
that we didn't have foreign influence in an American election. 
Thank you.
    Mr. Burton. The gentleman yields back the balance of his 
time. Mr. Barr is recognized for 5 minutes.
    Mr. Barr. Thank you, Mr. Chairman. The gentleman from 
Pennsylvania might want to contact the Vice President. I think 
we have a new defense here that the Vice President hasn't 
thought of, the small percentage defense.
    It reminds me, Mr. Chairman, of a case that I prosecuted 
when I was U.S. Attorney. We had an individual who appeared 
before a grand jury. And he was asked a number of questions. 
After he was indicted, he counted up the number of questions 
that he was asked by the grand jury. And then he took out, 
identified the relatively small percentage of those on which he 
had lied.
    Now, he was convicted of lying before the grand jury, but 
his point to the jury, if not--and the news media, if I recall, 
was that he told the truth 98 percent of the time. And that 
would be an A in anybody's book, and he should not be 
prosecuted because of the small percentage of questions in 
which he lied.
    I really would hesitate to believe that the gentleman from 
Pennsylvania truly believes that, as long as individuals or 
people commit a small percentage of crimes, that it's OK.
    Mr. Fattah. Would the gentleman yield?
    Mr. Barr. No, sir. We really have very little time.
    Mr. Fattah. Well, since you have mentioned me I just think 
the gentleman has the courtesy----
    Mr. Barr. That doesn't give you--I'm sure somebody on your 
side will yield you some time.
    Mr. Fattah. Small percentage is a little bit different than 
the defense of small-mindedness.
    Mr. Burton. The gentleman from Georgia has the time.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Fattah. Committee protocol, Mr. Chairman, I think is 
when you mentioned that----
    Mr. Burton. The gentleman from Georgia has the time.
    Mr. Barr. The gentleman from Pennsylvania also says that he 
hopes at some point that we'll have a real investigation. We 
would hope that people on his side would, indeed, get serious 
and conduct a real investigation, not bring before us unsworn 
statements, letters, and so forth by people who do not have the 
backbone to come before this committee and testify under oath, 
as Mr. Wang has done.
    So I share the gentleman's concern that there is no real 
investigation on the other side. And at such time as he and his 
colleagues get serious about this and help us get at the truth 
by bringing witnesses in and placing them under oath, as Mr. 
Wang has done, I will be the first to commend them on the other 
side for finally getting serious and conducting a real 
investigation.
    Mr. Wang, you have been granted immunity to appear here 
today; is that correct?
    Mr. Wang. Yes.
    Mr. Barr. OK. And you understand, of course, that, as part 
of that immunity, you cannot be prosecuted for the subject 
matters about which we're talking. Do you understand that?
    Mr. Wang. Yes.
    Mr. Barr. OK. You do understand that it is now--you 
understand that it is against U.S. law for persons to make 
contributions, political contributions in the name of another 
person. Do you understand that to be a violation of law?
    Mr. Wang. Yeah. Today, I do.
    Mr. Barr. Let me--thank you. We've talked about a number of 
things today and then we've gone off on not a small number of 
tangents. Let me sort of summarize and bring us back down to 
the focus of where we started when the chairman of this 
committee laid forth this morning the mission today.
    Mr. Pan accompanied Mr. John Huang, then an official, an 
executive with the DNC, to your car dealership on August 16th 
last year; is that correct?
    Mr. Wang. Yes. Yes.
    Mr. Barr. OK. At that time, and at that location, did John 
Huang solicit from you a $5,000 contribution to be paid to the 
DNC?
    Mr. Wang. Yes.
    Mr. Barr. And did he also at that time and place solicit 
from you a second $5,000 contribution from Mr. Daniel Wu?
    Mr. Wang. Yes.
    Mr. Barr. And you wrote that check on behalf of Mr. Wu 
pursuant to the power of attorney.
    Mr. Wang. Yes.
    Mr. Barr. OK. And is it also true that later that same day, 
August 16, 1996, and again later, Mr. Antonio Pan delivered 
envelopes of cash to you totaling $10,000?
    Mr. Wang. Yes.
    Mr. Barr. And was the purpose of this $10,000 cash 
delivered in envelopes to you for the purpose of reimbursing 
you for the two $5,000 checks to the DNC?
    Mr. Wang. Yes.
    Mr. Barr. And during those transactions with Mr. Pan, did 
he admonish you not to tell anybody about what was going on?
    Mr. Wang. Yes.
    Mr. Barr. And did he also at that time admonish you not to 
place all of the money in the bank at the same time?
    Mr. Wang. Yes.
    Mr. Barr. But to split it up so that certain reporting 
requirements that the banks are required to maintain would not 
be triggered?
    Mr. Wang. Yes.
    Mr. Barr. Thank you.
    Mr. Chairman, I don't know of a clearer case of money 
laundering and conspiracy to violate the election laws of this 
country could be made. And I commend the chairman for the work 
of the committee and the committee investigators for uncovering 
what the Department of Justice apparently is either unable or 
unwilling to uncover. And also to state for the record that Mr. 
Wang, if I'm not mistaken, testified before a grand jury and 
was not even afforded the opportunity to have a translator 
present.
    Is that correct, Mr. Wang?
    Mr. Wang. Yes.
    Mr. Barr. Thank you. Thank you, Mr. Chairman.
    Mr. Burton. We currently have a vote on the floor. We'll 
recess until the vote is concluded. Please come back as quickly 
as possible so we can get this hearing concluded today.
    [Recess.]
    Mr. Burton. The committee will reconvene. Mr. Barrett is 
recognized for 5 minutes.
    Mr. Barrett. Thank you, Mr. Chairman. I know the hour is 
late, and I just have a couple of comments and a few quick 
questions.
    First, I want to--and I am sorry my good colleague from 
Georgia, Mr. Barr, is not here, because he was basically 
stating that these documents that have been submitted in 
support of the assertion that Mr. Huang was not in Los Angeles 
on August 16th, that the witnesses somehow lacked the nerve to 
come before this committee, that if they felt so strongly they 
would have come before this committee to make these assertions. 
Of course the reality is they were not asked to come before 
this committee. This is a pretty exclusive club, and it is by 
invitation only. And I would not be surprised if some of the 
people would be willing to come here to state that.
    So I don't think we should paint a picture as though they 
are somehow hiding behind their fear to present what is 
basically documentary evidence as to what they believe happened 
or what they assert happened. So I just want to make sure that 
the record reflects that.
    I also want to followup on a couple of questions that my 
good colleague, Mr. Condit from California, asked Mr. Wang, if 
I could.
    It is my understanding that the committee is paying for 
your airfare here; is that correct?
    Mr. Wang. Yes.
    Mr. Barrett. Yes. And I also assume that they are paying 
for your lodging here as well, your hotel bill.
    Mr. Wang. Yes. And also the Justice Department.
    Mr. Barrett. The Justice Department.
    Mr. Wang. Yeah.
    Mr. Barrett. Your legal fees, are you paying for your legal 
fees, or are you receiving services for free? May I ask you, 
who is paying for your legal services? Is the committee 
reimbursing you for your legal services?
    Mr. Wang. I pay by my own.
    Mr. Barrett. Paid by your own. So can you tell us how much 
you have incurred in terms of legal services?
    Mr. Wang. So far about--about 10 something.
    Mr. Barrett. Ten something.
    Mr. Wang. Yeah, $10,000.
    Mr. Barrett. That's sort of a big range. $10--$10,000.
    Mr. Wang [through Interpreter.] Ten thousand something.
    Mr. Barrett. Ten thousand. So your legal fees, you will be 
responsible. Those are not being provided for you by someone 
for free; is that correct?
    Mr. Wang. Yes.
    Mr. Barrett. Yes. Counselor, I don't mean--I assume you are 
not providing his services pro bono, or you are not receiving 
reimbursement from a third-party; is that correct, counselor? 
Counselor?
    Mr. Carvin. Yes.
    Mr. Barrett. So you are not receiving. Just so--I have two 
questions. You are not providing these services pro bono, 
correct?
    Mr. Carvin. No.
    Mr. Barrett. And you are not receiving compensation from 
some other party to provide his services; is that correct, 
counselor?
    Mr. Carvin. Yes.
    Mr. Barrett. Yes. OK. Thank you.
    I also think, Mr. Chairman, the record needs to be 
corrected. Mr. Cox has stated it is impossible to reconcile 
everyone's theory about what is going on here. Mr. Cox suggests 
that it is possible for John Huang to have flown from New York 
to Los Angeles the morning of August 16th and returned to New 
York on the same day.
    What Mr. Cox has ignored is exhibits 10 and 11, which are 
statements from Bonnie Wong and Yungman Lee. These people were 
with John Huang in New York until 11 p.m., on Thursday night. 
Mr. Cox also ignores exhibit 24, the statement from Tak Luk 
Cheng. In this statement, Mr. Cheng states that he had lunch 
with John Huang in New York, Chinatown, at 2 p.m., on August 
16th. Cheng even names the restaurant that they ate at. We also 
have exhibit 13, which is a statement from Ethel Chen, who met 
with John Huang on August 16th.
    As Mr. Cox can well attest, it is physically impossible to 
fly from New York to Los Angeles at about midnight on Thursday 
night and return in time, at 2 p.m., in Manhattan the next day.
    This committee has subpoenaed every record under the sun 
relating to John Huang. In addition to statements from eight 
witnesses, we have hotel and plane receipts placing John Huang 
in New York.
    Finally, Mr. Chairman, as far as the admissibility of the 
minority statement, and I hope that it is admitted in the 
evidence, I think that there has been a good give-and-take 
between minority and majority Members as to the weight of that 
evidence, but certainly not to its admissibility.
    I would like to yield to Mr. Kanjorski if he has any 
questions. I am sorry. I didn't see you were there.
    Mr. Kanjorski. Thank you, Mr. Barrett.
    Mr. Wang, I just want to make sure that we pin down this 
time that you saw John Huang. As I recall from testimony when I 
asked you last that it was in your opinion that it was 
definitely during banking hours in California that you met with 
Mr. John Huang?
    Mr. Wang. Yes.
    Mr. Kanjorski. OK. And banking hours in California, would 
they be 9 to 4?
    Mr. Wang. Yes.
    Mr. Kanjorski. Yes.
    Mr. Wang. Yes.
    Mr. Kanjorski. And, further, as you heard Mr. Barrett, we 
have a sworn statement from an individual that says at 2 
o'clock on August 16th, in New York, they were having lunch 
with Mr. John Huang. And if I am correct, that would be 11 
o'clock Pacific time. So that we have direct contradiction 
between yourself and the sworn statements of these other 
individuals placed----
    Mr. Shadegg. Point of parliamentary inquiry.
    Mr. Burton. The gentleman will state his parliamentary 
inquiry.
    Mr. Shadegg. Is it permissible to repeatedly refer to a 
document that does not on its face claim to be sworn as a sworn 
document?
    Mr. Burton. Do you want to refer to that as a sworn 
document?
    Mr. Kanjorski. We have a statement that can be sworn.
    Mr. Shadegg. I have got it right here.
    Mr. Burton. Is it a sworn document?
    Mr. Kanjorski. I am not familiar.
    Mr. Shadegg. What I am holding here, it is not sworn.
    Mr. Burton. Just 1 second.
    Mr. Shadegg. It doesn't claim to be sworn.
    Mr. Burton. As far as the Chairs knows, it is not a sworn 
document. So if you will refer to it as a document.
    Mr. Kanjorski. Well, we have one sworn statement that--of 
that date that is sworn to, and the other statement is an 
unsworn statement. But----
    Mr. Shadegg. Mr. Chairman----
    Mr. Kanjorski [continuing]. It is unimportant whether they 
are sworn to or unsworn.
    Mr. Shadegg. If we are going to argue this point, he said 
the statement of Mr. Cheng about lunch was a sworn statement.
    Mr. Kanjorski. I did not mention Mr. Cheng.
    Mr. Shadegg. The only copy that the minority has given us 
is this copy, and it is not sworn.
    Mr. Kanjorski. Well, now, are you talking about Ethel Chen?
    Mr. Shadegg. You referred to the luncheon that he had at 
approximately 2 o'clock on Friday, August 16. That is in the 
statement of Tak Luk Cheng, C-H-E-N-G. I do not know the 
pronunciation.
    Mr. Kanjorski. I will make the point----
    Mr. Shadegg. The copy we have does not say----
    Mr. Kanjorski. Let's not argue on my time. Are we on my 
time, Mr. Chairman?
    Mr. Burton. Well, your time has expired, but I am going to 
give you a little latitude to get this clarified.
    Mr. Kanjorski. That would not--now, Mr. Chairman, I would 
resist that from the standpoint this is a parliamentary 
inquiry. And from the point of the parliamentary inquiry, my 
time should survive.
    Mr. Burton. Your time had expired at that point anyhow, but 
go ahead.
    Mr. Kanjorski. OK.
    To respond, a statement made to a congressional 
investigator is taken with the full knowledge of the respondent 
that it is the equivalent of being under oath and subject to 
perjury and all other material.
    So that if that statement made by the individuals said they 
had lunch with Mr. John Huang is incorrect, they would subject 
themselves to perjury. There isn't any question about that. 
Now, technically, whether we have an affidavit on it really 
doesn't matter, because the criminal law would apply one way or 
the other.
    Now, what I want to know from you, Mr. Wang, so the record 
is very clear, you are stating that, clearly, you, during 
banking hours, were in California and met with Mr. John Huang, 
and these other two statements say that Mr. John Huang at that 
precise time of 11 o'clock Pacific time, within a 2-hour frame 
when you were supposed to meet with him at your place of 
business, that, in fact, they say he was in New York. You say 
you identified the photograph, and he was in California; is 
that correct?
    Mr. Carvin. Are you asking the witness whether or not he 
knows the contents of the other statements, because I don't 
believe he does. Or are you----
    Mr. Kanjorski. I can't hear you. Would you speak up?
    Mr. Carvin. I am sorry. The question referred to some other 
documents that I don't believe the witness has seen. Was that 
the intent of your question?
    Mr. Kanjorski. No. The intent is--we got off it. We have 
two statements taken by congressional investigators. One states 
that they were having lunch with Mr. John Huang at 2 o'clock 
Eastern standard time in New York, which would be equivalent 11 
o'clock Pacific time on August 16th.
    The other statement is that they worked with Mr. John Huang 
during the day in--of August 16th in New York and were aware of 
his presence there. And now that seems to me that we are 
talking about it would take 6 to 7 hours to fly one way or the 
other----
    Mr. Barr. Mr. Chairman.
    Mr. Kanjorski [continuing]. And that we have excluded that 
possibility----
    Mr. Barr. Mr. Chairman, parliamentary inquiry.
    Mr. Burton. The gentleman will state----
    Mr. Barr. Do we have rules to pertain to Members 
continually and deliberately misstating evidence?
    Mr. Burton. If it is proven----
    Mr. Barr. There were no congressional investigators that 
have done what this, what the gentleman is saying. He is 
talking about other people who are not congressional 
investigators who claim to have been in one restaurant or 
another at a particular period of time. And I am inquiring as 
to whether we have any rules to discipline Members or address 
Members deliberately and repeatedly mischaracterizing evidence?
    Mr. Kanjorski. Mr. Chairman, if I may respond?
    Mr. Burton. Well----
    Mr. Kanjorski. These statements were taken----
    Mr. Burton. I have given the gentleman a great deal of 
extension on his time. If he wants to respond, make it quickly 
and we will get on to the next one.
    Mr. Kanjorski. I will respond now to finish my examination. 
Mr. Barr seems it fit, every time we get on a course of conduct 
of examination here, that he is going to interpose some thought 
of his. I wish he would hold back. He has all the time in the 
world to take time from his side.
    Mr. Burton. Your time has expired. Do you want to respond 
or not?
    Mr. Kanjorski. No, I would like to finish my question.
    Mr. Burton. Well, your time has expired. Mr. Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman. There has been a 
great deal made today of the evidence as stated in the 
minority's staff report dated today, which, and there were--
establishes that the meeting with Mr. Wang--that Mr. Wang 
testified about could not have occurred, could not have 
occurred.
    I simply want to walk through that so-called evidence. The 
first document is a DNC document that says Mr. Huang was 
reimbursed $30 a day for a time period that includes this. It 
is beyond me how that proves that he was physically in New 
York.
    The second document is a hotel bill for a hotel which does 
establish that he paid for a hotel. That does not establish 
that he was physically present.
    He--the next document is a statement from Mr. Huang's 
American Express card, which shows that he paid for a hotel 
room and it is kind of an interesting document because it shows 
he paid $8.73 for 10--I am sorry, for 9 nights. That's a good 
rate. I would like to get that at a hotel in New York that Mr. 
Wang would stay at.
    The next is a document--Huang. Excuse me. The next is a 
Democratic National Committee travel request form. What that 
establishes is beyond me, but how it establishes Mr. Huang's 
physical presence in New York is also beyond me.
    We next have a Worldwide Travel itinerary, which shows that 
Mr. Huang flew from Washington to New York and back during this 
period of time. I still don't get how that shows he was 
physically present in New York on the 16th, 1 day that fell in 
between there.
    I have this funny notion that I could fly to New York today 
and 8 days later I could fly to Phoenix and I could fly back to 
New York and still fly from Washington--from New York back down 
to Washington. What this proves, I don't know.
    We then have the bill for that, and actually we have had a 
great deal of righteous indignation about how this proves 
beyond a shadow of a doubt that the gentleman who is our 
witness is, in fact, a perjurer is what has been presented here 
today. This is a bill that says the ticket I just talked about 
was paid for. I am glad it was paid for. The DNC paid for it.
    This is a newspaper article that says Mr. Huang flew to New 
York sometime in a 2-week time period. I am glad we have a 
newspaper article that says that. It sure doesn't prove he was 
physically there on the 16th.
    This is a series of newspaper articles, Chinese newspaper 
articles, which actually prove nothing beyond the fact that Mr. 
Huang had his picture taken in New York sometime prior to the 
16th. As a matter of fact, they were all--three of the four of 
them or four of the four of them were published on the 16th. 
Now, I know the newspaper business is good, but it is tough to 
take a picture today and print it in the newspaper today.
    So these four proved that the picture was taken sometime 
before the 16th. They sure don't prove where he was on the 
16th.
    This one was published on the 19th, which proves it was 
taken sometime before the 19th, but it sure doesn't prove where 
he was on the 16th. By the way, none of these have captions 
that say, picture taken on the 16th.
    This is a lovely one. This is a self-serving letter from 
Mr. Huang's attorney at Hogan & Hartson, who is righteously 
indignant that his client is being accused of improper conduct 
and who says that while he has other evidence, exculpatory 
evidence, he says, and I quote, ``I am not free to add that 
information to the existing and overwhelming proof that John 
Huang was in New York.''
    Well, I wish he were free. He is, in point, in fact free. 
He could come here tomorrow.
    Then we get to the sworn affidavits. The sworn affidavits 
are kind of interesting. We have three of them--imagine, we are 
told at the beginning of this hearing that there were four 
sworn affidavits that establish he was in New York on the 16th.
    Well, the first three of those, Mr.--Bonnie Gail Wong says, 
no, he was in New York on the 15th and she spoke to him on the 
16th. She doesn't even claim to have spoken to him in New York. 
She says, I spoke to him. I am glad she did, but she didn't 
even claim that he was there on the 16th.
    The next one is Yungman Lee's. He says that Mr. Huang was 
there on the 15th also. I am glad he was there on the 15th. 
Here is another one. He was there on the 15th.
    Then we have kind of a fun one. We have a statement from a 
lawyer that says he has talked to a person who said Huang--who 
says she recalls Huang was there.
    You know, this is hearsay on hearsay on hearsay, but the 
witness who said that is in Honolulu and headed for East Asia. 
That's kind of interesting.
    We then have a sworn affidavit from an official at the DNC 
who says, in paragraph 5, this is exhibit 15-2, while I cannot 
tell when Mr. Huang actually received each check from the 
contributors, he goes on to say, it would appear that he was in 
New York City throughout this period. So we are impeaching a 
witness on what somebody else says it would appear. That's a 
pretty far stretch.
    Now, we get down to what might be established in all of 
this. In the law in the United States, it is nice to have a 
witness to cross-examine. There are a couple--there is at least 
one affidavit here I would like to put up at the table, Mr. 
Chairman, to cross-examine. We first have an affidavit from 
Erica Payne.
    We had a great deal of discussion--we had an actual 
representation of this affidavit to the committee early in this 
hearing. It was specifically read to the committee. It was read 
to the committee and the quote begins, paragraph 6, I hope 
people will look at it, it said--it was held up. I have a sworn 
affidavit that says, quote, ``John Huang was continuously 
physically present in New York City conducting fund-raising for 
at least 5 days prior to the August 18th celebration.''
    Well, I had some problem with that quote because it is 
qualified by the phrase, ``to the best of my recollection.'' 
It, by the way, is not notarized.
    We then have the statement that we were just discussing, 
the statement of Tak Luk Cheng. The statement of Tak Luk Cheng 
does not have--I don't know what the rules of the House are, 
but in the real life world, I doubt if Mr. Cheng was warned, 
you are under perjury, because all he says is, ``I recall that 
I had this lunch.'' He doesn't even purport to swear to it, and 
it has no notary and it doesn't even say, I swear. He wasn't 
even asked to swear from the surface of this document.
    And now, to give credit where credit is due, we have in 
this great grand pile of documents that prove beyond a shadow 
of a doubt that we are listening to a witness who is a 
perjurer, one, count it, one affidavit that purports to say he 
was in New York on the 16th, and it is sworn to by penalty of 
perjury.
    I happen to live in Phoenix, AZ. I know there is a 3-hour 
time difference from New York to Phoenix, AZ; a 3-hour time 
difference from New York to California. I can easily and have 
on many occasions gotten on a plane in Washington, DC, at 6 
a.m., and been in Phoenix, AZ, at about 9:30 a.m., spent the 
entire day there and flown back that night. Quite frankly, I 
think Mr. Huang could have been in the hotel that night.
    We have made a lot out of very little. I yield back my 
time.
    Mr. Burton. The gentleman's time has expired.
    I would like to at this point ask unanimous consent that 
all the documents referred to us today, and other pertinent 
supplementary material, be included in the record. And in 
addition to that but included in that number, I would like to 
submit for the record the pictures referred to by Mr. 
Kanjorski, of Mr. Trie and Mr. Huang, of which the witness 
clearly identified Mr. Huang.
    And I would like to also have the counsel give me the 
handwritten note from Mr. Wang's father that we can also add as 
an exhibit, along with all the others.
    Mr. Shays. Mr. Chairman, reserving the right to object.
    Mr. Burton. Mr. Shays reserves the right to object. Would 
you hand me that handwritten note?
    Mr. Shays. Mr. Chairman----
    Mr. Barr. Mr. Chairman, I would reserve the right to 
object.
    Mr. Burton. OK.
    Mr. Shays. I just want to know if it will include the 
letter that was written by----
    Mr. Carvin. It will----
    Mr. Shays. Excuse me. I just want to know if it will 
include the letter that was written by Jim Wang or James Wang, 
the father of David Wang?
    Mr. Burton. Yes, that's included.
    Mr. Shays. Also, I want to know if it will include the 
statement of James Wang, that he never signed, that was 
submitted by Kenneth Ballen and Christopher Lu, a statement of 
James Wang that said, ``I am David Wang's father. I was not 
present at any meeting in August 1996 in which John Huang asked 
my son David to make a financial contribution for a fund-raiser 
for President Clinton,'' which James Wang refused to sign.
    Is that going to also be included?
    Mr. Burton. Yes, and also the statement of Ken Ballen and 
Christopher P. Lu will also be included.
    Mr. Shays. OK. Then I withdraw my reservation.
    Mr. Mica. Mr. Chairman, reserving the right to object.
    Mr. Burton. The gentleman from Georgia is next reserving 
his right to object.
    Mr. Barr. Thank you. Mr. Chairman, reserving my right to 
object, if I might inquire of the chairman if the chairman's 
unanimous consent request will include the documentation 
entitled, quote, Evidence that John Huang was in New York City 
on October 15th, 16th, 17th and 18th, closed quote, that the 
gentleman from Arizona so eloquently demolished the credibility 
of just a few moments ago? Is that--will that be included?
    Mr. Burton. Yes, that will be included as well.
    Mr. Barr. OK. And might I also inquire, of course, that the 
gentleman from Arizona's eloquent demolition of those 
documents, including blowing through the pretense that this 
somehow proves anything at all, will be included in the record 
as well?
    Mr. Burton. It will.
    Mr. Barr. Thank you. I reserve--I remove my objection.
    Mr. Mica. I reserve an objection.
    Mr. Burton. The gentleman from Florida, Mr. Mica.
    Mr. Mica. Mr. Chairman, I reserve the right to object 
pending a decision whether or not would be included in the 
record some of the background--a statement relating to some of 
the background of folks who have been contacted by the 
majority--I am sorry, the minority to provide information about 
the discussions here today:
    Fran Wakem, a DNC employee who may be involved with 
accepting Jorge Cabrera's drug money; Erica Payne, a DNC 
employee who may be involved with Johnny Chung's donations and 
Vice President Gore's phone calls from the White House; Ethel 
Chen, a democratic district leader at large who may have been 
involved with Mr. John Huang in the Woman's Leadership Forum, 
problems that are being looked at.
    Mr. Burton. Without objection, they will be added to the 
list. Does anybody----
    Mr. Kanjorski. Yes.
    Mr. Burton. Does the Chair hear an objection?
    Mr. Kanjorski. Mr. Chairman, reserving the right to object.
    Mr. Burton. Mr. Kanjorski.
    Mr. Kanjorski. I would like to have added to the list 
Section 1001 of the Criminal Code, which sets forth that 
``whoever, in any matter within the jurisdiction of the 
executive, legislative or judicial branch of the government of 
the United States knowingly and willfully makes or uses any 
false writing or document knowing the same to be''--I am sorry, 
the word is out--``materially false, fictitious or fraudulent 
statement or entry shall be fined and subject to a 5-year 
imprisonment.''
    Mr. Barr. Mr. Chairman.
    Mr. Kanjorski. I would like that section put in the record.
    Mr. Burton. I am not going to object to any part of the 
code being put in the record.
    The gentleman from Georgia.
    Mr. Barr. The chairman just echoed my sentiments.
    Mr. Kanjorski. What? I am sorry.
    Mr. Burton. We have no objection to any part of the code 
being put in the record.
    Does the Chair hear objection? If not, so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 44833.109
    
    [GRAPHIC] [TIFF OMITTED] 44833.110
    
    [GRAPHIC] [TIFF OMITTED] 44833.111
    
    [GRAPHIC] [TIFF OMITTED] 44833.112
    
    [GRAPHIC] [TIFF OMITTED] 44833.113
    
    [GRAPHIC] [TIFF OMITTED] 44833.114
    
    [GRAPHIC] [TIFF OMITTED] 44833.115
    
    [GRAPHIC] [TIFF OMITTED] 44833.116
    
    [GRAPHIC] [TIFF OMITTED] 44833.117
    
    [GRAPHIC] [TIFF OMITTED] 44833.118
    
    [GRAPHIC] [TIFF OMITTED] 44833.119
    
    [GRAPHIC] [TIFF OMITTED] 44833.120
    
    [GRAPHIC] [TIFF OMITTED] 44833.121
    
    [GRAPHIC] [TIFF OMITTED] 44833.122
    
    [GRAPHIC] [TIFF OMITTED] 44833.123
    
    [GRAPHIC] [TIFF OMITTED] 44833.124
    
    [GRAPHIC] [TIFF OMITTED] 44833.125
    
    [GRAPHIC] [TIFF OMITTED] 44833.126
    
    [GRAPHIC] [TIFF OMITTED] 44833.127
    
    [GRAPHIC] [TIFF OMITTED] 44833.128
    
    [GRAPHIC] [TIFF OMITTED] 44833.129
    
    [GRAPHIC] [TIFF OMITTED] 44833.130
    
    [GRAPHIC] [TIFF OMITTED] 44833.131
    
    [GRAPHIC] [TIFF OMITTED] 44833.132
    
    [GRAPHIC] [TIFF OMITTED] 44833.133
    
    [GRAPHIC] [TIFF OMITTED] 44833.134
    
    [GRAPHIC] [TIFF OMITTED] 44833.135
    
    [GRAPHIC] [TIFF OMITTED] 44833.136
    
    [GRAPHIC] [TIFF OMITTED] 44833.137
    
    [GRAPHIC] [TIFF OMITTED] 44833.138
    
    [GRAPHIC] [TIFF OMITTED] 44833.139
    
    [GRAPHIC] [TIFF OMITTED] 44833.140
    
    [GRAPHIC] [TIFF OMITTED] 44833.141
    
    [GRAPHIC] [TIFF OMITTED] 44833.142
    
    [GRAPHIC] [TIFF OMITTED] 44833.143
    
    [GRAPHIC] [TIFF OMITTED] 44833.144
    
    [GRAPHIC] [TIFF OMITTED] 44833.145
    
    [GRAPHIC] [TIFF OMITTED] 44833.146
    
    [GRAPHIC] [TIFF OMITTED] 44833.147
    
    [GRAPHIC] [TIFF OMITTED] 44833.148
    
    [GRAPHIC] [TIFF OMITTED] 44833.149
    
    [GRAPHIC] [TIFF OMITTED] 44833.150
    
    [GRAPHIC] [TIFF OMITTED] 44833.151
    
    [GRAPHIC] [TIFF OMITTED] 44833.152
    
    [GRAPHIC] [TIFF OMITTED] 44833.153
    
    [GRAPHIC] [TIFF OMITTED] 44833.154
    
    [GRAPHIC] [TIFF OMITTED] 44833.155
    
    [GRAPHIC] [TIFF OMITTED] 44833.156
    
    [GRAPHIC] [TIFF OMITTED] 44833.157
    
    [GRAPHIC] [TIFF OMITTED] 44833.158
    
    [GRAPHIC] [TIFF OMITTED] 44833.159
    
    Mr. Burton. Is there further discussion?
    The gentleman from California is recognized. Pardon me. One 
second.
    Mr. Horn. Thank you.
    Mr. Burton. I want to go to the Democratic side. Mr. 
Cummings.
    Mr. Cummings. Yes, I yield to the gentleman, Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman.
    And I just wanted to, first of all--I know that the 
gentleman from--the gentleman spoke he had some concerns about 
the small percentage defense that was offered earlier, and I 
understand the enthusiasm of both sides on this issue, but 
small-mindedness is not something that should be associated 
with any Member of the Congress. I know the gentleman would 
have wanted to yield to me since he pointed me out verbally, 
and it is a courtesy of the Congress that Members be yielded to 
in those circumstances. So I just think in our passion we 
should be careful not to do damage, further damage, to the 
reputation of this committee.
    But I do want to get back to the point at hand, which is 
that the reason that this committee is interested in conduit 
payments, the reason why we are interested in the election 
itself, was this notion, this theory, this thought, that there 
were foreign dollars, orchestrated by a foreign government, to 
influence elections. And there are a number of instances in 
which foreign entities did make contributions in the last 
election, that the committee up to now has not looked into.
    We have a situation of a Mr. Kramer who is a German 
national who donated--who was fined some $300,000 by the FEC 
for making illegal contributions. This was the largest fine 
ever imposed on an individual. And he donated over $400,000 to 
Federal, State elections. And also the Florida Republican party 
was fined for $82,000. They had to return $95,000 of 
contributions from this foreign national. So if we want to look 
in the direction of foreigners involved in this election, 
that's one place we might look.
    We had a British-owned company that gave a $1,013,000; 
$1,006,000 of that to the Republican party in the 1994 election 
cycle, which the committee might at some point want to look 
into it. That is Brown & Williamson Tobacco. We had a firearms 
company, that's a Dutch entity that was fined $90,000 for 
funneling money, including money into the campaign of the 
Speaker of this House.
    Now, again, in all of these cases, as is the case in almost 
every conduit election investigation, the candidates themselves 
had no knowledge of the activities of the people who were 
participating in having illegal contributions made to their 
campaigns.
    And I want to ask the witness whether or not he has any 
reason to believe that the President or the Vice President had 
knowledge that he was reimbursed, in cash, for a check that he 
wrote to someone who he believes to be John Huang on August the 
16th?
    Mr. Wang. I don't know.
    Mr. Fattah. It is clear that the witness that we have spent 
a large part of our day talking to has no knowledge about any 
foreign government trying to put money into the American 
election in the last cycle. Nor does he have any knowledge that 
the candidates who received this contribution had any knowledge 
of it. And yet he is before us.
    And I would hope that as we go forward, if we just want to 
look at conduit schemes, that this gentleman not be singled 
out; that there are plenty of other people who we can bring in 
here, who have been involved in these types of activities, and 
believe it or not, they have not just written checks to the 
Democratic party. They have written checks, in fact, almost $15 
million in fines, directly associated with the Dole campaign 
which took place in 1996.
    We had Haley Barbour testify under oath in the U.S. Senate 
before the Thompson Committee that he went to a foreign land, 
sat in a yacht and arranged a multimillion-dollar contribution 
that eventually helped fund Republican campaigns in some 
targeted races in the 1994 election.
    So if our search is for foreign money, if our search is for 
money in which people are trying to cover over the original 
source thereof, there is ample reason for this committee to 
exist, for our investigation to go forward, and I have no 
problem rooting out any wrongdoings by the Democratic party, 
but I think that we should be fair-minded about it, and I would 
hope that as we go forward that we move away from the 
personality attacks.
    I have nothing against the gentleman from Georgia or anyone 
else in this committee. I just think that we should be fair and 
we should be forthright. If what we are chasing is foreign 
money, then let's get after it and not pick out what is 
essentially almost a moving violation in terms of violation of 
the campaign election law. There are hundreds of cases of 
conduits----
    Mr. Kanjorski. Will the gentleman yield?
    Mr. Fattah [continuing]. Of payments to campaigns. I will 
be glad to yield. It's not my time.
    Mr. Cummings. Reclaiming my time, I yield to the gentleman.
    Mr. Kanjorski. May I just add to the gentleman's statement 
that yesterday the fine of $8 million to the Empire Landfill, 
$80,000 of that was conduit money to the Dole campaign of 1996; 
and the treasurer of Dole campaign's corporation was fined $6 
million as a conduit operation to the Dole campaign.
    Mr. Cummings. I yield back.
    Mr. Burton. The gentleman yields back the balance of his 
time.
    The gentleman from California, Mr. Horn.
    Mr. Horn. Thank you very much, Mr. Chairman.
    I have listened with interest to where might John Huang be 
on August 16th, and I assume in the record you have placed the 
personal statement of account on his American Express card and 
also the--I don't know if you have placed in the telephone 
bill. I would like to refer to the telephone bill, and if it 
isn't in, I would like it put in.
    Mr. Burton. If it isn't in, without objection, we will 
include it. So ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 44833.160
    
    [GRAPHIC] [TIFF OMITTED] 44833.218
    
    [GRAPHIC] [TIFF OMITTED] 44833.161
    
    [GRAPHIC] [TIFF OMITTED] 44833.162
    
    Mr. Horn. It is fascinating in the sense that Mr. Wang, who 
has patiently sat here and listened to a lot of harassment, 
doubting his word, he has testified in depositions and 
interviews that John Huang visited his used car dealership in 
Los Angeles on August 16, 1996, and solicited Wang's $5,000 
contribution to the Democratic National Committee.
    Now, in contradiction of Wang's testimony, the committee's 
minority and John Huang's attorney claim that John Huang was 
not in Los Angeles, CA, on the 16th. They claim he was in New 
York.
    Well, where is the evidence? I read earlier into the record 
a story by a respectable reporter that learned from Democratic 
officials that he never went to New York and they were 
surprised that he had.
    Well, there are a few other things. David Wang had met John 
Huang at least two times prior to Huang's solicitation of Wang. 
Wang knew what John Huang looked like and has testified under 
oath that Huang did, in fact, solicit a contribution from him. 
And that other item that I referred to, he had said it on the 
survey of the Democratic National Committee when they were 
going around checking large contributions.
    Now, Huang's America Express card bill indicates that he 
reserved a room at the Sheraton New York Towers from August 10, 
1996, through August 19, 1996. Whether one is in town 1 day or 
1 hour, I don't find that unusual.
    What I have found in American politics, on the Republican 
side as well as the Democratic side, is staff or people that 
are facilitators on getting money, often take this suite of 
rooms, which takes away from the net you would like to have in 
people's campaigns, and they live high on the hog. Or they send 
the kids there or they send mama and the kids there, as the 
case may be.
    Now, we don't know, and there is no evidence in the record, 
that he stayed at the hotel for the entire 9 days of his 
reservation; if he even stayed 1 day, 1 night, or had a hotel 
up the street for all we know. Strangely enough, the amount 
charged to Huang's American Express card, as was noted earlier, 
I believe, was $8.73, not exactly a big deal in New York.
    That would help some of the homeless there but that is 
about it.
    The American Express bill shows no transactions from August 
11th through August 19th. It is entirely possible that John 
Huang was in Los Angeles during that period, as David Wang has 
patiently testified.
    On August 17, 1996, a telephone call was placed from John 
Huang's residence in Glendale, CA, to area code (212) 681-6424, 
a New York City telephone number. When that number is now 
called, a recording states, quote, ``the number you have 
reached, 681-6424 in area code 212 has been changed. The new 
number is the area code (202) 863-8000.''
    Now, the number to which the caller is referred, (202) 863-
8000, is the telephone number of the Democratic National 
Committee in Washington, DC.
    Now, what could have happened is, if somebody made that 
call from the home of John Huang, I look at the bill and it is 
down for 2 minutes at 32 cents. That is sort of General 
Services Administration rates. It is a pretty reasonable 
telephone call.
    Now, who was in the home and who was at the other end, it 
is hard to say. If he didn't go to New York, he was in the home 
and wanting to talk to one of the buddies in what was obviously 
the fund-raising suite or the fund-raising office which was 
arranging all of these things in New York. But he realized, as 
the story in USA Today says, that he was increasingly on the 
outs with the key leaders for finance of the Democratic 
National Committee. They sort of had their fill of him and 
didn't like what he was doing.
    So he was getting the icy shoulder and the cold freeze and 
all the rest of it.
    Now, the other thing is, if he wasn't in the home, maybe 
his wife was at home and just calling a friend in New York, if 
she met some that was with the Democratic National Committee, 
because it must have obviously been one of their facilities. Or 
he could have had a parakeet that just tried to dial the number 
and see what happens.
    Well, all I can say is, I haven't heard any evidence on the 
other side that is worth much, and I thought I would add that 
to the record.
    Mr. Cummings. Will the gentleman yield for a question?
    Mr. Horn. Certainly.
    Mr. Cummings. Will the gentleman yield for a question?
    The pictures, it is my understanding that one of these 
pictures was taken on the 15th. I mean, you were explaining 
that.
    Mr. Horn. No, I don't have that.
    Mr. Cummings. You don't have the pictures?
    Mr. Horn. No. I just get old numbers and telephone bills 
and things like that.
    Mr. Cummings. OK. All right. Thank you.
    Mr. Burton. Does the gentleman yield back the balance of 
his time?
    Mr. Horn. Yes, I do.
    Mr. Burton. The gentleman yields back the balance of his 
time.
    Is there further discussion? Mr. Mica.
    Mr. Mica. I have a couple of questions for Mr. Wang.
    Did--and I don't know if he answered to this before. I may 
have missed it on a time-out from the committee proceedings. 
But did Mr. Huang call you before he was coming to visit you?
    Mr. Wang. Yes.
    Mr. Mica. And he visited you at your residence or your 
business?
    Mr. Wang. Office.
    Mr. Mica. At your office?
    Mr. Wang. Yes.
    Mr. Mica. Did anyone else see him there, a secretary or 
anyone else? Or did he just come directly to you? Would there 
be someone else who could document that for us?
    Mr. Wang. My father.
    Mr. Mica. I am sorry?
    Mr. Wang. My father was there.
    Mr. Mica. Your father. Was there anyone else there besides 
your father, any other employees? How many employees do you 
have?
    Mr. Wang. During that time, in fact, only the----
    Mr. Mica. Secretary, or?
    Mr. Wang. On that date, there was a secretary there.
    Mr. Wang [through interpreter.] During the daytime, there 
is a secretary there.
    Mr. Mica. So there might have been someone else who could 
also verify, if our committee goes back to look at this?
    Mr. Wang [through interpreter.] I don't believe the 
secretary saw him because she works in another office.
    Mr. Mica. But he called you before. Did he tell you where 
he was? Was he in Los Angeles or New York? You don't remember?
    Mr. Wang. No.
    Mr. Mica. He didn't say.
    You did get a call from the Democratic National Committee, 
I guess in December, December 6, 1996, that they had contacted 
you or there was an inquiry by this accounting firm, Ernst & 
Young, and you answered some questions over the phone. Do you 
recall answering questions about your donation to the DNC?
    Mr. Wang [through interpreter.] Sir?
    Mr. Mica. Yes.
    Mr. Wang [through interpreter.] I forgot about the 
telephone call in the beginning, but after they showed me the 
phone bill, the statement that is there, I recall that there 
was a phone call.
    Mr. Mica. So you did admit at another point that you had 
given money in the fashion that was described in this 
interview?
    Mr. Wang. Yes.
    Mr. Mica. Is there any possibility that it might not have 
been a Friday; that it could have been Thursday, possibly a day 
before, as I think your--we have no record of--I mean, I have 
gone through and Mr. Shadegg did a great job of reviewing where 
Mr. Huang was, and we know he flew to New York on the 10th and 
we know he left on the 19th. We have these affidavits or 
statements by people who, in my opinion, are not very credible, 
from the 15th or 16th to the 18th or 19th, and we have the 10th 
and we have the last call from his room on the 13th.
    Is it possible that he could have been there on Thursday or 
Wednesday, maybe you--are you sure it was a Friday?
    Mr. Wang [through interpreter.] I am sure it was on Friday, 
August the 16th.
    Mr. Mica. You are sure. OK. Well, I thank you for those 
comments.
    Just in closing, Mr. Chairman, some statements have been 
made on the other side about this hearing, and this hearing 
today is the beginning of trying to get at a long money trail. 
You are just a small part of it; Mrs. Foung and the other 
witness today are a small part of it. We maybe account for $50 
or $60, maybe $70,000; we found $200,000 that came from the 
Bank of China, and we know that there were--there was $900,000 
that came.
    And we have heard cited today from the other side the 
Florida case, which I am familiar with--I am from Florida--and 
people have been fined and penalized and the system worked. The 
landfill situation, people have been fined, penalized, and the 
system works.
    What we have here is the beginning of a situation where 
hundreds of thousands of dollars and people have given money at 
the beginning of the trail. We are trying to find where the 
money came from and link that to what Mr. Fattah is talking 
about, or where it went. And we do know the money went into the 
Halls of Congress.
    Roll Call printed March 6, 1997, this printout. We didn't 
do it; they did it. There were three Republicans named. The 
balance are all Democrats, dozens and dozens. And of the 
Republicans, there is one error, I found out since that was not 
a Republican, it was Brian Bilbray's brother who is a Democrat. 
So this is--this is what we are trying to find and uncover.
    We appreciate your cooperation. We appreciate your honesty 
in coming before this committee.
    I thank you, Mr. Chairman.
    Mr. Burton. The gentleman's time has expired. Does the 
gentleman from California wish to inquire?
    Mr. Waxman. Yes. I have one other document to ask unanimous 
consent to put in the record. It is the annual report 1996, the 
Bank of China.
    Mr. Burton. Without objection, so ordered.
    [The report referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 44833.163
    
    [GRAPHIC] [TIFF OMITTED] 44833.164
    
    [GRAPHIC] [TIFF OMITTED] 44833.165
    
    [GRAPHIC] [TIFF OMITTED] 44833.166
    
    [GRAPHIC] [TIFF OMITTED] 44833.167
    
    [GRAPHIC] [TIFF OMITTED] 44833.168
    
    [GRAPHIC] [TIFF OMITTED] 44833.169
    
    [GRAPHIC] [TIFF OMITTED] 44833.170
    
    [GRAPHIC] [TIFF OMITTED] 44833.171
    
    [GRAPHIC] [TIFF OMITTED] 44833.172
    
    [GRAPHIC] [TIFF OMITTED] 44833.173
    
    [GRAPHIC] [TIFF OMITTED] 44833.174
    
    [GRAPHIC] [TIFF OMITTED] 44833.175
    
    [GRAPHIC] [TIFF OMITTED] 44833.176
    
    [GRAPHIC] [TIFF OMITTED] 44833.177
    
    [GRAPHIC] [TIFF OMITTED] 44833.178
    
    [GRAPHIC] [TIFF OMITTED] 44833.179
    
    [GRAPHIC] [TIFF OMITTED] 44833.180
    
    [GRAPHIC] [TIFF OMITTED] 44833.181
    
    [GRAPHIC] [TIFF OMITTED] 44833.182
    
    [GRAPHIC] [TIFF OMITTED] 44833.183
    
    [GRAPHIC] [TIFF OMITTED] 44833.184
    
    [GRAPHIC] [TIFF OMITTED] 44833.185
    
    [GRAPHIC] [TIFF OMITTED] 44833.186
    
    [GRAPHIC] [TIFF OMITTED] 44833.187
    
    [GRAPHIC] [TIFF OMITTED] 44833.188
    
    [GRAPHIC] [TIFF OMITTED] 44833.189
    
    [GRAPHIC] [TIFF OMITTED] 44833.190
    
    [GRAPHIC] [TIFF OMITTED] 44833.191
    
    [GRAPHIC] [TIFF OMITTED] 44833.192
    
    [GRAPHIC] [TIFF OMITTED] 44833.193
    
    [GRAPHIC] [TIFF OMITTED] 44833.194
    
    [GRAPHIC] [TIFF OMITTED] 44833.195
    
    [GRAPHIC] [TIFF OMITTED] 44833.196
    
    [GRAPHIC] [TIFF OMITTED] 44833.197
    
    [GRAPHIC] [TIFF OMITTED] 44833.198
    
    [GRAPHIC] [TIFF OMITTED] 44833.199
    
    [GRAPHIC] [TIFF OMITTED] 44833.200
    
    [GRAPHIC] [TIFF OMITTED] 44833.201
    
    [GRAPHIC] [TIFF OMITTED] 44833.202
    
    [GRAPHIC] [TIFF OMITTED] 44833.203
    
    [GRAPHIC] [TIFF OMITTED] 44833.204
    
    [GRAPHIC] [TIFF OMITTED] 44833.205
    
    [GRAPHIC] [TIFF OMITTED] 44833.206
    
    [GRAPHIC] [TIFF OMITTED] 44833.207
    
    [GRAPHIC] [TIFF OMITTED] 44833.208
    
    [GRAPHIC] [TIFF OMITTED] 44833.209
    
    [GRAPHIC] [TIFF OMITTED] 44833.210
    
    [GRAPHIC] [TIFF OMITTED] 44833.211
    
    [GRAPHIC] [TIFF OMITTED] 44833.212
    
    [GRAPHIC] [TIFF OMITTED] 44833.213
    
    [GRAPHIC] [TIFF OMITTED] 44833.214
    
    [GRAPHIC] [TIFF OMITTED] 44833.215
    
    [GRAPHIC] [TIFF OMITTED] 44833.216
    
    [GRAPHIC] [TIFF OMITTED] 44833.217
    
    Mr. Burton. I want to end this hearing by thanking Mr. 
Wang. It has been a long day for you and for your counsel. We 
really appreciate your hard work in coming out here and your 
patience. And I want to also thank your interpreter, your 
translator, and your other counsel as well. Thank you very 
much. We stand adjourned.
    [Whereupon, at 6:50 p.m., the committee was adjourned.]

                                   - 

</pre></body></html>
